<html>
<title> - PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER, 2006</title>
<body><pre>[Senate Hearing 109-802]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-802
 
      PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER, 2006

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARINGS

                   FEBRUARY 15, 2006--WASHINGTON, DC
                     MARCH 15, 2006--WASHINGTON, DC
                     APRIL 27, 2006--WASHINGTON, DC
                      MAY 24, 2006--WASHINGTON, DC
                     JUNE 28, 2006--WASHINGTON, DC
                     AUGUST 2, 2006--WASHINGTON, DC
                   SEPTEMBER 21, 2006--WASHINGTON, DC
                   NOVEMBER 15, 2006--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               ---------


                    U.S. GOVERNMENT PRINTING OFFICE

27-063 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001






























                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                    WAYNE ALLARD, Colorado, Chairman
THAD COCHRAN, Mississippi            RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                          Carolyn E. Apostolou
                     Terrence E. Sauvain (Minority)
                        Drew Willison (Minority)
                       Nancy Olkewicz (Minority)

                         Administrative Support

                              Sarah Wilson
















































                            C O N T E N T S

                              ----------                              

                      Wednesday, February 15, 2006

                                                                   Page

Architect of the Capitol.........................................     1
Government Accountability Office.................................     8

                       Wednesday, March 15, 2006

Architect of the Capitol.........................................    31
Government Accountability Office.................................    36

                        Thursday, April 27, 2006

Architect of the Capitol.........................................    49
Government Accountability Office.................................    57

                        Wednesday, May 24, 2006

Architect of the Capitol.........................................    87
Government Accountability Office.................................    96

                        Wednesday, June 28, 2006

Architect of the Capitol.........................................   127
Government Accountability Office.................................   134

                       Wednesday, August 2, 2006

Architect of the Capitol.........................................   169
Government Accountability Office.................................   177

                      Thursday, September 21, 2006

Architect of the Capitol.........................................   205
Government Accountability Office.................................   212

                      Wednesday, November 15, 2006

Architect of the Capitol.........................................   245
Government Accountability Office.................................   253























         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:27 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.


               opening statement of senator wayne allard


    Senator Allard. Good morning, everybody. I'm going to do 
one of the things that's unheard of around here and that's 
start early. We've got all our witnesses here. Hopefully, 
Senator Durbin will be able to join us a little later on in the 
subcommittee hearing.
    Senator Durbin had an opportunity to have a very positive 
tour this last Monday, and he appreciated the opportunity, Mr. 
Hantman, to have that tour. We talked about it and I was 
encouraged by his comments and his observations as a result of 
that tour.
    We meet today to take testimony on the progress of the 
Capitol Visitor Center (CVC). This is our eighth hearing on the 
Capitol Visitor Center in this Congress and the first of the 
new year. We will continue these monthly hearings to ensure 
proper oversight of this major historic construction project. 
We welcome back to the witness table after a several month 
hiatus the Architect of the Capitol, Mr. Alan Hantman, the CVC 
Project Director, Mr. Bob Hixon, and our Government 
Accountability Office (GAO) representatives, Mr. Bernie Ungar, 
and Mr. Terrell Dorn.
    Since our last hearing in November, a number of very 
important activities have been completed or nearly completed, 
including an update of the schedule and a reassessment of the 
opening date, a thorough evaluation of the fire systems 
acceptance process, and review of the amounts needed to 
complete the project.
    In addition, I understand you are close to selecting an 
executive director for the Capitol Visitor Center.
    Many challenges lay ahead, however. There are some 18 
critical path activities, there are a large number of project 
change orders continuing to come in, and the design in a number 
of areas is not finalized. We look forward to getting a full 
update today on these issues as well as progress on the stone 
delivery and installation and the status of major project 
milestones. So when my ranking member comes in, I'll turn to 
him and give him an opportunity to make a few comments on his 
visit on Monday and then give him an opportunity to make an 
opening statement. We'd like to first recognize Mr. Alan 
Hantman for his testimony.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

    Mr. Hantman. Good morning, and thank you, Mr. Chairman. I 
welcome this opportunity to update you on the status of the 
Capitol Visitor Center project to discuss the key issues 
related to schedule, to budget, and to project progress.
    At our November hearing, we committed to report to you on 
the two key issues that you just mentioned, the delays in the 
delivery and installation of interior stone, and the duration 
of the fire and life safety acceptance testing process. We 
stated then that by January we'd have a better understanding of 
how these issues would impact the project schedule and 
therefore determine with greater accuracy the completion date 
of the Capitol Visitor Center.


                   stone deliveries and installation


    Regarding stone, Mr. Chairman, our contractors did receive 
some relief from the injunction in early December allowing the 
sequence 2 contractor to pursue alternate quarries as sources 
of stone. After a search and inspections of sample stone from 
several quarries were completed, a selection was made. And last 
week, Mr. Chairman, we began receiving the first shipments of 
stone from that fabricator. This week we've gotten additional 
shipments as well. This stone will be used in the east front 
where the visitor center transitions into the Capitol. 
Meanwhile, the fabricator has increased the pace of deliveries. 
He's now meeting his original commitment to deliver an average 
of 2.5 truckloads per week which is a significant improvement 
over October when there were a total of three truckloads for 
the entire month. In addition, the pace of installation has 
improved to approximately 1,000 stones per week. Most recently, 
Mr. Chairman, in the last couple of weeks, it's gone up to 
1,100 stones per week.
    We expect to see further progress when the base stonework, 
which is the most complicated, the most time-consuming portion 
of it, is completed early this spring throughout all areas that 
will receive stone. But despite these significant improvements, 
we're still some 20 truckloads of stone behind schedule which 
equates to approximately a 2-month delay. This has been a 
significant factor in the late accomplishment of many of the 
milestones we've been discussing over the course of these 
hearings. Now while the contractor may be able to recover some 
of this time, it would be imprudent and overly optimistic to 
plan on a significant recovery since there's a risk that 
additional issues may yet arise. Delays in stone installation 
will hold up the execution of follow-on work, such as the 
completion of ceilings, installation of floor stone, other 
finishes, and ultimately the installation and testing of the 
fire and life safety systems.
    I'd also like to note, Mr. Chairman, as we've discussed 
before, that the Federal District Court Judge has appointed an 
attorney, a special master, to investigate the CVC stone issue. 
Last Friday, the special master met with us, along with 
representatives of and attorneys for the firms involved in the 
litigation. We provided him with an inspection tour of the CVC. 
He's planning to have hearings the first week in March. He's 
also been visiting the quarries and the fabricator as part of 
his efforts to gather information to work toward a resolution 
of the dispute that has impacted the progress of our project.


                fire and life safety acceptance testing


    With regard to the fire and life safety acceptance 
testings, we met many times over the past months and completed 
an intensive review of the acceptance process and the 
prerequisites to get us there. Our evaluation revealed that 
life safety acceptance testing for the CVC will take 4\1/2\ 
months to complete, about 6 to 7 weeks longer than the 3 months 
originally anticipated. The CVC life safety systems are 
extraordinarily complex, Mr. Chairman. They include more than 
5,000 smoke detection and alarm devices, security devices, a 
smoke evacuation system, state-of-the-art public address and 
warning systems, and the full integration of all these systems 
with emergency generators as well. This complexity is a result 
of the sensitivity of the building itself from a security 
perspective, the fact that it lies completely below ground, and 
that it serves as a place of public assembly. Our fire marshal 
has stated that there are no parallels to this project he is 
aware of. Existing codes do not really address our unique 
circumstances.
    The bottom line is that the delays in the delivery and 
installation of the stone, along with the additional time 
required to complete the complex fire and life safety 
acceptance process, add approximately 3 to 3\1/2\ months to the 
overall project schedule. Therefore, we now expect a completion 
date of the CVC in March 2007. Immediately following the full 
acceptance of fire and life safety systems, several weeks are 
required for staff training with large groups of people before 
opening the facility for full capacity. Therefore, the CVC is 
projected to be available for a formal opening in April 2007, 
or any time thereafter that the Congress might find 
appropriate.
    If I could just review those dates with you, Mr. Chairman. 
The first date talks about construction completion. We believe 
that virtually all of our hard construction work will be 
completed by December of this year. The food service areas in 
September, the orientation theaters as well. The orientation 
security lobbies, the visitor auditorium will be complete in 
October, the great hall and the exhibit galleries as well. In 
terms of the overall completion time in terms of December of 
this year, we believe that's where we're going to be. The fire 
testing and the final acceptance of that is going to span this 
timeframe, basically starting in November and coming into March 
2007, about the middle of the month.
    So we're projecting, Mr. Chairman, that the CVC will be 
available for a soft opening--and let me define what a soft 
opening is. Basically, staff training with large groups of 
people to work out any of the problems in visitor flow before 
the full complement of people would be welcomed in on a daily 
basis. So for that 30 days we expect that the staff itself will 
be able to exercise their training opportunities without 
significant outside people for say 10 days before the 
certificate of occupancy is there because they're staff 
members. About 3 weeks after that point in time though the soft 
opening would involve bringing in people, large groups of 
people, to test the orientation theaters, to test the food 
service areas, the gift shops, and have people in ever-growing 
groups come on in, training the tour guides to be comfortable 
so that we're ready to open for the full complement of folks.
    So the last date we're seeing here, Mr. Chairman, for the 
formal opening, we're projecting that in April 2007, or again 
any time thereafter that the Congress might choose. We could 
have a formal opening, a grand opening or dedication, as you 
might term it. The occupancy of the House and the Senate 
expansion spaces will occur following the acceptance of the 
life safety systems for these areas themselves and that in turn 
is going to follow the acceptance of systems in the CVC. So 
we're anticipating approximately 2 months and we have to work 
through some of the details with the fire marshal after the 
opening of the CVC for the exhibit space to be ready--I'm 
sorry, for the expansion space to be ready.


                            cost to complete


    Mr. Chairman, the project schedule extension will affect 
the overall project cost to complete. In November we concurred 
with a GAO statement that potential risks do exist and that 
additional funds would be necessary should these risks turn 
into reality, most notably, if completion occurs after 2006 or 
if significant additional change orders are required. After 
meetings with GAO and our construction manager, Gilbane, we 
anticipated that the delay, along with the additional change 
orders, the potential for future project risks could increase 
the project's cost to complete by approximately $20.6 million. 
And this amount has been requested in our fiscal year 2007 
budget. GAO's ongoing review, however, has resulted in a 
revised estimate of the cost to complete which adds 
approximately $5 million to this amount for further time 
extension and contingency. Accordingly, Mr. Chairman, we'll 
work with you to perfect this adjustment, if you concur, in 
order to ensure that there are adequate contingencies.


                    project progress and highlights


    With respect to project progress and highlights, Mr. 
Chairman, since the last hearing in November, as you stated in 
your opening statement, significant progress has been made in 
many areas of the CVC. For example, in the great hall, as shown 
on this board, wall stone is complete on three sides and stone 
is complete on all 16 columns. Crews completed stonework on the 
ceiling soffits, which are these connector points that tie the 
columns together. They did that in January, clearing the way 
for ceiling work to begin on the west side of the hall. Here we 
see scaffolding having been erected in the area where we're 
hoping that the Statue of Freedom mold will be going, the 
plaster cast of it. So here we see workers involved in the day 
to day activities and we're up to some 30 or so mason teams 
right now working in the visitor center. Stonework was also 
completed, Mr. Chairman, in the north and south orientation 
theaters in December, as shown here, and ceiling work is 
ongoing in both facilities. With much of the wall and the 
ceiling framing now complete, crews will soon begin installing 
the wood and the acoustic fabric wall panels on the adjacent 
walls to make sure that the sound reverberation is controlled. 
Wall stone is also completed in the exhibition hall and the 
floor stone installation is expected to begin next week.
    In December, Mr. Chairman, masons began setting the first 
floor stone in this corridor at the south end of the great hall 
and in another corridor leading to the congressional 
auditorium. These areas are nearly complete and workers are now 
applying grout between the stones. Also, inside the 
congressional auditorium, wall stone is essentially complete 
and crews are working in the adjacent corridors and atrium 
leading to the facility and ceiling work is beginning.
    In the House and Senate expansion spaces, Mr. Chairman, the 
contractor is making good progress. Crews continue to install 
mechanical, electrical, and plumbing systems as you can see in 
this major view over here. Drywall is going up in many of the 
spaces. We can see workers actively involved in that. Wall 
framing and duct work is ongoing inside the new Senate 
recording studio on the upper level, while wall closing 
inspections are occurring on the middle level.
    In January on the Senate plaza, workers completed the 
concrete work and the installation of pavers to a level 
sufficient to accommodate vehicular traffic for the State of 
the Union address. This zone has undergone a remarkable 
transformation, Mr. Chairman, from an uneven asphalt parking 
lot to a gently sloping granite-covered plaza. The view there 
today provides a good sense of what the overall plaza will look 
like basically at the conclusion of the job. And I'm also 
pleased to report, Mr. Chairman, that beginning next month the 
first of 85 trees will be planted on the east Capitol grounds. 
We're going, as you know, to be replacing the tulip poplars 
that Frederick Law Olmsted originally planted there in the 
1880's. We've been growing these trees and they range from 18 
to 27 feet in height and they're going to be planted down the 
gentle incline going to the screening area so we look forward 
to seeing that kind of finishing work coming up.
    As discussed in past hearings and as you saw in your 
inspection tour, Mr. Chairman, another critical work zone is 
the utility tunnel along East Capitol Street. In January, 
workers completed the tunnel structure and have connected many 
of the steam and chilled water pipes inside the tunnel as shown 
here. Crews are expected to complete the backfill work at 
Second Street next week and moving west toward First Street 
they'll begin placing a 10-inch concrete slab to restore the 
roadway. Weather permitting, the contractor will complete 
concrete and asphalt placements early this spring and the 
street will then reopen to traffic.


                        exhibits and operations


    In addition to the construction progress, Mr. Chairman, the 
project is moving forward on other fronts, most notably, in the 
preparation and development of exhibits and interactive 
programs in the fabrication of the exhibit hall models. The 
prototypes of the exhibit cases were reviewed and approved in 
late January. The fabrication of both the exhibits and the 
models is on schedule. Meanwhile, a stone contractor has begun 
fabricating the marble panels for the Wall of Aspirations. 
Also, the scripts for the House and Senate virtual theater 
films were presented last week to the Capitol Preservation 
Commission for review and for their comment. If we need 
additional filming, that will take place in April or May. On 
the operations front, we are currently receiving proposals for 
the food service contract and a selection is expected by mid-
year. And, finally, as you mentioned, Mr. Chairman, we've 
completed the interviews with the finalist candidates for the 
executive director position and selection is expected very 
shortly.
    In conclusion, much progress is being made, the quality of 
the work is very high, and it's a very exciting time to see so 
many aspects of the project coming together. Once again, thank 
you for this opportunity to testify today. I'd be happy to 
answer any questions.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Thank you, Mr. Chairman. I welcome this opportunity to update you 
again on the status of the Capitol Visitor Center project and to 
discuss the key issues related to schedule, budget, and project 
progress.
    At our November hearing we committed to report to you on the two 
key issues impacting the project: the delays in the delivery and 
installation of interior stone, and the duration of the fire and life-
safety acceptance testing process. We stated then that by January we 
would have a better understanding of how these issues would impact the 
project schedule and therefore, determine with greater accuracy the 
completion date of the Capitol Visitor Center.
                   stone deliveries and installation
    Regarding stone, our contractors did receive some relief from the 
injunction in early December allowing the Sequence 2 contractor to 
pursue alternate quarries as sources of stone. After research and 
inspections of sample stone from several quarries were completed, a 
selection was made. Last week, we began receiving the first shipments 
of that stone from the fabricator. This stone will be used in the East 
Front where the Visitor Center transitions into the Capitol.
    Meanwhile, the fabricator has increased the pace of deliveries and 
is now meeting their original commitment to deliver an average of 2.5 
truck loads per week, a significant improvement over the total of three 
truck loads delivered the entire month of October. In addition, the 
pace of installation has improved to approximately 1,000 stones per 
week. We expect to see further progress when the base stone work, the 
most complicated and time-consuming stage of the stone installation, is 
completed early this spring. Despite these significant improvements, we 
are still some 20 truckloads of stone behind schedule which equates to 
approximately a two-month delay. This has been a significant factor in 
the late accomplishment of the milestones we discussed in November and 
at other hearings.
    While the contractor may be able to recover some of this time, it 
would be imprudent and overly optimistic to plan on a significant 
recovery since there is a risk that additional issues may yet arise. 
Delays in stone installation will hold up the execution of follow-on 
work such as the completion of the ceilings, installation of floor 
stone, other finishes, and installation of fire and life-safety 
systems. I would also like to note that the Federal District Court 
judge has appointed an attorney--a ``special master''--to investigate 
the CVC stone issues. Last Friday, the special master met with us 
(along with representatives of and attorneys for the firms involved in 
the litigation) and we provided him an inspection tour of the CVC. The 
special master has also visited the quarry and the fabricator and will 
hold a hearing the week of February 20 as part of his efforts to gather 
information and work toward a resolution of the dispute that has 
impacted the progress of the project.
                fire and life-safety acceptance testing
    With regard to the fire and life-safety acceptance testing, we met 
many times over the past months and completed an intensive review of 
the acceptance process and prerequisites. Our evaluation revealed that 
life-safety acceptance testing for the CVC will take 4\1/2\ months to 
complete, about six to seven weeks longer than the three months 
originally anticipated. The CVC life-safety systems are extraordinarily 
complex. They include more than 5,000 smoke detection and alarm 
devices, security systems, a smoke evacuation system, a state-of-the-
art public address and warning system, and the full integration of 
these systems with emergency generators. This complexity is a result of 
the sensitivity of the building, the fact that it lies completely below 
ground, and that it serves as a place of public assembly.
    The bottom line is that the delays in the delivery and installation 
of stone along with the additional time required to complete the 
complex fire and life-safety acceptance process add approximately three 
to 3\1/2\ months to the overall project schedule. Therefore, we now 
expect a completion date of the CVC in March 2007. Immediately 
following the full acceptance of fire and life-safety systems, several 
weeks are required for staff training with large groups of people 
before opening the facility for full capacity. Therefore, the CVC is 
projected to be available for a formal opening in April 2007. The 
occupancy of the House and Senate expansion space will occur following 
acceptance of the life-safety systems for these areas, which will 
follow the life-safety acceptance testing of the CVC.
                            cost to complete
    The project schedule extension will affect the overall project 
cost-to-complete. In November, we concurred with GAO's statement that 
potential risks do exist and that additional funds would be necessary 
should these risks turn into reality; most notably if completion occurs 
after December 2006, or if significant additional change orders are 
required. After meetings with GAO and our construction manager, 
Gilbane, we anticipated that the delay, along with additional change 
orders and the potential for future project risks, could increase the 
project's cost-to-complete by approximately $20.6 million, and this 
amount has been requested in our fiscal year 2007 budget. GAO's ongoing 
review, however, has resulted in a revised estimate of the cost-to-
complete which adds approximately $5 million to this amount for further 
time extension and contingency. Accordingly, Mr. Chairman, we will work 
with you to effect this adjustment in order to ensure that there are 
adequate contingencies.
                    project progress and highlights
    Since the last hearing in November, we have made significant 
progress in many areas of the CVC.
    For example, in the Great Hall wall stone work is complete on three 
sides and stone is up on all 16 columns. Crews completed stone work on 
the ceiling soffits late in January, clearing the way for ceiling work 
to begin on the west side of the hall. At the north and south ends of 
the Great Hall crews have completed the installation of escalator 
trusses.
    Stone work was completed in the North and South Orientation 
Theaters in December and ceiling work is ongoing in both facilities. 
With much of the wall and ceiling framing now complete, crews will soon 
begin installing the wood and acoustic fabric wall panels. Wall stone 
is also complete in the Exhibition Hall and floor stone installation is 
expected to begin next week.
    In December, masons began setting the first floor stone in a 
corridor at the south end of the Great Hall and in another corridor 
leading to the Congressional Auditorium. These areas are nearly 
complete and workers are now applying grout between the stones. Inside 
the Congressional Auditorium, wall stone is essentially complete and 
crews are working in the adjacent corridors and atrium leading to the 
facility and ceiling work is beginning.
    In the House and Senate Expansion Spaces, the contractor is making 
good progress. Crews continue to install mechanical, electrical, and 
plumbing systems, and drywall now lines many of the interior spaces. 
Wall framing and ductwork is ongoing inside the new Senate Recording 
Studio on the upper level while wall close-in inspections are occurring 
on the middle level.
    In January, on the Senate Plaza, workers completed the concrete 
work and installation of pavers to a level sufficient to accommodate 
vehicle traffic for the State of the Union address. This zone has 
undergone a remarkable transformation from an uneven asphalt parking 
lot to a gently sloping granite-covered plaza. The view there today 
provides a good sense of what the overall Plaza will look like. 
Beginning in March, the first of 85 new trees will be planted on the 
East Capitol Grounds.
    As discussed in past hearings, and as you saw on your inspection 
tour, another critical work zone is the utility tunnel along East 
Capitol Street. In January, workers completed the tunnel structure and 
have connected many of the steam and chilled water pipes inside the 
tunnel. Crews are expected to complete backfill work at Second Street 
next week, and then, moving west toward First Street, they'll begin 
placing a 10-inch concrete slab to restore the roadway. Weather 
permitting, the contractor will complete concrete and asphalt 
placements early this spring and the street will then re-open to 
traffic.
                        exhibits and operations
    In addition to the construction progress, the project is moving 
forward on other fronts, most notably in the preparation and 
development of exhibits and interactive programs and the fabrication of 
the Exhibit Hall models.
    The prototypes of the exhibit cases were reviewed and approved in 
late January and the fabrication of both the exhibits and models is on 
schedule. Meanwhile, a stone contractor has begun fabricating the 
marble panels for the Wall of Aspirations. Also, the scripts for the 
House and Senate Virtual Theater films were presented last week to the 
Capitol Preservation Commission for review and comment. Any additional 
filming required will take place this April or May.
    On the operations front, we are currently receiving proposals for 
the food service contract. A selection for that contract is expected by 
mid-year. And finally, we have completed the interviews with the 
finalist candidates for the Executive Director position and a selection 
is expected shortly.
    In conclusion, much progress is being made and the quality of the 
work is very high. It is an exciting time to see so many aspects of the 
project coming together. Once again, thank you for this opportunity to 
testify. I'd be happy to answer any questions you may have.

    Senator Allard. Who's going to testify now? Mr. Dorn?
    Mr. Dorn. Yes.
    Senator Allard. If you'd go ahead with your testimony, 
please.
STATEMENT OF TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dorn. Thank you, Mr. Chairman, for the chance for Mr. 
Ungar and I to come here and discuss our continued assistance 
to the subcommittee and its oversight of the Capitol Visitor 
Center construction. First of all, I'd like to acknowledge a 
couple of the GAO staff members that are here with us today to 
help us get these monthly testimonies together. Gloria Jarmon, 
Jeanette Franzel, Shirley Abel, John Craig, Brad James, Regina 
Santucci and Brett Fallavollita. Without their help we wouldn't 
be able to pull these things together and I appreciate their 
work.
    As you pointed out in your opening remarks and as Mr. 
Hantman went into more detail about, a lot has happened since 
November. In fact, since November, we've had three schedule 
revisions and two cost estimates, but rather than comparing and 
contrasting cost estimates and schedule revisions, what we'd 
like to do is just get to the bottom line of our cost and 
schedule risk analysis and talk about a few take-aways.
    First, on the schedule part of our risk analysis, what the 
analysis did was confirm what we said in November, that spring 
and summer is the probable opening time for the visitor center. 
More specifically, it says that mid-May the Capitol Visitor 
Center would be available for a capped opening where you would 
be able to have a reduced number of visitors through. It's 
something that Mr. Hantman has discussed also. And in early 
September, the expansion spaces would be complete and so the 
whole CVC project will be complete except for a few punch-list 
items that will probably remain for a while.
    We are glad to see that the AOC has added a significant 
amount of float to the end of their schedule. They still 
believe construction will be done by the end of the year but in 
order to help plan for operations for you all and for the AOC 
they've added some time. I think that was appropriate and a 
good idea.
    On the cost portion of our risk analysis, Mr. Chairman, 
without risks and uncertainties considered, our estimate now 
says that the cost to complete is going to be $555 million for 
the construction of the Capitol Visitor Center. That's still 
within range of the $559 million upper end of our last cost and 
schedule risk analysis, but it is about $25.6 million higher 
than the appropriations to date. With the risks and 
uncertainties that the project is still facing, the project is 
likely to cost as much as $585 million, however, we don't 
recommend that appropriations to that level be made at this 
time.
    So what are the risks and the drivers that are pushing the 
schedule out and the cost up? The top three risks are things 
that you're going to be familiar with already, Mr. Chairman, 
the stone--interior stone wall installation, the life safety 
testing, the fire alarms, and the congestion or trade stacking, 
which Mr. Hantman has also alluded to. Also on the cost risks, 
the continuing delays that we're experiencing, even though the 
AOC didn't move the end date out for CVC construction, a number 
of the intermediate tasks have been pushed off to the right and 
what's happening is you're getting a lot of tasks that are now 
overlapping. When that happens you end up with congestion, 
inefficient operations, and the risk of additional safety 
problems. Also there's been a growing number of change orders 
as he's pointed out. You would expect at some point that the 
number of change orders, new ones coming in each month, would 
drop off but we haven't seen that yet.
    So going forward, what do we need to do? AOC has responded 
very well to the issues raised in November. There's been a 
large number of hours spent with Gilbane and with the fire 
marshal, trying to address issues with the fire alarm system. 
They've agreed on sequences, they've agreed on some of the 
durations. They need to continue the risk planning and 
mitigation efforts, which again, they've improved quite a bit 
since the last hearing.
    We need to pay particular attention to delivery and 
installation of the wall stone. As Mr. Hantman pointed out, for 
the past 2 months, the stone deliveries have increased up to 
about 10 or 11 loads per month, and that's what they need to 
stay even. It doesn't allow them to catch up the time that 
they've lost. We are still 20 loads behind. It's still probably 
too early to tell whether or not that trend's going to 
continue, particularly in the winter months, when it's going to 
be a little harder to quarry the stone and get it here.
    We need to closely monitor the trade stacking that's going 
on. One example of that would be the floor stone. We saw a 
beautiful example in the AOC's progress picture of how nice 
that floor looks once it goes in, but there's a lot of other 
activities to do. In quite a bit of the CVC, we've got interior 
wall stone and other materials, escalators and things that came 
in and are ready to go but they're stacked on the floor waiting 
to be installed. That's preventing us from installing more 
floor stone. So, again, as we continue to move down the road, 
the congestion, and people trying to be in the same place at 
the same time, is going to cause problems.
    The AOC needs to continue to carefully assess the scope of 
design changes to minimize the cost and schedule impact. 
There's been a few design changes recently in the exhibit area 
that they're well aware of and they're addressing. The number 
of design changes and number of changes in general have not 
slowed down yet so that could be a problem down the road.
    In summary, Mr. Chairman, it's going to take $25.6 million 
in additional appropriations, in our opinion, to finish this 
project. Second, the CVC is going to open in spring and summer 
of 2007. And, third, the top risks that the AOC needs to 
continue addressing are wall stone, the trade stacking 
congestion, and monitoring the magnitude of these changes that 
are continuing to come in. That concludes my statement, Mr. 
Chairman, and Mr. Ungar and I are available to answer any 
questions.
    [The statement follows:]
                 Prepared Statement of Bernard L. Ungar
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on (1) our 
assessment of the risks associated with AOC's December 2005 schedule, 
and our estimate of a time frame for opening the project to the public; 
and (2) the project's costs and funding, including the potential impact 
of scheduling issues that have arisen since the Subcommittee's November 
16, 2005, hearing on the CVC project's schedule and cost.\1\
---------------------------------------------------------------------------
    \1\ See GAO, Capitol Visitor Center: Update on Schedule and Cost, 
GAO-06-251T (Washington, D.C.: Nov. 16, 2005).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (including AOC 
and its major CVC contractors), AOC's Chief Fire Marshal, and 
representatives from the United States Capitol Police (USCP). We also 
reviewed applicable appropriations legislation and AOC's construction 
management contractor's periodic schedule assessments and daily reports 
on the progress of interior wall and floor stonework.
    With the assistance of a consultant, Hulett & Associates, we 
assessed the risks associated with AOC's December 2005 schedule for the 
base CVC project and used the results of our assessment to estimate a 
time frame for completing the base project with and without identified 
risks and uncertainties. In January 2006, we and our consultant 
interviewed project managers and team members from AOC and its major 
CVC contractors, USCP representatives, and AOC's Chief Fire Marshal to 
identify the risks they saw in completing the remaining work and the 
time they considered necessary to finish the CVC project and open it to 
the public. Using the project's November and December 2005 schedules 
(the most recent schedules available when we did our work), we asked 
the team members to estimate how many workdays would be needed to 
complete the remaining work. More specifically, for each major activity 
that the members had a role or expertise in, we asked them to develop 
three estimates of the activity's duration--the least, the most likely, 
and the longest time needed to complete the activity. Using these 
three-point estimates and a simulation analysis to calculate different 
combinations of the team's estimates that factored in identified risks 
and uncertainties, we estimated the completion date for the base 
project at various confidence levels based on AOC's December 2005 
schedule. Finally, we reviewed AOC's schedule for the construction of 
the House and Senate expansion spaces, but did not assess the risks 
associated with the work.\2\
---------------------------------------------------------------------------
    \2\ We did not assess the risks associated with the schedule for 
the expansion spaces because the CVC team took longer than expected to 
complete the December schedule. We did not receive the final December 
schedule until January 27, 2006, and therefore did not have enough time 
to fully analyze the expansion space schedule before the Subcommittee's 
February hearing. Furthermore, CVC project staff told us that they had 
not yet had an opportunity to carefully assess the expansion space 
schedule.
---------------------------------------------------------------------------
    In addition, we estimated the likely cost of the project at 
completion, factoring in risks and uncertainties, using information 
obtained from our interviews, contract modifications, the proposed 
change order log maintained by AOC's construction management 
contractor, and the previously mentioned simulation analysis. We did 
not perform an audit; rather, we performed our work to assist Congress 
in conducting its oversight activities.
    In summary:
    Since the Subcommittee's November 16 CVC hearing, AOC and the CVC 
team have moved the project's construction forward and significantly 
revised the schedule, particularly for the base project. For example, 
they have reached agreement with AOC's Chief Fire Marshal on the 
schedule for testing the base project's life safety systems and have 
enhanced the manner in which the project's operations schedule is 
incorporated into the project's master schedule. In addition, they have 
reviewed and revised the schedule, postponing the opening dates for the 
CVC and the House and Senate expansion spaces by about 2 months each. 
Under AOC's revised schedule, the CVC would be open to the public in 
February 2007 with a temporary cap on visitor occupancy, and the 
expansion spaces would be open in April 2007. However, to allow for 
possible delays and start-up time for operations, AOC is proposing to 
open the CVC in April 2007 and the expansion spaces in May 2007, at 
which time the temporary cap on CVC occupancy would be lifted.
    We concur with AOC about the need for postponing the opening dates, 
but do not believe that AOC has scheduled enough time to complete 
several of the project's critical tasks and to address the problems, 
challenges, risks, and uncertainties that AOC and the CVC team are 
attempting to address. If they are successful in addressing these 
issues, we believe that the CVC can be opened to the public with the 
temporary cap on visitor occupancy in May 2007 and that the expansion 
spaces can be opened beginning in mid-August to early September 2007. 
Congress may be able to begin occupying the expansion spaces earlier if 
AOC implements a phased opening plan it is considering. However, if AOC 
experiences major problems completing construction, such as with 
installing interior stone or testing major building systems, the work 
could be finished even later than we have estimated.
    According to our current estimate, the total estimated cost to 
complete the entire CVC project is about $555 million without an 
allowance for risks and uncertainties. This estimate exceeds our 
November 16, 2005, estimate by about $12 million because we and AOC's 
construction management contractor are now projecting further delay-
related costs. Changes in the project's design and scope have also been 
occurring, and more are likely. For example, the project's fire 
protection system has been evolving, and the system is now expected to 
cost more than previously estimated. To date, about $528 million has 
been provided for CVC construction. Thus, we now estimate that another 
$25.6 million will be needed to complete construction without an 
allowance for risks and uncertainties and taking into account funding 
from existing appropriations that AOC is planning to use. With an 
allowance for risks and uncertainties, we now estimate that the project 
could cost as much as about $584 million at completion, or about $25 
million more than we estimated in November 2005. Estimated costs for 
the tunnel connecting the CVC with the Library of Congress are still 
within, but are now approaching, the $10 million statutorily mandated 
limit.
AOC Has Moved Construction Forward, Revised the Project's Schedule, and 
        Postponed Opening Dates
    AOC and the CVC team have continued to refine the project's 
schedule since the November hearing and have made substantive progress 
in addressing the issues that we and the Subcommittee have raised, 
particularly concerning the base project's schedule. For example, the 
CVC team reviewed the sequence and duration of the activities scheduled 
for interior stonework, finish work, and work associated with the base 
project's fire protection system, including the acceptance testing to 
be done by AOC's Fire Marshal Division. To reflect the results of its 
review, the team revised the project's December 2005 and January 2006 
schedules, and in collaboration with the team that is planning for CVC 
operations, enhanced the manner in which the operations activities are 
incorporated into the project's master schedule.\3\ AOC and its 
contractors' staff who are involved in planning for CVC operations 
agree that the January 2006 schedule identifies the related 
construction and operations activities. The CVC team has not yet fully 
reassessed the schedule for the expansion spaces and has not yet 
reached agreement with the Chief Fire Marshal on the requirements for 
acceptance testing of those spaces. Finally, the CVC team has continued 
to meet weekly to identify risks facing the project and to discuss 
mitigation strategies and actions. As of February 1, 2006, the team had 
identified 62 risks and developed mitigation strategies for all but 1, 
which had just been identified. The plans vary in their level of detail 
and stage of implementation.
---------------------------------------------------------------------------
    \3\ The January 2006 project schedule reflects revisions in various 
activities, but the completion dates for the CVC and expansion spaces 
did not change from the December 2005 project schedule.
---------------------------------------------------------------------------
    According to AOC's December 2005 and January 2006 schedules, the 
CVC base project will be ready to open to the public with a temporary 
certificate of occupancy on February 13, 2007, and the House and Senate 
expansion spaces will be ready on April 24, 2007. To allow for possible 
delays and start-up time for operations, AOC has proposed an April 2007 
opening date for the base project and a May 2007 occupancy date for the 
expansion spaces. By the April opening date for the base project, AOC 
believes, all construction work in the CVC and East Front will be 
completed, but the CVC's occupancy at any one time will be temporarily 
limited to 3,500, compared with about 4,200, the normal anticipated 
occupancy level. This temporary limit will be necessary because the 
``horizontal exits,'' or passages, through the expansion spaces, which 
the life safety code requires for exiting the base CVC project, will 
not be available until later. These horizontal exits cannot be used 
until the fire alarm system in the expansion spaces has been fully 
tested and accepted--work that is not slated to be completed until 
after the base CVC is scheduled to open. Some additional work will 
likely be required to provide temporary emergency exit routes from the 
CVC, but the CVC team does not believe that this work or its costs 
should be substantial.
    Mr. Chairman, a brief explanation of AOC's rationale for proposing 
a CVC opening with a temporary cap on visitor occupancy may be helpful 
at this point. The current project schedule calls for completing the 
construction of both the CVC and the expansion spaces before December 
31, 2006, but would delay the start of acceptance testing the portions 
of the fire alarm system in the expansion spaces until such testing for 
the base CVC project is completed in February 2007. AOC is planning 
this approach because it believes that starting the acceptance testing 
for the expansion spaces earlier would prolong the completion of the 
acceptance testing in the base project and thereby delay the base 
project's opening to the public. More specifically, the fire protection 
devices for the atriums, which are a part of the horizontal exits 
ultimately required by code for full occupancy of the base project, 
would undergo acceptance testing with the expansion spaces, rather than 
with the base CVC project. To accommodate this change, AOC shifted the 
finish work in the atriums from the base CVC schedule to the expansion 
space schedule, and is planning to conduct the acceptance testing for 
the atriums and the expansion spaces at the same time, after the 
acceptance testing for the base CVC project is done. Until the 
acceptance testing for the expansion spaces has been completed, AOC's 
Chief Fire Marshal has said that the expansion spaces, including the 
exits through the atriums, cannot be used as emergency exit routes, and 
therefore AOC must take measures to provide temporary emergency exit 
routes from the base CVC project and reduce the number of occupants who 
can be in the base project until the exit routes are available.
Our Analysis Indicates Later Opening Dates in Light of Problems, 
        Challenges, Risks, and Uncertainties
    Our work to date in monitoring the CVC project and the results of 
our recently completed risk assessment of the project's schedule point 
to later opening dates than the schedule indicates. Although the 
schedule for the base project goes a long way toward responding to our 
concerns about the amount of time previously provided for a number of 
activities and extends their duration, CVC team managers and members we 
interviewed believe that certain work will take longer to complete than 
the revised schedule allows. For example, they believe that interior 
stonework and finish work for the base project and the East Front are 
likely to take longer. According to our risk analysis, which reflects 
the CVC team's input and assumes that AOC will successfully address the 
challenges it faces, the CVC is more likely to be ready for opening 
with a temporary certificate of occupancy between late April and mid-
May 2007 than in February, as indicated in AOC's current schedule. AOC 
is now proposing an April 2007 opening date to provide time for 
possible construction slippages and operations preparation. The 
additional time AOC says is necessary for operations preparation after 
construction completion would mean that the CVC would be ready for 
opening with a temporary cap on visitor occupancy by about the end of 
May 2007, according to our analysis. Similarly, our analysis suggests 
that the House and Senate expansion spaces are more likely to be ready 
in mid August or early September 2007 than in April or May 2007. We 
believe the later time frames are more likely because (1) AOC has 
scheduled the acceptance testing of the expansion spaces after the 
acceptance testing of the base project and, according to our work, the 
base project testing will take longer than scheduled and (2) AOC's 
Chief Fire Marshal believes that the acceptance testing of the 
expansion spaces will take longer than scheduled.
    We have discussed the results of our analysis with AOC, and it 
continues to believe that it will be able to meet its April and May 
2007 time frames for the CVC and the expansion spaces, respectively. 
Furthermore, AOC said that it and the CVC team will continuously review 
the schedule to identify opportunities for improvement. For example, 
AOC pointed out that it may be able to have the acceptance testing of 
the expansion spaces done in segments so that Members and staff will 
not have to wait for the entire facility to be tested before they can 
occupy their space. AOC also believes it may be able to revise the 
scheduling of some East Front mechanical work to save time. We agree 
that AOC should continuously look for ways to improve the schedule and 
that improvements may be possible. However, we also believe that AOC 
will be challenged to meet even the later opening dates we have 
identified given the problems, challenges, risks, and uncertainties the 
project faces. A discussion of these follows:
  --Delivery of stone and pace of stone installation remain critical.--
        Although the CVC team has made progress in installing interior 
        wall and floor stone, work on the wall stone has fallen behind 
        schedule in several areas, and the project still faces 
        significant challenges, risks, and uncertainties in this area. 
        These include whether sufficient quantities of the appropriate 
        wall stone will be received in time and whether the pace of 
        installation will be sufficient to complete this work as 
        scheduled. According to information provided by the sequence 2 
        contractor on February 10, the wall stone supplier still had a 
        20-truckload backlog and was not shipping wall stone at the 
        scheduled rate, resulting in a delivery shortfall of about 
        6,000 cubic feet. According to AOC's construction management 
        contractor, stone supply is not affecting interior wall stone 
        installation because a large quantity of stone is currently on 
        site; however, the contractor is concerned about the ability of 
        the stone supplier to meet current and future requirements that 
        include stone for the East Front, adequate stone to maintain 
        productivity, and the 20-truckload backlog. The pace of 
        installation is also an issue. The sequence 2 contractor has 
        recently increased the number of stone masons working on the 
        project and has begun meeting the installation targets in its 
        work plan. However, if the wall stone installation targets are 
        not achieved, whether because the masons are less productive 
        than planned or work spaces are not ready for stonework to 
        begin, completion delays are likely. The sequence 2 contractor 
        has already encountered work spaces in the service level, the 
        orientation lobby, and the East Front that were not available 
        for stonework because concrete was out of tolerance or masonry 
        walls were not ready for wall stone to be hung. Finally, the 
        sequence 2 contractor still needs to install about 120,000 
        square feet of floor stone in the CVC and could have problems 
        meeting the scheduled completion dates if not enough masons are 
        available, the amount of floor space available is insufficient 
        because other finish work is not done, or other trades are 
        working in the areas where floor stone is to be laid. As of 
        February 10, AOC had not received a floor stone installation 
        plan requested from the sequence 2 contractor, but the sequence 
        2 contractor said that it intends to finish the plan soon.
  --Stacking of trades could delay completion.--Continued delays, 
        particularly in wall stone installation, could adversely affect 
        the sequence 2 contractor's ability to accomplish all of the 
        required finish work on schedule. The sequence 2 contractor has 
        been making progress relative to its current plan for 
        installing wall stone in the auditorium and the orientation 
        lobby, but according to the current project schedule, wall 
        stone installation is delayed in other areas, such as the East 
        Front, the great hall, and the orientation theaters' exterior 
        walls. Furthermore, as of February 10, although the contractor 
        had completed 10 of the 13 milestones relating to wall stone 
        that are being tracked for the Subcommittee, none of the 10 was 
        completed by the date set in the September 2005 baseline 
        schedule, and only 4 were completed by the date set in the 
        November 2005 schedule. (See app. I.) If delays continue, a 
        stacking of trades such as we described at the Subcommittee's 
        November hearing could hold up finish work, such as drywall or 
        ceiling installation, electrical and plumbing work, plastering, 
        or floor stone installation.\4\ Such a situation could also 
        increase the risk of accidents and injuries. The CVC team has 
        also identified ``trade stacking'' as a high risk. The sequence 
        2 contractor acknowledges the risk, but said that it has 
        structured its schedule to avoid the risk and plans to monitor 
        progress closely to avoid problems. We acknowledge that these 
        steps can be helpful; however, the more the wall stone schedule 
        slips, the greater is the likelihood of ``trade stacking,'' 
        since more and more work will have to be done in less time to 
        meet the schedule. AOC's construction management contractor 
        agrees that this is a serious potential problem.
---------------------------------------------------------------------------
    \4\ Stacking of trades can occur when workers from different 
trades, such as stone masons, electricians, plumbers, or plasterers, 
have to work in the same area at the same time to meet a schedule, 
sometimes making it difficult to ensure sufficient space and resources 
for concurrent work.
---------------------------------------------------------------------------
  --Complex building systems remain a significant risk.--The CVC will 
        contain complex building systems, including systems for 
        heating, air conditioning, and ventilation; fire protection; 
        and security. These systems not only have to perform well 
        individually, but their operation has to be integrated. If the 
        CVC team encounters any significant problems with their 
        functioning, either individually or together, during 
        commissioning or testing, the project could be seriously 
        delayed. AOC and the CVC team are aware of these risks and have 
        been taking steps to mitigate them as part of their risk 
        management process. Yet despite these steps, a significant 
        problem could arise during commissioning or testing, and it is 
        important that the team be prepared for such an event.
  --Building design continues to evolve.--The CVC has undergone a 
        number of design changes, and design changes are continuing for 
        a number of building components, such as the exhibit gallery 
        and the fire protection and security systems. Some of these 
        changes have resulted in delays, such as in the exhibit gallery 
        and in the East Front. In addition, designs or shop drawings 
        for some elements of the project, such as aspects of the 
        facility's fire protection systems, have not yet been fully 
        approved and are subject to change. At this stage of the 
        project's construction, one might expect the number of design 
        changes to dwindle. However, this is not the case. For example, 
        more than 20 design changes or clarifications were issued last 
        month. Additional design changes are being considered, and the 
        potential exists for such changes to further adversely affect 
        the schedule.
  --Multiple critical activity paths complicate schedule management.--
        In its report on the project's January 2006 schedule, AOC's 
        construction management contractor identified 18 critical 
        activity paths--4 more than in the contractor's report on the 
        project's October 2005 schedule--that are crucial to meeting 
        the scheduled completion date. In addition, the construction 
        management contractor said that several noncritical activities 
        have fallen behind schedule since November 2005, and a number 
        of these have moved closer to becoming critical to the 
        project's completion. As we have previously said, having a 
        large number of critical and near-critical activities 
        complicates project management and increases the risk of 
        missing completion dates. We believe that the CVC team will be 
        particularly challenged to manage all of these areas 
        concurrently and to deal effectively with problems that could 
        arise within these areas, especially if multiple problems arise 
        at the same time.
Estimated Project Costs Exceed Funding Provided as of February 2006
    We currently estimate that the total cost to complete the entire 
CVC project is about $555 million without an allowance for risks and 
uncertainties and could be as much as about $584 million with such an 
allowance. As table 1 indicates, our current estimate without an 
allowance for risks and uncertainties is about $12 million higher than 
the estimate without such an allowance that we presented at the 
Subcommittee's November 16, 2005, hearing.\5\ This $12 million increase 
is largely attributable to additional delay costs estimated by AOC's 
construction management contractor and actual and anticipated changes 
in the design and scope of the project.
---------------------------------------------------------------------------
    \5\ Our work identified one project element--the acquisition and 
installation of USCP's technical security equipment--that is now 
expected to cost less than budgeted. Although the $12 million net 
increase reflects a decrease in estimated cost for this element without 
an allowance for risks and uncertainties, our $584 million estimate 
recognizes that there is some risk associated with this item and thus 
includes funding for such risk.

             TABLE 1.--COMPARISON OF NOVEMBER 2005 AND FEBRUARY 2006 CVC CONSTRUCTION COST ESTIMATES
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                   February 15,    November 16,
                            Estimate                                   2006            2005         Difference
----------------------------------------------------------------------------------------------------------------
With risks and uncertainties....................................            $584            $559             $25
Without risks and uncertainties.................................            $555            $543             $12
Allowance for risks and uncertainties/Difference................             $29             $16             $13
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of AOC data.

    In particular, changes in the project's fire protection system, 
which we discussed at the Subcommittee's October 18, 2005, CVC hearing, 
are now expected to cost more than previously estimated. Specifically, 
the system's acceptance testing is expected to be more extensive and to 
take place later than originally anticipated, and additional temporary 
construction may be required to ensure fire safety if the CVC is opened 
to the public before the Senate and House expansion spaces are 
completed. This additional construction would involve designing and 
installing--and then removing--temporary walls and perhaps taking other 
fire protection measures to create emergency exits from the CVC. As 
discussed in more detail earlier in this statement, the need for 
temporary construction may be reduced or eliminated if the fire safety 
acceptance testing of the expansion spaces and of the CVC can be 
performed concurrently, rather than over two separate periods, as would 
be likely if the CVC is opened to the public before the expansion 
spaces are completed. We discussed this issue during the Subcommittee's 
July 14, 2005, CVC hearing \6\ and recommended then that AOC estimate 
the cost of these temporary measures so that Congress could weigh the 
costs and benefits of opening the CVC before the expansion spaces are 
completed. AOC has agreed to provide this estimate to Congress when it 
has more information on the status of construction progress on the CVC 
and expansion spaces and the specific steps that will be necessary to 
provide adequate temporary exit routes.\7\
---------------------------------------------------------------------------
    \6\ GAO, Capitol Visitor Center: Update on Status of Project's 
Schedule and Costs, GAO-05-910T (Washington, D.C.: July 14, 2005).
    \7\ The temporary work necessary will depend on various factors, 
such as whether the sprinkler and smoke control systems are fully 
functional.
---------------------------------------------------------------------------
    We now estimate that the total cost to complete the entire project 
with an allowance for risks and uncertainties could be as much as $584 
million, or about $25 million more than we estimated in November 2005. 
This increase reflects the potential for the project to incur 
additional costs if difficulties arise in commissioning and testing its 
complex and sophisticated fire protection, ventilation, and security 
systems; significant problems with the building's design are identified 
and need to be corrected during construction; delays cost more than 
anticipated; \8\ and significant discretionary changes in the project's 
design and scope are requested.
---------------------------------------------------------------------------
    \8\ It is important to note that the delay-related costs included 
in our estimates have been made for budgetary purposes only and do not 
reflect an assessment of the government's responsibility for any 
delays. Furthermore, it should be recognized that estimating the 
government's costs for delays that occurred after November 2004 is 
difficult because delays have occurred for different reasons and it is 
unclear who ultimately will bear responsibility for the various delays 
that have occurred.
---------------------------------------------------------------------------
    To date, about $528 million has been provided for CVC construction. 
This amount does not include about $7.7 million that was made available 
for either CVC construction or operations.\9\ According to AOC, it 
expects to use about $2 million of this amount for construction. To 
obtain the additional funding that it expected to need to complete the 
project's construction, AOC, in December 2005, requested $20.6 million 
as part of its budget request for fiscal year 2007. This request was 
based, in part, on discussions with us and took into account our 
November 16, 2005, estimate of the cost to complete the project's 
construction without an allowance for risks and uncertainties and 
funding from existing appropriations. The request also reflected 
updates to our November estimate through mid-December 2005. At that 
time, the $20.6 million request for additional appropriations, coupled 
with the additional funds that AOC planned to use from existing 
appropriations, would have been sufficient to cover the estimated cost 
to complete construction without an allowance for risks and 
uncertainties.
---------------------------------------------------------------------------
    \9\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. In June 2005, AOC received approval to 
use about $2.8 million of this $10.6 million, leaving a balance of 
about $7.7 million that can be used in the future after a rescission 
amounting to $84,800.
---------------------------------------------------------------------------
    Our work since mid-December 2005 indicates that AOC will need about 
$5 million more, or about $25.6 million in additional funds, to 
complete construction without an allowance for risks and 
uncertainties.\10\ This increase reflects the number and magnitude of 
potential change orders that CVC team members and we believe are likely 
and additional costs associated with extending the project's expected 
completion date beyond March 31, 2007, the date contemplated in our 
last cost estimate. AOC generally agrees with our estimate, 
particularly with respect to having sufficient contingency funds 
available for necessary design or scope changes or for additional 
delay-related costs.
---------------------------------------------------------------------------
    \10\ AOC has asked for additional funds in its fiscal year 2007 
budget request under its general administration budget for contractual 
support to its Fire Marshal Division which includes support for 
acceptance testing for the CVC. This request is not included in our 
cost-to-complete estimate or estimate of additional CVC funds needed 
for fiscal year 2007.
---------------------------------------------------------------------------
Estimated Construction Costs for Library of Congress Tunnel Close to, 
        but under, Limit
    Public Law 108-83 limits to $10 million the amount of federal funds 
that can be obligated or expended for the construction of the tunnel 
connecting the CVC with the Library of Congress. As of February 14, 
2006, AOC estimated that the tunnel's construction would cost about 
$9.8 million, and AOC's total obligations for the Library of Congress 
tunnel construction work totaled about $8.7 million. AOC's remaining 
estimated costs are for potential changes.
    On February 13, 2006, AOC awarded a contract for the work to 
connect the tunnel to the Jefferson Building. This work is costing more 
than AOC had estimated--a possibility we raised in our November 16 
testimony before the Subcommittee. Because this work involves creating 
an opening in the building's foundation and changing the existing 
structure, we believe that AOC is likely to encounter unforeseen 
conditions that could further increase its costs. Therefore, we 
included additional contingency funds for this work in our $555 million 
estimate of the cost to complete the CVC project's construction. Both 
AOC and we plan to monitor the remaining tunnel and Jefferson Building 
construction work closely to ensure that the statutory spending limit 
is not exceeded.
    Mr. Chairman, in conclusion, AOC has responded to many of the 
schedule-related concerns we have identified, but its planned opening 
date for the CVC is still somewhat optimistic. For AOC to meet even our 
estimated opening time frame, we believe that it is critically 
important for the CVC team to do the following:
  --Aggressively take all necessary and appropriate actions to install 
        interior wall and floor stone as expeditiously as possible, 
        including seeing that sufficient quantities of masons, stone, 
        and work space are available when needed to meet the wall 
        stonework plan and the forthcoming floor stone installation 
        plan.
  --Closely monitor construction to identify potential ``trade 
        stacking'' and promptly take steps to prevent it or effectively 
        address it should it occur.
  --Reassess its risk mitigation plans to ensure that the team takes 
        the steps necessary to prevent a major building system problem 
        during commissioning or testing and has measures in place to 
        deal quickly with problems should they arise.
  --Carefully consider the necessity of proposed scope and design 
        changes and attempt to minimize the impact of necessary changes 
        on the project's schedule and cost.
  --Reassess the capacity of the CVC team (AOC and its contractors) to 
        effectively manage and coordinate the schedule and work from 
        this point forward, particularly with respect to the large 
        number of activities that are currently critical, or close to 
        being critical, to the project's timely completion.
  --Identify and consider the pros and cons (including the estimated 
        costs) of opening the CVC and expansion spaces at about the 
        same time and provide this information to Congress.
    We have discussed these actions with AOC, and it generally agrees 
with them. It pointed out that it would be in a better position to 
assess the pros and cons of opening the CVC and the expansion spaces 
concurrently when construction is further along and it becomes clearer 
when the work will actually be done. This appears reasonable to us.
    We would be pleased to answer any questions that you or Members of 
the Subcommittee may have.

    APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES--NOVEMBER 16, 2005-FEBRUARY 15, 2006
----------------------------------------------------------------------------------------------------------------
                                                                            September     November
                                                                               2005         2005        Actual
              Activity                             Location                 scheduled    scheduled   finish date
                                                                           finish date  finish date
----------------------------------------------------------------------------------------------------------------
Orientation Lobby..................  Perimeter CMU walls.................     10/13/05     12/02/05     12/29/05
East Front Subbasement.............  Interior CMU walls..................     10/02/05     12/06/05  ...........
Exhibit Gallery....................  Wall Stone Area 2 base..............     10/31/05     12/07/05     12/23/05
Exhibit Gallery....................  Wall Stone Area 3 base..............     11/10/05     12/02/05     12/28/05
Orientation Lobby..................  Interior CMU walls..................     11/15/05     12/09/05     12/30/05
Exhibit Gallery....................  Wall Stone Area 1...................     11/16/05     12/16/05     01/06/06
Congressional Auditorium...........  Wall Stone Area 2...................     11/17/05     12/05/05     01/13/06
Congressional Auditorium...........  Wall Stone Area 3...................     12/05/05     02/06/06     01/13/06
Upper Level Assembly Room..........  Wall Stone Area 1...................     12/13/05     01/13/06     01/11/06
Exhibit Gallery....................  Wall Stone Area 3...................     12/14/05     01/16/06     01/06/06
Upper Level Assembly Room..........  Wall Stone Area 2...................     12/29/05     01/30/06     01/20/06
Upper Level Orientation Lobby......  Wall Stone Area 1 Pedestals.........      1/11/06     02/09/06
Upper Level Orientation Lobby......  Wall Stone Area 2 Pedestals.........      1/23/06     02/21/06  ...........
Utility Tunnel.....................  Install Walls Sta. 1+00-2+00........     11/04/05     12/06/05     12/23/05
Utility Tunnel.....................  Install Roof Sta. 1+00-2+00.........     11/28/05     12/16/05     01/05/06
Utility Tunnel.....................  Install Roof Sta. 0+00-1+00.........     12/05/05     12/21/05     12/07/05
----------------------------------------------------------------------------------------------------------------
Source: AOC's September and November 2005 CVC sequence 2 construction schedules for the scheduled completion
  dates and AOC and its construction management contractor for the actual completion dates.

                         LESSONS LEARNED REPORT

    Senator Allard. I'd like to thank you for your testimony. 
Sitting here and listening and thinking about where we are in 
the project right now and where we're going to be hopefully 1 
year from now, I thought that it would be appropriate for me at 
this time to give you a heads-up on something I'm going to be 
requesting toward the last part of our hearings and that is a 
lessons learned report. I'd hope that we could get such a 
report from GAO as well as the Architect, working with the 
contractor. I'd like to have the report reflect things that 
went well in the project and then things that didn't go so well 
and suggestions on how perhaps if there's another project in 
the Capitol complex that we can learn from our past 
experiences.
    We've had, for example, a couple of projects in the State 
of Colorado that I have been involved with. Huge projects, 
billions of dollars. One of them we completed 1 year ahead of 
schedule and the other one we're just completing 2 years ahead 
of schedule saving hundreds of millions of dollars and the key 
thing is that we had incentive-driven contracts and we had some 
design-build features and so, I think future decisions from the 
Legislative Branch Subcommittee can be facilitated if we can 
make this a part of the subcommittee record. I'm hopeful that 
we can create a subcommittee record that would be useful for 
some chairman, two, three or four decades from now.
    So I would appreciate you working with the subcommittee on 
that.

                            COST TO COMPLETE

    Some specific questions that I have, now, the Architect 
announced back in November, there wouldn't be any additional 
funds needed to complete the CVC, and yet in your 2007 budget I 
notice that you've included $20.5 million to complete the 
project. What specifically are these funds needed for and are 
you confident that this amount will be sufficient? And I'll be 
following up with a question for GAO which has a more 
pessimistic view of how much money it's going to require and 
I'm going to ask them to explain their position, also. So, Mr. 
Hantman, would you explain why you think you're going to need 
that extra $20 million?
    Mr. Hantman. Thank you, Mr. Chairman. Clearly, one of the 
things that occurred with the beginning of the work for the 
sequence 2 contractor is that there was a significant delay in 
their ability to start because of the delays of the sequence 1 
contractor finishing the construction work, the columns, the 
issues of the foundations and all. So as part of this $26 
million, we're talking about $7.2 million in potential 
additional delay costs. We had already put in, I think it was 
some $15 million for that. So we're looking again at those 
risks and working together with GAO as well as Gilbane. We 
think that to cover those risks, make sure that we have the 
dollars available when we negotiate and we look at what were 
concurrent delays, what were sequential delays, what we owe 
versus what is basically just due in time as opposed to due in 
dollars, those are negotiations and evaluations that are yet to 
come. So it's taking a look forward in terms of the magnitude 
of those additional dollars. Bob, would you like to add to 
that?
    Mr. Hixon. Shall I go through the whole list or----
    Mr. Hantman. The highlights, I think.
    Senator Allard. Could you make your full list available to 
the subcommittee, and just hit the highlights now.
    Mr. Hixon. Yes, sir. Mr. Chairman, in summary, the key 
areas that we were looking at are the extension of the staff 
from an anticipated September completion date and then we were 
going beyond that period into December. Now we're at March and 
there will be some follow-on activities, so that's both the 
AOC, AEN construction managers, for $2.4 million of that $25 
million. The House connector tunnel underpinning, we've had 
additional underpinning required, that's $500,000; the delay in 
the start of sequence 2, we're increasing that by $7.2 million; 
the delay during sequence 2 which is the expectation that we 
may have some liability in the delays and the contract, $3 
million; Jefferson Building bids came in at $1 million above 
the budget; equipment for the AV, we've added $100,000 for 
that, and change orders for the contingency is $11.4 million. 
You add those pieces together, you have your $25.6 million.
    Senator Allard. Thank you. I wonder if Mr. Ungar can 
explain to us why your figures are different than what the 
architect's come up with. You've given us a range----
    Mr. Ungar. Right.
    Senator Allard. What thinking went into that range that you 
gave us? I think your range was between $25.5 million and $50 
million.
    Mr. Ungar. Yes, Mr. Chairman, I'd be happy to. We have 
reached agreement on the first $25 million and the difference 
between the $25 and the $50 million has to do with the risk and 
uncertainties associated with the project. Through our analysis 
that we've just completed, we determined that there still are a 
number of these that are there and could cause additional cost 
increases in the future between now and the time the project is 
done.
    For example, one thing we looked at was the pace of 
changes, the rate of changes coming through in terms of 
proposed change orders or actual modifications. As Mr. Dorn had 
indicated, they have not tapered off and so in our risk and 
uncertainty assessment, we've included additional funds over 
and above those that would typically be anticipated for changes 
primarily during sequence 2. These are design changes or scope 
changes that would be forthcoming. The second aspect of that 
would be delay related costs. As AOC has mentioned, they've 
increased their estimate for what the Government might be 
responsible for. It could be that they're even larger than 
AOC's. Given the situation that exists, our risk amount 
includes additional provision for delay related costs. And 
that's basically the difference, changes and delay related 
costs.

                             CHANGE ORDERS

    Senator Allard. Well, thank you. Now, I've noticed that--at 
least I was a little taken aback when we saw that the change 
orders were staying at such large numbers as we have. My 
understanding on a lot of the contracts when you start getting 
toward the end, you expect your change orders to drop off and I 
wondered if maybe the Architect as well as you, Mr. Ungar, 
could respond as to whether you think that this is a concern or 
not as we move forward with the project.
    Mr. Hantman. Clearly, Mr. Chairman, nobody likes changes. 
The change specifically that Mr. Dorn mentioned in the 
exhibition area, there was a change which I think was a 
necessary one because the structure which supports the glass 
portion of the floor was arranged in such a way that the pieces 
of glass actually got to be fairly small and potentially 
friable, easily broken, so the structure was modified. The 
Aspirations Wall was relocated by a number of inches to give us 
bigger pieces of glass which meant the structure had to be 
redesigned. That made sense, it was something that had not been 
looked into in great detail before. Other changes, for 
instance, in the elevator pits. We had to excavate further than 
we originally anticipated so there's a change to that effect. 
Would you like us to highlight a few more of them?
    Senator Allard. Do you expect that the change order will be 
greater than you might expect in a construction project like 
this or you think they're going to start to taper off now?
    Mr. Hixon. The expectation we have is that they would have 
started tapering off already. We've had some systems that--
electrical systems such as the dimming system that we found out 
that we've got some coordination issues. We should be beyond 
most of those now. We're very far into the coordination of the 
mechanical systems, fire alarm systems, so we should not have 
much more of that. We were hoping that would have been behind 
us already but we've stumbled over some recently. So we have 
had some increased costs but, yes, they should be dropping off 
now. We should be--because all the coordination should have 
taken place to resolve those issues. So we expect they will be 
dropping off but changes--I sign every change order that's 
processed so we're ensuring that they're all required, there's 
nothing that's being generated that is not a mandatory change 
order.
    Senator Allard. Mr. Ungar, do you have a comment on those?
    Mr. Ungar. Yes, sir. Two things, first, we would agree with 
Mr. Hixon that we would hope that the change orders would start 
to slow up but when we looked, as we were doing our risk 
analysis, what was happening, it sort of scared us a bit. If 
you just look at the proposed change order log the construction 
manager maintains, for the last 3 months that log increased 
significantly. It went from $500,000 total proposed change 
orders in November, to $800,000 in December, and to $2.8 
million in January. Now, it should be recognized that that can 
change. These are proposals and they may not all be all 
accepted and the dollar values can change but it certainly 
raised a concern about when is this going to slow down. So that 
was a major concern and what was helping drive our estimate to 
the higher end rather than the lower end.
    And as an example of a specific change that's really been 
evolving, that's resulted in a significant increase in cost, is 
an area that we talked about a few hearings ago, and that's the 
fire protection system. As the project has progressed, changes 
have been identified, not that these are unnecessary changes 
but the design and the components have been changing. A few 
months ago we had estimated at that point that the cost 
increase for the fire protection system for both the expansion 
space and the CVC was around $5 million. Now it looks like it's 
going to be over $8 million and perhaps even higher than that. 
So we are concerned about this and hopefully it will slow down 
at some point soon.
    Senator Allard. I would suspect some of this might be due 
to technology change. When the Capitol Visitor Center was first 
designed, you didn't know that you had certain technology. I 
can see this particularly with the fire systems and now all of 
a sudden you have new technology that nobody anticipated would 
be available.
    Mr. Ungar. Right.
    Senator Allard. And while you have that new technology and 
building under construction, it makes sense to take advantage 
of that.
    Mr. Ungar. That's correct. The earlier increases, Mr. 
Chairman, were largely due to the addition of this filtration 
system, a security-related system, and a number of changes had 
to be made as a result of that. More recently, that hasn't been 
a problem, but initially that was a major factor in driving the 
cost increase.

                          FIRE SYSTEM TESTING

    Senator Allard. While we're on the fire systems, Mr. 
Hantman, I'm curious as to when you're going to plan the 
testing of the fire systems. One concern that's been raised is 
whether there will be testing when the Capitol is in use? Are 
we looking forward to some disruption in regular business in 
the Capitol because of testing the fire system and then what 
about the expansion spaces in the Capitol Visitor Center and 
the opening dates? How is that going to be merged together?
    Mr. Hantman. Thank you, Mr. Chairman. There is one zone 
which is the transition zone in the east front of the Capitol 
that physically is in the Capitol. That zone is really part of 
the building, although we're constructing as part of the CVC as 
the transition area now, and that area will have to be tested 
at night because the idea of disturbing the Capitol building 
itself through the testing of alarms and things like that, 
would be a real issue. So we're going to have to schedule that 
for nighttime testing and that's separate and distinct from the 
base building fire and life safety system in the CVC.
    We have essentially, we could almost call them three 
buildings, Mr. Chairman. We have the central portion of the 
CVC, which is the main area that visitors will be going 
through. Then we have the Senate expansion space and the House 
expansion space. In terms of operations, we are looking at a 
three panel solution now, fire safety panel solution. One, for 
the core central visitor center and one each for the House and 
the Senate. From an operations perspective, from a security 
perspective and life safety perspective going forward, this 
makes sense. We are going to be planning a trip to the 
fabricator of the control system to take a look at just how 
these three brains, if you will, three separate security 
panels, can interface. Once we get there, with the fire 
marshal, with all of our mechanical experts, and we take a look 
at how we can interface these, we'll be able to determine 
whether or not we can overlap to any significant degree the 
expansion space testing from the CVC testing.
    What we've got planned right now is that the CVC testing 
itself, which we're currently scheduling at 4\1/2\ months, 
would have to be complete before we could start testing the 
expansion spaces. The question of how those panels in the 
expansion spaces, again, feed into the central panel and 
whether or not the fire marshal perceives that the brains in 
these are significant enough to be able to test separately and 
distinctly and not mar the testing for the central CVC is a 
main contingent element that's going to impact the timeframe 
and the lag between testing all those--the multiple systems. 
Bob, do you want to add to that?
    Mr. Hixon. I think you've covered it very well. The 
systems, once the fire marshal begins accepting the system for 
the CVC, the panel cannot be--we can't add items to the panel. 
So once we begin our--commence the testing for the CVC fire 
alarm acceptance in November, we won't be able to add the 
expansion space into that panel which is why the two areas have 
to, the expansion spaces have to follow the CVC. And that's 
what Mr. Hantman was addressing as there may be an alternative, 
at this point we don't know that there is, but that's something 
that'll be investigated.
    Senator Allard. I understand there might be some discussion 
about if the CVC and the expansion spaces completion occurs 
close together, whether you just hold off and open them all at 
once or if there's a longer lag time than expected, then 
perhaps you open the CVC under partial use.
    I'd like to have you discuss that just a little bit, if you 
would.
    Mr. Hantman. Absolutely, Mr. Chairman. One of the issues 
that's been occurring here, while we've lost time in the CVC 
because of the stone and the overall testing timeframe, 
unforeseen circumstances, we've actually been gaining time in 
the expansion spaces. Although originally we projected that 6 
to 8 months after the CVC opening the expansion spaces would be 
ready for opening, that delta is closing. So the expansion 
spaces are proceeding very well primarily because they're 
sheetrock and stud walls and acoustic ceilings and they haven't 
started the stone work in the expansion spaces yet or the 
finishes there but they're proceeding very well.
    So your point is well taken and we've discussed this with 
GAO and with Gilbane. As we get closer and we see what kind of 
progress is being made there, what makes the most sense. Does 
it make sense, in fact, to try to do them all together, which 
would imply a delay in the opening of the CVC because we'd be 
waiting on some of the issues to occur in the expansion spaces 
so we could test it altogether. And as Bob indicated, rather 
than having that central panel have new elements added to it, 
we would actually be doing it all at the same time and the 4\1/
2\ month timeframe itself would expand as well. So that's the 
kind of give and take that we'd have to be discussing in terms 
of the delay and potentially in the timing of the opening of 
the CVC while the expansion space might potentially be opened 
earlier and what are the positives and negatives about those 
options. And as we get closer to that, we'll be able to see, 
you know, what choices we really do have to make.
    Senator Allard. Mr. Ungar, staying with the fire and life 
safety systems, my understanding is that the design for the 
life safety systems isn't 100 percent complete and how would 
you rate that as a problem? Give us some insight on your 
perspective on that.
    Mr. Ungar. Mr. Chairman, it's true that the shop drawings 
for the fire protection system have not been submitted yet. The 
fire marshal has not had a chance to completely review those, 
obviously, and it certainly could be a problem. Maybe Mr. Dorn 
would like to comment on the extent to which this is a major 
issue or a medium degree issue.
    Mr. Dorn. It's hard to say at this point what the degree of 
problems could be. What it does is just increase the level of 
uncertainty in all of this. Because those pieces of work are 
being done in a design-build manner under the main contractor, 
it's probably not unusual for the designs not to be fully 
completed at this point. I don't think that's too big of a 
problem. We've still got a ways to go but it does add 
uncertainty to what the final cost is going to be because 
there's risks there.
    Senator Allard. Thank you. Senator Durbin, I don't know 
whether you're ready quite yet.
    Senator Durbin. I am. Thank you, Mr. Chairman.

                       SENATOR DURBIN'S STATEMENT

    First, Mr. Chairman, thank you for these continuing 
hearings and I think they're becoming increasingly important as 
we near the completion of this project. The exact time when 
that will occur is obviously up for some debate here but I was 
happy that we were socked in with a snowstorm, meaning that I 
stayed in Washington over the weekend and had a chance Monday 
morning with Mr. Hantman to visit this new CVC. I will tell the 
public or anyone who's not been there, and most people here in 
the room may have already visited, but it is the first time I 
had been underground to see what was going on and it is a very 
impressive undertaking. When you consider the magnitude of this 
challenge. First, to build something that is a fitting 
complement to the greatest building in America is a daunting 
task, second, to make certain that it meets the needs of the 
American people who come to this place for an opportunity to 
see the seat of our Government and all of the history attached 
to it and, third, to try to build this in a context of the 
world that we live in that has changed even since we came up 
with this concept, a world that is much more dangerous and much 
more challenging in many respects. It's a big undertaking and I 
have been along with others, critics of the process from time 
to time and will continue to be, I think that's my job. But I 
will say in fairness to all that are involved, I was very 
impressed and I think once completed the American people will 
feel that we have served them well. Maybe they wish we would 
have spent less money or done it faster but it will be, I 
believe, a fitting tribute to this great hill and America.
    I will just say that there are a couple of things that are 
worth noting as well. Having sat here as a critic of the 
process and the people, I think self-criticism is in order, 
too. We still haven't figured out who's going to run this 
place. The politicians on Capitol Hill haven't come to a 
conclusion as to who'll be in charge. Senator Allard and I have 
talked about this informally. It's still unresolved. We don't 
know what part of the building will be under whose jurisdiction 
at any given moment and so I think we have a job to do. Being 
critical of others, we should be critical of ourselves. It's 
time for the leaders in Congress in both political parties to 
sit down and make some wise choices so that the supervision of 
this facility is seamless and it is a tribute to the people who 
come and visit. There's work to be done in this regard.
    Mr. Hantman, you and I spoke about two particular issues 
that are raised here in this hearing. One, we hope will be 
moving forward with the appointment of a master to deal with 
this whole issue of the stone that's being used inside this 
Capitol Visitor Center and I sincerely hope that moves it 
forward. As I look at that as a former practicing lawyer, 
recovering lawyer as they say, former practicing lawyer, I 
don't know how we could have avoided this. When you get into a 
battle between a material-man and a subcontractor, it's hard to 
anticipate this might have happened and how to stop it and come 
to some good resolution, and maybe this master will achieve 
that.
    The second part of it is also an interesting I think and 
valid point made by the chairman and the GAO and the 
Architect's Office on this whole life safety system and the 
complexity of it. As I took a look at this space as big as it 
is, and I understand it's about two-thirds the size of the 
Capitol building itself, and understood all of the challenges 
of an underground facility with all of the air intake and 
exhausts, heating, air-conditioning and the like, I can see 
that this would be a substantial challenge. Now, give me a 
moment or two, Mr. Hantman, if you will, about the progress in 
reaching that goal so that we have something that makes sense 
in light of the planning and specifications that are needed.
    Mr. Hantman. Thank you, Senator Durbin, and I truly 
appreciate the time you took to walk through the project. I 
look forward to doing that as we, from a critical eye 
certainly, as we proceed toward completion.
    When the CVC was originally designed, Senator, the original 
dictum was, build the CVC and we would have future expansion 
space for the House and future expansion space for the Senate. 
The original budget basically included foundations and 
structural slabs, but there was no design for what the Senate 
might decide to use that future space for; no design for what 
the House might decide. After 9/11, what we designed as a CVC 
with raw concrete expansion space became a dictum to finish it 
as soon as we could and additional dollars were appropriated 
for that.
    This necessitated, as the program came forward, changes in 
the amount of air that was going to be pumped through the 
systems, additional air handling units, additional mechanical, 
additional electrical, especially as the use became better 
defined as not additional office space for the House or the 
Senate but as places of public assembly. This meant we would 
have a major hearing room on the House side, we would have 
major meeting rooms there. We have seven or eight hearing 
rooms, meeting rooms actually on the Senate side, so this is 
public assembly space which required more means of egress for 
more people, bigger air flows, bigger supplies of electricity.
    All of these things had to be changed while we already had 
a contract basically moving forward on the central visitor 
center portion of it. So the issue of fire and life safety was 
always one where we had anticipated that because we're an 
underground structure we didn't want to have stairways popping 
up all over the campus. We wanted to make sure that we were 
true to the historic nature of the building and to the 
landscape, the Olmsted landscape itself. So we went to great 
trouble to look at how we could basically make it safe for 
people in a fire or any kind of emergency to evacuate this 
building. And one of the means we determined would be most 
appropriate would be essentially to carve it into three 
sections, make fire safe walls between the expansion spaces and 
the central visitor center so that people could use that as a 
horizontal means of egress rather than vertical means of 
egress. If a fire is in, say, the central CVC, people could 
egress into the House expansion space or into the Senate 
expansion space. So the issue became more complicated once we 
wanted to finish off those spaces almost concurrently with the 
central visitor center because the construction of the 
expansion space lagged by 6 to 8 months. The authority and the 
funding for that came much later on.
    So how could we still get people out of the central visitor 
center if we are still under construction with the House and 
Senate expansion spaces? What kind of panic alarms would you 
have to put on the doors between the spaces? What kind of 
security issues were there in terms of the public being freely 
able to go into spaces that might not have secure means at that 
point in time? All of those issues became issues we had to deal 
with a lot earlier than we thought we would with future 
expansion space coming in.
    The schedule that we're talking about today, Senator, talks 
about expanding the 3-month testing period for fire and life 
safety to a 4\1/2\-month period because of the complexity of 
the systems. And I think I explained that we basically are a 
beta test site for the extreme level of security we have, 
mixing it in together with the fire and life safety criteria 
that we have for what is a place of public assembly 
underground. There are no models for this basically anywhere. 
In fact, I think the codes are going to have to revise sections 
of it. I've talked to somebody from NFPA, the National Fire 
Protection Association, and they really don't deal with issues 
in a very clear way that we've had to deal with and work out 
together with our professional engineers and with our fire 
marshal. We think with the timeframe we've given to this, 
Senator, we're going to be able to do the testing on this. Just 
before you walked in, we were talking about the expansion 
spaces and whether or not we're going to have to do that in 
sequence or some of that can be tested concurrently. Those are 
issues we still have to work through, but we think the schedule 
for the CVC we're talking about right now will account for that 
timeframe.

                             WORKER SAFETY

    Senator Durbin. If I can ask one other question that came 
up in previous hearings and that's about worker's safety. We 
talked about that as we did the tour, and what is the status of 
worker safety at the CVC and what initiatives have been put in 
place to improve what was a record that I challenged at one of 
the earlier hearings?
    Mr. Hixon. Senator Durbin, we've made a lot of progress in 
the safety program. Manhattan has been making a number of 
changes. Lately, the things that are going on is twice a month, 
every other week, we have training classes, such as in 
February, fall protection in scaffolding, in order to improve 
the training of the workers. They have had meetings with the 
foremen. They're about to unveil next week an incentive program 
that will provide for gift cards for workers and particularly 
for foremen who have safe crews to try and encourage them to 
work more safely. The results of what they've been doing is we 
still are having one to two incidents a month which is still 
higher than we would like to have. But, in the timeframe 
between January and July last year we had 7 lost time accidents 
of the 12 recordable accidents and between August and February 
we have 2 lost times in 9 over that same 7-month period, so 
there's been a significant improvement. There's a great 
emphasis being placed on safety by both the construction 
manager and the contractor so things have improved a great deal 
but we're still not satisfied with where they are and continue 
to look for ways to improve that.
    Senator Durbin. Are there people who go through the work 
site and just make a general observation of how things are 
going, debris practices, and can comment at that time to the 
workers or foremen that there should be some change in the way 
they approach it?
    Mr. Hixon. Are there people doing that? Yes, sir. Manhattan 
has two safety officials on their staff right now who are going 
through ensuring that the workers have on their safety 
equipment; that they're working in a safe manner; that they're 
not leaving rolling stock on the floor for people to fall over. 
It's a continuing issue for them to press those things with the 
workers. Their men are removed from the job site if they're 
found to be working unsafely, or they're not tied off properly. 
They were tagging scaffolding for a while because their 
subcontractors were putting up scaffolding that Manhattan felt 
was not safe, so there's been a great deal of effort focused on 
this to try and improve it as much as it has, and they're still 
looking to get it a whole lot better.
    Senator Durbin. Mr. Ungar, Mr. Dorn, would you comment on 
that worker safety issue?
    Mr. Hantman. Mr. Dorn will go ahead and respond to that.
    Mr. Dorn. We agree with Bob that the worker safety has 
improved on the job site. In particular, the lost time incident 
rate has gone down to 3.7, where it used to be 10.4, which is 
still higher than the industry average of 3 but those numbers 
describe a dramatic improvement. One of the ongoing problems 
that we're continuing to see is housekeeping. That's been 
raised by Manhattan's safety people that are walking the job 
site. It is recognized as being a continuing problem.

                              HOUSEKEEPING

    Senator Durbin. What do you mean by housekeeping?
    Mr. Dorn. Housekeeping, as you mentioned, debris laying 
around on the job site. Some of that could be food from 
employees having lunch, it could be masonry block that was cut 
so you end up with some broken pieces laying around, things 
like that, and just orderly placing of stored materials. That's 
not as good as it could be. There's one incident recently where 
an employee, contractor employee, stepped on a nail. He didn't 
require hospitalization and didn't lose time from work, but 
needed a tetanus shot. So it can cause problems in that way. 
The other----
    Senator Durbin. I don't--see, that's the part I don't 
understand. Training workers and making sure they do things 
safely is understood but keeping a litter-free or debris-free 
work site seems to me as obvious as your parents saying clean 
your room. Isn't there--wouldn't that be something that could 
be executed pretty simply?
    Mr. Dorn. It is a requirement of the contract to keep the 
site clean. AOC made care to put that in the contract. It's a 
matter of enforcing that with the subcontractors. The less 
cleaning they do, the more money they make, so it needs to be 
drilled into them, sir.
    Senator Durbin. Pretty quick analysis of it. Mr. Hixon, why 
aren't we enforcing it?
    Mr. Hixon. We're pressing on this continuously. It's every 
day they're generating debris, they're cleaning up the debris, 
but we continue to have more debris than we would like to have 
so this is an issue that is brought up on a regular basis.
    Senator Durbin. Thank you. Thanks, Mr. Chairman.
    Senator Allard. Thank you. You've been a contributing 
member of this subcommittee and appreciate your comments and 
thoughts as we go through this hearing.

                       OPENING OF EXPANSION SPACE

    I want to go back again to the expansion spaces and then 
the CVC about whether you can open those areas together or not. 
Are you doing some sort of a cost benefit analysis on that? If 
not, do you plan on doing one in the future?
    Mr. Hantman. As I indicated, Mr. Chairman, as we get closer 
to seeing just how much time that the expansion spaces are 
making up or actually ahead of their schedule and as that delta 
between the projected opening of the CVC and the expansion 
spaces occur, the detail testing and evaluation plans can 
really look at what impact it would be in terms of formally 
changing the timeframe for the opening of the CVC. One of the 
choices might be to open the CVC later so that you can test the 
entire facility together as opposed to doing them sequentially. 
The best of all worlds, Mr. Chairman, would be as we look at 
the design build control system that is being developed for the 
facility, that we could do the testing concurrently. For 
instance, if we were to finish and start the testing for the 
CVC in November and finish the work on the expansion spaces in 
late December or January, could we continue testing the CVC and 
also then concurrently start testing the expansion spaces or do 
we have to finish off the CVC testing before we can start the 
testing of the expansion spaces?
    The alternative would be if we get closer to say, well, do 
we want to lose several months on the opening timeframe for the 
central portion of the CVC and open up everything together, and 
those are the kinds of things we need to talk about as we get 
closer to it. We do need to evaluate that and see what the 
impact is.

                             TRADE STACKING

    Senator Allard. Senator Durbin here talked a little bit 
about trade stacking. You try to get these various trades to do 
things in a sequential order but since we've had to compress 
some things here because of some delays, do you view the trades 
stacking as a problem and are there ways in which we can 
mitigate that and is that a safety problem?
    Mr. Hixon. Trade stacking is a great concern we have. As 
you watch the activities that have taken place as we've slipped 
work because the stone hasn't proceeded as quickly as it could, 
we now end up squeezing the ceiling and follow-on activities 
into a shorter period of time. They end up interfering with 
each other so that you end up with floor stone going in before 
the ceiling work goes in, which is not the most desirable order 
for it to go in. So these are efforts that the contractors take 
and to try and overcome the impacts of delays in the stonework. 
But it is a big concern that we could end up with too many 
people in an area trying to get their work performed, and that 
results in inefficiencies that--ultimately, would delay 
completion. We are not expecting any dropoff in quality which 
is also a potential issue you could have but what we are 
concerned about is you'll end up with too many people trying to 
work in the same place and they literally cannot get all their 
work done if there're too many of them in one location.

                            FLOOR STONE PLAN

    Senator Allard. This is a follow up question. When will the 
Architect of the Capitol have a detailed plan similar to your 
wall stone plan for installing the floor stone? Do we not have 
a plan there?
    Mr. Hixon. The request for the floor stone plan was issued 
a couple of weeks ago. It's been promised to be here shortly. 
They're expecting now that it'll be involved--we'll get it next 
week. I'm not absolutely sure we'll get it that quickly. The 
issue is they've got to coordinate the wall stone installation 
with the ceiling. I mentioned that we're getting wall stone--
floor stone installed before ceiling work. That would mean 
you'd have to protect the floors and then go back and do the 
ceilings and how to coordinate that and also allow for the 
heavy equipment that's got to traverse the site from the great 
hall out into the other areas and not have it running over the 
floor stone that you've just installed.
    So there's some coordination of all of their activities 
that's involved in this, not just a straight scheduled 
installation of the floor stone. So they're working on that. 
We're hoping to get it next week but it may take a little 
longer.

                             STONE DELIVERY

    Senator Allard. Okay. Thank you. Now, is the stone delivery 
keeping pace with the schedule at this point and can we expect 
it will continue at the 2.5 truckloads per week that's required 
to meet the schedule?
    Mr. Hixon. The stone delivery is occurring in accordance 
with that 2.5. The contractor was looking for the fabricator to 
provide 4 truckloads a week in order to make up the backlog of 
20 truckloads. To this point, that has not happened. There's a 
lot of interest by the special master and the court in how much 
stone is being produced in meeting their requirements. We're 
hoping and expecting that they will continue to provide stone 
at the 2.5 truck loads a week. We are not expecting that 
there'll be a dramatic improvement in that. The schedule that 
we have is based on the 2.5 truck loads a week continuing and 
not receiving the additional stone. If we receive additional 
stone, that would help the schedule.

                    OFFICE OF COMPLIANCE INSPECTION

    Senator Allard. I only have a couple more questions left. 
This morning's Hill newspaper had an article in about the 
Office of Compliance and they want to inspect the Capitol 
Visitor Center before it's open. Do you expect that their 
review will add to any potential delays? I think it's a good 
idea but I'd like to hear your comments on that.
    Mr. Hantman. We had a meeting, Mr. Chairman, last week with 
the Office of Compliance and we gave them a presentation on 
what the provisions were that we made for fire and life safety, 
for ADA, for all the issues that they're concerned with. My 
sense was that they were very impressed, that we've really gone 
above and beyond the call of duty here and made sure that from 
an ADA perspective, we have more elevators than I think most 
people would have put in, the ramps, the transition areas, the 
ability for folks to get in safely and around.
    In fact, we had a tour with the Paralyzed Veterans of 
America just 2 weeks ago. I think they were very impressed with 
the provisions we've been making on that. So I think what we 
need to do, Mr. Chairman, is just, we've also given the Office 
of Compliance a tour of the visitor center. We'll give them 
plans of it, we'll work with them, let them understand what we 
are doing and how it works. I'm very comfortable with the fact 
that we have certainly met codes, we've done things in a very 
professional way in terms of the issues that they're concerned 
with because we are very concerned, certainly, that whatever 
we're building over here is going to be safe for the people who 
use it and for the Capitol.

          INTEGRATION OF CONSTRUCTION AND OPERATIONS SCHEDULES

    Senator Allard. Very good. Now, as of our last hearing, the 
construction and operations schedules were not linked in the 
total project schedule. Is the Capitol Visitor Center 
operations schedule now fully integrated and linked with the 
Capitol Visitor Center construction schedule?
    Mr. Hantman. The latest schedule that we're talking about 
as of this meeting today, Mr. Chairman, is something that we're 
looking at and we're working on with our consultants, Zell, and 
the operations and how that impacts potentially the hiring of 
people coming on.
    I think what we need to do, Mr. Chairman, as you asked 
earlier, is get our executive director on board, have that 
person sit down with Zell, really look through the plan that we 
currently have, the approvals we currently have for hiring, and 
what the change in opening day that we're talking about now 
might have as an impact on the hiring of people and training of 
them in an appropriate way. So that's an ongoing process right 
now.
    Senator Allard. And that's one of those issues I think 
would be very helpful as we're working through this budget for 
2007, particularly.
    Mr. Hantman. Yes.
    Senator Allard. Okay. Any summary comments? Any conclusions 
that any of the witnesses want to share?
    Mr. Ungar. Yes, Mr. Chairman, we think that there are three 
things that are very important for AOC and the CVC team to 
focus on, just to summarize very briefly. First and foremost is 
the stone installation, the supply of stone, the pace of 
installation, and the floor stone schedule that you had asked 
Mr. Hantman about.
    Second, the trade stacking, AOC and the team have got to 
stay on top of that or they could run into real problems. 
Third, the commissioning and the acceptance testing of the 
major systems and how well they function together is very 
critical, can really adversely affect the schedule and the cost 
if they run into major problems there. So those are three 
things that the team really needs to focus on and the 
subcommittee may want to follow up on in the next hearing.
    Senator Allard. Mr. Hantman.
    Mr. Hantman. Mr. Chairman, I just personally want to thank 
you for the interest, the involvement, and the focus that you 
bring to this the visitor center project. It's a critical 
historical project, and I welcome certainly Senator Durbin's 
comments about the quality work that we're doing and the way it 
will, in fact, work with the Capitol itself and serve future 
generations well. So we want to do it right. We're working on 
it, clearly, this is a very complex project, as the Senator 
indicated and we certainly concur, and certainly GAO has said 
that as well, and there are continued risks on it so we look 
forward to working together to make sure that we get it done as 
quickly, as efficiently, and has in terms of the best quality 
possible going forward. So, thank you, sir.
    Senator Allard. Well, I want to thank the panel. I know 
that we take away from your daily schedules for you to be here 
to share with this subcommittee how the progress is going with 
the Capitol Visitor Center. And I know that sometimes you don't 
agree on some of the issues but that helps us understand the 
complexity of the problem, understand what's going on, and we 
don't expect two people to always agree.
    I hope that these hearings have been beneficial and as I 
mentioned earlier, establishing a record of what's happening 
can also be helpful in future projects as we move forward, 
which is one of the purposes we want to accomplish toward the 
end of these hearings.
    I would agree with what Senator Durbin had stated that this 
is going to be a wonderful thing when we get done and you've 
made that comment a number of times in your statements, Mr. 
Hantman, and I agree, but I think that my colleagues feel 
better if they have some oversight and I think the public in 
general feels better with oversight and there's more 
understanding of what problems you face and I think that helps 
all of us in working toward the ultimate goal to get this done 
within some reasonable budget restraints and on time and 
getting the project available so the public can begin to enjoy 
it. So thank you, again, for all your time and your effort.

                          SUBCOMMITTEE RECESS

    The next hearing we're setting up for 4 weeks from today 
and it'll be at the same time and place. So, thank you all.
    [Whereupon, at 11:35 a.m., Wednesday, February 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
















         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:15 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. Today 
we're going to again have you Mr. Hantman, and Bob Hixon, 
Bernie Ungar and Terrell Dorn, and first of all we'll want to 
hear from you Mr. Hantman, on your testimony and then we'll 
turn to GAO.
    Before I turn to the panel this morning, I just want to 
make a few comments. The good news is the interior wall stone 
installation has kept pace in the last month. Unfortunately, 
other areas such as floor stone installation have fallen behind 
and only five of nine milestones were completed in the last 
month. In addition, I'm concerned about the number of design 
changes that continue to be made and the increasing prospect of 
trade stacking. That's in relation to our visitor center.
    Mr. Hantman, we'll now proceed with your testimony.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

                 CAPITOL VISITOR CENTER PROJECT STATUS

    Mr. Hantman. Thank you, Mr. Chairman, well I've already 
discussed and you've mentioned yourself the project's budget 
and the schedule in the budget testimony. We're reporting no 
change from what we discussed last month in our projections. 
We'll continue to monitor closely the two key issues affecting 
the project: the installation and fabrication of stone, the 
acceptance testing of the CVC's complex fire and life safety 
systems.
    Regarding stone installation. The stone fabricator would 
need to ship approximately 4 deliveries of stone each week to 
catch up on the 20 deliveries of stone on which he is behind 
schedule. Since our last hearing it did not increase, but it 
did maintain, as you mentioned, some 10 truckloads per month. 
Therefore, we're reporting no change in the March 2007 project 
completion date, and the April 2007 formal opening.
    At the current pace, with 33 mason teams setting 
approximately 1,000 to 1,100 stones each week, stone 
installation will be complete in August which is consistent 
with the latest project schedule.
    We're currently addressing budget needs related to the 
commissioning process for fire and life safety systems to 
accommodate additional staff, the fire marshal needs to conduct 
the tests in a timely manner.
    Last month we agreed with GAO's statement that trade 
stacking can be an issue if delays in stone installation create 
a scenario where multiple trades are attempting to execute 
their work in the same area at the same time. To address this 
concern, the sequence 2 contractor has begun to develop 
detailed schedules for specific geographic areas in the CVC. 
For example, the food service area, the first work zone to be 
addressed will be delineated into several smaller work zones. 
Subcontractors will be given specific times when the space will 
be available. This helps each contractor plan their work more 
efficiently, keeps pressure on each contractor to perform their 
work within the timeframe specified.
    Especially since there will be an understanding that other 
subcontractors have also been scheduled to work at specific 
times in the same work zone.
    We expect to see the first detailed schedule plan for the 
food service area at the end of this month, with detailed 
schedules for other areas to follow. I should also point out 
that decreasing the need for multiple contractors to work in 
the same areas simultaneously also enhances worker safety by 
minimizing crowded positions and conditions.

                        CONSTRUCTION HIGHLIGHTS

    Regarding overall safety on the CVC site the incident rate 
numbers again show improvement from previous months. The 
sequence 2 contractor continues to teach a 10-hour Occupational 
Safety and Health Administration (OSHA) course that addresses 
all aspects of worker safety. With 1-hour classes held each 
week. Once the OSHA course training is complete in 3 weeks, the 
contractor will resume teaching safety classes for specific 
trades.
    As we monitor very closely the pace of stone installation 
and deliveries, many other activities are occurring and workers 
continue to make steady progress, Mr. Chairman, in all areas of 
the facility. I'd like to bring your attention to a few 
construction highlights since our hearing last month.
    In the upper west lobby, adjacent to the east front, just 
beyond the orientation theaters, masons have installed 97 
percent of the wall stone and crews are now working on ceiling 
framing and utility installation in this area. In the east 
front itself, crews have nearly completed all of the block 
work. These areas will soon be turned over to the stone masons. 
Since receiving some relief from the injunction last December, 
the stone contractor has been able to pursue an alternate 
quarry for sandstone, and that stone is now arriving for the 
east front.
    Late in February, masons installed some of the sample stone 
from that quarry on a wall at the lower level at the east 
front. We expect further stone installation to begin in earnest 
once the block work is finished in this area.
    The most recent hearing held on March 3, with the special 
court master, resulted in new direction, Mr. Chairman, and he 
continues his efforts to resolve the dispute between the 
subcontractors.
    As you can see on this board, Mr. Chairman, in the great 
hall, scaffolding now occupies more than 50 percent of the 
space, and crews have begun framing portions of the three 
barrel vaulted ceiling alcoves between the great hall 
skylights. I was down there yesterday, Mr. Chairman, and it's 
great to be able to see that framing going into place right 
now.
    In the corridors, north and south of the great hall, 
painters are busy priming drywall, plaster walls and ceiling 
soffits. Plastic sheeting can now be seen covering walls in 
several areas to protect all the stone work while crews paint 
ceilings and complete other adjacent finishing activities.
    Wall stone is also 97 percent complete in the exhibit 
gallery. And workers have nearly completed the assembly of the 
steel framework for an elevated glass floor in the center of 
the gallery. Earlier this month we gave the fabricator of the 
glass floor panels notice to proceed with production. So that 
whole void that we had in the center of that exhibition gallery 
area is being filled up now with the framing. We should see the 
glass coming in, in a reasonable amount of time as we get that 
finished.
    As we reported last month, wall stone is complete in both 
orientation theaters, and ceiling framework is nearly complete 
as well. In late February, in the north orientation theater, 
workers hung eight 20 foot high steel panels that will slide in 
front of the projection screens. Later a cherry wood veneer 
will be anchored to the steel as a final finish on these panels 
and form a back drop for room functions other than just film.
    Both the Senate and the House orientation theaters should 
be able to be used for other activities as well. Meanwhile work 
continues to progress well in both the House and Senate 
expansion spaces. While the contractor did experience some 
schedule slippage in February, when compared to the previous 
month, these areas are still tracking ahead of their 
contractual completion date of March 2007.
    Primer painting is nearly complete on the middle level in 
the House space, and on the upper level of the Senate side. The 
metal stud framework for the Senate recording studio is nearing 
completion.
    Crews are now installing drywall throughout this level. 
Outside, Mr. Chairman, along the north and south walls of the 
congressional auditorium, foundation work progresses well on 
the stepped walkways and concrete planter boxes that lead down 
into the CVC entrance.
    During the next few weeks the first of 85 new trees for the 
east Capitol Grounds will be planted within these zones. These 
trees were selected 3 years ago, and have grown into robust 
specimens, between 18 to 27 feet high. When planted, they'll 
almost immediately begin to reestablish the alee of trees that 
Mr. Olmsted planted back in 1874.
    Initially 32 tulip poplar trees will be planted this 
spring, with the remaining 50 trees and myriad shrubs to be 
planted this fall as the project nears completion.
    On East Capitol Street, work on the utility tunnel that you 
visited last time, Mr. Chairman, is in its final stages, and 
tunnel close in work at the connection at Second Street is 
complete. The electrical duct bank above the tunnel is 95 
percent complete and crews will begin later this month placing 
a 10 inch concrete slab above the tunnel.
    Crews will begin this work at Second Street and move west 
toward First Street where tunnel close in work is near 
completion. Weather permitting, the contractor will complete 
concrete and asphalt placements during the next several weeks 
and East Capitol Street will reopen to traffic in late April, 
or early May.
    On the operations front, we've begun to review proposals 
for the food service contract. A selection for that contract is 
expected by mid-year.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my statement and once again 
thank you for this opportunity to testify. I'd be happy to 
answer any questions you might have.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, thank you for the opportunity to brief you in greater 
detail regarding the progress of the Capitol Visitor Center project. 
I've already discussed the project's budget and schedule in my fiscal 
year 2007 budget testimony. We are reporting no change from what we 
discussed last month in our projections. We will continue to monitor 
closely the two key issues affecting the project: the installation and 
fabrication of stone and the acceptance testing of the CVC's complex 
fire and life-safety systems.
    Regarding stone installation, the stone fabricator would need to 
ship approximately four deliveries of stone each week to catch up on 
the 20 deliveries of stone on which he is behind schedule. Deliveries 
since our last hearing did not increase, and the contractor only 
maintained the original expected rate of 10 truckloads per month. 
Therefore, we are reporting no change in the March 2007 project 
completion date and an April 2007 formal opening. At the current pace, 
with 33 mason teams setting approximately 1,000 to 1,100 stones each 
week, stone installation will be complete in August, which is 
consistent with the latest project schedule.
    We are currently addressing budget needs related to the 
commissioning process for fire and life-safety systems to accommodate 
additional staff the Fire Marshal needs to conduct the tests in a 
timely manner.
    Last month we agreed with GAO's statement that trade stacking can 
be an issue if delays in stone installation create a scenario where 
multiple trades are attempting to execute their work in the same area 
at the same time. To address this concern, the Sequence 2 contractor 
has begun to develop detailed schedules for specific geographic areas 
of the CVC. For example, the food service area, the first work zone to 
be addressed, will be delineated into several smaller work zones. 
Subcontractors will be given specific times when the space will be 
available to them. This helps each contractor plan their work more 
efficiently and keeps pressure on each contractor to perform their work 
in the time frame specified. Especially since there will be an 
understanding that other subcontractors have also been scheduled to 
work at specific times in the same work zone. We expect to see the 
first detailed schedule plan for the food service area at the end of 
this month, with detailed schedules for other areas to follow. I should 
also point out that decreasing the need for multiple contractors to 
work in the same areas simultaneously also enhances worker safety by 
minimizing crowded conditions.
    Regarding overall safety on the CVC site, the incident rate numbers 
again show improvement from previous months. The Sequence 2 contractor 
continues to teach a 10-hour OSHA course that addresses all aspects of 
worker safety, with one-hour classes held each week. Once the OSHA 
course training is complete in three weeks, the contractor will resume 
teaching safety classes for specific trades.
Project Progress Update
    As we monitor very closely the pace of stone installation and 
deliveries, many other activities are occurring and workers continue to 
make steady progress in all areas of the facility. I would like to 
bring to your attention a few construction highlights since our hearing 
last month.
    In the upper west lobby adjacent to the East Front, just beyond the 
orientation theaters, masons have installed 97 percent of the wall 
stone and crews are now working on ceiling framing and utility 
insulation in this area.
    In the East Front itself, crews have nearly completed all of the 
blockwork. These areas will soon be turned over to the stone masons. 
Since receiving some relief from the injunction last December, the 
stone contractor has been able to pursue an alternate quarry for 
sandstone and that stone is now arriving for the East Front. Late in 
February, masons installed some of the sample stone from that quarry on 
a wall at the lower level of the East Front. We expect further stone 
installation to begin in earnest once the blockwork is finished in this 
area. (The most recent hearing held on March 3 with the Special Master 
resulted in no new direction as he continues his efforts to resolve the 
dispute between the contractors.)
    In the Great Hall, scaffolding now occupies more than 50 percent of 
the space and crews have begun framing portions of the three barrel-
vaulted ceiling alcoves between the Great Hall skylights.
    In the corridors north and south of the Great Hall, painters are 
busy priming drywall, plaster walls, and ceiling soffits. Plastic 
sheeting can now be seen covering walls in several areas to protect all 
the stone work while crews paint ceilings and complete other adjacent 
finishing activities.
    Wall stone is also 97 percent complete in the Exhibit Gallery and 
workers have nearly completed the assembly of the steel framework for 
an elevated glass floor in the center of the gallery. Earlier this 
month, we gave the fabricator of the glass floor panels notice to 
proceed with production.
    As we reported last month, wall stone is complete in both 
orientation theaters and ceiling framework is nearly complete. In late 
February, in the north orientation theater, workers hung eight 20-foot-
high steel panels that will slide in front of the projection screen. 
Later, a cherry wood veneer will be anchored to the steel as a final 
finish on these panels to form a backdrop for room functions other than 
the orientation film.
    Meanwhile, work continues to progress well in both the House and 
Senate expansion spaces and, while the contractor did experience some 
schedule slippage in February when compared to the previous month, 
these areas are still tracking ahead of their contractual completion 
date of March 2007. Primer painting is nearly complete on the middle 
level in the House space, and on the upper level of the Senate side, 
the metal stud framework for the Senate recording studio is nearing 
completion. Crews are now installing drywall throughout this level.
    Outside, along the north and south walls of the Congressional 
Auditorium, foundation work progresses well on the stepped walkways and 
concrete planter boxes that lead down into the CVC entrance. During the 
next few weeks, the first of 85 new trees for the East Capitol Grounds 
will be planted within these zones. Mr. Chairman, these trees were 
selected three years ago and have grown into robust specimens between 
18 and 27 feet in height, so when planted, they will almost immediately 
re-establish the sense of the alee of trees Frederick Law Olmsted 
intended for this area in his plan of 1874. Initially, 32 Tulip Poplar 
trees will be planted this spring with the remaining 50 trees and 
myriad shrubs to be planted this fall as the project nears completion.
    On East Capitol Street, work on the utility tunnel is in its final 
stages and tunnel close-in work at the connection at Second Street is 
complete. The electrical ductbank above the tunnel is 95 percent 
complete and crews will begin later this month placing a 10-inch 
concrete slab above the tunnel. Crews will begin this work at Second 
Street and move west toward First Street where tunnel close-in work is 
nearing completion. Weather permitting, the contractor will complete 
concrete and asphalt placements during the next several weeks and East 
Capitol Street will reopen to traffic in late April or early May. On 
the operations front, we have begun to review proposals for the food 
service contract. A selection for that contract is expected by mid-
year.
    Mr. Chairman, this concludes my statement. Once again, thank you 
for this opportunity to testify. I would be happy to answer any 
questions you may have.

               MEETING CAPITOL VISITOR CENTER MILESTONES

    Senator Allard. Thank you for your testimony, Mr. Hantman, 
and I do agree with you that when we're all finished it's going 
to be a fabulous facility for everybody to enjoy. But I do have 
some concerns about your meeting some of the deadlines that you 
have set out. For example, this last month only five of the 
milestones were completed, and only three of those were on 
time. We need testimony from GAO, let's go ahead and do it, and 
then we'll get into questions.
STATEMENT OF TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ungar. Mr. Chairman, thank you very much, we're pleased 
to be here. Mr. Dorn will do our oral summary, and then we'll 
both be available for questions.
    Mr. Dorn. Thank you Mr. Chairman, as Mr. Hantman has 
already said, construction certainly moved forward over the 
past month. In addition AOC has followed up on some of our 
previous recommendations on developing detailed floor stone 
installation plans and also they're developing a plan to reduce 
the impact of trade stacking. I think those are both great 
things that the Architect and Manhattan are taking on, so 
that's some positive news.
    Unfortunately, we continue to believe that their April 
opening date for the CVC and the May opening date for the 
expansion space are both optimistic. They're not allowing 
enough time for several critical activities to take place, or 
for risk and uncertainty as it continues to affect the project.
    A number of red flags are out there popping in the stiff 
breeze today. For example the expansion space schedule has lost 
4 weeks over the past month. The completion date didn't change 
in their schedule, but they lost 4 weeks of float. So that's a 
serious concern about the completion of the Senate and House 
expansion spaces. The number of critical paths increased from 
18 to 20 last month. Out of those 20, 12 of them lost time. Out 
of the top 10 critical paths, 6 of them lost 2 to 4 weeks last 
month.
    Gilbane also pointed out that Manhattan's earnings are too 
low to complete the project on time. Of our nine critical 
milestones, as you mentioned, only five were completed. And out 
of those, only three were completed on time or ahead of 
schedule.
    They did not meet production targets last month for the 
wall and floor stone, they hit--about 90 percent of their 
target for the wall stone, and only about 45 percent of their 
target for the floor stone.
    Our current estimate for the cost of completion is $556 
million without risk and uncertainties. This is about $1 
million more than last month, because AOC now estimates that 
they need additional funds for fire alarm testing. AOC is 
covering the cost in their general administration budget, not 
in the CVC budget. Our $584 million high end estimate, 
including risk and uncertainty still remains the same. So in 
summary Mr. Chairman, the AOC needs to continue their good 
efforts at developing plans for the wall and floor stone and 
their efforts to address a schedule delay analysis is also 
important. It's the same recommendation we made last month.
    Thank you Mr. Chairman.
    [The statement follows:]
                   Prepared Statement of Terrell Dorn
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on the 
Architect of the Capitol's progress in achieving selected project 
milestones and in managing the project's schedule since the 
Subcommittee's February 15, 2006, hearing on the project.\1\ As part of 
this discussion, we will address a number of key challenges and risks 
that continue to face the project, as well as actions AOC has taken or 
plans to take to address these risks. In addition, we will discuss the 
status of the project's costs and funding.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Results of Risk-based Analysis of 
Schedule and Cost, GA0-06-440T (Washington, D.C.: Feb. 15, 2006).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (including AOC 
and its major CVC contractors), AOC's Chief Fire Marshal, and 
representatives from the U.S. Capitol Police. We also reviewed AOC's 
construction management contractor's periodic schedule assessments and 
daily reports on the progress of interior wall and floor stonework.
    In summary:
    Since the Subcommittee's February 15 CVC hearing, the CVC team has 
continued to move the project's construction forward, but we continue 
to believe, as we said at the February hearing, that AOC's proposed 
opening dates--April 2007 for the base CVC project and May 2007 for the 
House and Senate expansion spaces--do not allow enough time to complete 
several critical activities and to address problems, challenges, risks, 
and uncertainties. During the past month, the CVC team has essentially 
maintained the pace of critical interior wall stone installation, 
developed a draft work plan for floor stone installation, started to 
develop a work plan to prevent a stacking of trades \2\ during finish 
work, and maintained the opening dates that AOC announced at the 
February CVC hearing. However, the number of activities critical to the 
project's timely completion has increased, and several of these 
activities are now scheduled to take longer to complete than planned. 
In addition, wall stone deliveries are still backlogged, critical 
building systems still have to be commissioned and tested, and although 
the project's overall design is essentially complete, certain design 
elements are still incomplete or are being clarified or refined. If the 
CVC team is successful in addressing these issues, we believe that the 
base CVC project can be opened to the public with a temporary cap on 
visitor occupancy in May 2007 and that the expansion spaces can be 
opened for occupancy beginning in mid-August to early September 2007. 
Congress may even be able to occupy the expansion spaces earlier if AOC 
implements a phased opening plan it is considering and if AOC is able 
to perform acceptance testing of the CVC and the expansion spaces 
concurrently rather than sequentially--a possibility AOC is continuing 
to explore. Nonetheless, we believe that AOC will be challenged to meet 
the later dates we are projecting because of the problems, challenges, 
risks, and uncertainties facing the project.
---------------------------------------------------------------------------
    \2\ Trade stacking can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
    We currently estimate that the total cost to complete the entire 
CVC project is about $556 million without an allowance for risks and 
uncertainties. This estimate exceeds our February 15 estimate by about 
$1 million because AOC now preliminarily estimates that it will need 
about that much to pay for contractual support needed to complete 
acceptance testing of the facility's fire protection system in time to 
meet the project's schedule. AOC plans to use its general 
administration appropriations for this work, including funds for fiscal 
year 2006 that it has on hand and about $950,000 in fiscal year 2007 
funds that Congress has not yet provided. To date, about $528 million 
has been provided for CVC construction. We continue to estimate that 
AOC will need about $25.6 million more in CVC construction funds to 
complete the entire CVC project without an allowance for risks and 
uncertainties and taking into account funding AOC plans to use from 
existing appropriations. Our $584 million estimate of the cost to 
complete the entire project with an allowance for risks and 
uncertainties remains unchanged because the cost of acceptance testing 
is one of the uncertainties covered by this allowance.
AOC Has Moved Construction Forward, but the Project Continues to 
        Experience Delays and Face Risks and Uncertainties
    AOC's February 2006 schedule shows, as did its January 2006 
schedule, that the CVC base project will be ready to open to the public 
with a temporary certificate of occupancy on February 13, 2007, and 
that the House and Senate expansion spaces will be ready for occupancy 
on April 24, 2007. To allow for possible delays and start-up time for 
operations, AOC has proposed an April 2007 opening date for the base 
project and a May 2007 occupancy date for the expansion spaces. AOC 
expects all construction work in the CVC, East Front, and expansion 
spaces to be completed by the April opening date for the base project, 
but the CVC's occupancy at any one time will be temporarily limited to 
3,500, compared with about 4,200, the normal anticipated occupancy 
level.\3\
---------------------------------------------------------------------------
    \3\ This temporary limit will be necessary because the ``horizontal 
exits,'' or passages, through the expansion spaces, which the life 
safety code requires for exiting the base CVC project, will not be 
available until later. These horizontal exits cannot be used until the 
fire alarm system in the expansion spaces has been fully tested and 
accepted--work that is not slated to be completed until after the base 
CVC is scheduled to open. Some additional work will likely be required 
to provide temporary emergency exit routes from the CVC, but the CVC 
team does not believe that this work or its costs should be 
substantial.
---------------------------------------------------------------------------
Our Analysis Indicates Later Opening Dates Than AOC Is Proposing
    We continue to believe, as we testified in February, that the CVC 
is more likely to be ready for opening with a temporary certificate of 
occupancy by about the end of May 2007 than by April 2007, as AOC is 
proposing. Our projected opening is somewhat later than AOC's because 
CVC team managers and members we interviewed believe that certain work, 
such as interior stonework and finish work for the base project and 
East Front, will take longer to complete than the revised schedule 
allows. Our projection also assumes that AOC will be successful in 
addressing the challenges it faces and takes into account the time that 
AOC believes will be necessary to prepare for operations after 
construction work is completed. Similarly, we continue to believe that 
the House and Senate expansion spaces are more likely to be ready in 
mid-August or early September 2007 than in April or May 2007, as AOC is 
proposing. We consider the later time frames more likely for two 
reasons. First, AOC has scheduled the acceptance testing of the 
expansion spaces after the acceptance testing of the base project and, 
according to our analysis, the base project's testing will take longer 
than scheduled. Second, AOC's Chief Fire Marshal believes the 
acceptance testing of the expansion spaces will take longer than 
scheduled. However, the expansion spaces could be ready sooner if AOC 
advances the schedule for the acceptance testing--a possibility AOC is 
exploring.
    Although construction work has been progressing and the sequence 2 
contractor has met several schedule milestones, delays have continued 
in a number of areas, and ongoing risks and uncertainties could cause 
further delays. AOC's construction management contractor reported that, 
in terms of the dollar value of the work in place, the overall CVC 
project was about 77 percent complete and the sequence 2 work was about 
63 percent complete as of February 28--up from about 74 percent and 59 
percent, respectively, as of January 31. Furthermore, as of March 13, 
the sequence 2 contractor had completed work on five of the nine 
schedule milestones that were due to be completed by today's hearing, 
according to the project's January 2006 schedule. Three of the five 
were completed on time or ahead of schedule. (See table 1 in app. I.) 
According to AOC's construction management contractor, during the last 
4 weeks, the sequence 2 contractor installed 4,363 pieces of interior 
wall stone, compared with its 4,794-piece wall stone installation 
target, but installed only 1,590 square feet of its preliminary 3,600 
square-foot floor stone installation target. (See table 2 in app. I.) 
In addition, in measuring the sequence 2 contractor's February 
performance against the project's January 2006 schedule, AOC's 
construction management contractor reported delays in 12 of the 20 
activity paths identified as important to meeting the base project's 
overall completion date. These delays included, but were not limited 
to, work in the East Front, the exhibit gallery, the auditorium, the 
utility tunnel, the great hall, and the orientation theaters and ranged 
from 2 to 36 work days, but did not affect the base project's overall 
completion date.\4\ According to the CVC team, the delays occurred for 
a variety of reasons, such as design changes, problematic sequence 1 
work, late submissions or approvals of shop drawings, and changes in 
the sequence of work activities by the sequence 2 contractor. Finally, 
in its CVC progress report for February, AOC's construction management 
contractor said that the sequence 2 contractor's monthly billings 
(reflecting the value of construction work done relative to the 
project's schedule) were generally not sufficient to meet AOC's 
currently scheduled completion date.
---------------------------------------------------------------------------
    \4\ However, several activities, including interior wall stone 
installation, penthouse mechanical work, and East Front fire protection 
system acceptance testing, were delayed to the extent that even 
relatively short additional delays could affect the CVC's overall 
completion date.
---------------------------------------------------------------------------
    The construction management contractor's February progress report 
also showed that several House and Senate expansion space activities 
had fallen behind the project's January 2006 schedule. These activities 
involved work on the House and Senate circular stairs, the House and 
Senate lower levels, and space intended for use by the U.S. Capitol 
Police on the service level. The CVC team said these activities were 
delayed because of (1) problems associated with sequence 1 or other 
sequence 2 work, (2) redesign resulting from the CVC team's 
misunderstanding of congressional requirements for certain space, or 
(3) security-related design changes. According to the CVC team, these 
delays will not affect the schedule for opening the expansion spaces, 
but could delay the base CVC project's opening if the lost time cannot 
be recovered, since certain expansion space work must be completed 
before the CVC can be opened to the public. At this time, the sequence 
2 subcontractor doing the expansion space work believes that most, if 
not all, of the lost time can be recovered and that all expansion space 
construction work necessary for the CVC's opening will be completed by 
December 31, 2006.
Project's Schedule Remains Vulnerable to Problems, Challenges, Risks, 
        and Uncertainties, Despite Actions AOC Has Taken and Plans to 
        Take
    As we indicated during the Subcommittee's February 15 CVC hearing, 
we believe that AOC will be challenged to meet even the later opening 
dates we have identified, given the problems, challenges, risks, and 
uncertainties facing the project. A brief update on these, as well as 
on AOC's actions and plans for addressing them, follows:
    Delivery of stone and pace of stone installation remain critical.--
In the 4 weeks preceding today's hearing, the sequence 2 contractor 
reported receiving 9 of the 10 truckloads of interior wall stone it was 
expecting from the stone fabricator, but had not received any of the 
20-truckload backlog. According to AOC, the supply of interior wall 
stone is adequate for the CVC at this time, given the quantity on hand, 
providing that the fabricator continues to deliver about 1,000 pieces a 
week for the next 12 weeks. However, AOC said that the pace of 
installation is such that additional delays are likely to occur if the 
fabricator does not deliver the needed stone on time. According to 
AOC's construction management contractor, the sequence 2 contractor has 
installed 4,363 pieces of interior wall stone since the last hearing, 
meeting about 91 percent of its production target. By contrast, the 
sequence 2 contractor has installed only about 1,590 square feet of 
floor stone, or about 44 percent of the quantity specified in a 
preliminary floor stone installation plan that the contractor provided 
to AOC shortly after the February 15 hearing. In addition, seven of the 
nine schedule milestones that AOC and we have been tracking for the 
Subcommittee for today's hearing are related to interior wall stone 
installation, and the sequence 2 contractor has met three of these 
seven milestones. Although the sequence 2 contractor has recently 
increased the number of stone masons working on the project, delays are 
likely if the targets for interior wall and floor stone installation 
are not achieved. The targets could possibly be missed if the masons 
are less productive than planned, work spaces are not ready or 
available for stonework to begin, or the fabricator fails to deliver 
stone on time. During the February 15 hearing, we noted that it was 
critically important for the CVC team to aggressively address this 
area. AOC and its construction management contractor agreed and have 
been tracking interior wall stone installation daily. In its February 
CVC progress report, AOC's construction management contractor noted 
that interior wall stone delivery was the most critical issue at that 
time.
  --Trade stacking could delay completion.--As we discussed during the 
        Subcommittee's February 15 CVC hearing, trade stacking could 
        hold up finish work, such as drywall or ceiling installation, 
        electrical and plumbing work, plastering, or floor stone 
        installation. This work could be stacked if wall stone is not 
        installed on schedule. Although the pace of wall stone 
        installation was essentially maintained in February, it is not, 
        according to AOC's construction management contractor, 
        sufficient to eliminate the risk of trade stacking and delays 
        in finish work. Such a situation could also increase the risk 
        of accidents and injuries. Hence, it remains important, as we 
        said at the February CVC hearing, for the CVC team to closely 
        monitor construction to identify potential trade stacking and 
        promptly take steps to avoid or, if necessary, address it. The 
        CVC team has also identified trade stacking as a high risk, and 
        the sequence 2 contractor has begun to develop area-by-area 
        plans that will show when each subcontractor will be working in 
        each area. The sequence 2 contractor expects to complete these 
        plans over the next few weeks and to meet regularly with its 
        subcontractors to review and update the plans. We believe this 
        is a positive step but note that further delays in completing 
        wall stone installation could still limit the available work 
        space, making it difficult for all the trades to complete their 
        work on schedule. AOC agrees and plans to monitor this 
        situation during its weekly risk management meetings with the 
        CVC team.
  --Complex building systems remain a significant risk.--The CVC will 
        house complex building systems, including systems for heating, 
        air conditioning, and ventilation; fire protection; and 
        security. These systems not only have to perform well 
        individually, but their operation also has to be integrated. If 
        the CVC team encounters any significant problems with their 
        functioning, either individually or together, during 
        commissioning or acceptance testing, the project could be 
        seriously delayed. The shop drawings for the CVC's fire 
        protection system, which are expected by the end of this week, 
        have not yet been approved by AOC's Chief Fire Marshal. Delays 
        could arise if the proposed system does not meet the design 
        specifications or fire protection code requirements. In 
        addition, the Chief Fire Marshal notes that delays could arise 
        if the CVC team does not adequately pretest the system and 
        correct any problems found during the pretesting. The CVC team 
        is aware of these risks and has been taking steps to mitigate 
        them as part of its risk management process. During the 
        Subcommittee's February 15 CVC hearing, we suggested that the 
        CVC team reassess its risk mitigation plans to ensure that it 
        has identified the steps necessary to prevent major problems 
        during the building systems' commissioning or testing and has 
        measures in place to deal quickly with any such problems should 
        they arise. AOC agreed and said that the CVC team will be 
        continuously assessing this situation as part of its risk 
        management process. It is also important to note that the Chief 
        Fire Marshal's timely completion of the fire protection 
        system's acceptance testing depends on his ability to obtain 
        sufficient funding for a contractor to help his staff perform 
        the tests. We will discuss this funding issue later in our 
        testimony.
  --Building design continues to evolve.--The CVC has undergone a 
        number of design changes. Some of these changes, such as 
        changes in the exhibit gallery and in the East Front, have 
        resulted in delays. In addition, designs or shop drawings for 
        some elements of the project, such as certain security 
        features, space for the Capitol Guide Service, and aspects of 
        the facility's fire protection systems, have not yet been 
        completed or fully approved and are subject to change. 
        Moreover, eight design changes or clarifications have been 
        issued since January 25, 2006. Additional design changes are 
        being considered and have the potential to cause further 
        delays. During the Subcommittee's February 15 CVC hearing, we 
        said it would be important for the CVC team to carefully 
        consider the need for proposed scope and design changes and try 
        to minimize the impact of necessary changes on the project's 
        schedule and cost. AOC agreed and said it plans to make only 
        necessary design changes.
  --Multiple critical activity paths complicate schedule management.--
        In reporting on the project's February 2006 schedule, AOC's 
        construction management contractor identified 20 critical 
        activity paths that are important to the project's on-time 
        completion--2 more paths than the contractor identified in 
        reporting on the project's January 2006 schedule. According to 
        the contractor's report on the project's February 2006 
        schedule, several of these activities fell behind schedule 
        during the month and could delay the project's completion if 
        the lost time cannot be recovered. As we have said in a number 
        of our previous testimonies on the CVC, having a large number 
        of critical and near-critical activities complicates project 
        management and increases the risk of missing completion dates. 
        We believe that the CVC team will be particularly challenged to 
        manage all of these areas concurrently and to deal effectively 
        with problems that could arise within these areas, especially 
        if multiple problems arise at the same time. During our 
        February 15 testimony, we said that it would be important for 
        the CVC team to reassess its capacity to effectively manage and 
        coordinate the schedule and work for the remainder of the 
        project. According to AOC, the CVC team has done this and 
        believes that it has the needed capacity. While we believe that 
        the steps being taken by the sequence 2 contractor to address 
        trade stacking should, if effectively implemented, help in 
        managing these critical activities, we continue to be concerned 
        about this issue and plan to monitor it closely as the project 
        proceeds.
  --Opening the CVC and expansion spaces at different times is likely 
        to result in a temporary cap on CVC occupancy and increase 
        costs.--As we reported during the Subcommittee's February 15 
        CVC hearing, AOC's current plan to open the CVC in April 2007 
        before the expansion spaces are scheduled for completion is 
        likely to result in a temporary cap on visitor occupancy and a 
        need to construct temporary emergency exits for fire and life 
        safety protection.\5\ AOC is proposing this sequential approach 
        because it believes that conducting the acceptance testing for 
        the fire protection system for the CVC and the expansion spaces 
        concurrently would delay opening the CVC to the public. 
        Although AOC has not yet estimated the additional costs 
        associated with the temporary measures that would need to be 
        taken, it does not believe they will be substantial. During our 
        February 15 testimony, we said that it would be important for 
        AOC to identify and consider the pros and cons (including the 
        estimated costs) of opening the CVC and expansion spaces at 
        about the same time and provide this information to Congress. 
        AOC agreed and said that a senior superintendent with its 
        construction management contractor will be evaluating this 
        situation and that AOC will provide the information to Congress 
        when the evaluation is complete.
---------------------------------------------------------------------------
    \5\ According to AOC, the CVC's occupancy at any one time would be 
temporarily limited to 3,500, compared with about 4,200, the normal 
anticipated occupancy level, until acceptance testing of the fire 
protection system for the expansion spaces has been completed.
---------------------------------------------------------------------------
    Finally, as we have said in previous discussions with AOC, its 
construction management contractor, and the Subcommittee, it will be 
important for AOC to have adequate analysis and documentation of the 
reasons and responsibilities for delays.\6\ We discussed this issue 
with AOC and its construction management contractor again last week, 
and they agreed to reassess this area and get back to us after the 
reassessment is done. They said that although they had received 
requests related to accelerating sequence 2 work, they had not yet 
received any requests from contractors for payment of costs related to 
delays encountered during sequence 2. However, they consider such 
requests likely in the future and agree that they need good information 
for evaluating them.
---------------------------------------------------------------------------
    \6\ See for example: GAO, Capitol Visitor Center: Effective 
Schedule Management and Updated Cost Information Are Important, GAO-05-
811T (Washington, D.C.: June 14, 2005).
---------------------------------------------------------------------------
Need for Additional Funding Has Grown
    In February, we estimated that the total cost to complete the 
entire CVC project would be about $555 million without an allowance for 
risks and uncertainties and could be as much as about $584 million with 
such an allowance. To date, about $528 million has been provided for 
CVC construction. This amount does not include about $7.7 million that 
was made available for either CVC construction or operations.\7\ 
According to AOC, it expects to use about $2 million of this amount for 
construction. To obtain the additional funding that it expected to need 
to complete the project's construction, AOC, in December 2005, 
requested $20.6 million as part of its budget request for fiscal year 
2007. This request was based, in part, on discussions with us and took 
into account our November 16, 2005, estimate of the cost to complete 
the project's construction without an allowance for risks and 
uncertainties and funding from existing appropriations. Our subsequent 
work--completed in preparation for the Subcommittee's February 15 CVC 
hearing--indicated that AOC would need about $5 million more, or about 
$25.6 million in additional funds, to complete construction without an 
allowance for risks and uncertainties. AOC has indicated that it plans 
to request this additional $5 million as a supplement to its fiscal 
year 2007 budget for CVC construction.
---------------------------------------------------------------------------
    \7\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. In June 2005, AOC received approval to 
use about $2.8 million of this $10.6 million, leaving a balance of 
about $7.7 million that can be used in the future after a rescission 
amounting to $84,800. AOC recently received approval to use more of 
these funds; we will discuss this in our testimony for the next CVC 
hearing.
---------------------------------------------------------------------------
    In February 2006, AOC contracted with a fire protection engineering 
firm, in part, to help AOC's Fire Marshal Division inspect, test, and 
review plans for the CVC's fire protection system. AOC has not yet 
received the final shop drawings for this system, but it preliminarily 
estimates that these contractual support services will cost about 
$1,150,000. According to AOC, it may be able to reduce these expected 
costs and it will be exploring ways to do so. On the basis of AOC's 
preliminary estimate and belief that the expected costs may be reduced, 
we added $1 million to our $555 million estimate of the cost to 
complete the entire project without an allowance for risks and 
uncertainties, bringing our total estimate to $556 million. We did not, 
however, change our $584 million estimate of the cost to complete the 
entire project with an allowance for risks and uncertainties, since 
contractual support costs for acceptance testing would be covered under 
such an allowance. Nor did we change our $25.6 million estimate of the 
additional CVC construction funds AOC would need because AOC has used 
and plans to use a different appropriation account to pay for this 
contractual support. AOC has used and plans to use its general 
administration account because this contractual support is needed to 
accommodate an overall increase in the Fire Marshal Division's 
workload, including its CVC-related work. AOC plans to use a total of 
$200,000 in fiscal year 2006 general administration appropriations to 
pay for contractual support for the CVC's acceptance testing and has 
requested another $450,000 in fiscal year 2007 general administration 
appropriations. After AOC has received the final shop drawings for the 
CVC's fire protection system and has explored ways to reduce the cost 
of needed contractor support, it plans to reprioritize its fiscal year 
2007 general administration budget request to obtain the remainder of 
the funding needed. At this time, AOC expects this amount to be 
somewhat less than $500,000, which would bring the total fiscal year 
2007 funding needed for contractual support for CVC acceptance testing 
to about $950,000. We plan to monitor and report to the Subcommittee on 
these costs as soon as AOC has a firmer estimate.
    Mr. Chairman, this completes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.
 Appendix I.--Capitol Visitor Center: Critical Construction Milestones 
       and Stone Installation Targets, February 16-March 15, 2006
    Table 1 compares the actual with the scheduled completion dates for 
critical sequence 2 construction milestones scheduled to be completed 
by March 15, 2006. Table 2 compares the actual with the targeted pace 
of wall and floor stone installation. The targets for wall stone 
installation are related to the wall stone milestones identified in 
table 1. The preliminary targets for floor stone installation are 
related to milestones that are scheduled to be completed after March 
15, 2006.

                     TABLE 1.--CRITICAL CONSTRUCTION MILESTONES, FEBRUARY 16-MARCH 15, 2006
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
              Activity                                    Location                       completion   completion
----------------------------------------------------------------------------------------------------------------
Wall Stone Area 2...................  East Front Basement.............................      3/06/06  ...........
Wall Stone Area 2 Pedestals.........  Orientation Lobby Upper Level...................      2/16/06      3/08/06
Wall Stone Area 1 Base..............  Orientation Lobby Upper Level...................      2/20/06      2/20/06
Wall Stone Area 1...................  Orientation Lobby Upper Level...................      3/06/06      3/02/06
Wall Stone Area 3 Base..............  Orientation Lobby Upper Level...................      3/10/06      2/20/06
Interior CMU Walls..................  East Front Subbasement..........................      2/06/06      2/21/06
Hang VP Drywall Ceiling.............  Congressional Auditorium Lower Level............      3/13/06  ...........
Wall Stone Area 1...................  East Front Basement.............................      2/20/06  ...........
Install Pipe Sta. 0+00-2+00.........  Utility Tunnel..................................      3/08/06  ...........
----------------------------------------------------------------------------------------------------------------
Source: AOC's January 2006 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and
  its construction management contractor for the actual completion dates as of March 13, 2006.


                 TABLE 2.--TARGETS FOR WALL AND FLOOR STONE INSTALLATION THROUGH MARCH 11, 2006
----------------------------------------------------------------------------------------------------------------
                                                                   Pieces of interior    Square feet of interior
                                                                       wall stone              floor stone
                         Week starting                          ------------------------------------------------
                                                                                         Preliminary
                                                                   Target      Actual       target      Actual
----------------------------------------------------------------------------------------------------------------
Feb. 13, 2006..................................................       1,060       1,054          500         150
Feb. 20, 2006..................................................       1,280       1,214          500  ..........
Feb. 27, 2006..................................................       1,180       1,046        1,200         740
Mar. 6, 2006...................................................       1,274       1,049        1,400         700
                                                                ------------------------------------------------
      Total....................................................       4,794       4,363        3,600       1,590
----------------------------------------------------------------------------------------------------------------
Source: Sequence 2 contractor for targets and AOC's construction management contractor for actual amounts
  installed. According to the sequence 2 contractor, the targets for floor-stone installation are preliminary
  and may change.

                   CAPITOL VISITOR CENTER MILESTONES

    Senator Allard. Thank you for your testimony. Having both 
GAO and AOC at the table at the same time does help our 
subcommittee in understanding the problems that we're facing 
and I appreciate the give and take on both of these issues.
    As I was referring to earlier on the milestones, it seems 
that the trend of losing time each month continues. In fact 
some of those activities on critical path have increased 
considerably. Mr. Hixon, can you discuss why the milestones in 
the last month weren't met?
    Mr. Hixon. Yes sir, I'd be happy to discuss those. The 
milestones that we have for this month I picked those several 
months ago. Some of the logic has changed in the way the 
contractor's performing his work. The east front area has been 
troublesome, so of the four that were not completed, two of 
them related to the east front. One of them was veneer plaster 
in the auditorium, which is being rescheduled to occur later, 
because we're not emphasizing the auditorium. The last one is 
the utility tunnel, and the completion of the piping, which is 
almost done, it was supposed to be done by March 8. It's almost 
complete.
    So yes, statistically we didn't hit the numbers but we're 
hitting pretty close. We're within weeks of making the dates. 
This was the first time that we hit so many that we either got 
them on schedule, or you know actually hitting that date, or 
getting them done early.
    So I think progress is being made in the right direction. 
Along this line, the installation of wall stone in the 
orientation lobbies has gone very very well, in the upper west 
lobbies, so the installation of wall stone is moving very well 
in those areas. It's gone much better here in the last month 
and half than it has previously. Part of that is due to the 
fact that we're not doing such high walls with wall stone.
    So progress is being made real well in a lot of areas. Some 
of the numbers will make it look like it's not quite as good as 
it really is.
    Senator Allard. So, your view is since you've pushed off 
the auditorium, that's not a serious concern right now, as far 
as actual completion date.
    You think we're close enough on these milestones that we 
can still maintain the same completion date?
    Mr. Hixon. I believe so sir. The focus is certainly to get 
the areas finished, to get the wall stone in, get the floor 
stone in, get the ceilings in, and the order of precedence on 
all that is to start and get the food service done, get the 
orientation theaters done, the exhibit gallery worked on so the 
follow on contract work can all be taking place.
    We have had issues, we don't hit all the dates we'd like to 
hit, but we're making good progress in achieving that. When we 
look at our commitment dates, what we're looking to achieve for 
a completion of construction at the end of this year, we feel 
we're still on track to make that.
    Senator Allard. How do you think you can make up for lost 
time?
    Mr. Hixon. Some of these activities, for example the 
orientation lobby stone work, went real well. It went better 
than we had anticipated. And so when we generate these 
schedules, some things we get a little better, some things are 
resequenced. The challenge for us right now is making sure we 
have enough wall stone to keep these masons fully working. Then 
we've got to get some of the ceiling work out of the way so the 
floor stone can move more quickly. They want to get the floor 
stone installed after the ceiling work even though we've done 
it in the reverse order in the south corridor. And that's been 
holding up the issue. Plus some conduit that needed to be 
installed under that floor stone, there was an issue to be 
resolved on how best to install that. That was resolved. We had 
1 week where we had no floor stone installed because they were 
reconciling that issue. It's now been resolved for the rest of 
the project and so that shouldn't be a problem again.

                 CAPITOL VISITOR CENTER COMPLETION DATE

    Senator Allard. Mr. Dorn, you seem fairly certain that the 
completion date has slipped. Why do you feel so strongly about 
that?
    Mr. Dorn. Again, I think that there's a number of 
indicators that say they've lost time over the past month. And 
I'm concerned. And I've talked to the schedulers about this, 
why the completion date itself is not moving, even though many 
of the intermediate tasks are certainly losing time.
    Senator Allard. Do you think they have a decent chance of 
catching up on lost time?
    Mr. Dorn. I think they are working hard at trying to do 
that. They want to get out of here as much as we do, and get 
this job finished. I think they are making some improvements 
again, as I've mentioned in my testimony, they've developed 
these detail plans which will help them to get there, to break 
these things into smaller manageable tasks that are more easily 
monitored. And so I think they're doing some of the right 
things now to try to make up that time, yes sir.
    Senator Allard. Mr. Hixon, what is the status of your plan 
to address the problem of trade stacking we discussed in last 
month's hearing?

                        MANAGING TRADE STACKING

    Mr. Hixon. Mr. Chairman, Mr. Hantman mentioned in his 
statement the contractor's taking individual areas, like the 
food service area, the orientation theater, and he's developing 
a detailed schedule with his subcontractors for each of those 
areas. They have a period of time to perform plaster work, 
floor stone, and that--to avoid the trade stacking issue. And 
so implementation of that plan will eliminate a great concern 
of the trade stacking. That's certainly something that we've 
been talking about for months. They're tired of hearing about 
it from us as well. But the point is, they've now got a process 
in place to try and manage that. We will see if that takes care 
of the concern but that does remain a concern to make sure that 
we don't end up with too many people in the same spot trying to 
work.
    Senator Allard. Now, Mr. Ungar, do you have some additional 
views on how they may control or reduce the trade stacking?
    Mr. Ungar. Yes, Mr. Chairman. I think it's important for 
the CVC team to get this wall stone installed on schedule or 
ahead of schedule. Unfortunately that's been challenging. As 
Mr. Hixon said, they have made better progress recently than 
they had in the past. But they still have a long road to go, 
and they still have the challenge of getting the stone supply 
on time. Right now it's almost ``just in time.'' So that 
remains a big challenge. Once they do that, they've got to get 
the floor stone in and they're somewhat behind schedule there, 
and that's going to probably interfere somewhat with the other 
finish work that they have to do. So the plan that they're 
starting to develop is a really good start. But with everything 
moving to the end with the slippages and the interim dates that 
Mr. Dorn talked about, the team is going to be more and more 
challenged to get all the work done in a shorter period of time 
to meet the schedule. And the other indicators would suggest 
that they're going to have a problem completing all that work 
in the amount of time that they have allowed. So best thing I 
think the team can do is get this wall stone up, get the floor 
stone in and hopefully have a good implementation of their 
trade stacking plan.

                 CAPITOL VISITOR CENTER DESIGN CHANGES

    Senator Allard. There have been eight design changes since 
January 25. That seems to me like an unusual number when we're 
getting toward completion of the project. Should we be alarmed 
by this level of changes? What's being done to try and limit 
those changes?
    Mr. Hixon. Mr. Chairman, getting changes anytime near the 
end of the job is troublesome. Some of these issues, what they 
have been in the past is primarily a resolution of request for 
information from the contractor, where things don't fit quite 
right and we need a design document that reflects how to put 
them together.
    Some of these design changes are the implementation of 
things like the gift shop construction. We'll be coming out 
with the administration space. There are corrections to 
documents for House and Senate expansion space, where there's a 
revision on how to do some things within that space. So what we 
are seeing right now, is an effort to provide design documents 
that are required as a consequence of either the construction 
that's underway or else something new that's being added to the 
project at this stage. Some of these things, like the build-out 
of the administration space are fully expected. It just becomes 
a matter of when are you going to have someone that can decide 
how that space is going to fit out, so that we can design it 
and build it. Because we've got the guide space, we've got the 
gift shops, we've got the administration space and the 
facilities space, all to be constructed in addition to the 
House and Senate expansion space.

              CAPITOL VISITOR CENTER CONSTRUCTION SCHEDULE

    Senator Allard. The Gilbane monthly progress report says 
that Manhattan's not billing enough to meet the current 
construction schedule. What's meant by that?
    Mr. Hixon. We have a cost flow curve that reflects what 
amount of expenditure of money they should be achieving in 
order to complete on time. At this point they're at the very 
bottom of that as far as a--you know if they go any--the curve 
is going in the wrong direction. They need to be billing 
greater amounts which means they're putting more work in place.
    The issue with the stone installation has delayed the 
plaster and on and on. And so we need to get the rest of the 
finish trades in there so that they're performing work and we 
get more of this work in place. So that is a concern, we track 
that to try and ensure that they are getting enough work in 
place to meet the scheduled date and right now they're at the 
far edge. We'd like--we need to get more work in place so that 
that corrects.
    Senator Allard. GAO has recommended on several occasions 
that your team be staffed up to improve documentation of 
contract changes and timing extensions. Would you comment on 
that?
    Mr. Hixon. Yes sir, we have asked the construction manager 
to look at the personnel they have available to review the 
documentation that we currently have available for scheduling 
and any delay issues, to make sure we have adequate 
documentation. They have provided some resumes and we're 
reviewing that now with them, or we'll get somebody else to 
come in and review it. All we're looking for is an overview to 
make sure that the documentation is adequate. We've got great 
schedule information, it's just a matter of do we have enough 
of the narrative backup, if it's ever required.

                   CAPITOL VISITOR CENTER TUNNEL LEAK

    Senator Allard. I opened up one of the newspapers this 
morning that covers news here on the Hill, and I think at your 
hearing yesterday over on the House side, there was some 
concern raised about a leak into the tunnel that runs over to 
the Cannon Office Building. Who's responsible for the leaks, 
and are they affecting the finishings that you're trying to 
install now?
    Mr. Hixon. The leak we're all referring to is a leak 
between the slurry wall of the structure itself, and a 
connection to the Cannon tunnel. There's a short tunnel piece 
that connects the two. At that joint between the slurry wall 
and this short piece of tunnel there has been installed--it was 
designed and installed a joint that can be filled with a 
material to make it water tight. It has leaked, we have had it 
reinjected. It's made so it can be reinjected. We've had it 
reinjected, it still leaked. So, they should be out this week 
reinjecting it again. In order to ensure we don't have any 
water damage or any further water damage from that, we've 
dammed the area. The water was leaking between the fill slab 
that we put on top of the structure slab. We've now put a dam 
in, we've got a pump there to pump it into a drain. So we're 
taking those measures to ensure we get no further damage. We 
did have water damage to the drywall and the insulation in the 
lower level of the House area. Any of that damaged material is 
removed and will be replaced. We're just trying to make sure 
we've got this thing sealed off so it's not a problem.
    In addition to that, because this is a potential issue, and 
these seals can fail over time, we'll be installing a drain 
below slab. If in the future something did happen years out, 
that that would drain into the building drainage system and not 
become a problem with damaged finishes.
    Senator Allard. Sounds like it's a combination of both the 
material and installation and then also some design 
modification you've decided needs to occur, is that correct?
    Mr. Hixon. We feel that the installation failed. It was a 
standard design, but it has failed. That usually means that 
something occurred during the installation. The fact that they 
reinstalled and it still isn't working right is why we're 
trying to provide a backup. So that if we--we will get this 
sealed now, so that it's not leaking, but we want to make sure 
that it won't create a problem if it leaks in the future.
    As I said, it's a reinjectable joint so that if it did 
occur again in 10 to 15 years, they can go in and reinject that 
joint without having to do significant work to the structure.
    Senator Allard. Mr. Hantman, will delays in the Capitol 
Power Plant construction affect the Capitol Visitor Center 
construction and opening date?
    Mr. Hantman. No, it will not Mr. Chairman. Back in 
November, I believe it was, the units were basically tested 
out. It can be manually operated now if, in fact, we needed it 
now. As I indicated earlier on, when we talk about the July 
opening of the--most of the controls and some of the manual 
operations that we'll be able to serve, very well anyway. So we 
don't see any impact whatsoever, in terms of what's happening 
at the Power Plant. That project's moving along.

                          SUBCOMMITTEE RECESS

    Senator Allard. That's all the questions I have. Thank you 
for taking the time to come before the subcommittee today, and 
we'll be seeing you next month.
    [Whereupon, at 12:12 p.m., Wednesday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

















         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                        THURSDAY, APRIL 27, 2006

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Good morning.
    The subcommittee will come to order. We meet today to take 
testimony on the progress of the Capitol Visitor Center (CVC). 
This is our 10th hearing on the Capitol Visitor Center.
    Once again, we welcome Architect of the Capitol Alan 
Hantman, CVC Project Director Bob Hixon, and our Government 
Accountability Office (GAO) representatives Bernard Ungar and 
Terrell Dorn. In addition, Mr. Stephen Ayers, AOC's Chief 
Operating Officer, is here to testify. Welcome.
    Mr. Ayers. Thank you.
    Senator Allard. We understand, Mr. Hantman that you have 
laryngitis and Bob and Stephen will be testifying as a result.
    Mr. Hantman. It's getting better, Mr. Chairman. It's--as of 
yesterday, the voice has started coming back, but I think I 
could use a little assistance today.
    Senator Allard. You have my sympathies.
    Mr. Hantman. Thank you.
    Senator Allard. Since our last hearing in March, progress 
has been made on floor stone installation, but only 1 of the 13 
critical milestones AOC set for this project in the last month 
has been met on schedule. Concerns continue to be raised by GAO 
about the drawings for the fire protection system, which I 
understand are 1 month overdue. Concerns continue to be raised 
by GAO about the trade stacking, stone delivery, and schedule 
delays.
    In addition, there appears to be an impasse between the 
Capitol Police and the fire marshal over the fire alarm system 
which needs to be resolved quickly as to not incur delays or 
additional costs.
    We look forward to getting a full update today on these 
issues, as well as the status of major project milestones.
    In addition, we will discuss the critical issue of the 
utility tunnels, which we talked about in our hearing last 
month. The Architect recently provided a report to the 
subcommittee, in response to a letter Senator Durbin and I sent 
to Mr. Hantman, that described over $100 million in activities 
to be done to address tunnel concerns, and requested $39.9 
million in fiscal year 2006 emergency supplemental 
appropriations.
    While I appreciate your quick response to providing the 
report, I am very concerned that this issue has laid dormant 
for many years, and now we are told that over $100 million is 
needed in short order. How we will find these funds, along with 
meeting the many other priorities before us, will be tough.
    I am committed to addressing urgent worker safety concerns, 
but I believe we need to slow down and look at the implications 
of some of the longer-term projects that will involve tens of 
millions of dollars, so we would like to examine the 
supplemental spending request today.
    Mr. Hantman, please proceed with your testimony. And when 
Senator Durbin arrives, we will give him an opportunity to make 
comments. Mr. Hantman, with your prior approval, if you're 
still testifying, or some member on the panel is testifying, I 
may ask to interrupt you, so that he can make his statement.
    Mr. Hantman. Absolutely, Mr. Chairman.
    Senator Allard. Thank you very much, Mr. Hantman. You may 
proceed.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, ARCHITECT 
            OF THE CAPITOL
        STEPHEN AYERS, CHIEF OPERATING OFFICER, ARCHITECT OF THE 
            CAPITOL
        MARK WEISS, DIRECTOR, CAPITOL POWER PLANT, ARCHITECT OF THE 
            CAPITOL
    Mr. Hantman. In terms of our basic testimony, I'm going to 
ask Bob Hixon to go through our written testimony--oral 
testimony and then we'll work together to answer whatever 
questions come to us.
    Senator Allard. Very good. Thank you.
    Mr. Hantman. Bob, please?
    Mr. Hixon. Let's see, is this microphone working?
    Senator Allard. It is.
    Mr. Hixon. Mr. Chairman, thank you for the opportunity to 
brief you regarding the progress of the Capitol Visitor Center 
project. We are reporting no change from what we discussed last 
month in our projections for both the project budget and 
schedule. However, we do continue to monitor closely the two 
key issues affecting the project: the installation and 
fabrication of stone, and the acceptance testing of the CVC's 
complex fire and life safety systems.

                           STONE INSTALLATION

    Regarding stone installation, the contractor has received 
essentially all of the wall stone for the basic visitor center 
portion of the project. The deliveries of stone during these 
past several months, however, did not exceed the original 
monthly contract commitments to begin making up for the 2 month 
delay in deliveries experienced last fall. Therefore, as I 
stated earlier, we are reporting no change in the March 2007 
completion date or the potential for a formal opening of the 
CVC in April 2007.

                FIRE AND LIFE SAFETY ACCEPTANCE TESTING

    Regarding the acceptance testing for fire and life safety 
systems, we reported last month that the fire marshal may need 
to bring on additional staff to conduct the tests in a timely 
manner. We will continue to work closely with the fire marshal 
to examine the testing sequence and requirements in order to 
facilitate his ability to complete the testing process as 
expeditiously as possible. Our schedule continues to allow for 
a 4\1/2\ month duration for this process.
    Overall, construction progress throughout the CVC continues 
with high quality work, but we are seeing schedule slippage in 
some areas. We are addressing these individual activities with 
the contractor to mitigate or eliminate any impacts.

                 CAPITOL VISITOR CENTER UTILITY TUNNEL

    An issue we have been addressing is the CVC's new utility 
tunnel below East Capitol Street. The CVC utility tunnel 
connects to an existing tunnel below Second Street. Completion 
of the CVC tunnel has been impacted by the contractor's 
concerns with possible asbestos from the Second Street tunnel. 
The contractor has lost time in completing the CVC tunnel while 
tests were conducted to ensure that there was no migration of 
possible asbestos from the Second Street tunnel into the CVC 
tunnel.
    Having found none, the contractors are back at work in the 
CVC tunnel completing electrical work and installing insulation 
on the pipes. In addition, they are about to begin flushing the 
lines to clean out all the debris from installation of the 
piping. We have begun pressure testing--first with air and then 
with water--to ensure the integrity of all the connections and 
seals.
    However, while work has resumed in the CVC tunnel, the 
connection work within the Second Street tunnel itself has been 
delayed while the contractor completes the appropriate asbestos 
training and secures the safety equipment to work in that 
tunnel. The net impact on the operation schedule of the tunnel 
has been approximately 3 weeks. Our construction manager, 
Gilbane, is evaluating what impact, if any, this might cause to 
the overall project. We'll report to you their conclusions next 
month.
    As we noted last month, another area of concern continues 
to be the potential for trade stacking. In March, we discussed 
the contractor's plans to mitigate the trade stacking that may 
occur as the schedule slips in various work zones. We reported 
that the sequence 2 contractor was developing detailed 
schedules for specific geographic areas of the CVC which are 
being delineated into several smaller work zones. Both GAO and 
my team have now reviewed the first detailed schedule plans for 
the food service area and we are satisfied with the approach. 
We will closely observe the execution of the plan to verify its 
effectiveness.
    While the pace of construction sometimes does not meet our 
expectations; our contractors do continue to make steady 
progress throughout the facility. With the help of some photo 
boards, I'd like to show you some construction highlights since 
our last meeting.
    On the first board, installation of wall stone in the east 
front has begun and is proceeding well. The east front is the 
primary transition zone between the CVC and the Capitol 
Building and is critical to the operation of the facility. 
Masons are now setting both base and wall stone on two levels 
within the work zone. Sandstone can be seen rising more than 20 
feet on the walls within the carriageway below the east front 
center steps. Eventually, glass walls will enclose the arched 
openings of the carriageway providing visitors with views of 
the House and Senate wings as they use the stairs or the 
escalators to enter the Capitol. Stone installation in the east 
front began in March, not in February as originally expected. 
Therefore, we will continue to monitor the progress in the east 
front very closely, especially since this work is particularly 
difficult due to the multiple levels and tight spaces within 
this work zone.
    On the second board, in the CVC entrance lobbies, the 
installation of wall stone within the base contract was 
completed ahead of schedule. A small amount of remaining wall 
stone for this zone will be delivered and installed separately. 
Masons have now moved from this area to work in the east front.
    On the third board, the installation of wall stone is 
essentially complete in the great hall, the orientation 
theaters, the exhibition hall, the food service area, and the 
upper east and west visitor lobbies. Now the primary focus of 
work has shifted to the installation of ceilings within these 
spaces and adjacent corridors.
    In the great hall, ceiling framework for the three barrel-
vaulted ceilings has just been completed and drywall 
installation is about to begin. The masons have completed the 
setting of 900 pound blocks of stone around the perimeter of 
the south skylight. Both skylights over the great hall should 
be in place by mid-summer. In the upper and lower level 
corridors north and south of the great hall, ceiling framework 
is complete and workers continue installing drywall, plaster 
walls, and soffits.
    Ceiling framework is also complete, on board five, in the 
orientation theaters and crews are expected to begin installing 
the first millwork and acoustical panels in May. This will be 
the first millwork to begin anywhere in the CVC, so we're eager 
to see that work commence. At this time, based on the current 
temperature and humidity readings in the facility, the 
contractor does not expect to need temporary dehumidification 
equipment to begin this work. That equipment is immediately 
available should it be required.
    On the next board, in the exhibition hall, scaffolding is 
nearly complete in the center zone and ceiling framework is 
expected to begin shortly. As you may recall, Mr. Chairman, the 
center zone of the exhibition hall will receive thick glass 
panels that will allow this zone to be illuminated from below. 
The contractor is fabricating the glass panels for delivery 
later this summer. Meanwhile, masons continue to set floor 
stone along the east side of the hall and have begun installing 
the stone on west side of the hall.
    On board seven, work continues to progress well in both the 
House and Senate expansion spaces and these areas are still 
stacking--still tracking, excuse me--for construction 
completion by the March 2007 contract date. In the Senate 
expansion space, framework is complete for the Senate Recording 
Studio and drywall installation is proceeding to completion in 
that area. Framework is finished for the lower level as well 
and drywall installation is more than 50 percent complete. 
Close-in inspections for the installation of all of the 
mechanical, electrical, and plumbing systems have been going 
well, clearing the way for the drywall installation to continue 
on track.

                    PROJECT PROGRESS AND HIGHLIGHTS

    Outside foundation work was completed for the stepped 
walkways that lead to the CVC entrances and these areas were 
readied to receive the first of 85 new trees that will be 
planted throughout the project area. There are now 30 new tulip 
poplar trees lining the north and south side to the East 
Capitol Street extension. The trees range in height from 20 to 
30 feet as they come down the slope to the screening areas and 
already frame a grand view of the Capitol Dome intended in the 
original Olmsted Plan of 1874. Another 50 trees and myriad 
shrubs will be planted within the East Capitol grounds later 
this fall as the project nears completion.
    On East Capitol Street, work to restore the road bed is 
progressing well. Crews have now placed a 10-inch concrete slab 
over 90 percent of the tunnel area and they should be finishing 
that today. We plan to open East Capitol Street to traffic 
later this spring.
    On the east front, most of the 200,000 granite pavers have 
been set with some paving work remaining around the historic 
lanterns and fountains. That's with some paving work remaining 
around the historic lanterns and fountains. These areas will 
receive different colored pavers that will be set in a more 
decorative pattern.
    On the Senate plaza, masons finished setting pavers to 
restore the sidewalk leading to the Senate carriageway and 
landscape crews have placed new sod in the Senate triangle, 
working to restore that area to its pre-construction condition.

                        EXHIBITS AND OPERATIONS

    Regarding the CVC exhibits, a fabrication contractor has 
been taking molds of various elements both inside and outside 
the Capitol building. These will be converted to touchable, 
hands-on items that will be displayed in the exhibition hall. 
Meanwhile, our film contractor is shooting footage in various 
areas of the Capitol and in the House and Senate office 
buildings for the films that will run in the virtual House and 
Senate theaters. Also, a model maker is nearing completion of a 
mock-up of a 10-foot high model of the Capitol Dome that will 
be the centerpiece of the exhibition hall.
    On the operations front, we continue to review the 
proposals for the food services contract and we expect to make 
a selection later this summer.

                      UTILITY TUNNEL SAFETY ISSUES

    Finally, I'd like to take a moment to provide a progress 
report on another issue that we discussed at our last hearing. 
Two and one-half weeks ago, I submitted to this subcommittee 
our report on the utility tunnels that provide steam and 
chilled water to facilities throughout the Capitol complex. We 
have taken a comprehensive and aggressive approach to further 
enhance worker safety and to improve and correct existing 
tunnel conditions.
    Most importantly, effective measures have been implemented 
to ensure that employees can safely work in the utility 
tunnels. These measures include the use of appropriate personal 
protective equipment, additional written procedures and 
employee training, and the stabilization of concrete spalls 
prior to work being done in specific areas of the tunnels.
    We have completed quick look asbestos inspections and have 
dedicated crews who have asked--who have been tasked with 
repairing damaged protective coverings of asbestos in 
insulation. We focused this work in the tunnels where employees 
identified some concerns and will soon proceed with the others. 
We have recently contracted to have asbestos removed from the 
``B'' tunnel and are developing a plan to abate two others 
pending funding availability. Although asbestos removal is not 
an Occupational Safety and Health Administration (OSHA) 
requirement, we feel that removal is the most prudent and 
effective method to permanently improve worker safety.
    In addition, we are performing personal air sampling on all 
AOC tunnel entry teams. We have hired Federal Occupational 
Health, Public Health Service to evaluate all the data and 
develop appropriate recommendations. Until this evaluation is 
completed, as a precaution, I am requiring all people who enter 
the tunnels to wear respirators in all tunnels, except in the 
one tunnel where asbestos was removed in 2005.
    With regard to spalling concrete, the AOC construction 
division has crews in the tunnels removing spalls and is 
working to further accelerate removal of loose concrete. We 
have been conducting a comprehensive condition assessment that 
will help to prioritize major construction efforts as to where 
they are most needed. The contractor is providing ``quick 
look'' inspection reports within a week of inspection 
completion.
    We have completed the replacement of 14 tunnel egress 
hatches identified as needing upgrading. Additional egress 
improvements at these locations will be finished by the end of 
the month. We are also conducting a survey to identify other 
egress locations that could be improved. In addition, personnel 
in the tunnels have a fully functional communications system as 
we have repaired and returned the leaky line system to full 
operation. To ensure higher reliability, a continuity cable 
alarm will be installed later this year.
    We are looking at our internal resources to continue 
repairs, improvements, and studies to address areas of 
immediate concern and we look forward to the Senate's and the 
House of Representative's continued support for these projects.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my statement. Once again, 
thank you for this opportunity to testify. I'd be happy to 
answer any questions you may have.
    Senator Allard. Thank you, Mr. Hixon, for helping with the 
testimony.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, thank you for the opportunity to brief you regarding 
the progress of the Capitol Visitor Center project. We are reporting no 
change from what we discussed last month in our projections for both 
the project budget and schedule. However, we do continue to monitor 
closely the two key issues affecting the project: the installation and 
fabrication of stone, and the acceptance testing of the CVC's complex 
fire and life-safety systems.
    Regarding stone installation, the contractor has received 
essentially all of the wall stone for the basic Visitor Center portion 
of the project. The deliveries of stone during these past several 
months, however, did not exceed the original monthly contract 
commitments to begin making up for the two-month delay in deliveries 
experienced last fall. Therefore, as I stated earlier, we are reporting 
no change in the March 2007 completion date or the potential for a 
formal opening of the CVC in April 2007.
    Regarding the acceptance testing for fire and life-safety systems, 
we reported last month that the Fire Marshal may need to bring on 
additional staff to conduct the tests in a timely manner. We will 
continue to work closely with the Fire Marshal to examine the testing 
sequence and requirements in order to facilitate his ability to 
complete the testing process as expeditiously as possible. Our schedule 
continues to allow for a four-and-a-half-month duration for this 
process.
    Overall, construction progress throughout the CVC continues with 
high quality work, but we are seeing schedule slippage in some areas. 
We are addressing these individual activities with the contractor to 
mitigate or eliminate any impacts.
    An issue we have been addressing is the CVC's new utility tunnel 
below East Capitol Street. The CVC utility tunnel connects to an 
existing tunnel below Second Street. Completion of the CVC tunnel has 
been impacted by the contractor's concerns with possible asbestos from 
the Second Street tunnel. The contractor has lost time in completing 
the CVC tunnel while tests were conducted to ensure that there was no 
migration of possible asbestos from the Second Street tunnel into the 
CVC tunnel.
    Having found none, the contractors are back at work in the CVC 
tunnel completing the electrical work and installing insulation on the 
pipes. In addition, we have begun flushing the lines to clean out all 
the debris from installation. Then, we will begin pressure testing--
first with air and then with water--to ensure the integrity of all the 
connections and seals. However, while work has resumed in the CVC 
tunnel, the connection work within the Second Street tunnel itself has 
been delayed while the contractor completes the appropriate asbestos 
training and secures the safety equipment to work in that tunnel. The 
net impact on the operation schedule of the tunnel has been 
approximately three weeks. Our construction manager, Gilbane, is 
evaluating what impact, if any, this might cause to the overall project 
schedule. We'll report to you their conclusions next month.
    As we noted last month, another area of concern continues to be the 
potential for trade stacking. In March, we discussed the contractor's 
plans to mitigate the trade stacking that may occur as the schedule 
slips in various work zones. We reported that the Sequence 2 contractor 
was developing detailed schedules for specific geographic areas of the 
CVC which are being delineated into several smaller work zones. Both 
GAO and my team have now reviewed the first detailed schedule plan for 
the food service area and we are satisfied with the approach. We will 
closely observe the execution of the plan to verify its effectiveness.
Project Progress Update
    While the pace of construction sometimes doesn't meet our 
expectations, our contractors do continue to make steady progress 
throughout the facility. With the help of some photo boards, I'd like 
to show you some construction highlights since our last hearing.
    Installation of wall stone in the East Front has begun and is 
proceeding well. The East Front is the primary transition zone between 
the CVC and the Capitol Building and is critical to the operation of 
the facility. Masons are now setting both base and wall stone on two 
levels within this work zone; sandstone can be seen rising more than 20 
feet on the walls within the Carriageway below the East Front Center 
steps. Eventually, glass walls will enclose the arched openings of the 
Carriageway providing visitors with views of the House and Senate wings 
as they use the stairs or the escalators to enter the Capitol. Stone 
installation in the East Front began in March and not in February, as 
originally expected. Therefore, we will continue to monitor the 
progress in the East Front very closely, especially since this work is 
particularly difficult due to the multiple levels and tight spaces 
within this work zone.
    In the CVC entrance lobbies, the installation of wall stone within 
the base contract was completed ahead of schedule. A small amount of 
remaining wall stone for this zone will be delivered and installed 
separately. Masons have now moved from this area to work in the East 
Front.
    Elsewhere, the installation of wall stone is essentially complete 
in the Great Hall, the Orientation Theaters, the Exhibition Hall, the 
Food Service Area, and the upper east and west visitor lobbies. Now the 
primary focus of work has shifted to the installation of ceilings 
within these spaces and adjacent corridors.
    In the Great Hall, ceiling framework for the three barrel-vaulted 
ceilings has just been completed and drywall installation has begun. 
The masons are completing the setting of 900-pound blocks of stone 
around the perimeter of the south skylight. A subcontractor is 
scheduled to arrive next week to begin installing the skylight. Both 
skylights over the Great Hall should be in place by mid-summer. In the 
upper and lower level corridors north and south of the Great Hall, 
ceiling framework is complete and painters continue priming the 
drywall, plaster walls, and soffits.
    Ceiling framework is also complete in the Orientation Theaters and 
crews are expected to begin installing the first millwork and acoustic 
panels in May. This will be the first millwork to begin anywhere in the 
CVC, so we're eager to see that work commence. At this time, based on 
the current temperature and humidity readings in the facility, the 
contractor does not expect to need temporary dehumidification equipment 
to begin this work. That equipment is immediately available should it 
be required, but presently the contractors believe they can avoid that 
expense.
    In the Exhibition Hall, scaffolding is nearly complete in the 
center zone and ceiling framework is expected to begin shortly. As you 
may recall, Mr. Chairman, the center floor zone of the Exhibition Hall 
will receive thick glass panels that will allow this zone to be 
illuminated from below. The contractor is fabricating the glass panels 
for delivery later this summer. Meanwhile, masons continue to set floor 
stone along the east side of the Hall and have begun layout on the west 
side of the Hall.
    Work continues to progress well in both the House and Senate 
expansion spaces and these areas are still tracking for construction 
completion by the March 2007 contract date. In the Senate Expansion 
Space, framework is complete for the Senate Recording Studio and 
drywall installation is nearing completion in that area. Framework is 
finished on the lower level as well and drywall installation is more 
than 50 percent complete. Close-in inspections for the installation of 
all of the mechanical, electrical, and plumbing systems have been going 
well, clearing the way for drywall installation to continue on track.
    Outside foundation work was completed for the stepped walkways that 
lead to the CVC entrances and these areas were readied to receive the 
first of 85 new trees that will be planted throughout the project area. 
There are now 16 new Tulip Poplar trees lining the north side of the 
East Capitol Street Extension. The trees on the south side are being 
planted this week. The trees range in height from 20 to 30 feet as they 
come down the slope to the screening areas and already frame a grand 
view of the Capitol Dome intended in the original Olmsted Plan of 1874. 
Another 50 trees and myriad shrubs will be planted within the East 
Capitol Grounds later this fall as the project nears completion.
    On East Capitol Street, work to restore the road bed is progressing 
well. Crews have now placed a 10-inch concrete slab over 90 percent of 
the tunnel and we plan to open East Capitol Street to traffic later 
this spring.
    On the East Front Plaza, most of the 200,000 granite pavers have 
been set, with some paving work remaining around the historic lanterns 
and fountains. These areas will receive different colored pavers that 
will be set in a more decorative pattern.
    On the Senate Plaza, masons finished setting pavers to restore the 
sidewalk leading to the Senate Carriageway and landscape crews have 
placed new sod in the Senate triangle, working to restore that area to 
its pre-construction condition.
    Regarding the CVC exhibits, a fabrication contractor has been busy 
taking molds of various elements both inside and outside the Capitol 
building. These will be converted to touchable, hands-on items that 
will be displayed in the Exhibition Hall. Meanwhile, our film 
contractor is shooting footage in various areas of the Capitol and in 
the House and Senate Office buildings for the films that will run in 
the virtual House and Senate Theaters. Also, a model maker is nearing 
completion of a mock-up of a 10-foot high model of the Capitol Dome 
that will be the centerpiece of the Exhibition Hall.
    On the operations front, we continue to review the proposals for 
the food services contract and we expect to make a selection later this 
summer.
    Finally, I would like to take a moment to provide a progress report 
on another issue that we discussed at our hearing last month. Two and a 
half weeks ago, I submitted to this subcommittee our report on the 
utility tunnels that provide steam and chilled water to facilities 
throughout the Capitol complex. We have taken a comprehensive and 
aggressive approach to further enhance worker safety and to improve and 
correct existing tunnel conditions.
    Most importantly, effective measures have been implemented to 
ensure that employees can safely work in the utility tunnels. These 
measures include the use of appropriate personal protective equipment, 
additional written procedures and employee training, and the 
stabilization of concrete spalls prior to work being done in specific 
areas of the tunnels.
    We have completed ``quick look'' asbestos inspections and have 
dedicated crews who are tasked with repairing damaged protective 
coverings of asbestos in insulation. We focused this work in the tunnel 
where employees identified some concerns and will soon proceed with the 
others. We have recently contracted to have asbestos removed from the 
``B'' tunnel and are developing a plan to abate two others pending 
funding availability. Although asbestos removal is not an OSHA 
requirement, we feel that removal is the most prudent and effective 
method to permanently improve worker safety.
    In addition, we are performing personal air sampling on all AOC 
tunnel entry teams. We have hired Federal Occupational Health public 
health service to evaluate all the data and develop appropriate 
recommendations. Until this evaluation is completed, as a precaution, I 
am requiring all people who enter the tunnels to wear respirators in 
all tunnels, except in the one tunnel where asbestos was removed in 
2005.
    With regard to spalling concrete, our Construction Division has 
crews in the tunnels removing spalls and is working to further 
accelerate removal of loose concrete. We have been conducting a 
comprehensive condition assessment that will help to prioritize major 
construction efforts as to where they are most needed. The contractor 
is providing ``quick look'' inspection reports within a week of 
inspection completion.
    We have completed the replacement of 14 tunnel egress hatches 
identified as needing upgrading. Additional egress improvements at 
these locations will be finished by the end of this month. We are also 
conducting a survey to identify other egress locations that could be 
improved. In addition, personnel in the tunnels have a fully-functional 
communications system as we have repaired and returned the ``leaky 
line'' system to full operation. To ensure higher reliability, a 
continuity cable alarm will be installed later this year.
    We are looking at our internal resources to continue repairs, 
improvements, and studies to address areas of immediate concern and we 
look forward to the Senate's and the House of Representative's 
continued support for these projects.
    Mr. Chairman, this concludes my statement. Once again, thank you 
for this opportunity to testify. I would be happy to answer any 
questions you may have.

    Senator Allard. Now, is it you, Mr. Ungar, that is going to 
testify for GAO?
STATEMENT OF TERRELL DORN, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ungar. Mr. Chairman, Mr. Dorn will do our oral summary 
and we'll both be available for questions.
    Senator Allard. Okay. Very good. Mr. Dorn.
    Mr. Dorn. Thank you, Mr. Chairman. As you've read in our 
testimony, we still continue to believe that the CVC will be 
open no earlier than May and that the expansion spaces will be 
ready probably in September versus the April and May dates that 
the Architect's Office still has. We still continue to believe 
that the cost of the CVC will be somewhere between $556 million 
and $584 million when risk and uncertainties that remain on the 
project are considered.
    We're more deeply concerned this month about the schedule 
than we were last. For example, the CVC construction slipped a 
week last month. As I mentioned last month, there's a number of 
indicators that make us more concerned.
    First are the milestones. For about the last 10 months or 
so, the AOC has been identifying milestones each month, which 
they feel are critical to the project staying on schedule.
    This past month was the worst performance of the past six. 
Only one milestone was completed on time and over 75 percent of 
the milestones from last month are still not complete.
    Multiple, critical, and your critical activities are still 
out there and the slack time of activities is decreasing. 
Fifteen out of the 19 critical paths that the contractor and 
Architect identified, slipped and lost time in the past month. 
Nine of those paths, according to the Architect, lost from 1 to 
30 days. It's going to affect the completion date of the 
project. There were only six paths in that state last month.
    There's been insufficient work billed this month to meet 
the schedule. As we talked last month, the billings are not 
there, which indicates that the contractor is not performing 
enough work to finish this project on schedule.
    The stonework is taking longer than expected, particularly 
the floors. While we do agree that the deliveries of the wall 
stone and the installation of the wall stone, almost met the 
targets last month, two-thirds of the floor stone was not 
installed as scheduled last month.
    As our testimony mentions, there's a delay in getting the 
fire protection system approved. At the last testimony, it was 
estimated those drawings would be submitted for approval on 
March 17 and as of yesterday, they were still not submitted for 
approval. And, of course, after that, they still need to go to 
the fire marshal and he needs probably 4 weeks or so, to review 
the drawings after that. So we've lost 1 month on the fire 
alarm drawings, which we said are critical to getting this 
project open on time.
    There continues to be a bunch of design or scope changes 
coming in. In fact, there have been over 180 design changes to 
date. There's a chart in our testimony that illustrates that 
those are continuing to rise and if it follows sequence 1's 
trend, even after the project opens, they'll continue to come 
in. So, we're still concerned about that. Not only because of 
schedule, but it could also affect the cost down the road.
    So summarizing very quickly, Mr. Chairman, we still 
continue to believe that the CVC, if the Architect is able to 
address the situations that face him, could be open in May 2007 
and the expansion spaces in September 2007. But we are 
concerned enough about that, that we do plan on reassessing the 
schedule in the summer to take a look and see what changes may 
have happened.

                           PREPARED STATEMENT

    In addition, we continue to believe that the $556 million 
is needed. This means, that an additional appropriation of $25 
million is needed now. The contractor is still missing dates, 
and also the fire alarm plan reviews need to be expedited, as 
well as the Architect can accomplish that.
    And that concludes our testimony, Mr. Chairman.
    Senator Allard. Thank you, Mr. Dorn.
    [The statement follows:]
                 Prepared Statement of Bernard L. Ungar
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on the 
Architect of the Capitol's progress in achieving selected project 
milestones and in managing the project's schedule since the 
Subcommittee's March 15, 2006, hearing on the project.\1\ As part of 
this discussion, we will address a number of key challenges and risks 
that continue to face the project, as well as actions AOC has taken or 
plans to take to address these risks. In addition, we will discuss the 
status of the project's costs and funding.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Status of Project's Schedule and 
Cost as of March 15, 2006, GAO-06-528T (Washington, D.C.: Mar. 15, 
2006).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (AOC and its 
major CVC contractors), AOC's Chief Fire Marshal, and representatives 
from the U.S. Capitol Police. We also reviewed AOC's construction 
management contractor's periodic schedule assessments and daily reports 
on the progress of interior wall and floor stonework.
    In summary:
    Since the Subcommittee's March 15 CVC hearing, the CVC team has 
continued to move the project's construction forward, and AOC is still 
proposing the same opening dates--April 2007 for the base CVC project 
and May 2007 for the House and Senate expansion spaces--but we continue 
to believe, as we said at the March hearing, that the proposed opening 
dates do not allow enough time to complete several critical activities 
and to address problems, challenges, risks, and uncertainties. Since 
the March 15 hearing, the installation of critical interior wall and 
floor stone has continued, together with other interior and exterior 
construction work, and the sequence 2 contractor has further developed 
plans to prevent trade stacking \2\ during finish work. However, the 
pace of interior wall and floor stone installation remained below the 
targeted pace; the dates for completing the construction of the overall 
base project and expansion spaces were extended; and several activities 
fell behind schedule--not enough to affect the overall completion dates 
yet, but increasing the potential for future delays. In addition, the 
sequence 2 contractor met only 1 of the 13 milestones being tracked for 
this hearing, and this contractor's monthly billings indicate that 
construction work is not likely to be completed on schedule as AOC 
anticipated. The CVC's fire protection system has not yet been 
approved; critical building systems still have to be commissioned and 
tested; and although the project's overall design is essentially 
complete, certain design or work scope elements are still incomplete or 
are being clarified or refined. If the CVC team is successful in 
addressing these issues, we believe that the base CVC project can still 
possibly be opened to the public with a temporary cap on visitor 
occupancy in May 2007 and that the expansion spaces can likely be 
opened for occupancy beginning in mid-August to early September 2007. 
AOC may be able to reduce some of the time scheduled for the expansion 
spaces if it implements a phased opening plan and is able to perform 
acceptance testing of the CVC and the expansion spaces concurrently 
rather than sequentially--possibilities AOC is continuing to explore. 
However, the delays that have occurred since the Subcommittee's last 
CVC hearing compound the concern we previously expressed that AOC will 
be challenged to meet even the later dates we are projecting because of 
the problems, challenges, risks, and uncertainties facing the project. 
Accordingly, we plan to reassess the project's schedule again this 
summer.
---------------------------------------------------------------------------
    \2\ Trade stacking can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
    As we reported at the Subcommittee's March 15 CVC hearing, we 
estimate that the total cost to complete the entire CVC project is 
about $556 million without an allowance for risks and uncertainties and 
$584 million with such an allowance. To date, about $530 million has 
been provided for CVC construction. We continue to estimate that AOC 
will need about $25.6 million more in CVC construction funds to 
complete the entire CVC project. This estimate does not allow for risks 
and uncertainties and takes into account funding that AOC plans to use 
from existing appropriations. In addition, as we indicated during the 
March 15 hearing, AOC preliminarily expects to need about $950,000 in 
fiscal year 2007 AOC general administration appropriations that 
Congress has not yet provided to pay for contractual support needed to 
complete acceptance testing of the facility's fire protection system in 
time to meet the project's schedule. AOC plans to determine if it can 
reduce the amount needed for this contractual support; we will keep the 
Subcommittee apprised of this situation.
AOC Has Moved Construction Forward, but Delays Continue and Risks and 
        Uncertainties Remain
    AOC and it contractors have made progress in a number of areas 
since the Subcommittee's last CVC hearing, particularly in installing 
wall stone in the orientation and security lobby and in the south 
atrium. However, some milestones were pushed back in March. For 
example, according to AOC's March 2006 schedule, the base CVC project 
will have a temporary certificate of occupancy on February 21, 2007, 6 
workdays later than indicated in the February 2006 schedule, and the 
House and Senate expansion spaces will be substantially complete on 
December 18, 2006, 1 workday later than indicated in the February 2006 
schedule. AOC is still proposing an April 2007 opening date for the 
base project and a May 2007 occupancy date for the expansion spaces--
dates that it believes will accommodate possible delays and allow 
start-up time for operations. AOC expects all construction work in the 
CVC, East Front, and expansion spaces to be completed by the April 
opening date for the base project, but the CVC's occupancy at any one 
time will be temporarily limited to 3,500, compared with about 4,200, 
the normal anticipated occupancy level.\3\ Schedule slippages that have 
occurred since the Subcommittee's March 15 CVC hearing, coupled with 
the challenges, risks, and uncertainties that continue to face the 
project, have heightened our concerns about AOC's ability to open the 
CVC to the public in April 2007. Consequently, we plan to reassess the 
project's schedule again this summer.
---------------------------------------------------------------------------
    \3\ This temporary limit will be necessary because the ``horizontal 
exits,'' or passages, through the expansion spaces, which the life 
safety code requires for exiting the base CVC project, will not be 
available until later. These horizontal exits cannot be used until the 
fire alarm system in the expansion spaces has been fully tested and 
accepted--work that is not slated to be completed until after the base 
CVC is scheduled to open. Some additional work will likely be required 
to provide temporary emergency exit routes from the CVC, but the CVC 
team does not believe that this work or its costs should be 
substantial.
---------------------------------------------------------------------------
Our Analysis Indicates Later Opening Dates Than AOC Is Proposing
    We continue to believe, as we testified in March, that the CVC is 
not likely to be ready for opening with a temporary certificate of 
occupancy before May 2007, about a month later than AOC is proposing. 
Our projected opening date is somewhat later than AOC's because certain 
critical work, such as interior stonework for the base project and East 
Front, has not generally been proceeding as quickly as planned and CVC 
team managers and members believe that certain other work, such as 
finish work, will take more time than is scheduled to complete. Our 
projection also assumes that AOC will be able to address the challenges 
it faces and takes into account the time that AOC believes is necessary 
to prepare for operations after construction work is completed. 
However, schedule slippages in March raise concerns about AOC's ability 
to overcome these challenges. Similarly, we continue to believe that 
the House and Senate expansion spaces are more likely to be ready in 
mid-August or early September 2007 than in April or May 2007, as AOC is 
proposing. We consider the later time frames for the expansion spaces 
more likely for three reasons. First, AOC has scheduled the acceptance 
testing of the expansion spaces after the acceptance testing of the 
base project and, according to our analysis, the base project's testing 
will take longer than scheduled. Second, AOC's Chief Fire Marshal 
believes the acceptance testing of the expansion spaces will take 
longer than scheduled. Third, several activities important to the on-
time completion of expansion-space work slipped in March; and at this 
time, the sequence 2 subcontractor responsible for this work believes 
that additional slippages in some of these activities are likely. 
However, AOC has begun to address the problems affecting the progress 
of the expansion spaces and plans to reassess this situation as the 
construction work proceeds. The expansion spaces could be ready sooner 
than late summer 2007 if AOC succeeds in addressing the problems and 
starts acceptance testing sooner or opens the expansion spaces in 
phases--possibilities that AOC is continuing to explore.
            Construction Work Is Progressing
    According to AOC's construction management contractor, work on the 
project has advanced, in terms of both the dollar value of the work in 
place and individual project elements. In dollar terms, the overall CVC 
project was about 79 percent complete and the sequence 2 work was about 
67 percent complete as of March 31--up from about 77 percent and 63 
percent, respectively, as of February 28. Additionally, wall stone 
installation progressed substantially in the orientation and security 
lobby and in the south atrium and continued in other areas, such as the 
great hall and the East Front's basement level. AOC's construction 
management contractor reported additional progress in the CVC's 
interior, the utility and House connector tunnels, the House and Senate 
expansion spaces, and the building's exterior, such as on the plaza's 
east side in preparation for tree planting, which occurred north and 
south of the auditorium in April. In fact, AOC's construction 
management contractor reported that the CVC's electrical work was ahead 
of schedule.
            Indicators Raise Questions about Proposed Opening Dates
    Despite the progress in these areas, problems and delays occurred 
in other areas, and several indicators of construction progress that we 
have been tracking for the Subcommittee continue to indicate that 
construction work is likely to be completed later than AOC currently 
anticipates. An update on these indicators follows.
    Sequence 2 contractor continues to miss milestones and completion 
dates are extended. Starting with the Subcommittee's June 2005 CVC 
hearing, at the Subcommittee's request, we and AOC have been selecting 
and tracking sequence 2 milestones to help the Subcommittee monitor 
construction progress. These milestones include activities that are 
either on the project's critical path or that we and AOC believe are 
critical to the project's timely completion. As figure 1 shows, the 
sequence 2 contractor has generally missed these milestones. For 
today's hearing, 13 of these milestones were due to be completed, 
according to the project's January 2006 schedule. One was completed 
ahead of schedule; 2 were completed late; and none of the remaining 10 
had been completed as of April 24. (See app. I.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1.--Sequence 2 Contractor's Progress in Meeting Selected 
                   Milestones as of CVC Hearing Dates

    According to AOC's construction management contractor, the base 
project's overall completion date fell 6 workdays behind in March, from 
February 13 to February 21, 2007. The February 13 date was set in the 
project's January 2006 schedule. This 6-workday delay is the net result 
of delays in activities on multiple activity paths. In addition, 
slippages occurred on 15 of 19 critical and near-critical paths that 
AOC's construction management contractor identified as important to 
meeting the base project's overall completion date.\4\ These delays 
occurred in, but were not limited to, work on the East Front, the upper 
level of the orientation and security lobby, the auditorium, the 
utility tunnel, the assembly room, and the orientation theaters, and 
they ranged from 1 to more than 80 workdays. According to the CVC team, 
these project delays occurred for a variety of reasons, such as design 
changes, problematic sequence 1 work, late submissions or approvals of 
shop drawings, and changes in the sequence of work activities by the 
sequence 2 contractor. Even more important than the individual delays 
themselves, however, is their likely impact on the CVC team's ability 
to complete construction work on schedule. So many activities have now 
fallen behind schedule that even relatively short additional delays 
could push back the CVC's overall completion date. According to the 
construction management contractor, there are nine critical and near-
critical activity paths in the project's March schedule that have so 
little slack time that an additional delay of 1 to 30 workdays could 
delay the base project's overall completion date. There were six such 
paths in the project's February schedule.
---------------------------------------------------------------------------
    \4\ Construction projects typically have one critical path, which 
is the sequence of activities having the longest duration through the 
schedule. There is no slack time associated with these activities, 
meaning that a delay in a critical path activity will delay the entire 
project unless a way is found to reduce the time required for other 
activities along the critical path. Some projects have multiple 
critical paths simultaneously; the CVC essentially has two concurrent 
critical paths--(1) East Front mechanical and (2) East Front fire 
acceptance testing--and many near critical activity paths which have 
little slack time. Generally, the more critical and near-critical 
activities a project has, the greater is the risk of late completion 
because there are more opportunities for slight delays that can 
adversely affect the project's completion.
---------------------------------------------------------------------------
    Work on the House and Senate expansion spaces fell 1 workday behind 
schedule in March, AOC's construction management contractor 
reported.\5\ Additionally, and of even greater concern to us, are 
delays in a number of near-critical paths. Some of these paths slipped 
as much as 29 workdays in March. Although most of the time that was 
lost in March did not affect the overall completion date for the 
expansion spaces, further delays could do so. Among the activities that 
were delayed in March were plumbing installation on the House service 
level; duct work installation in space intended for use by the U.S. 
Capitol Police; testing and balancing of the heating, ventilation, and 
air conditioning systems on the Senate upper level; and completion of 
the fire alarm system in the House lower level. According to the CVC 
team, these activities were delayed because of problems associated with 
sequence 1 or other sequence 2 work, delays in getting approved shop 
drawings, and delays in completing necessary predecessor work or in 
getting design decisions.
---------------------------------------------------------------------------
    \5\ According to the project's February and March schedules, the 
overall completion of the House and Senate expansion spaces remained 
the same--May 2, 2007. The contract completion date for this work is 
March 12, 2007.
---------------------------------------------------------------------------
    In early April 2006, we told AOC we were concerned about the 
increasing number of delays in expansion space activities and the 
potential impact of these delays on the completion of the expansion 
space work. As further cause for concern, we noted that the sequence 2 
subcontractor doing the expansion space work was expecting additional 
delays in some of these activities and that, in our view, additional 
design or scope changes were possible. Although AOC is not planning to 
open the expansion spaces until May 2007, timely completion of the 
expansion space work is important because certain expansion space work 
must be completed before the CVC can be opened to the public. AOC 
agreed that continued delays in the expansion space work are of concern 
and recognized that risks and uncertainties associated with the work 
could cause the work to fall farther behind. AOC has begun to work with 
the rest of the CVC team to identify and address problems that have 
arisen and risks that threaten the work's on-time completion.
    Value of completed work indicates completion later than scheduled. 
Another indicator of construction progress that we and AOC's 
construction management contractor have been tracking is the value of 
the completed construction work billed to the government each month. 
Both we and the construction management contractor believe that the 
sequence 2 contractor's monthly billings, including the bill for March 
2006, have generally not been sufficient to meet AOC's currently 
scheduled completion date. While this indicator has some limitations 
(for example, billings lag behind construction and the contract's total 
value does not include the value of modifications that are beyond 
modification 85), it is generally regarded in the construction industry 
as a useful measure of how likely a project is to be completed on time. 
Figure 2 compares the sequence 2 contractor's billings since May 2003 
with the project's scheduled completion date and indicates that the 
sequence 2 contractor is not likely to finish construction work by 
December 2006, as AOC expects, unless the value of completed work 
increases significantly. We believe that a significant increase will be 
difficult, given the limited number of areas that will be ready for 
finish work at any given time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Notes:
    1. The early and late lines on this figure reflect the cumulative 
billings that would be required to complete the project through 
contract modification 85 ($222.8 million total contact value) by the 
early and late finish dates shown in the sequence 2 contractor's 
schedule.
    2. The actual line reflects the sequence 2 contractor's actual 
monthly billings.
    3. Although bills are typically submitted for payment after work is 
completed, it is often likely that construction work will be completed 
on schedule when the actual billing line falls between the early and 
late lines in the figure. With respect to the CVC, the actual billing 
line has been trending below, and in March 2006 went below, the late 
finish line. Even with the lag in billings, this trend indicates that 
the amount of work being completed each month is not sufficient to 
finish the project on schedule.

 Figure 2.--Total Billings by the Sequence 2 Contractor for the Entire 
 CVC Project Compared with the Billings Needed to Finish Construction 
                            Work on Schedule

    Interior stone installation is progressing, but taking longer than 
expected. Overall, about 64 percent of the CVC's interior wall stone 
has been installed, according to AOC's construction management 
contractor, and the sequence 2 contractor installed 5,079 pieces of 
interior wall stone during the last 5 weeks, meeting about 94 percent 
of its 5,384-piece production target. By contrast, during the same 
period, the sequence 2 contractor installed about 3,090 square feet of 
floor stone, or about one-third of the 9,300 square feet specified in a 
preliminary floor stone installation plan that the contractor provided 
to AOC shortly after the February 15 hearing. In addition, 7 of the 13 
schedule milestones that AOC and we have been tracking for the 
Subcommittee for today's hearing are related to interior wall stone 
installation, and the sequence 2 contractor met 1 of these 7 
milestones. According to the CVC team, the sequence 2 contractor has 
missed its stone installation targets for a variety of reasons, 
including the need to correct problematic sequence 1 work or properly 
prepare certain spaces for the installation of wall or floor stone, a 
change in wall stone design, late delivery of floor stone, or delays in 
some spaces in finishing certain work, such as ceiling work, that 
usually precedes floor stone installation. As we have discussed in the 
Subcommittee's previous CVC hearings, delays in wall stone installation 
can lead to additional delays in completing follow-on work, such as 
floor stone installation and finish work. Although the CVC team has 
identified unforeseen conditions and problematic sequence 1 work as 
risks that could affect the pace of wall stone installation, the team's 
efforts to address the risks have not fully prevented these types of 
problems from recurring or adversely affecting the project's schedule. 
Figures 3 and 4 show the sequence 2 contractor's progress in installing 
interior wall and floor stone since January 23 and February 13, 2006, 
respectively.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 3.--Progress of CVC Interior Wall Stone Installation Compared 
             with Targets Set by the Sequence 2 Contractor

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 4.--Progress of CVC Interior Floor Stone Installation Compared 
       with Preliminary Targets Set by the Sequence 2 Contractor

Project's Schedule Remains Vulnerable to Problems, Challenges, Risks, 
        and Uncertainties, Despite Actions AOC Has Taken and Plans to 
        Take
    As we indicated during the Subcommittee's February 15 and March 15 
CVC hearings, we continue to believe that AOC will be challenged to 
meet even the later opening dates we have identified, given the 
problems, challenges, risks, and uncertainties facing the project. A 
brief update on these and AOC's plans for addressing them follows:
  --Trade stacking could delay completion.--As we discussed during the 
        Subcommittee's previous CVC hearings, trade stacking could hold 
        up finish work, such as drywall or ceiling installation, 
        electrical and plumbing work, plastering, or floor stone 
        installation. This work could be stacked because of delays in 
        wall stone installation. According to AOC's construction 
        management contractor, the pace of wall stone installation 
        during March has not been sufficient to eliminate the risk of 
        trade stacking and delays in finish work. Such a situation 
        could also increase the risk of accidents and injuries. Hence, 
        it remains important, as we said at the previous CVC hearings, 
        for the CVC team to closely monitor construction to identify 
        potential trade stacking and promptly take steps to address it. 
        The CVC team has also identified trade stacking as a high risk, 
        and since the Subcommittee's March 15 CVC hearing, the sequence 
        2 contractor has continued to develop area-by-area plans that 
        will show when each subcontractor will be working in each area. 
        The sequence 2 contractor has finished these plans for most of 
        the work areas and expects to have plans for the remaining 
        areas completed by the end of this week. According to the 
        sequence 2 contractor, it has been meeting with its key 
        subcontractors to reach agreement on the plans and intends to 
        continue meeting regularly with them to review and update the 
        plans. The sequence 2 contractor pointed out that these plans 
        add more detail to the project's schedule and will serve as a 
        tool for addressing the trade-stacking issue. Although we and 
        AOC agree that these area-by-area plans are important and 
        should be helpful, we are still concerned about the potential 
        for trade stacking because of the delays that have already 
        occurred and the delays that could occur if shop drawings for 
        the fire protection system are not approved in time to avoid 
        slippages in follow-on work or if changes are required as a 
        result of the Fire Marshal Division's review of the drawings.
  --Complex building systems remain a significant risk.--The CVC will 
        house complex building systems, including systems for heating, 
        air conditioning, and ventilation; fire protection; and 
        security. These systems not only have to perform well 
        individually, but their operation also has to be integrated. If 
        the CVC team encounters any significant problems with their 
        functioning, either individually or together, during 
        commissioning or acceptance testing, the project could be 
        seriously delayed. During the Subcommittee's March 15 CVC 
        hearing, we noted that the sequence 2 contractor planned to 
        submit the shop drawings for the CVC's fire protection system 
        for review by March 17. However, the contractor has not 
        submitted the drawings for the base project as of April 24, in 
        part because more time was needed to incorporate changes, AOC's 
        construction management contractor said. AOC expects the 
        drawings to be submitted by the end of this week. Delays could 
        arise if the proposed system does not meet the project's design 
        specifications or the fire protection code's requirements.\6\ 
        AOC's Chief Fire Marshal believes that it will take at least 4 
        weeks to review these drawings. In addition, the Chief Fire 
        Marshal notes that delays could occur if the CVC team does not 
        adequately pretest the system and correct any problems found 
        during the pretesting. Since the Subcommittee's last CVC 
        hearing, AOC's commissioning contractor submitted its plan for 
        testing the performance of the CVC's smoke control system, 
        which is a critical component of the CVC's fire protection 
        system and must work properly before the CVC can be opened to 
        the public. This plan has not yet been approved. In addition, 
        as we have previously noted, the Chief Fire Marshal's timely 
        completion of the fire protection system's acceptance testing 
        depends on his ability to obtain sufficient funding for a 
        contractor to help perform the tests. Furthermore, difficulties 
        the CVC team has had resolving scope, design, and cost issues 
        associated with the CVC's technical security system could 
        adversely affect the schedule for acquiring and installing 
        cabling and equipment for this system, including door hardware. 
        The CVC team and representatives from the U.S. Capitol Police 
        have been working to resolve these problems. Nevertheless, 
        according to AOC's construction management contractor, certain 
        changes to the scope of the security work are likely to set the 
        schedule back to some extent.
---------------------------------------------------------------------------
    \6\ According to the sequence 2 subcontractor that is fitting out 
the House and Senate expansion spaces, the delays in getting approved 
shop drawings for the fire protection system have already postponed 
ceiling close ins in the expansion spaces, and the subcontractor's CVC 
project director believes that further such delays pose the single 
greatest risk to the completion schedule for the expansion spaces at 
this time.
---------------------------------------------------------------------------
  --Building design and work scope continue to evolve.--The CVC has 
        undergone a number of design and work scope changes. Since the 
        project began, AOC's architectural contractor has issued over 
        180 design changes or clarifications, and as of April 20, 2006, 
        reported having another 14 in process. In addition, since the 
        project began, AOC has executed more than 80 sequence 2 
        contract modifications valued at over $23 million for work that 
        was not anticipated.\7\ Some of these changes, such as changes 
        in the exhibit gallery and in the East Front, have resulted in 
        delays. In addition, shop drawings for a number of project 
        elements, such as the facility's fire protection system, 
        millwork in the food service area and assembly rooms, and 
        certain portions of the exhibit gallery, have not yet been 
        fully approved and are subject to change, and additional design 
        or scope changes are likely given the project's experience to 
        date. Project design and scope changes are typically reflected 
        in the development of potential change orders (PCO), many of 
        which result in contract modifications. Figure 5 shows the PCOs 
        submitted for consideration for sequences 1 and 2 since 
        September 2003. Although PCOs are not always approved, they are 
        often regarded as a reasonably good indicator of likely future 
        design or scope changes that can affect a project's cost and 
        schedule. Even more important, the adverse impact of scope and 
        design changes on a project's schedule is likely to increase as 
        the project moves toward completion. For example, certain 
        changes to the fire protection system currently being discussed 
        are likely, if made, to adversely affect the project's 
        schedule, according to AOC.
---------------------------------------------------------------------------
    \7\ These data exclude sequence 2 contract modifications for work 
that was planned but not included in the sequence 2 base contract. 
Examples include the fit-out of the House and Senate shell spaces, the 
construction of the utility tunnel, and the purchase and installation 
of food service equipment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 5.--Cumulative Number of Potential Change Orders Submitted for 
      CVC Sequences 1 and 2 between September 2003 and April 2006

      As the figure indicates, new PCOs for sequence 1 were submitted 
        until shortly before, and even for several months after, 
        November 2004, when AOC determined that the sequence 1 contract 
        work was substantially complete. Similarly, PCOs for sequence 2 
        are still being submitted, and we have seen no indication that 
        their submission is likely to stop soon. While not all PCOs are 
        approved, many are, and it appears likely to us that some of 
        the design or scope changes indicated in PCOs could lead to 
        contract modifications that will affect the project's schedule. 
        AOC agrees that it is important to minimize the impact of 
        proposed design and scope changes.
  --Opening the CVC and expansion spaces at different times is likely 
        to result in a temporary cap on CVC occupancy and increase 
        costs.--As we reported during the Subcommittee's February 15 
        and March 15 CVC hearings, AOC's current plan to open the CVC 
        in April 2007 before the expansion spaces are scheduled for 
        completion is likely to result in a temporary cap on CVC 
        visitor occupancy and a need to construct temporary emergency 
        exits for fire and life safety protection.\8\ AOC is proposing 
        this sequential approach because it believes that conducting 
        acceptance testing for the fire protection system for the CVC 
        and the expansion spaces concurrently would delay opening the 
        CVC to the public. AOC's proposed April 2007 opening date for 
        the CVC depends on the timely completion of work not only on 
        the base project but also on the expansion spaces, since 
        certain expansion space work must be completed before the CVC's 
        opening. Inasmuch as work on both the base project and the 
        expansion spaces was delayed in March, we believe that it will 
        be especially important to monitor the progress of construction 
        to determine what additional work (and funding) may be needed 
        to meet AOC's planned date for opening the CVC, including what 
        temporary work may be required in the expansion spaces for the 
        CVC to open before the expansion space work is complete. 
        According to AOC, it plans to have its construction management 
        contractor monitor this situation.
---------------------------------------------------------------------------
    \8\ According to AOC, the CVC's occupancy at any one time would be 
temporarily limited to 3,500, compared with about 4,200, the normal 
anticipated occupancy level, until acceptance testing of the fire 
protection system for the expansion spaces has been completed.
---------------------------------------------------------------------------
  --Risks from insufficient stone deliveries remain, but may be 
        diminishing.--According to the sequence 2 contractor, it has, 
        since the Subcommittee's last CVC hearing, received 12 of the 
        12.5 truckloads of interior wall stone it was expecting from 
        the stone fabricator and expects to receive the remaining wall 
        stone needed for the base project by mid-June 2006. AOC's 
        construction management contractor reported that as of last 
        week, almost all--about 98 percent--of the wall stone needed 
        for the core CVC itself was on site (either installed or 
        awaiting installation); about 44 percent of the wall stone 
        needed for the atriums and about 30 percent of the wall stone 
        needed for the East Front were on site; and none of the wall 
        stone for the House connector, Library of Congress, and Cannon 
        tunnels had been delivered. According to AOC and its 
        construction management contractor, although the supply of 
        interior wall stone was insufficient in late 2005 and early 
        2006, it is adequate for the CVC at this time, given the amount 
        of space available for wall stone installation and the quantity 
        of stone on hand--over 6,800 pieces. Furthermore, they said 
        that they do not expect the wall stone supply for the base 
        project to cause further delays in the CVC's opening, provided 
        that the fabricator sustains the pace of deliveries, 
        particularly for the East Front, whose completion is critical 
        to the CVC's opening. Also, although none of the wall stone for 
        the House and Senate expansion spaces was on site yet, the 
        subcontractor responsible for this work is not anticipating 
        delivery problems at this time. On the other hand, AOC's 
        construction management contractor reported that no floor stone 
        was installed during the week of April 10 because, as a result 
        of a late delivery from the supplier, the installers ran out of 
        floor stone for the exhibit gallery. The sequence 2 contractor 
        said this late delivery was unusual for floor stone and no 
        further problems with floor stone supply were expected.
    Finally, as we have said in previous discussions with AOC, its 
construction management contractor, and the Subcommittee, it will be 
important for AOC to have adequate analysis and documentation of the 
reasons and responsibilities for delays.\9\ On April 11, 2006, AOC 
executed a contract modification authorizing its construction 
management contractor to have one of its managers who has not been 
involved in the CVC project assess the adequacy of this type of 
information. AOC expects this assessment to be completed soon.
---------------------------------------------------------------------------
    \9\ See for example: GAO, Capitol Visitor Center: Effective 
Schedule Management and Updated Cost Information Are Important, GAO-05-
811T (Washington, D.C.: June 14, 2005).
---------------------------------------------------------------------------
Estimated Project Cost and Funding
    As we testified during the Subcommittee's March 15 CVC hearing, we 
estimate that the total cost to complete the entire CVC project will be 
about $556 million without an allowance for risks and uncertainties and 
could be as much as about $584 million with such an allowance. To date, 
about $530 million has been provided for CVC construction. This amount 
includes about $3.6 million that was made available for either CVC 
construction or operations and has been approved for CVC construction 
by the House and Senate Committees on Appropriations.\10\ To obtain the 
additional funding that it expected to need to complete the project's 
construction, AOC, in December 2005, requested $20.6 million as part of 
its budget request for fiscal year 2007. This request was based, in 
part, on discussions with us and took into account our November 16, 
2005, estimate of the cost to complete the project's construction 
without an allowance for risks and uncertainties and funding from 
existing appropriations. Our subsequent work--completed in preparation 
for the Subcommittee's February 15 and March 15 CVC hearings--indicated 
that AOC would need about $5 million more, or about $25.6 million in 
additional CVC construction funds, to complete construction without an 
allowance for risks and uncertainties. AOC plans to request the 
additional $5 million as a supplement to its fiscal year 2007 budget 
for CVC construction. This would bring its total request for fiscal 
year 2007 CVC construction funds to $25.6 million. In addition, AOC has 
indicated that it plans to use about $950,000 of the fiscal year 2007 
general administration appropriations it has requested for contractual 
support for its Fire Marshal Division.
---------------------------------------------------------------------------
    \10\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. In June 2005, AOC received approval to 
use about $2.8 million (including about $1.6 million for CVC 
construction) of this $10.6 million, leaving a balance of about $7.7 
million that could be used in the future after a rescission amounting 
to $84,800. AOC recently received approval to use about an additional 
$2 million of these funds for CVC construction, including, for example, 
the fabrication and installation of wayfinding signage and the fit-out 
of the gift shops, and about $2.3 million for CVC operations. Thus, 
about $3.4 million of the $10.6 million remains available for approval 
for use for CVC construction or operations.
---------------------------------------------------------------------------
    As we stated in our March 15 testimony, AOC believes that it may be 
able to reduce the amount of funds it will need in fiscal year 2007 for 
contractual support in testing the CVC's fire protection system and 
plans to explore ways to do so. AOC expects that its Fire Marshal 
Division should receive the shop drawings for the CVC's fire protection 
system by the first week in May, and the Chief Fire Marshal believes 
that his office will need at least 4 weeks to complete its review. It 
then plans to determine how much contractual support it will need to 
test the system and to explore cost savings possibilities. We plan to 
monitor and report on these costs to the Subcommittee as soon as AOC 
has a firmer estimate. Also, at this time, it appears that sufficient 
contingency funding may be available within the current CVC budget to 
cover the cost increases associated with the security system issues we 
previously discussed. We will keep the Subcommittee apprised of this 
situation.
    Mr. Chairman, this completes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.

       APPENDIX 1.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, MARCH 16, 2006-APRIL 27, 2006
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
            Activity                                    Location                         completion   completion
----------------------------------------------------------------------------------------------------------------
Frame Plaster Ceiling..........  Great Hall...........................................      3/17/06      4/14/06
Wall Stone Area 3..............  East Front Basement..................................      3/20/06  ...........
Wall Stone Area 5..............  Auditorium...........................................      3/22/06      4/18/06
Wall Stone Area 2..............  Orientation Lobby Upper Level........................      3/27/06  ...........
Wall Stone Area 3..............  Orientation Lobby Upper Level........................      3/31/06      3/09/06
Lath Plaster Ceiling...........  Great Hall...........................................      3/31/06  ...........
Wall Stone Area 1..............  East Front Ground....................................      4/03/06  ...........
Grid for Wood Ceiling..........  Orientation Theater..................................      4/03/06  ...........
Plaster Ceilings...............  Great Hall...........................................      4/06/06  ...........
Wall Stone Area 2..............  East Front Ground....................................      4/17/06  ...........
Install Bronze Doors...........  Food Service.........................................      4/17/06  ...........
Install Wood Ceiling Panels....  Orientation Theater..................................      4/17/06  ...........
Wall Stone Area 4..............  Orientation Lobby....................................      4/21/06  ...........
----------------------------------------------------------------------------------------------------------------
Source: AOC's January 2006 CVC sequence 2 construction schedule for the scheduled early completion dates and AOC
  and its construction management contractor for the actual completion dates as of April 24, 2006.

    Senator Allard. My colleague Senator Durbin has now arrived 
and I'll give him an opportunity to give us an opening 
statement.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Mr. Chairman, thank you for that and I 
apologize that I won't be able to stay. But I wanted to come by 
first, to thank you. Your leadership on this has made a 
difference. I know that you've taken a personal interest in the 
Capitol Visitor Center, unlike any other Member of Congress, on 
either side of the rotunda. And because you have, I think the 
taxpayers are getting their monies worth and people who are 
involved in it at every level are being held more accountable.
    But when it comes to the issue of accountability, I have to 
tell you, that I continue to have the most serious concerns 
about worker's safety. I just--I can't get over the fact, that 
in the time that I've served on the subcommittee, that this has 
been a recurring theme.
    When I first came to this subcommittee, there was a higher 
incidence of accidents by those working for the Architect's 
Office, than any other Federal agency--than any other Federal 
agency. I urged the Architect to bring in outside consultants 
from the private sector to change this and it worked. We 
brought down the overall accident and injury rate of workers on 
the job. And then when you started the hearings on CVC, we 
learned that the workers at the job site were once again, 
experiencing unacceptably high levels of worker injuries. It's 
just incredible to me, that in the shadow of the Capitol Dome, 
this is taking place. When we should be setting an example for 
the United States, sadly, we are supervising one of the most 
dangerous work places in America right here, on Capitol Hill.
    And now, comes the disclosure about asbestos exposure. It 
came up at our last hearing. I know that there are some workers 
in the room. Would you hold up your hand, those who work in the 
tunnels? Well, we have four of them. And I understand that 
there may be as many as 10, who have been working in an 
environment which is unacceptable in any work place in America. 
To think, that it is occurring right here on Capitol Hill, is a 
tremendous source of shame.
    The testing that's been done suggests exposure to asbestos 
at 4 to 35 times the acceptable normal level. It wasn't until 
mid-March of this year that these workers were given protective 
equipment.
    Now to address this issue, is not cheap. It's expensive. 
The first thing we need to do, is to commit ourselves to these 
men and to their families, that we're going to do everything in 
our power to protect them from exposure, to anything that could 
cause a physical injury, or disease, or ailment to them and to 
work with them. I think we ought to take special efforts to 
work with them to find out whether there's anything at this 
point that can be detected that we might be able to respond to 
regarding their exposure to this hazard.
    And then, Mr. Chairman, as you and I have discussed, we 
face the painful responsibility of telling our colleagues in 
Congress, that we have to do something about it and it won't be 
cheap. The tunnels that are harboring the utilities that serve 
this Capitol Hill are antiquated and dangerous. Dangerous to 
the workers, and dangerous to others who come anywhere near 
them.
    That has to change. Whatever the cost may be, we have to 
accept that responsibility. To do otherwise, is to subject 
workers in the future and other unsuspecting people to the 
hazards that are there, that we know to be there.
    So Mr. Chairman, I want to work with you and commend you 
again, for your leadership on this. And I want to say to the 
workers who are here, this isn't going to be a matter of one 
day's newspaper article and forgotten. As long as this 
Senator's on this subcommittee, we will keep after this issue.
    We have a responsibility to these workers and their 
families, and a responsibility to this Nation to set an 
example--a good example when it comes to workers safety. Sadly, 
we have not set a good example to this point. And I hope, as 
this progresses, Mr. Chairman, you will consider a hearing 
that's dedicated specifically to this issue of workers safety, 
particularly as it relates to asbestos.
    I'm sorry, I can't stay. I wish I could. But I promise you, 
that I will work with you, as I have in the past, to make 
certain that we do meet our responsibility.
    Senator Allard. Well, Senator Durbin, I personally would 
like to thank you for your diligence and help with our 
oversight function. You've been extremely valuable as a member 
and it's been a pleasure for me to work with you on some of 
these problems. They're serious problems, they're spending 
issues, they're workers safety issues and your help on those 
has been very much appreciated.
    I'm sorry you can't stay for the rest of the hearing, but 
we all understand that happens with the pressing schedules 
around here and we'll continue to work on this asbestos problem 
with you.
    Senator Durbin. Thank you.
    Senator Allard. Mr. Hantman, given the urgency of the 
utility tunnel problems, I'm going to start with questions on 
that issue. Frankly, in my mind, it is unconscionable and truly 
shocking that the scope of the utility tunnel problem was not 
recognized until just a few weeks ago, when we received your 
report outlining the immediate need for $118 million and as 
much as $200 million over the long term.
    If the Office of Compliance had not filed the complaint in 
February, and if Senator Durbin and I hadn't demanded action, 
it seems that nothing would be happening. I want you to help us 
understand how we went from spending just a few million over 
the past several years, to needing more than $100 million over 
the next several years.
    Mr. Hantman. Thank you, Mr. Chairman and I do want to 
certainly concur with the whole sense of what Senator Durbin 
talked about. The safety of our people is a critical issue, and 
we need to be doing a lot more work on that than we have in the 
past.
    In terms of the studies that we are doing right now, we are 
looking at over 2 miles worth of underground steam utility 
tunnels. When we first assessed the scope of the work back in 
2000--2001, we had estimated that it was looking at perhaps 
$200 million in potential work at that time. In fact, we had 
looked at doing master plans and have just recently gotten the 
dollars to do the master plans to enable us to do the full 
assessment. We're doing a full assessment this summer to get 
more detailed information on the scope of the work that needs 
to be done.
    As you know, we've taken care of the highest priority work 
that had been identified in the URS Grieer Study which was the 
work on Constitution Avenue. We invested some $5 million in 
that, on South Capitol Street as well, to be able to maintain 
the utility service to all of the buildings on Capitol Hill.
    Recognizing that this was a long-term scheme, we went 
through the project and all of the tunnels shoring up the areas 
that needed the most work. And the possibility of collapse was 
there and that's why we took care of the Constitution Avenue 
section. Because that was the first area, where that criteria 
was levied by the consultant.
    In the interim during those years, we have been looking at 
removal of spalling concrete. We've just had the AOC 
construction division go through the areas. In our longest 
tunnel in fact, those areas identified by the tunnel crew and 
made sure that we've patched up the split areas in the 
asbestos, or the things that had been ripped up. So that whole 
tunnel has now been gone through and they've gone on to the 
next one. In the short run, as we look toward the mid and the 
longer run, for the major investments of dollars, this would 
enable us to work safely in those areas. In fact, the tunnel 
crew will not be going to any major work areas until the 
construction crew takes a look at the spalling concrete and 
makes sure that there is no problem for that.
    But perhaps Stephen, you can talk about the $39 million 
we're requesting now.
    Mr. Ayers. Sure. We have requested $39.9 million in an 
emergency supplemental appropriation for fiscal year 2006. 
That's made up of several large line items. The first of which 
is approximately $14 million in asbestos abatement for 
primarily, the ``R'' tunnel and the ``G'' tunnel.
    Second, approximately $10 million for the replacement of a 
section of the ``R'' tunnel, along Second Street, behind the 
Library of Congress Madison Building. And then, approximately 
$5 million for some additional egress improvements throughout 
all of the tunnels. Another $5 million for a study and 
subsequent design of the ``Y'' tunnel replacement. And another 
$2.5 million for various concrete repairs throughout the 
utility tunnel system.
    Senator Allard. According to an article in yesterday's Hill 
newspaper, the tunnel crew has been exposed to some extremely 
high levels of asbestos according to some lab results that you 
had ordered as Architect of the Capitol. Would you, Mr. 
Hantman, or Mr. Ayers verify the validity of those tests and 
perhaps give us a clear indication as to whether workers have 
possibly been exposed to the high levels. Then also, explain 
where that is as far as the proximity to the new tunnel that we 
just put in on East Capitol Street?
    Mr. Ayers. Sure. I'm aware, since our last hearing, we have 
taken approximately 64 samples, air samples, to determine if 
there's asbestos present in the air. The analysis that I've 
received on that data indicates that if employees wear their 
half face respirators, they don't have health exposure 
problems.
    Senator Allard. Did you say a half faced respirator?
    Mr. Ayers. A normal respirator, which is a half face 
respirator.
    Senator Allard. I see.
    Mr. Ayers. I don't know the specific locations.
    Senator Allard. And how long have they been wearing them?
    Mr. Ayers. That was, I think, at just before our last 
hearing, which would have been March.
    Senator Allard. So, it's been about the last month, is that 
correct?
    Mr. Ayers. That's correct.
    Senator Allard. Now, you've talked about the 64 samples. 
What about the results on those sample testings? Would you 
comment on those?
    Mr. Ayers. First, the results that were reported is raw 
data and that data has not been interpreted for the duration of 
exposure. So, that's the first analysis that needs to take 
place.
    And second, it needs to be analyzed for what personal 
protective equipment employees are wearing. So based on that, 
wearing their personal protective equipment, employees are safe 
with those 64 sample results that I've seen.
    Senator Allard. So you think the employees right now, would 
be protected with the full face mask and the suits that they 
have to wear? Is this adequate even for the highest level that 
was reported in the Hill paper yesterday?
    Mr. Ayers. Yes. That's correct.
    Senator Allard. Now, the highest level that you've seen, is 
that in the older parts of the tunnel?
    Mr. Ayers. I don't know where that test result was from. 
The test results are not specific. They're taken over a period 
of time which could be up to 4 to 8 hours.
    Senator Allard. Now, were the 64 tests run through the 
entire tunnel complex or were they run in just one section?
    Mr. Ayers. I don't know specifically where they were taken 
from.
    I believe, it's throughout the entire tunnel complex.
    Senator Allard. Okay.
    Mr. Ayers. With the exception of the ``V'' tunnel, which, 
of course, does not have asbestos in it. It's been completely 
abated.
    Senator Allard. That's the one that was just worked on 
recently.
    Mr. Ayers. Yes.
    That's correct.
    Senator Allard. It doesn't connect directly to the other 
tunnel systems, is that correct?
    Mr. Ayers. That's correct.
    Senator Allard. How would you assess the risk at the point 
where the new tunnel construction on East Capitol Street 
attaches? I guess that's the ``R'' section in there. Is that 
correct?
    Mr. Ayers. Yes. That's correct.
    I think maybe Bob can explain what the CVC contractor has 
done in their analysis of that specific area.
    Senator Allard. All right.
    Mr. Hixon. I'd be happy to explain. After the issue was 
brought to light a few weeks ago, I guess it was on March 24, 
we received an e-mail from Chris Potter with the Power Plant, 
advising us of these requirements and concerns within the 
tunnel complex.
    Our contractors were informed of that. The information came 
in late on Friday. I sent it out Monday morning, so they were 
aware of it. They pulled all their crews out of the new utility 
tunnel as a precaution, concerned that there may be some 
migration of--if there was a problem, there could be some 
migration into the new tunnel.
    We then sent in ACECO, which is a firm that handles this 
and is a certified industrial hygienist to take readings within 
the new tunnel. They sealed off the connection, the areas 
between our tunnel and the new tunnel, and took samples. They 
determined that we had none, whatsoever, that exceeded any 
levels. There was no--you didn't have to wear anything. There 
was nothing detected of any consequence.
    So as a consequence of that, a week later, the crews--that 
occurred during that week between the 27th and the 30th. We had 
the results back the following week. The contractor was back in 
there doing their conduit installation. And the work has 
continued since that time.
    We do have the issue of getting back into the existing 
``R'' tunnel and completing the portion of our construction 
work within that area. We're working with all of the personnel 
at the AOC and the Power Plant to determine the best way to 
achieve that with our contractors, you know recognizing that 
there needs to be something done to either make--create a clean 
area, or else we would have to have our contractors have the 
same training that the Power Plant people have and wear the 
same kind of equipment in order to be able to go into that 
space.
    So, we're working the details of that out right now.
    Senator Allard. Okay. I want to get back to my question. 
The headline reads, ``Tunnel Workers are Exposed to High Levels 
of Asbestos''. Is that true or not?
    Mr. Ayers. Yes. There are high levels of asbestos that have 
been detected in our air sampling.
    Senator Allard. But my question is, has there been exposure 
to workers?
    Mr. Ayers. Our analysis indicates that if employees wear 
the personal protective equipment, no, they're not exposed at a 
hazardous level.
    Senator Allard. So why don't you want to answer my 
question?
    Mr. Ayers. Maybe I don't understand it. I'm sorry.
    Senator Allard. Well, have workers been exposed to high 
levels of asbestos?
    Mr. Ayers. I'm advised that we can't make that 
determination yet. But we will make that determination with the 
help of the Public Health Service.
    Senator Allard. And how long do you expect that will take?
    Mr. Ayers. I expect that's 2 to 3 weeks away.
    Senator Allard. Okay. You didn't have them wearing the 
safety equipment until just this last month, so there's a 
possibility that there was exposure or likelihood there was 
exposure prior to that. Is that correct?
    Mr. Ayers. That is possible.
    Senator Allard. Do you think you can give us a full report 
on that question when we have the next hearing?
    Mr. Ayers. Yes, sir.
    [The information follows:]

    As we testified at the April 27 hearing, we issued a task 
order to the Public Health Service (PHS) to review available 
historic asbestos data. According to the PHS review, 
unfortunately, the historic data are not sufficient to 
determine past employee exposures.
    Capt. Joseph Terrra, from the PHS testified at the 
Subcommittee's June 28 hearing, ``On April 20 and May 25, our 
staff members reviewed exactly 142 personal samples and 49 area 
air samples that were historical data that were collected from 
a collection of private contractors or CPP staff. That data, we 
found to be inclusive in any way, due to the lack of activity 
characterization and comprehensive task identification. 
Essentially, the information that goes along with the testing 
was lacking, and we were unable to provide any conclusive 
statement regarding that data.''
    We can say that, based on review of the data to date, that 
the half-faced respirators currently in use for routine tunnel 
work provide workers adequate protection for non-asbestos 
abatement operations.
    As part of their review, the PHS made several 
recommendations to improve sample data collection and analysis 
including development of a systematic plan to ensure that all 
normal activities and locations are addressed.
    We issued a task order to PHS to implement their 
recommendations, including additional employee exposure 
monitoring and an updated asbestos survey that includes a job 
hazards analysis that related work tasks to potential asbestos 
exposure. PHS has a full-time industrial hygienist on site to 
coordinate monitoring; to ensure monitoring data is collected 
properly; and to analyze, interpret, and explain data results 
to employees. Because of the variety and schedule variability 
of work performed in the utility tunnels, it is expected that 
the monitoring will continue for at least four months.
    In addition, an occupational health doctor and industrial 
hygienist from the PHS met with Tunnel Shop personnel and 
Construction Division employees to discuss asbestos results to 
date and the plan to characterize potential worker exposures.

    Senator Allard. Is AOC following OSHA standards for 
decontamination of workers before they leave the tunnels?
    Mr. Ayers. Yes. We believe we are.
    Senator Allard. And besides the steam tunnel employees, how 
many other people visited or worked in the tunnels over the 
past 5 years? Do you have that information?
    Mr. Ayers. I don't have an answer to that. But I'll try to 
get that answer.
    Senator Allard. If we could have that for the next hearing, 
I think that's an important response.
    Mr. Ayers. Yes, sir.
    [The information follows:]

    Our documentation to track personnel visiting the tunnels 
prior to 2005 is incomplete. Therefore, we are unable to 
provide the number of personnel entering the tunnels prior to 
2005 from our records. However, that process has been fixed. 
Our current tracking process shows, since May 2006, we average 
35 personnel (12 authorized AOC personnel and 23 contractors 
providing tunnel inspections, repairs, and CVC tunnel 
construction), entering the tunnels during multiple shifts on a 
daily basis. The current average number of personnel entering 
the tunnels is 10 more than the April 10, 2006 report to 
Congress stated because of increased contractor activity. Once 
the CVC construction project, ongoing and planned tunnel 
inspections, and repairs are complete, we should average 9 
authorized personnel entering the tunnels on a daily basis. 
Moreover, access to the tunnels is restricted to only those 
personnel that require access to perform their assigned duties 
and have the proper training. We will continue to review our 
process and records to ensure the integrity of this new process 
remains in tact.

    Senator Allard. In response to a request Senator Durbin and 
I made earlier this month, you put together a preliminary plan 
for protecting workers and ensuring the safety of the tunnels. 
Has the Office of Compliance commented on your plans and do 
they concur that it addresses the problems they had identified?
    Mr. Ayers. We've not shared with the Office of Compliance 
the same report we've sent to you. But we have sent them, just 
this morning, a summarized version of that plan, seeking their 
comment.
    Senator Allard. So, they haven't responded back on that 
then, is that correct?
    Mr. Ayers. That's correct.
    Senator Allard. And why is it just now being sent to them?
    Mr. Ayers. We're in the midst of a legal proceeding with 
the Office of Compliance and our attorneys advised against it. 
They felt it was best not to send that document forward, at 
this time.
    Senator Allard. Until just yesterday, is that when you sent 
it to them?
    Mr. Ayers. This morning.
    Senator Allard. Okay.
    Mr. Ayers. And we distilled a summarized version of that 
for them.
    Senator Allard. Have the tunnel employees been given an 
opportunity to see the report, or provide input, and have you 
gotten a reaction from them?
    Mr. Ayers. It's my understanding, that it has been made 
available for them to review. I've not heard any reaction from 
them yet.
    Senator Allard. When was it made available to the 
employees?
    Mr. Ayers. I don't know the answer to that.
    Mr. Hantman. Tuesday.
    Mr. Ayers. Tuesday of this week?
    Mr. Weiss. Yes.
    Mr. Ayers. Tuesday of this week.
    Senator Allard. So that was made available Tuesday of this 
week, and then you sent it yesterday, your information and your 
plan to the Office of Compliance.
    Mr. Ayers. That's correct.
    Senator Allard. Who issued the complaint, is that correct?
    Mr. Ayers. That's correct.
    Senator Allard. Okay. Have you heard from the employees at 
all on that plan, initially? Not at this point?
    Mr. Weiss. They----
    Senator Allard. Come up to the table and identify yourself, 
please, for the record.
    Mr. Weiss. Good morning, Mr. Chairman.
    Senator Allard. Good morning.
    Mr. Weiss. My name is Mark Weiss. I'm the Director of the 
Power Plant.
    Senator Allard. Yes.
    Mr. Weiss. We have meetings on Tuesday mornings with the 
tunnel crew.
    Senator Allard. Yes.
    Mr. Weiss. And I brought over a copy of the report that we 
submitted. There were concerns from staff on the report. And 
based on those concerns, we will have a more formal review 
approach and get their comments in more detail in the coming 
days.
    Senator Allard. And that will also include their concerns?
    Mr. Weiss. Yes, sir.
    Senator Allard. Thank you. Well, we're looking forward to 
getting that report. As soon as you get the information, I'd 
like to have you get it to our staff. Then we can have a follow 
up on this at our next oversight hearing, if you would.
    Mr. Weiss. Yes, sir.
    [The information follows:]

    The AOC provided the entire April 10, 2006, report to the 
OOC on May 3, 2006, and provided a subsequent briefing to the 
OOC on May 11, 2006. The Director of the Capitol Power Plant 
obtained feedback from the Tunnel Shop workers regarding their 
concerns about the report. Their comments did not represent 
disagreement with actions and measures that are planned to 
abate the safety hazards, but enabled the Director of the 
Capitol Power Plant to provide additional information that was 
not explained in the report, which helped clarify their 
concerns.
    For example, the Tunnel Shop workers did not agree that 
there had been an average of 25 workers per day in the tunnels. 
However, they did not consider the multiple shifts and that the 
numbers varied based on the work schedule and type of work 
performed. The Tunnel Shop workers did not agree that Greiner 
provided training on how to recognize potential structural 
problems in the tunnels. The Director of the Capitol Power 
Plant clarified that this training was geared towards certain 
skills and not every employee received the training, which was 
not clear in the report. The Tunnel Shop workers stated that 
they have not seen the Hazard Mitigation Plan (HMP), which was 
developed to serve as a comprehensive approach to addressing 
worker safety issues in the utility tunnels. The Director of 
the Capitol Power Plant does not use the HMP terminology today. 
His daily review of the weekly work plan is the methodology 
used today to address worker safety issues in the tunnels. 
These are a few examples wherein the Tunnel Shop workers 
disagreed, but the Director of the Capitol Power Plant has 
subsequently clarified each point.

    Senator Allard. Now, how much of this can be obligated by 
the end of the calendar year 2006? You indicated you need $39.9 
million.
    Mr. Ungar. Yes, sir.
    Senator Allard. Can this be obligated by the end of the 
calendar year 2006?
    Mr. Ayers. No, Mr. Chairman. Not all of it can be obligated 
by the end of the calendar year. We think approximately $35 
million of it can be obligated by the end of the calendar year.
    Senator Allard. Now, do you believe a hybrid approach of 
removal in some key locations and encapsulation of other areas 
makes sense? That's been discussed, I know.
    Mr. Ayers. Correct. It has been discussed. We put forth in 
our proposal and our recommendation, for complete asbestos 
removal. We think that's the best option to move forward with. 
But, we recognize that, that is a very expensive option. 
Alternatives to that are available by managing some of the 
asbestos in place and removing other portions of it in a more 
phased approach. It is certainly an alternative.
    Senator Allard. Can we get a response from you, Mr. Dorn, 
on how GAO feels about the hybrid approach?
    Mr. Dorn. Yes, Mr. Chairman. The industry standard is to 
leave the asbestos in place, unless it's going to be subject to 
mechanical damage or it's near what you need to access for 
maintenance reasons. So the standard would be, there's no 
reason to take it out. You can actually cause more damage, more 
exposure to a whole chain of people by taking it out, rather 
than leaving it in place, and then encapsulating it with 
whatever material that the AOC chooses that is satisfactory for 
that.
    Senator Allard. Are you thinking that those areas of the 
tunnel, where cement is crumbling, you need actual removal, but 
those parts where the structure is pretty solid, encapsulation 
may be the most appropriate approach?
    Mr. Dorn. Yes, sir. Mechanical damage could be caused by a 
tight spot where workers have to constantly go by it and brush 
up against it, which could damage it.
    Senator Allard. I see.
    Mr. Dorn. Or, if you're concerned about something falling 
from the ceiling, or a wrench hitting it from an adjacent 
valve, things like that.
    Senator Allard. Are you in the process of identifying, or 
have you identified those locations in the tunnels, Mr. Ayers?
    Mr. Ayers. Yes. We did have a consultant identify those 
back in 2000 or 2001, and we're having a contractor now 
validate all of that information. So, we'll have an accurate 
account of where that concrete spalling is.
    Senator Allard. Now, I want to move on to questions about 
the Capitol Visitor Center. In the last hearing, Mr. Hantman, 
you testified that utility tunnel work was almost complete, and 
I gathered from the current status of the utility tunnel work 
now, that you're wrapping it up. You're just doing the surface 
work on the road above and that's what you have remaining.
    Mr. Hantman. We're still, Mr. Chairman, doing work inside 
the tunnel.
    Senator Allard. Yes.
    Mr. Hantman. One of the issues that was discussed by Bob 
Hixon a little while ago, about once the issue of asbestos in 
the adjacent ``R'' tunnel that it feeds into came up, we lost 
several weeks on the inside of the tunnel. So, Bob, do you have 
a sense of whether that's going to slow us down or not?
    Mr. Hixon. The expectation we have right now, is that while 
we were expecting to have the system functioning and providing 
chilled water to the building in April, originally. Because of 
what's gone on, we're probably not going to see it done until 
June. Now part of that is not all attributable to the tunnel, 
it's also attributable to what is required for flushing.
    We have criteria we've recently received from the west 
heating plant that's different from what's in our current 
specification. And so, in order to ensure that the chemical mix 
of what we're doing is compatible with what the Power Plant is 
generating, we're making some changes in our processes for 
getting the system ready to accept the chilled water from the 
plant.
    Senator Allard. I see.
    Mr. Hixon. We had a meeting yesterday on that and worked 
out a lot of the details. We should be finishing the work on 
those details here in the next week.
    Senator Allard. What kind of work remains, where you have 
to move your workers into the older tunnel, there?
    Mr. Hixon. In the older part of the tunnel, we have a 
section that's a--it's a number of pipes about 10 feet long, 
approximately, that connect from our tunnel into the existing 
tunnel.
    Those pipes need to be insulated and in order for us to--
there are a couple of steps that we need to do----
    Senator Allard. So, they're connected, they just need 
insulation.
    Mr. Hixon [continuing]. They need to be insulated. We have 
some valves that need to be opened. The Power Plant people have 
agreed to help us out. So they've gone in this morning, to 
close the valves at those points, so that we can pressure test 
the lines all the way up to the existing lines.
    Then the next step we're going to have to do is get the 
area set so that we'll do some--the flushing, we'll be doing 
the pressure testing with water. And during that period of time 
we've got to sort out who will actually perform the insulation 
of this piping or how we will actually accomplish it.
    Senator Allard. Okay. Now, in the Architect of the 
Capitol's utility tunnel remediation plan, the agency proposes 
widening one of the existing tunnels and providing it with 
additional egress points. Why hasn't the new Capitol Visitor 
Center steam tunnel been designed and built to the same 
requirements?
    Apparently, there is no emergency egress hatches along the 
750 feet of tunnel. And apparently, it's very narrow. Aren't 
there standards that all of these tunnels are suppose to meet?
    Mr. Hixon. The advice from our designer is that there is no 
particular code that applies to these kinds of facilities. At 
one point, we were going to simply bury the lines in the 
ground. That was one of the alternatives. We've had budget 
issues in trying to keep the cost of the utility tunnel from 
being any greater than it needed to be. The original design of 
the tunnel could've been wider. So what we've done, is when we 
talked about burying the lines the Power Plant people said that 
was unacceptable. They needed to be able to get back and forth 
through those in order to maintain the lines.
    So what we've got is a 9-foot wide tunnel. The design 
provides for 3 feet of clearance. We've got 3 feet of 
clearance, except at locations where the pipe support brackets 
happen to intersect, which occurs at about 20 locations along 
the 750 feet. So, you've got a narrow spot at those 20 
locations. Other than that, for the rest of the tunnel, you've 
got a 3-foot distance between the bracket and the installation.
    The area is designed to be utilized by maintenance crews. 
So, we're not--it's not an egress route for people to move 
through.
    Senator Allard. Now, what's expected in terms of egress 
points? You don't have any egress points within the tunnel, is 
that correct?
    Mr. Hixon. We have only the Second Street entry into the 
tunnel from the outside and we have the entrance into the 
tunnel where you go into the CVC.
    Senator Allard. Right.
    Mr. Hixon. So, you have two points of entry in the tunnel 
that are approximately 750 feet apart.
    Senator Allard. What is the standard? Is there a standard 
there, every 200 to 300 feet?
    Mr. Hixon. To our knowledge, there is no particular 
standard for this kind of a facility.
    Senator Allard. Or a requirement, or anything?
    Mr. Hixon. Or a requirement. There has been some discussion 
about that here. This all came up yesterday afternoon. So, 
people have been reviewing all of these things. We're 
continuing to review it to see if there's something we might've 
overlooked. But at this point, our designer is advising us that 
there is no particular standard.
    The code is not specific on this kind of space, and so 
we're trying to look at it right now, to determine if there is 
something else we need to do.
    Senator Allard. And so then, why are we in the ``R'' 
tunnel, looking at 200 to 300 feet apart for these egress 
points? Where is that coming from? Why is that the recommended 
distance for that section of the tunnel? Where did you come up 
with the 200 to 300 feet and decide on the CVC tunnel, that we 
don't need to have any egress points over the total 750 feet?
    Mr. Ayers. It's actually, Mr. Chairman, 600 feet is the 
standard that we're using for the remainder of the utility 
tunnels throughout the complex.
    Senator Allard. I see.
    Mr. Ayers. And by that, it's in the middle of that, it's 
300 feet in either direction to an egress point. So the actual 
egress points themselves, are 600 feet apart, is what we're 
proposing to do throughout the tunnel complex.
    Senator Allard. And where did you get the 600 feet then?
    Mr. Ayers. I don't know that specifically, but I believe 
it's industry best practice. I'm also advised that there are no 
specific building codes that address this issue specifically.
    Senator Allard. Okay. Do you have any views on that issue, 
Mr. Dorn?
    Mr. Dorn. Mr. Chairman, our work is not complete on the 
tunnels yet. But the preliminary information from the AOC's 
Safety Office was that, like Mr. Ayers said, that approximately 
300 feet would be the longest travel distance--600 feet.
    Senator Allard. So, it's 600 feet between? Yes.
    Mr. Dorn. So, this tunnel doesn't meet that.
    And we also had a conversation with the Office of 
Compliance and their range was somewhere in the 200 to 400 feet 
between egress points. So, they're----
    Senator Allard. So, they're a couple of 100 feet longer 
than what's required?
    Mr. Dorn. Yes, sir. The current tunnel doesn't meet either 
one of their standards.
    Senator Allard. So, we'll have to wait and see how they 
respond to your plan.
    Mr. Hantman. We'll continue looking at that.
    Senator Allard. Okay. On the schedule, Mr. Hantman, GAO has 
expressed increased concern about your ability to meet your 
2007 target day for opening the Capitol Visitor Center based on 
the sequence 2 contractor's performance since our last CVC 
hearing. Why has performance slipped so much, and how do you 
expect to finish on schedule if the contractor continuously 
cannot meet interim milestones and does not complete enough 
work each month to meet the project schedule?
    Mr. Hantman. When we had talked, Mr. Chairman, at the last 
hearing about the possibility of trade stacking and developing 
detailed plans for each of the individual areas to see if we 
can effectively use as many people as we can productively in a 
key area. That was the plan that we were beginning to work 
toward. The contractor was talking, for instance, about--I 
guess, it was the food service area. I think Mr. Hixon 
mentioned that in our opening testimony, the idea that their 
detailed plan, breaking it up into small areas, seemed to be a 
workable plan in that food service area. We're looking forward 
to a detailed plan in each of the areas to make sure that we 
can, in fact, feel more secure about the time. There's no doubt 
about that. They have not been meeting the schedules that we 
have been talking about and we are concerned about that. It 
needs tight monitoring.
    Senator Allard. Mr. Hixon, on the trade stacking, you think 
we can deal with that?
    Mr. Hixon. Yes, sir. We've gotten some very detailed plans 
on all the major areas of the facility. The contractor has 
broken down so he's gone into areas like the food service, the 
orientation theater, and he's created sub-areas within that, 
and he's scheduled his contractor's work.
    I have copies of those plans here. They are very detailed. 
If he can maintain his contractors within those schedules, 
things should get accomplished as they need to get 
accomplished. It's a--it involves a lot of coordination with 
the subs. That's all very positive.
    I've shared this information with GAO. It's a--the concern 
is there, that we're going to be stacking the trades. The 
effort is there to coordinate that activity to make sure it 
doesn't adversely impact the schedule and that's all very 
positive.
    The key now is making sure we are hitting these dates. I 
should note that there--I have picked dates that we used and 
sometimes a contractor is resequencing his work. Clearly, the 
east front stonework started 1 month later than we wanted and 
we got the plaster ceiling going in, in the great hall. The 
actual plastering is occurring a month later. But there are a 
lot of other activities that are all going on very well. So, 
it's----
    Senator Allard. Are these ahead of schedule?
    Mr. Hixon. Overall, they are not ahead of schedule. But 
they--areas like the orientation theaters, the security lobby 
where you enter the building, the stonework was completed there 
early. So, there are positive things going on and there are 
some negatives things going on.
    Senator Allard. How do we make up this lost time?
    Mr. Hixon. Well, the items that are behind for example, the 
east front stonework is a concern. The east front will be 
finished later than we would like to have it finished. But the 
east front is our transition zone. The work that's behind in 
the east front does not delay the work in the CVC proper.
    Senator Allard. I see.
    Mr. Hixon. In the CVC proper, if you look at the framework 
that's going on throughout the space, and the drywall that's 
going in, we have almost all the ceilings done in the east. 
Floor stone, for example; that's behind schedule, but is 
consciously behind schedule as the contractor's held that work 
back to allow the ceiling work to get finished ahead of it. 
Which makes his work flow go better.
    So in that sense, the floor stone and those milestones we 
identified with floor stone are late. The quantity of floor 
stone is late, but the ceiling work is proceeding on and that 
will allow the floor stone work to follow it, which is the 
normal sequence. They went out of sequence to try and do that 
other quarter.
    So, yes. We remain concerned about meeting all the dates. 
As we said in the testimony, you know this--we didn't always 
achieve things when we would like them to, but they continued 
to make good progress. It's very high quality and we 
anticipated there might be some slippage when we set up our 
schedule for a March completion. And they're working into that 
a little bit, but we have not reached a point where that date 
is jeopardized.
    Senator Allard. Mr. Ungar, do you want to comment any 
further on what they've said?
    Mr. Ungar. Yes, Mr. Chairman. We agree with Mr. Hixon and 
Mr. Hantman that you know progress is definitely being made. 
But as we've said in our statement and Mr. Dorn has summarized, 
there are a number of trends that are not positive, that gives 
us great cause for concern. And if the contractor continues to 
miss these milestones on a hearing by hearing basis, more and 
more work is going to be left to be done in a shorter and 
shorter period of time.
    And while the trade stacking plans seem to be very well 
done, that we've seen so far, if the work keeps slipping, 
they're not going to have enough time to complete those. And I 
believe Mr. Hixon would agree with that.
    And two other points, real quickly. Mr. Dorn mentioned the 
issue at the fire protection system, if those shop drawings are 
late--or later than you know, than they are now and the fire 
marshal has significant concerns about them, that could delay 
the ceiling close ins, which could further delay the stone work 
and the rest of the work.
    Senator Allard. Yes.
    Mr. Ungar. And finally, as Mr. Dorn indicated, we're very 
concerned about the trends in the design and scope changes. At 
this stage in the project, they become more and more likely to 
affect the schedule. So, if those continue at that pace that 
they have been and as experienced in sequence 1, that doesn't 
present a very positive outlook.
    However, we're certainly hopeful that things can improve 
over the next several months with the meeting of the 
milestones, but that remains to be seen.
    Senator Allard. Okay. Just one question on the stone work, 
I think we were scheduled for 11 truckloads and only got 8 in.
    Mr. Hixon. We actually received 12 truckloads out of the 
12.5, I believe that that's in Mr.----
    Senator Allard. So, we're on schedule on that?
    Mr. Hixon. The wall stone--we've actually received all of 
the wall stone for the CVC proper now, except for the atria, 
the expansion space. But for the CVC proper, we've received the 
wall stone that we needed.
    Senator Allard. So our deliveries are there?
    Mr. Hixon. Our deliveries are okay there.
    We've received about a third of the stone for the east 
front, which is coming from a different quarry.
    The atria stone is coming in. So, we're receiving 
deliveries, and unless something dramatically bad happened, you 
know we've got all of the stone we need for those right now. 
And the way it's coming in, is meeting the schedule 
requirement.
    We have not received any stone of course for the tunnels. 
But the wall stone issue is, unless something significantly bad 
happened, is not the big focus right now. The focus is getting 
our ceiling work done and then be able to come back with a 
force.
    Senator Allard. Let me get to the fire safety system Mr. 
Ungar referred to in last part. We're told that the safety 
system shop drawings are nearing completion. But still, the 
fact remains they're incomplete. Why and what impact will that 
delay have on the projects?
    Mr. Hixon. The shop drawings have been a point of 
frustration for many of us for a long time.
    Senator Allard. Yes.
    Mr. Hixon. We expected to start receiving those shop 
drawings in February. They changed the location of a closet 
they were going to put some panels in, and they had to do some 
drawings. But it's taken a whole lot longer than we were 
expecting it would ever take, or should ever take.
    Nonetheless, the shop drawings came in, they were reviewed 
by the electrical subcontractor. He marked them up and returned 
them to the firm that's preparing the drawings, to reflect 
changes that have occurred, or correct mistakes that may have 
been in the drawings. Those have now been corrected and come 
back in. They're being reviewed by the electrical 
subcontractor. And if they're okay, as we expect they should 
be, then they will be forwarded to Manhattan to stamp all the 
drawings, because they are required to do a review before they 
send them to us. And they should do that on Monday.
    Senator Allard. Okay.
    Mr. Hixon. We will then have the shop drawings in. The fire 
marshal has indicated it will take them 4 months--4 weeks 
rather, to complete the review. We will be going out to the 
fire alarm manufacturer's office 2 weeks after we get them. 
During that period of time, in order to have some conversations 
with them, with the fire marshal staff, to try and expedite the 
review process.
    But clearly this is a critical issue to us. It's got a lot 
of focus. We're endeavoring to determine what things we need to 
get approved earlier than later, so that we can make sure 
everything flows smoothly. This is a critical element of the 
project.
    Senator Allard. Mr. Hantman, there's a debate going on 
between the Capitol Police Board and your office regarding the 
alarm system. Can you briefly describe that issue for the 
subcommittee without compromising any of our security, and tell 
us how you plan to resolve this issue in a timely manner? Is 
there hope that we get it resolved in a timely manner?
    Mr. Hantman. Mr. Chairman, at past hearings we've talked 
about the 5,000 devices that we need to wire up, and the 
complexity of the overall system, and the testing thereof, 
because we're a beta test site, as it relates to fire and life 
safety and security. Trying to integrate the two of them is not 
well done in the current codes.
    This is a similar situation in that, in the Capitol 
Building as it exists right now, we have a very strong presence 
of the Capitol Police. So, that if somebody--if an alarm goes 
off, it goes to the police office. They investigate the site 
and if they find that there is reason to evacuate the building, 
the police initiate the evacuation of the Capitol Building, 
itself.
    So if somebody wants to disrupt a hearing in the Senate or 
the House and they pull an alarm, it's not going to go off and 
it's not going to be real unless the police verify that it's 
real. And that's because we have a constant 24-hour police 
presence in the Capitol Building.
    Senator Allard. Has the Office of Compliance view on this 
issue been solicited? Mr. Ungar?
    Mr. Ungar. Yes, sir. I think the Office of Compliance is 
okay with the situation in the Capitol itself, because of the 
situation that Mr. Hantman mentioned. I think they've got some 
concerns about the visitor center, though.
    Mr. Hantman. And that's the debate, Mr. Chairman, that 
we're working on right now. I met with the Capitol Police Board 
yesterday, along with the Capitol Police and we talked through 
the same issue we're discussing right now. And in fact, the 
fire marshal will be meeting with the Capitol Police again this 
afternoon and coming up with an alternative perhaps, which 
splits the baby in half in terms of both security, as well as 
fire and life safety that would be adequate for the building.
    Senator Allard. When do you think that decision's going to 
be finalized? Can you give us a timeline on that, what you 
anticipate?
    Mr. Hantman. As I understand, the fire marshal will expect 
to have his proposal by next Tuesday, and I've told the Capitol 
Police Board that I want a decision by the end of the week.
    Senator Allard. Very good. Just wanted to make sure. In a 
recent editorial in the Hill newspaper, Chuck Tyler, the former 
General Counsel for the Architect, expressed concern about your 
involvement in the development of trade stacking plans for the 
remaining CVC work. What is your view on that concern?
    Mr. Hantman. In trade stacking?
    Senator Allard. Yes. There was an editorial on the Capitol 
Visitor Center and their comment is that they think you're too 
directly involved in this issue on trade stacking.
    Mr. Hantman. Oh. Well, I think what Mr. Tyler was basically 
saying; in basically all construction contracts the contractor 
who signed the contract with you has the prerogative of looking 
at the means and methods of how he is going to achieve that 
project. And what we've done on this project clearly is, even 
the interim schedules that we're talking about right now, are 
not normally done on most construction projects.
    So, I think his concern was, which I don't think will be 
borne out, because the contractor was very much cooperating 
with us and wants to make sure that we solve the problems 
together. So he is doing those additional schedules and the 
dates that come out, are coming out from him. We're not 
imposing them on them.
    So, Mr. Tyler--appropriately can have his own point of view 
on this, but we believe we're working well with our 
contractors.
    Senator Allard. Is GAO micromanaging the CVC project?
    Mr. Ungar. We would certainly not agree with that, Mr. 
Chairman. Mr. Dorn actually had replied to Mr. Tyler's 
editorial, which was published this week. Our charge, I think 
what we were saying is that unfortunately, Mr. Tyler 
misunderstood our responsibility here with the Capitol Visitor 
Center, and misunderstood our approach to the work, and our 
recommendation that he was referring to. I think he was 
referring to a recommendation we had made to AOC, that it work 
with the rest of the CVC team to address the trade stacking 
area, because of the significant impact it could have. And we 
certainly think that was an appropriate recommendation. It was 
not aimed at having AOC create or provide a specific schedule 
or set up plans to the contractor, as Mr. Tyler stated.
    We also pointed out that the team that we had working on 
the CVC effort includes Mr. Dorn, of course and another 
engineer who together, have had more than 50 years experience 
in this area of construction. So, he was indicating that you 
know, the team didn't really know that much about construction. 
But we also have a team of other folks like lawyers who are 
very involved in the process and are aware of the intricacies 
of this and certainly, assist us in our work.
    So, the bottom line is that we really disagreed very 
strongly with Mr. Tyler's points that he was making in his 
editorial.
    Senator Allard. I just wanted to give you an opportunity to 
respond in a public way. Now this is directed again to GAO.
    Could you comment on the CVC's amount of design and scope 
changes and potential change orders at this stage of 
construction, compared to other construction projects you may 
have been associated with?
    Mr. Ungar. Yes, sir. The problem that we see here is that--
and if you looked at our figure 5, I don't know if you happen 
to see that in our statement. This particular project has 
experienced a very significant number of change orders. This 
chart shows the cumulative number of potential change orders, 
which basically are the result of the way you implement the 
design and scope changes through potential change orders and 
then, the contract modification.
    So, these are an indicator of design and scope changes. And 
not only for sequence 1, but for sequence 2, they are really 
growing at a fairly rapid rate. And at this stage in the 
project, you would hope that you wouldn't have this situation. 
Because the later in the project you have these kinds of 
changes, the more likely they are to effect the schedule.
    For example, the fire safety issues that we're talking 
about now, if there are any changes made as a result of these 
drawings or the discussions with the police, it would have been 
a lot easier and a lot less impact if that had happened you 
know, 6 months or 1 year ago as opposed to right now when work 
is proceeding.
    So the bottom line is that as these come through the 
process, they are more likely to affect the schedule and we are 
really concerned about that and I think we've said that in 
several hearings to date. And AOC is aware of that as well and 
I think Mr. Hixon's view is that, you know he's certainly 
reviewing these very carefully and wants to see that only 
necessary changes are made. The problem is, there are so many 
of them that are necessary for one reason or another, that they 
are bound to affect the schedule.
    Senator Allard. Mr. Hantman or Mr. Hixon, either one of you 
want to comment on it?
    Mr. Hixon. At this point in the project, typically we are 
done with base building and we're trying to prevent a great 
deal of tenant changes from coming in. The tenant changes have 
not been a problem. People have done a good job of not creating 
an issue for us thus far in the tenant changes. But we do have 
a lot of other things.
    Part of the issue is we're interfacing with an existing 
infrastructure, but yet the steam tunnels, be it the site 
lighting that exists on the building, and some of these things 
don't always come together the way they should. We end up with 
a request for information from the contractor saying, how do 
you want me to tie this into that? They provide direction and 
somebody says, well you know, that's an extra under the 
contracting. You end up with what we call a PCO--a pending 
change order.
    We've also had a lot of--every time the Architect issues a 
design revision; I sign that personally to make sure that we 
don't have any more than we have to.
    We've ended up with site lighting, we've got secured stuff 
going on with the skiff areas that comes up that didn't get 
captured right in the requirements or doesn't fit together 
quite right. So, there are quite a number of changes.
    That's part of the issue. The contractor--we're sympathetic 
to his efforts in trying to meet the schedule. We keep heaping 
more and more on his plate, beyond what he bought in the 
beginning as we try and get all these things to fit together so 
they work quite--you know, just like they are supposed to.
    If we revise the fire alarm drawings and go to a different 
system, you know that does have an impact. Because now, we have 
to tell the contractor what it is we want him to do differently 
and is programmed into the fire alarm system. This has 
generated because we did changes to the fire alarm system 1 
year ago, where we--and we're trying again, to implement the 
security together with the fire alarm requirements and things 
like that.
    So as Alan mentioned, this is clearly a beta site. We've 
got security requirements, we've got fire alarm requirements, 
we have codes we're trying to comply with and we're also going 
into new areas and trying to interface all these things. We 
have things that don't fit together quite right. And as 
something new comes out and it's implemented, if we end up with 
a program change, all of these things have an impact. And so, 
we're trying to accommodate that together with the existing 
infrastructure.
    But clearly, we're still making changes to the documents 
and giving them to the contractor to accomplish. When what we'd 
rather do is just let him finish what he's got. But if he did 
that, you won't end up with a high quality building that you 
really want to have.
    Senator Allard. That's all I have as far as questions. And 
does the panel have any further comments they want to make for 
the record?

                          SUBCOMMITTEE RECESS

    If not, then the subcommittee is going to stand in recess 
until next Wednesday at 10:30. We're going to have the 
Government Printing Office, the Office of Compliance, and the 
Congressional Budget Office present their budgets at that time. 
Then, we'll come in next month on the 24th for a hearing on the 
Capital Visitor Center. Meeting stands in recess.
    [Whereupon, at 11:48 a.m., Thursday, April 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]





















         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. We 
meet today to take testimony on the progress of the Capitol 
Visitor Center. This is our 11th hearing on the Capitol Visitor 
Center. We will also discuss progress on the utility tunnel 
health and safety issues.
    We welcome Architect of the Capitol, Alan Hantman, CVC 
Project Executive Bob Hixon, and GAO representatives Bernie 
Ungar and Terry Dorn.
    Since our last hearing, I understand that some progress has 
been made in the installation of the interior wall and floor 
stone, but that only two of the nine milestones AOC set last 
month, were met. And one of those two will need to be performed 
again. As a result, concerns are growing as to whether the 
schedule can be met.
    One issue from last month's hearing that AOC committed to 
resolving, was the fire alarm system. And we look forward to 
hearing the status of that issue, as well as the status of shop 
drawings for the fire safety system.
    As to the utility tunnels, about 2 weeks ago, it was 
discovered that a section of the ``R'' tunnel was sagging. That 
has been closed as a result. AOC's contractor is undertaking a 
first look structural assessment and we are told that some 
asbestos abatement and concrete repairs have occurred. In 
addition, the Public Health Service, we understand, has been 
brought in to advise the Architect.
    Finally, the Office of Compliance has responded in writing 
to questions we posed at their hearing earlier this month. I'd 
like to discuss some of the concerns they raised, such as the 
effectiveness of interim protective measures.
    It would seem that AOC has begun to address some of the 
very serious health and safety concerns in the tunnels. 
However, regrettably, some employees who work in the tunnels 
are not very happy. Whatever it takes, AOC management must 
establish a positive relationship with this group of employees.
    Mr. Hantman, please proceed with your testimony and then we 
will turn to GAO for their statement.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, ARCHITECT 
            OF THE CAPITOL
        STEPHEN AYERS, CHIEF OPERATING OFFICER, ARCHITECT OF THE 
            CAPITOL
        SUE ADAMS, DIRECTOR OF SAFETY, FIRE, AND ENVIRONMENTAL 
            PROGRAMS, ARCHITECT OF THE CAPITOL
        MARK WEISS, DIRECTOR, CAPITOL POWER PLANT, ARCHITECT OF THE 
            CAPITOL

    Mr. Hantman. Thank you and good morning, Mr. Chairman. 
Thank you for the opportunity to brief you regarding the 
progress of the Capitol Visitor Center project. Once again, we 
are reporting no change in our projections for both the project 
schedule and the budget.
    As we've stressed in previous hearings, this schedule 
relies heavily on the timely completion of three primary 
activities. The first is the wall and floor stone installation 
that you alluded to. The operation of the CVC utility tunnel is 
the second. And the third is the acceptance testing of the CVC 
complex fire and life safety system, which I will talk about 
shortly.

                           STONE INSTALLATION

    Masons continue to install wall stone on two levels in the 
east front. They've essentially completed installing wall stone 
in all the other primary visitor spaces, including the great 
hall, both orientation theaters, the exhibition hall, the food 
service area, the screening entrance area, and the lobby just 
outside the orientation theaters.
    Scaffolding now occupies most of these areas, so 
contractors can finish the ceiling work. As ceilings are 
completed, the scaffolding will be removed, clearing the way 
for floor stone installation. The most critical floor stone 
area is the great hall, since it's the center of the facility. 
Recognizing the importance of this space to the project 
schedule, the contractor has authorized the ceiling 
subcontractor to work overtime and Saturdays to complete the 
drywall, plaster, and painting of the three-barrel vaults above 
the great hall.
    At the current pace, it appears that the scaffolding can be 
removed by late June and free up nearly 20,000 square feet of 
floor space to the stone masons. As areas become available for 
floor stone, it's critical that the contractor ensures that 
there's an adequate supply of the stone to keep the masons 
working. While there was an approximate 2-week delay in the 
delivery of floor stone for the exhibition hall, stone was 
delivered on May 16, so installation is once again underway.
    Overall, we have approximately 86 percent of the floor 
stone for the entire lower level of the CVC. Therefore, it does 
not appear that the stone delivery will have further 
significant impacts to the overall schedule.

                 CAPITOL VISITOR CENTER UTILITY TUNNEL

    Regarding the CVC utility tunnel, we said last month, that 
while work has resumed in the utility tunnel, the required 
connection work to the Second Street tunnel has been delayed 
while the contractor completes appropriate training and secures 
equipment to work in that tunnel.
    Recently, an AOC contractor performing visual inspections 
of the tunnels, identified areas of delaminated ceiling 
concrete that appears to be subject to possible spalling. 
However, this does not significantly increase the structural 
issues already identified in the tunnel. As a precaution 
however, AOC has restricted personnel access to that portion of 
the tunnel, which includes the CVC tunnel tie-in area.
    The AOC is installing shoring and will begin controlled 
removal of delaminated concrete ceiling in that section of the 
tunnel. That operation began this morning, after a design of 
what the shoring needed to be. This will allow the contractor 
to complete work at the tie-in location. The contractor had 
expected to bring in chilled water and steam in early April, 
but with these current necessary operations, we now expect that 
to occur late in June.
    To minimize the impact of this delay to finish work, the 
contractor is prepared to provide dehumidification equipment to 
maintain the proper climate control to allow millwork to begin.

                FIRE AND LIFE SAFETY ACCEPTANCE TESTING

    The third primary activity, Mr. Chairman, affecting the 
schedule, is the acceptance testing process for the CVC's fire 
and life safety systems. Recently, there have been discussions 
concerning changing the basic program for the fire alarm 
system. We're pleased to report, Mr. Chairman that agreement 
has been reached between the U.S. Capitol Police, the fire 
marshal, the Capitol Police Board, and other interested parties 
regarding the operation of the program.
    The programming changes that need to occur will not affect 
the system installation and should have no significant impact, 
if any, to the duration of the testing process and therefore, 
no significant impact to the project schedule.

                        CONSTRUCTION HIGHLIGHTS

    With the help of some photo boards, Mr. Chairman, I would 
like to show you some construction highlights since our last 
hearing. In the great hall, drywall and plaster is complete on 
two of the three-barrel vaults. Is it all three by now, Bob?
    Mr. Hixon. Yes.
    Mr. Hantman. All three of the barrel vaults and the first 
coat of paint has been applied. As I mentioned earlier, the 
contractor has been working overtime to expedite this work, to 
clear the way for floor stone installation. We expect that 
process to begin by mid-June. You can see here, the slope of 
the barrel vaults. This is the dance floor, as it's called. 
It's the scaffolding that allows people to get on up there and 
do the work high above the great hall.
    As ceiling work is completed, a skylight installer has 
begun assembling a system of support and tension rods for the 
glass panels of the south skylight. You can see this over here, 
the framing of the view of the Capitol Dome. The structure is 
basically intact and the glazing will start shortly for that.
    Meanwhile, stone masons have also completed setting stone 
around the perimeter of the north skylight. This allows the 
skylight installer to move directly to the north skylight upon 
completion of the south. At the north and south ends of the 
great hall, crews continue to install mechanical and finish 
elements to the escalators, which is this drawing over here. 
You can see the bronze finish, elements going in on those 
escalators.
    In the exhibition hall, masons last week resumed setting 
floor stone in the northern half of the hall. The southern half 
was completed in early May. By early next week, the contractors 
are expected to have all the floor stone needed for that space, 
so work should continue uninterrupted.
    In the ceiling of the hall, the fire marshal has approved 
the sprinklers and other fire and life safety systems and crews 
are now installing drywall.
    In the east front, masons continue setting stone on the 
basement and crypt levels. Much of the stonework is completed 
on the basement level and on the piers that extend up into the 
carriageway. At the crypt level, three of the four fire 
separation doors are in place within the transition zone, 
clearing the way for masons to install base and wall stone in 
that area.
    Those fire separation doors, Mr. Chairman, basically help 
define the fact that the Capitol Building itself and the CVC, 
from a fire perspective, are being treated as separate 
buildings.
    In the orientation theaters, ceiling framework and other 
structural work is nearly complete. Last week, the contractor 
finished installing the steel support beam structure at the 
upper ends of both theaters that will support the projection 
systems. With that work done, all of the preparatory work for 
the acoustic panels and millwork is now complete. We expect the 
installation of the finished materials to begin early next 
week.
    In the corridors along the great hall, ceiling work 
continues and closing inspections are expected later this week 
for the ceiling areas north and south of the CVC screening 
zone. In the lobby, just beyond the orientation theaters, 
drywall is up in the tray ceiling, around the smaller north 
skylight and over much of the metal ceiling framework in the 
center zone, adjacent to the central stair. The area is 
starting to take on a much more finished appearance, as you can 
see.
    On East Capitol Street, the street restoration activities 
above the CVC utility tunnel are nearly complete. We're working 
with the D.C. Department of Transportation to resolve an 
electrical issue with a traffic light on First Street, before 
final paving can be completed. We fully expect that East 
Capitol Street can be opened to traffic in June.
    You can also see on this drawing, Mr. Chairman, the trees 
that are in place along both the House and the Senate sides, 
and the walkways that occur beneath those trees for people who 
will come down to the screening areas.
    Recently, Mr. Chairman, we met with the Office of 
Compliance to discuss egress requirements for the CVC utility 
tunnel. The Office of Compliance continues to review applicable 
standards and research general industry practices. They have 
committed to provide a definitive answer before the next 
hearing.

              CAPITOL VISITOR CENTER PROJECT SAFETY RECORD

    Mr. Chairman, last month, Senator Durbin raised the 
question of the safety record on the CVC project. The safety 
record on the CVC improved in 2005 from 2004 and has improved 
again in 2006 over 2005. The construction manager reports that 
the project recordable lost time rate and lost time restricted 
duty rate for the CVC in 2006 are all below or better than the 
Bureau of Labor Statistics incident rate for similar 
construction projects.
    The data, according to the construction manager, indicates 
that the safety program for the project is reducing accidents. 
We continue to work with all members of the team to pursue an 
accident-free site.

             ARCHITECT OF THE CAPITOL-WIDE UTILITY TUNNELS

    Mr. Chairman, I'd like to take a few minutes now to provide 
a progress report on the utility tunnels. We continue to take a 
comprehensive and aggressive approach to further enhance worker 
safety, and to improve and correct existing tunnel conditions.
    First, I'd like to clarify a possible misunderstanding from 
last month's hearing. During some of the discussion it seemed 
that the potential asbestos issues were sometimes being 
associated with the citation issued by the Office of Compliance 
in December 2000. It's important to note that the December 2000 
citation did not include any issues or infractions regarding 
asbestos.
    Asbestos-related issues were not identified by OOC as a 
major concern, prior to the June/July 2005 inspection. The only 
OOC citation regarding asbestos was issued in January of this 
year, which raised procedural and administrative issues 
associated with work and asbestos containing materials in the 
tunnels.
    In 2001, in fact, AOC initiated a Public Health Service 
asbestos survey in the utility tunnels which found the existing 
asbestos to be in good condition. As we testified at the last 
hearing, we tasked PHS with reviewing available historic 
asbestos data to try to address questions regarding the 
historic level of possible employee asbestos exposure and 
whether employees are now adequately protected from asbestos 
hazards.
    Based on a review of the data to date, we can say that the 
half-faced respirator, currently in use for routine tunnel 
work, provides workers adequate protection for non-asbestos 
abatement operations. The historical data are not sufficient in 
quantity or detail to determine possible past exposures. The 
Public Health Service recently completed its review of the 
historic asbestos sample results from June 2001 through April 
11, 2006. Conclusions about historic exposures and general 
tunnel conditions were not possible due to the limited data and 
sample information available.

                      UTILITY TUNNEL AIR SAMPLING

    However, a review of utility tunnel ambient air sample data 
to date does not indicate that respiratory protection is 
required just to breath the air in the tunnels. However, as a 
precaution, I am requiring that respirators continue to be worn 
by all tunnel entrants while PHS monitors the sampling.
    PHS has made several recommendations to improve sample data 
collection and analysis, including the development of a 
systematic plan, to ensure that all normal activities and 
locations are addressed. Subsequently, we issued a task order 
to PHS to implement a number of their recommendations, 
including additional employee exposure monitoring and an 
updated asbestos survey that includes a job hazards analysis, 
that related work tasks to potential asbestos exposure.
    We're providing all sampling results to the PHS for 
analysis. And since the week of May 8, the PHS has had a full-
time industrial hygienist onsite to coordinate monitoring, to 
ensure monitoring data is collected properly, and to analyze, 
interpret, and explain data results to employees.
    In addition, an occupational health doctor and industrial 
hygienist from PHS met with the tunnel shop personnel and 
construction division employees to discuss asbestos results to 
date, and to plan to characterize potential worker exposures to 
the various tasks that they perform.
    With regard to the decontamination procedures for employees 
and contractors exiting the tunnels that currently require 
respirator use, last month we testified that we believe that 
these decontamination procedures met OSHA requirements. The 
Office of Compliance testified on May 3, that they did not know 
if our procedures met OSHA requirements. To resolve the issue, 
we asked PHS to review the current procedures and determine 
whether they comply with the OSHA requirements for the work 
performed by employees.
    The PHS report concluded that written decontamination 
procedures were drafted, but not fully implemented by May 10. 
PHS made a number of recommendations to improve procedural 
compliance and clarity of the AOC procedures. They will soon 
return to perform additional observations and audit the 
procedures again.
    With regard to spalling concrete, Mr. Chairman, recently 
the contractor performing visual inspections identified an area 
of delaminated concrete in the ceiling of a tunnel that may be 
subject to possible spalling. Our structural engineer's 
evaluation indicates that this identification does not 
significantly increase the structural issues already identified 
in the tunnel.
    As I stated earlier, as a precaution, we restricted 
personnel access to that portion of the tunnel and we've begun, 
as of today, installing shoring and will begin the controlled 
removal of the delaminated concrete ceiling in that section of 
the tunnel. We expect to have the shoring work completed in 
approximately 2 weeks.
    Mr. Chairman, I rely on the employees assigned to the 
tunnels, who are responsible for monitoring tunnel conditions, 
and the Power Plant management to execute their 
responsibilities to maintain and inspect these facilities.
    There was clearly a breakdown in communication between 
Power Plant employees, their supervisor, Power Plant 
management, and senior management. I have therefore mandated a 
stronger system of checks and balances which will require 
independent structural experts be retained to perform periodic 
inspections. In addition, our AOC Central Safety Fire and 
Environmental Programs Office will routinely inspect the 
tunnels as we move forward with structural and remediation 
initiatives appropriate for each tunnel.
    We'll continue to work with the subcommittee and Congress 
to effectively keep the tunnels as safe and functional as 
possible, as we institute a multiyear capital repair and/or 
replacement program as needed.
    And Mr. Chairman, that concludes my statement. And thank 
you for the opportunity to testify. I'd be happy to answer any 
questions you might have.
    Senator Allard. Thank you, Mr. Hantman, for your statement.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, thank you for the opportunity to brief you regarding 
the progress of the Capitol Visitor Center project. Once again, we are 
reporting no change in our projections for both the project schedule 
and budget. The expectation remains that the Visitor Center will be 
available for operational training activities in March 2007 and 
available for a public opening in April 2007. As we've stressed in 
previous hearings, this schedule relies heavily on the timely 
completion of three primary activities: wall and floor stone 
installation; the operation of the CVC utility tunnel, and the 
acceptance testing of the CVC's complex fire and life-safety systems. 
I'd like to provide a status report on each of these issues before 
briefing you on current project activities.
    Regarding the installation of wall stone, masons continue working 
on two levels within the East Front. They have essentially completed 
the installation of wall stone in all of the other primary visitor 
spaces in the CVC, including the Great Hall, both Orientation Theaters, 
the Exhibition Hall, the Food Service Area, the screening entrance 
area, and the lobby just outside the Orientation Theaters. Scaffolding 
now occupies most of these areas so contractors can finish the ceiling 
work. As ceilings are completed, the scaffolding will be removed, 
clearing the way for floor stone installation.
    The most critical area for floor stone is the Great Hall. This 
space is at the center of the facility and connects to all other major 
visitor spaces. Recognizing the importance of this space to the project 
schedule, the contractor has authorized the ceiling subcontractor to 
work overtime and Saturdays to complete the drywall, plaster, and 
painting of the three barrel-vaults above the Great Hall. At the 
current pace, it appears that the scaffolding in the Great Hall can be 
removed by late June and free up nearly 20,000 square feet of floor 
space to the stone masons.
    As areas become available for floor stone, it is critical that the 
contractor ensures that there is an adequate stone supply to keep the 
masons working. While there was an approximate two-week delay in the 
delivery of floor stone for the Exhibition Hall, stone was delivered on 
May 16th so that installation is again underway. Overall, we have 
approximately 86 percent of the floor stone for the entire lower level 
of the CVC. Therefore, it does not appear that the stone delivery will 
have further significant impacts to the overall schedule. Again, the 
contractor's focus now is to get ceiling work completed as quickly as 
possible and clear the way for floor stone installation.
    Regarding the CVC utility tunnel below East Capitol Street, we said 
last month that while work has resumed in the utility tunnel, the 
required connection work to the Second Street tunnel has been delayed 
while the contractor completes appropriate training and secures 
equipment to work in that tunnel. Recently, an AOC contractor 
performing visual inspections of the tunnels identified areas of 
delaminated ceiling concrete of the tunnel that appears to be subject 
to possible spalling, however, this does not impact the structural 
soundness of the tunnel.
    As a precaution, AOC restricted personnel access to that portion of 
the Second Street tunnel, which includes the CVC tunnel tie-in area. 
The AOC will be installing shoring and will begin controlled removal of 
the delaminated concrete ceiling in that section of the tunnel. This 
will allow the contractor to complete work at the tie-in location. The 
contractor had expected to bring in chilled water and steam into the 
CVC in early April but with these current necessary operations, we now 
expect that to occur in late June. To minimize the impact of this delay 
to finish work, the contractor is prepared to provide dehumidification 
equipment to maintain the proper climate control to allow millwork to 
begin.
    The third primary activity affecting the schedule is the acceptance 
testing process for the CVC's fire and life-safety systems. Recently, 
there have been discussions concerning changing the basic program for 
the fire alarm system. Agreement has been reached between the U.S. 
Capitol Police, the Fire Marshal, the Capitol Police Board and other 
parties regarding the operation of the program. The changes that need 
to occur will not affect the system installation, and should have no 
significant impact, if any, to the duration of the testing process and 
therefore no significant impact to the project schedule.
    Mr. Chairman, last month Senator Durbin raised the question of the 
safety record on the CVC project. The safety record on the CVC improved 
in 2005 from 2004, and has improved again in 2006 from 2005. The 
construction manager reports that the project Recordable Rate, Lost 
Time Rate and Lost Time/Restricted Duty Rate for the CVC in 2006 are 
all below (better than) the Bureau of Labor Statistic's incident rate 
for similar construction projects. The data, according to the 
construction manager, indicates that the safety program for the project 
is reducing accidents. We continue to work with all members of the team 
to pursue an accident free project.
Project Progress Update
    With the help of some photo boards, I'd like to show you some 
construction highlights since our last hearing.
    In the Great Hall, drywall and plaster is complete on all three 
barrel vaults and the first coat of paint has been applied. As I 
mentioned earlier, the contractor has been working overtime and on 
Saturdays to expedite this work to allow crews to dismantle the 
scaffold and clear the way for floor stone installation. We expect that 
process to begin by mid-June.
    As ceiling work is completed, a skylight installer has begun 
assembling the system of support and tension rods for the glass panels 
of the south skylight. Meanwhile, stone masons completed setting the 
stone around the perimeter of the north skylight. This allows the 
skylight installer to move directly to the north skylight upon 
completion of the south skylight. At the north and south ends of the 
Great Hall, crews continue to install mechanical and finish elements to 
the escalators.
    In the Exhibition Hall, after a two-week delay in stone delivery, 
masons last week resumed setting floor stone in the northern half of 
the Hall. The southern half was completed in early May. By early next 
week, the contractor is expected to have all the floor stone needed for 
that space so work should continue uninterrupted. In the ceiling of the 
Hall, the Fire Marshal has approved the sprinklers and other fire and 
life-safety systems and crews are now installing drywall.
    In the East Front, masons continue setting stone on the basement 
and Crypt levels. Much of the stone work is completed on the basement 
level and on the piers that extend up into the carriageway. At the 
Crypt level of the Capitol, three of the four fire separation doors are 
in place within the transition zone clearing the way for installation 
of wall stone in that area and masons have now begun setting base and 
wall stone in that area.
    In the orientation theaters, ceiling framework and other structural 
work is nearly complete. Last week the contractor finished installing 
the steel support beam structure at the upper ends of both theaters 
that will support the projection systems. With that work done, all of 
the preparatory work for the acoustic panels and millwork is now 
complete and we expect the installation of the finish materials to 
begin early next week.
    In many areas, particularly in the corridors along the Great Hall, 
ceiling work continues and close-in inspections are expected later this 
week for the ceiling areas north and south of the CVC screening zone. 
On the opposite side, in the lobby just beyond the orientation 
theaters, drywall is up in tray ceiling around the smaller north 
skylight and over much of the metal ceiling framework in the center 
zone adjacent to the central stair that rises into the East Front. The 
area is starting to take on a much more finished appearance.
    On East Capitol Street, I am pleased to report that all street 
restoration activities above the CVC utility tunnel are complete and 
the striping plan is in place. We are working to resolve an electrical 
issue with the traffic lights so that the street will be open to 
traffic in June.
    Recently, we met with the Office of Compliance to discuss egress 
requirements for the CVC utility tunnel. The OOC continues to review 
applicable standards and research general industry practices. They have 
committed to providing a definitive answer before the next hearing.
    Mr. Chairman, at this time I would like to take a moment to provide 
a progress report on the utility tunnels. We continue to take a 
comprehensive and aggressive approach to further enhance worker safety 
and to improve and correct existing tunnel conditions.
    First, I would like to clarify a possible misunderstanding from 
last month's hearing. It seemed during some of the discussion that the 
potential asbestos issues were sometimes being associated with the 
citations issued by the Office of Compliance in December 2000. It is 
important to note that the December 2000 citation did not include any 
issues or infractions regarding asbestos. Asbestos-related issues were 
not identified by OOC as a major concern prior to the June/July 2005 
inspection. The only OOC citation regarding asbestos in the utility 
tunnels was issued recently, in January 2006; the 2006 citation raised 
procedural and administrative issues associated with work and asbestos 
containing materials in the tunnels. In 2001, AOC initiated a Public 
Health Service (PHS) asbestos survey in the utility tunnels which found 
the existing asbestos to be in good condition.
    As we testified at the last hearing, we tasked PHS with reviewing 
available historic asbestos data to try to address questions regarding 
the historic level of possible employee asbestos exposure and whether 
employees are now adequately protected from asbestos hazards. Based on 
a review of the data to date, we can say that the half-faced respirator 
currently in use for routine tunnel work provides workers adequate 
protection for non-asbestos abatement operations.
    Unfortunately, the historical data are not sufficient in quantity 
or detail to determine past employee exposures. PHS recently completed 
its review of the historic asbestos sample results from June 2001 
through April 11, 2006. Conclusions about historic employee exposures 
and general tunnel conditions were not possible due to the limited data 
and sample information available.
    A review of utility tunnel ambient air sample data to date does not 
indicate that respiratory protection is required just to breathe the 
air in the tunnels. However, as a precaution, I am requiring that 
respirators continue to be worn by all tunnel entrants while PHS 
monitors the sampling.
    PHS has made several recommendations to improve sample data 
collection and analysis including the development of a systematic plan 
to ensure that all normal activities and locations are addressed. 
Subsequently, we issued a task order to PHS to implement a number of 
their recommendations, including additional employee exposure 
monitoring and an updated asbestos survey that includes a job hazards 
analysis that related work tasks to potential asbestos exposure. We are 
providing all sampling results to the PHS for analysis and, since the 
week of May 8, the PHS has had a full-time industrial hygienist on-site 
to coordinate monitoring, to ensure monitoring data is collected 
properly, and to analyze, interpret, and explain data results to 
employees. Because of the variety and schedule variability of work 
performed in the utility tunnels, it is expected that the monitoring 
will continue for at least four months.
    In addition, an occupational health doctor and industrial hygienist 
from the PHS met with Tunnel Shop personnel and Construction Division 
employees to discuss asbestos results to date and the plan to 
characterize potential worker exposures for the various tasks that they 
perform.
    With regard to the decontamination procedures for employees and 
contractors exiting the tunnels that currently require respirator use, 
last month we testified that we believed that these decontamination 
procedures met the requirements of the Occupational Safety and Health 
Administration (OSHA). The Office of Compliance (OOC) testified on May 
3 that they did not know if our procedures met OSHA requirements. To 
settle the issue, we asked PHS to review the current procedures and 
determine whether they comply with the OSHA requirements for the work 
performed by employees. The PHS report concluded that written 
decontamination procedures were drafted but not fully implemented on 
May 10, 2006. The PHS made a number of recommendations to improve 
procedural compliance and clarity of the AOC procedures. The PHS will 
return to perform additional observations and audit the procedures once 
again.
    With regard to spalling concrete, recently the contractor 
performing visual inspections of the utility tunnels identified an area 
of delaminated concrete in the ceiling of one tunnel that may be 
subject to possible spalling. Our structural engineer's evaluation 
indicates that this identification does not significantly increase the 
structural issues already identified in the tunnel.
    As a precaution, we restricted personnel access to that portion of 
the tunnel. We are developing procedures to install shoring in a manner 
that protects our employees and will begin the controlled removal of 
the delaminated concrete ceiling in that section of the tunnel, as we 
have previously done in other areas, once the shoring is installed. As 
I noted earlier, steps are being taken to allow the CVC contractor to 
complete work at the tie-in location. This work will not impact the 
ability to heat or cool facilities across the Capitol complex.
    Mr. Chairman, I rely on the employees assigned to the tunnels, who 
are responsible for monitoring tunnel conditions, and the Power Plant 
management to execute their responsibilities to maintain and inspect 
these facilities. There was clearly a breakdown in communication 
between Power Plant employees, their supervisor, Power Plant 
management, and senior management. I have, therefore, mandated a 
stronger system of checks and balances which will require independent 
structural experts be retained to perform periodic inspections. In 
addition, our AOC Central Safety, Fire, and Environmental Programs 
Office will routinely inspect the tunnels as we proceed to move forward 
with structural and remediation initiatives appropriate for each 
tunnel.
    We will continue to work with this Subcommittee and Congress to 
effectively keep the tunnels as safe and functional as possible as we 
institute a multi-year capital repair and/or replacement program as 
needed.
    Mr. Chairman, this concludes my statement. Once again, thank you 
for this opportunity to testify. I would be happy to answer any 
questions you may have.

    Senator Allard. We will now go to the Government 
Accountability Office, Mr. Dorn. Make some comments for the 
record, please.
STATEMENT OF TERRELL DORN, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dorn. Thank you, Mr. Chairman. As Mr. Hantman has 
already said, the AOC continues to believe that CVC is going to 
be finished in April. And we continue to believe that it's not. 
While we can't foretell the future on when it's going to be 
finished, like the scientists that study earthquakes and 
volcanoes, we can tell you some indicators of when something 
bad is going to happen.
    Some of those indicators are the fact that the CVC 
construction slipped another 2 days; some would say 7 days, in 
the past month. And the shell space slipped 15 workdays, which 
is about 3 weeks. In fact, since the last time that the 
schedule had a major adjustment, back at the February hearing, 
it went from December to February 2007 and the CVC construction 
has lost 10 days since the February hearing.
    Sixteen of the twenty-one critical or near critical paths 
have slipped again; some of those, more than 2 weeks in the 
past month. As you said, out of the nine milestones that were 
to be completed and that were selected by the AOC, effectively, 
only one of those milestones was met. And that one was late.
    Billings continue to be insufficient in order to meet the 
schedule. Design changes and change orders continue to be 
issued. In fact, since the last hearing, there have been 5 
design changes or clarifications that have been issued and 11 
more are in the pipeline.
    The stonework results were mixed. Manhattan has done a 
great job of picking up the pace on the wall stone. The floor 
stone has fallen far behind their schedule. Manhattan does plan 
on revising its targets to its schedule to try to improve their 
efforts on floor stone.
    Manhattan as subcontractor is also working overtime to try 
to get out of the great hall earlier with ceiling, drywall, and 
plastering and that's great that they're cooperative in trying 
to improve the schedule.
    We continue to believe that the utility tunnel, the heating 
and air-conditioning, and the fire protection are driving 
completion to this project. Utility tunnel completion slipped 
from June 6 to June 29 and it will slip again.
    A month has gone by since the last hearing and no 
significant progress has been made in clearing asbestos out of 
the tunnel and connecting the pipes. In fact, the shoring, as 
Mr. Hantman said, is only scheduled to start today. That'll 
take at least 2 weeks. And then you have to have time for the 
asbestos to be abated and then the pipes to be connected. So, 
there's still a lot of time to be lost on utility tunnels.
    The problem with that, is the utility tunnel, not only 
affects dehumidification, which AOC has accurately said can be 
handled with temporary dehumidifiers, like we talked before in 
previous hearings. But you need a utility tunnel to get water 
flow to your air handlers, so you can test your controls out, 
test your air handlers out, do all this mechanical testing, 
that we've talked about; this is necessary to get you to the 
end of the job.
    In addition, as far as acceptance testing goes, the CVC 
team continues to tell us, that they expect it's going to take 
longer than what is in the schedule. And it's certainly going 
to start later.
    The 2-week loss in the shell space timing in the past month 
is probably going to have an impact on the fire system testing 
and that would have an affect on the CVC opening. But what that 
affect is, is still unclear.
    Trade stacking is still a concern. That's part of the 
reason why floor stone is not getting installed at the pace 
that it needs to be installed. There's other contractors in the 
way.
    The overtime that Manhattan is doing is certainly helping. 
The floor stone delays are going to be a problem with ongoing 
work, such as in the auditorium.
    As far as costs go, we continue to believe that they are 
going to be somewhere between $556 million and $584 million. We 
are concerned because of the number of changes and delays. And 
we're going to be reassessing, not only the costs, but also the 
schedule, again, later this summer.
    I just want to comment on one other item from Mr. Hantman's 
testimony. He did clarify that the 2005--excuse me, that in 
2000, the citation did not address the asbestos. But in 2000, 
the Office of Compliance did tell the AOC that they were 
concerned about asbestos in the tunnels. They didn't put it in 
a citation, but they did send a memo to the Architect, and the 
Architect responded--his office responded.
    And that concludes my statement, Mr. Chairman and Mr. Ungar 
and I will be ready to answer any questions that you might 
have.
    [The statement follows:]
                   Prepared Statement of Terrell Dorn
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on the 
Architect of the Capitol's (AOC) progress in achieving selected project 
milestones and in managing the project's schedule since the 
Subcommittee's April 27, 2006, hearing on the project.\1\ As part of 
this discussion, we will address a number of key challenges and risks 
that continue to face the project, as well as actions AOC has taken or 
plans to take to address these risks. In addition, we will discuss the 
status of the project's costs and funding.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Update on Status of Project's 
Schedule and Cost as of April 27, 2006, GAO-06-665T (Washington, D.C.: 
Apr. 27, 2006).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (AOC and its 
major CVC contractors), AOC's Chief Fire Marshal, and representatives 
from the U.S. Capitol Police. We also reviewed AOC's construction 
management contractor's periodic schedule assessments and daily reports 
on the progress of interior wall and floor stonework.
    In summary:
    Since the Subcommittee's April 27 CVC hearing, the CVC team has 
continued to move the project's construction forward, and AOC is still 
proposing the same opening dates--April 2007 for the base CVC project 
and May 2007 for the House and Senate expansion spaces--but we continue 
to believe, as we said at the March and April hearings, that the 
proposed opening dates do not allow enough time to complete several 
critical activities and to address problems, challenges, risks, and 
uncertainties. Since the April 27 hearing, the installation of critical 
interior wall and floor stone has continued, together with other 
interior and exterior construction work, and the sequence 2 contractor 
has further developed plans to prevent trade stacking \2\ during finish 
work. Although the sequence 2 contractor exceeded its installation 
target for interior wall stone during the last 4 weeks, the pace of 
floor stone installation remained far below the targeted pace; the 
dates for completing the construction of the overall base project and 
expansion spaces were extended; and several activities fell behind 
schedule--not enough to affect the overall completion dates based on 
the project schedule, but increasing the potential for future delays. 
In addition, the sequence 2 contractor met only one of the nine 
milestones being tracked for this hearing, and this contractor's 
monthly billings continue to indicate that construction work is not 
likely to be completed on schedule as AOC anticipated. The CVC's fire 
protection system has not yet been approved; critical building systems 
still have to be commissioned and tested; and although the project's 
overall design is essentially complete, certain design or work scope 
elements are still incomplete or are being clarified or refined. If the 
CVC team is successful in addressing these issues, we believe that the 
base CVC project can still possibly be opened to the public with a 
temporary cap on visitor occupancy in May 2007 and that the expansion 
spaces can likely be opened for occupancy beginning in mid-August to 
early September 2007. AOC may be able to reduce some of the time 
scheduled for the expansion spaces if it implements a phased opening 
plan and is able to perform acceptance testing of the CVC and the 
expansion spaces concurrently rather than sequentially--possibilities 
AOC is continuing to explore. However, the delays that have occurred 
since the Subcommittee's last CVC hearing compound the concern we 
previously expressed that AOC will be challenged to meet even the later 
dates we are projecting because of the problems, challenges, risks, and 
uncertainties facing the project. Accordingly, as we indicated during 
the Subcommittee's April 27 CVC hearing, we plan to reassess the 
project's schedule again this summer.
---------------------------------------------------------------------------
    \2\ Trade stacking can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
    As we reported at the Subcommittee's March 15 and April 27 CVC 
hearings, we estimate that the total cost to complete the entire CVC 
project is about $556 million without an allowance for risks and 
uncertainties and $584 million with such an allowance. To date, about 
$530 million has been provided for CVC construction. We continue to 
estimate that AOC will need about $25.6 million more in CVC 
construction funds to complete the entire CVC project. This estimate 
does not allow for risks and uncertainties and takes into account 
funding that AOC plans to use from existing appropriations. In 
addition, as we indicated during the March 15 hearing, AOC 
preliminarily expects to need about $950,000 in fiscal year 2007 AOC 
general administration appropriations that Congress has not yet 
provided. These funds are needed to pay for contractual support 
necessary to complete acceptance testing of the facility's fire 
protection system in time to meet the project's schedule. AOC plans to 
determine if it can reduce the amount needed for this contractual 
support; we will keep the Subcommittee apprised of this situation. 
Furthermore, the CVC is likely to incur additional costs because of 
recent scope and design changes related to its security and fire 
protection systems and problems associated with the utility tunnel; 
however, our $556 million cost-to-complete estimate may include 
sufficient contingency funds to cover these costs. We plan to reassess 
our cost-to-complete estimate this summer and will keep the 
Subcommittee apprised of our results.
AOC Has Moved Construction Forward, but Delays Continue and Risks and 
        Uncertainties Remain
    AOC and it contractors have continued to make progress in a number 
of areas since the Subcommittee's last CVC hearing, particularly in 
installing wall stone in the auditorium, the orientation and security 
lobby, and the south atrium. However, some milestones were pushed back 
in April. For example, according to AOC's April 2006 schedule, the base 
CVC project will have a temporary certificate of occupancy on February 
23, 2007, 2 workdays later than indicated in the March 2006 schedule, 
and the House and Senate expansion spaces will be substantially 
complete on January 10, 2007, 15 workdays later than indicated in the 
March 2006 schedule. In addition, since the Subcommittee's last CVC 
hearing, AOC revised the schedule logic to remove a link between 
penthouse mechanical work and work associated with pretesting the East 
Front's fire alarm system. AOC removed this link--pending approval by 
AOC's Chief Fire Marshal--because the penthouse mechanical work is 
being done as an improvement to the Capitol Building and is not within 
the scope of the CVC project, although the work does affect the CVC. 
According to AOC's construction management contractor, if AOC had not 
removed this link, it would have had to extend the CVC's substantial 
completion date by 5 workdays because the penthouse mechanical work was 
delayed during April.\3\ AOC is still proposing an April 2007 opening 
date for the base project and a May 2007 occupancy date for the 
expansion spaces--dates that it believes will accommodate possible 
delays and allow start-up time for operations. AOC expects all 
construction work in the CVC, East Front, and expansion spaces to be 
completed by the April opening date for the base project, but the CVC's 
occupancy at any one time will be temporarily limited to 3,500, 
compared with about 4,200, the normal anticipated occupancy level.\4\ 
The delays that have occurred since the Subcommittee's March 15 CVC 
hearing, coupled with the challenges, risks, and uncertainties that 
continue to face the project, have heightened our concerns about AOC's 
ability to open the CVC to the public in April 2007. Consequently, as 
we indicated during our April 27 testimony, we plan to reassess the 
project's schedule again this summer.
---------------------------------------------------------------------------
    \3\ Although the penthouse mechanical work, which includes the 
replacement of air handling units on the Capitol roof and related work, 
has been a separate project, it is related to the CVC because it will 
serve the East Front space that visitors will travel through to get 
from the CVC to the Capitol Building. AOC's removal of the linkage will 
require the Chief Fire Marshal's approval because certain elements of 
the East Front's fire protection system are not expected to be ready 
for testing until after the testing of the CVC's fire protection system 
begins.
    \4\ This temporary limit will be necessary because the ``horizontal 
exits,'' or passages, through the expansion spaces, which the life 
safety code requires for exiting the base CVC project, will not be 
available until later. These horizontal exits cannot be used until the 
fire alarm system in the expansion spaces has been fully tested and 
accepted--work that is not slated to be completed until after the base 
CVC is scheduled to open. Some additional work will likely be required 
to provide temporary emergency exit routes from the CVC, but the CVC 
team does not believe that this work or its costs should be 
substantial.
---------------------------------------------------------------------------
            Our Analysis Indicates Later Opening Dates Than AOC Is 
                    Proposing
    We continue to believe, as we testified in April, that the CVC is 
not likely to be ready for opening with a temporary certificate of 
occupancy before May 2007, about a month later than AOC is proposing. 
Our projected opening date is somewhat later than AOC's because (1) 
delays in completing interior stonework have delayed follow-on work for 
the base project and East Front, (2) delays have been continuing in 
other critical work, such as the utility tunnel, the fire protection 
system, and certain work in the expansion spaces; and (3) CVC team 
managers and members and AOC's Chief Fire Marshal believe that certain 
other work, such as finish work and acceptance testing of the CVC's 
fire protection system, will take more time than is scheduled to 
complete. Our projection also assumes that AOC will be able to address 
the challenges it faces and takes into account the time AOC believes is 
necessary to prepare for operations after construction work is 
completed. However, the delays in March and April raise concerns about 
AOC's ability to fully overcome these challenges. Similarly, we 
continue to believe that the House and Senate expansion spaces are more 
likely to be ready in mid-August or early September 2007 than in April 
or May 2007, as AOC is proposing. We consider the later time frames for 
the expansion spaces more likely for three reasons. First, AOC has 
scheduled the acceptance testing of the expansion spaces after the 
acceptance testing of the base project and, according to our analysis, 
the base project's testing will take longer than scheduled. Second, 
AOC's Chief Fire Marshal believes the acceptance testing of the 
expansion spaces will take longer than scheduled. Third, several 
activities important to the on-time completion of expansion space work 
slipped in March and April; and at this time, the sequence 2 
subcontractor responsible for this work believes that additional 
slippages in some of these activities are likely or possible. However, 
AOC has begun to address the problems affecting the progress of the 
expansion spaces and plans to reassess this situation as the 
construction work proceeds. The expansion spaces could be ready sooner 
than late summer 2007 if AOC succeeds in addressing the problems and 
starts acceptance testing sooner or opens the expansion spaces in 
phases--possibilities that AOC is continuing to explore.
            Construction Work Is Progressing
    According to AOC's construction management contractor, work on the 
project has advanced, in terms of both the dollar value of the work in 
place and individual project elements. In dollar terms, the overall CVC 
project was about 81 percent complete and the sequence 2 work was about 
70 percent complete as of April 30--up from about 79 percent and 67 
percent, respectively, as of March 31. Additionally, wall stone 
installation progressed substantially in the orientation and security 
lobby and in the south atrium and auditorium and continued in other 
areas, such as the great hall and the East Front's basement level. 
AOC's construction management contractor reported additional progress 
in the CVC's interior, including drywall installation in the great 
hall, the utility and House connector tunnels, and the House and Senate 
expansion spaces. AOC's construction management contractor also 
reported progress in the installation of stone pavers on the plaza over 
the auditorium. Finally, according to the construction management 
contractor, the CVC's electrical work continues to be ahead of 
schedule.
            Indicators Raise Questions about Proposed Opening Dates
    Despite the progress in these areas, problems and delays occurred 
in other areas, and several indicators of construction progress that we 
have been tracking for the Subcommittee continue to indicate that 
construction work is likely to be completed later than AOC currently 
anticipates. An update on these indicators follows.
    Sequence 2 contractor continues to miss milestones, and completion 
dates are extended.--Starting with the Subcommittee's June 2005 CVC 
hearing, at the Subcommittee's request, we and AOC have been selecting 
and tracking sequence 2 milestones to help the Subcommittee monitor 
construction progress. These milestones include activities that are 
either on the project's critical path or that we and AOC believe are 
critical to the project's timely completion. As figure 1 shows, the 
sequence 2 contractor has generally missed these milestones. For 
today's hearing, nine of these milestones were due to be completed, 
according to the project's January 2006 schedule. One was completed 
ahead of schedule; one was late; and none of the remaining seven had 
been completed as of May 22. (See app. I.) AOC's construction 
management contractor said that the sequence 2 contractor missed the 
milestones for reasons such as a need to do remedial or preparatory 
work in the East Front and the upper orientation and security lobby 
before installing wall stone, utility tunnel delays, and a lack of wall 
stone due to a change in the type of stone to be used.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1.--Sequence 2 Contractor's Progress in Meeting Selected 
                   Milestones as of CVC Hearing Dates

    According to AOC's construction management contractor, the base 
project's overall completion date fell another 2 workdays behind in 
April, from February 21 to February 23, 2007. February 13, 2007, was 
the completion date set in the project's January 2006 schedule, and 
that completion date was changed to February 21, 2007, in March. The 2-
workday delay in April is the net result of delays in activities on 
multiple activity paths. In addition, delays occurred on 16 of 21 
critical and near-critical paths that AOC's construction management 
contractor identified as important to meeting the base project's 
overall completion date.\5\ These delays occurred in, but were not 
limited to, work on the utility tunnel, the fire protection system, the 
East Front, the upper level of the orientation and security lobby, the 
auditorium, the assembly room, and the orientation theaters, and AOC's 
construction management contractor reported that they ranged from 1 to 
33 workdays. According to the CVC team, these project delays occurred 
for a variety of reasons, such as design changes, problematic sequence 
1 work, late submissions of shop drawings, changes in the sequence of 
work activities by the sequence 2 contractor, and inaccessible work 
areas. Even more important than the individual delays themselves, 
however, is their likely impact on the CVC team's ability to complete 
construction work on schedule. So many activities have now fallen 
behind schedule that even relatively short additional delays could push 
back the CVC's overall completion date. According to the construction 
management contractor, there are eight critical and near-critical 
activity paths in the project's April schedule that have so little 
slack time that an additional delay of 1 to 30 workdays could delay the 
base project's overall completion date. There were nine such paths in 
the project's March schedule, according to AOC's construction 
management contractor.
---------------------------------------------------------------------------
    \5\ Construction projects typically have one critical path, which 
is the sequence of activities having the longest duration through the 
schedule. There is no slack time associated with these activities, 
meaning that a delay in a critical path activity will delay the entire 
project unless a way is found to reduce the time required for other 
activities along the critical path. Some projects have multiple 
critical paths simultaneously; in March, the CVC essentially had two 
concurrent critical paths--(1) East Front mechanical and (2) East Front 
fire acceptance testing. According to AOC's construction management 
contractor, after AOC removed the link with the penthouse mechanical 
path, as discussed, the base project had one critical path for April--
the utility tunnel and air handling units being mechanically ready--and 
20 near-critical activity paths, which have little slack time. 
Generally, the more critical and near-critical activities a project 
has, the greater is the risk of late completion because there are more 
opportunities for slight delays that can adversely affect the project's 
completion.
---------------------------------------------------------------------------
    Work on the House and Senate expansion spaces fell 15 workdays 
behind schedule in March, AOC's construction management contractor 
reported.\6\ Additionally, and of even greater concern to us, are 
delays in a number of near-critical paths, particularly those paths 
that will affect the CVC's opening date. Some of the near-critical 
paths slipped as much as 23 workdays in April, according to the 
construction management contractor. Among the activities that were 
delayed in April were the installation of ceiling tile and the 
commissioning of certain air-handling units needed for the CVC's 
opening; electrical and audio-visual related work in the Senate lower 
level; plumbing work in space intended for use by the U.S. Capitol 
Police; and drywall installation in the House lower and service levels. 
According to the CVC team, these activities fell behind schedule 
because of delays in getting design decisions (which were provided at 
the end of April), problems with site conditions due to sequence 1 or 2 
work, and the need to shift crews to do other work.
---------------------------------------------------------------------------
    \6\ According to the project's March and April schedules, the date 
for completing the House and Senate expansion spaces was extended from 
May 2, 2007, in March to May 25, 2007, in April. The contract 
completion date for this work is March 12, 2007.
---------------------------------------------------------------------------
    In early April 2006, we told AOC we were concerned about the 
increasing number of delays in expansion space activities and the 
potential impact of these delays on the completion of the expansion 
space work. As further cause for concern, we noted that the sequence 2 
subcontractor doing the expansion space work was expecting additional 
delays in some of these activities and that, in our view, additional 
design or scope changes were possible. Although AOC is not planning to 
open the expansion spaces until May 2007, timely completion of the 
expansion space work is important because certain expansion space work 
must be completed before the CVC can be opened to the public. AOC 
agreed that continued delays in the expansion space work are of concern 
and recognized that risks and uncertainties associated with the work 
could cause the work to fall farther behind. AOC has begun to work with 
the rest of the CVC team to identify and address problems that have 
arisen and risks that threaten the work's on-time completion.
    Value of completed work indicates completion later than 
scheduled.--Another indicator of construction progress that we and 
AOC's construction management contractor have been tracking is the 
value of the completed construction work billed to the government each 
month. Both we and the construction management contractor believe that 
the sequence 2 contractor's monthly billings, including the bills for 
March and April 2006, indicate that AOC is not likely to meet its 
currently scheduled completion date. While this indicator has some 
limitations (for example, billings lag behind construction and the 
contract's total value does not include the value of modifications that 
are beyond modification number 85), it is generally regarded in the 
construction industry as a useful measure of how likely a project is to 
be completed on time. Figure 2 compares the sequence 2 contractor's 
billings since May 2003 with the project's scheduled completion date 
and indicates that the sequence 2 contractor is not likely to finish 
construction work by December 2006, as AOC expects, unless the value of 
completed work increases significantly. We believe that a significant 
increase will be difficult, given the limited number of areas that will 
be ready for finish work at any given time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Notes:
    1. The early and late lines on this figure reflect the cumulative 
billings that would be required to complete the project through 
contract modification 85 ($222.8 million total contact value) by the 
early and late finish dates shown in the sequence 2 contractor's 
schedule.
    2. The actual line reflects the sequence 2 contractor's actual 
monthly billings.
    3. Although bills are typically submitted for payment after work is 
completed, it is often likely that construction work will be completed 
on schedule when the actual billing line falls between the early and 
late lines in the figure. With respect to the CVC, the actual billing 
line has been trending below, and in March 2006 went below, the late 
finish line, where it remained in April 2006. Even with the lag in 
billings, this trend indicates that the amount of work being completed 
each month is not sufficient to finish the project on schedule.

 Figure 2.--Total Billings by the Sequence 2 Contractor for the Entire 
 CVC Project Compared with the Billings Needed to Finish Construction 
                            Work on Schedule

    Interior stone installation is progressing, but taking longer than 
expected.--Overall, about 72 percent of the CVC's interior wall stone 
has been installed, according to AOC's construction management 
contractor, and the sequence 2 contractor installed 4,082 pieces of 
interior wall stone during the last 4 weeks, exceeding its 3,817-piece 
production target. In contrast, during the same period, the sequence 2 
contractor installed about 1,885 square feet of floor stone, or about 
24 percent of the 7,870 square feet specified in a preliminary floor 
stone installation plan that the contractor provided to AOC shortly 
after the February 15 CVC hearing. In addition, 5 of the 9 schedule 
milestones that AOC and we have been tracking for the Subcommittee for 
today's hearing are related to interior wall stone installation, and 
the sequence 2 contractor did not meet any of these 5 milestones. 
According to the CVC team, the sequence 2 contractor has missed its 
stone installation targets for a variety of reasons, including the need 
to correct problematic sequence 1 work or properly prepare certain 
spaces for the installation of wall or floor stone, a change in wall 
stone design, late delivery of floor stone for the exhibit gallery, or 
delays in some spaces in finishing certain work, such as ceiling work, 
that usually precedes floor stone installation. As we have discussed in 
the Subcommittee's previous CVC hearings, delays in wall stone 
installation can lead to additional delays in completing follow-on 
work, such as floor stone installation and finish work. Although the 
CVC team has identified unforeseen conditions and problematic sequence 
1 work as risks that could affect the pace of wall stone installation, 
the team's efforts to address the risks have not fully prevented these 
types of problems from recurring or adversely affecting the project's 
schedule. Figures 3 and 4 show the sequence 2 contractor's progress in 
installing interior wall and floor stone since January 23 and February 
13, 2006, respectively. Although the sequence 2 contractor has exceeded 
its aggregate numerical target for wall stone installation since the 
last CVC hearing, it did not meet the milestones for wall stone 
installation that we are tracking for the Subcommittee because it had 
its masons doing noncritical wall stone installation in other areas. 
The masons were doing this noncritical work while remedial or 
preparatory work was being performed in the East Front and atrium areas 
so that wall stone installation could start or continue in those areas, 
according to AOC's construction management contractor. In addition, 
wall stone for the remaining work in the upper level orientation lobby 
was not yet on site because of a change in the type of stone to be 
used.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 3.--Progress of CVC Interior Wall Stone Installation Compared 
             with Targets Set by the Sequence 2 Contractor
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 4.--Progress of CVC Interior Floor Stone Installation Compared 
       with Preliminary Targets Set by the Sequence 2 Contractor

    The sequence 2 contractor missed its target for floor stone 
installation in the exhibit gallery because it ran out of floor stone 
for that area from May 9 to May 16, just as it did during the week of 
April 10. According to the sequence 2 contractor, the supplier of floor 
stone for the exhibit gallery is a small company that has not been able 
to fabricate the floor stone as quickly as needed. The sequence 2 
contractor received an additional shipment on May 16 and was expecting 
another truckload of exhibit gallery floor stone this week. The final 
shipment is expected around June 12. The sequence 2 contractor did not 
expect this delay to adversely affect the overall completion of the 
exhibit gallery.
    To finish installing floor stone in other areas of the CVC, the 
sequence 2 contractor said that it (1) plans to move many of the masons 
installing wall stone to floor stone installation soon and (2) is 
preparing a new set of targets for floor stone installation. We plan to 
review the contractor's revised targets when they are completed and 
will track the contractor's performance against its revised targets for 
the Subcommittee's subsequent CVC hearings. Finally, AOC's construction 
management contractor reports that over 60 percent of the CVC's 
interior floor stone has been fabricated, and the sequence 2 contractor 
does not anticipate future problems with floor stone supply.
            Project's Schedule Remains Vulnerable to Problems, 
                    Challenges, Risks, and Uncertainties, despite 
                    Actions AOC Has Taken and Plans to Take
    As we have indicated since the Subcommittee's February 15 CVC 
hearing, we continue to believe that AOC will be challenged to meet 
even the later opening dates we have identified, given the problems, 
challenges, risks, and uncertainties facing the project. A brief update 
on these and AOC's plans for addressing them follows:
  --Trade stacking could delay completion.--As we discussed during the 
        Subcommittee's previous CVC hearings, trade stacking could hold 
        up finish work, such as drywall or ceiling installation, 
        electrical and plumbing work, plastering, or floor stone 
        installation. This work could be stacked because of delays in 
        wall stone installation. According to AOC's construction 
        management contractor, the pace of wall stone installation has 
        not been sufficient to eliminate the risk of trade stacking and 
        delays in finish work. Such a situation could also increase the 
        risk of accidents and injuries. Hence, it remains important, as 
        we said at previous CVC hearings, for the CVC team to closely 
        monitor construction to identify potential trade stacking and 
        promptly take steps to address it. The CVC team has also 
        identified trade stacking as a high risk, and in its April 
        progress report, AOC's construction management contractor 
        expressed concern about having enough workers to do ceiling 
        work because much of the wall stone work is to be finished at 
        the same time, making several areas available for ceiling work 
        at the same time. The sequence 2 contractor has developed plans 
        that show when various subcontractors will be working in each 
        area of the CVC except the East Front, which the sequence 2 
        contractor does not expect to be ready for finish work for 
        several weeks. The sequence 2 contractor has also had its 
        drywall and plaster subcontractor working overtime in the great 
        hall to expedite the work so the scaffolding can be removed and 
        the floor stone installation can begin. According to the 
        sequence 2 contractor, it intends to continue meeting regularly 
        with its subcontractors to review and update the area plans and 
        to have the area plan for the East Front done before finish 
        work begins there. The sequence 2 contractor pointed out that 
        these plans add more detail to the project's schedule and will 
        serve as a tool for addressing the trade-stacking issue. 
        Although we and AOC agree that these area-by-area plans are 
        important and should be helpful, we are still concerned about 
        the potential for trade stacking because of the delays that 
        have already occurred and future delays that could occur in 
        such work as testing, balancing, and commissioning the CVC's 
        air handling units or making changes to the CVC's fire 
        protection system resulting from the Chief Fire Marshal's 
        review of the shop drawings for the system.
  --Complex building systems remain a significant risk.--The CVC will 
        house complex building systems, including systems for heating, 
        air conditioning, and ventilation; fire protection; and 
        security. These systems not only have to perform well 
        individually, but their operation also has to be integrated. If 
        the CVC team encounters any significant problems with their 
        functioning, either individually or together, during 
        commissioning or acceptance testing, the project could be 
        seriously delayed. During the Subcommittee's March 15 CVC 
        hearing, we noted that the sequence 2 contractor planned to 
        submit the shop drawings for the CVC's fire protection system 
        for review by March 17. However, the contractor did not submit 
        the drawings for the base project until the end of April, in 
        part because more time was needed to incorporate changes, AOC's 
        construction management contractor said. The drawings were 
        given to AOC's Chief Fire Marshal on May 1. Delays could arise 
        if the proposed system does not meet the project's design 
        specifications or the fire protection code's requirements.\7\ 
        AOC's Chief Fire Marshal plans to complete his review of the 
        drawings by June 1. In addition, the Chief Fire Marshal notes 
        that delays could occur if the CVC team does not adequately 
        pretest the system and correct any problems found during the 
        pretesting. On March 23, AOC's commissioning contractor 
        submitted its plan for testing the performance of the CVC's 
        smoke control system, which is a critical component of the 
        CVC's fire protection system and must work properly before the 
        CVC can be opened to the public. This plan has not yet been 
        approved. In addition, as we have previously noted, the Chief 
        Fire Marshal's timely completion of the fire protection 
        system's acceptance testing depends on his ability to obtain 
        sufficient funding for a contractor to help perform the tests. 
        Furthermore, the CVC team recently resolved outstanding issues 
        with the U.S. Capitol Police on the numbers, types, and 
        locations of security equipment to be installed and on the 
        design of the CVC's fire alarm system. According to AOC's 
        construction management contractor, certain changes to the 
        scope of the security work and to the fire alarm system's 
        design resulting from the resolution are likely to set the 
        schedule back to some extent.
---------------------------------------------------------------------------
    \7\ According to the sequence 2 subcontractor that is fitting out 
the House and Senate expansion spaces, the delays in getting approved 
shop drawings for the fire protection system have already postponed 
ceiling close ins in the expansion spaces, and AOC believes that such 
further delays, along with possible requests for design changes, pose 
the greatest risks to the completion schedule for the expansion spaces.
---------------------------------------------------------------------------
  --Building design and work scope continue to evolve.--The CVC has 
        undergone a number of design and work scope changes. Since the 
        Subcommittee's April 27 CVC hearing, AOC's architectural 
        contractor has issued five design changes or clarifications. As 
        of May 19, 2006, this contractor reported, another 11 were in 
        process and requests for 3 more were awaiting AOC's approval to 
        proceed. In addition, since the project began, AOC has executed 
        more than 80 sequence 2 contract modifications for work that 
        was not anticipated.\8\ Some of these changes, such as changes 
        in the exhibit gallery and in the East Front, have resulted in 
        delays. In addition, shop drawings for a number of project 
        elements, such as the facility's fire protection system, 
        millwork in the food service area, and certain portions of the 
        exhibit gallery, have not yet been fully approved and are 
        subject to change, and additional design or scope changes are 
        likely given the project's experience to date. Project design 
        and scope changes are typically reflected in the development of 
        potential change orders (PCO), many of which result in contract 
        modifications. Figure 5 shows the PCOs submitted for 
        consideration for sequences 1 and 2 since September 2003. 
        Although PCOs are not always approved, they are often regarded 
        as a reasonably good indicator of likely future design or scope 
        changes that can affect a project's cost and schedule. Even 
        more important, the adverse impact of scope and design changes 
        on a project's schedule is likely to increase as the project 
        moves toward completion. For example, certain changes to the 
        fire protection system currently being discussed are likely, if 
        made, to adversely affect the project's schedule, according to 
        AOC.
---------------------------------------------------------------------------
    \8\ These data exclude sequence 2 contract modifications for work 
that was planned but not included in the sequence 2 base contract. 
Examples include the fit-out of the House and Senate expansion spaces, 
the construction of the utility tunnel, and the purchase and 
installation of food service equipment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 5.--Cumulative Number of Potential Change Orders Submitted for 
      CVC Sequences 1 and 2 between September 2003 and April 2006

      As the figure indicates, new PCOs for sequence 1 were submitted 
        until shortly before, and even for several months after, 
        November 2004, when AOC determined that the sequence 1 contract 
        work was substantially complete. Similarly, PCOs for sequence 2 
        are still being submitted, and we have seen no indication that 
        their submission is likely to stop soon. It therefore appears 
        likely to us that some of the design or scope changes indicated 
        in PCOs could lead to contract modifications that will affect 
        the project's schedule. AOC agrees that it is important to 
        minimize the impact of proposed design and scope changes.
      Two new issues associated with the CVC's new utility tunnel are 
        likely to result in additional work. First, AOC has requested 
        design work to begin extending the CVC's sprinkler system into 
        the new utility tunnel to enhance worker safety. Although the 
        design work for this change has not yet been completed, AOC 
        does not believe the extension will delay the project. Second, 
        AOC recently identified a complication that is affecting work 
        on the new CVC utility tunnel. Specifically, AOC found that 
        potential asbestos and other safety-related problems in an 
        older tunnel that intersects the new utility tunnel will have 
        to be addressed before other work needed for the utility 
        tunnel's operation can proceed in the older tunnel. This 
        additional safety-related work is contributing to the slippage 
        in the utility tunnel's completion discussed earlier in our 
        testimony.
  --Opening the CVC and expansion spaces at different times is likely 
        to result in a temporary cap on CVC occupancy and increase 
        costs.--As we reported during previous Subcommittee CVC 
        hearings, AOC's current plan to open the CVC in April 2007 
        before the expansion spaces are scheduled for completion is 
        likely to result in a temporary cap on CVC visitor occupancy 
        and a need to construct temporary emergency exits for fire and 
        life safety protection.\9\ AOC is proposing this sequential 
        approach because it believes that conducting acceptance testing 
        for the fire protection system for the CVC and the expansion 
        spaces concurrently would delay opening the CVC to the public. 
        AOC's proposed April 2007 opening date for the CVC depends on 
        the timely completion of work not only on the base project but 
        also on the expansion spaces, since certain expansion space 
        work must be completed before the CVC's opening. Inasmuch as 
        work on both the base project and the expansion spaces was 
        delayed in March and April, we believe that it will be 
        especially important to monitor the progress of construction to 
        determine what additional work (and funding) may be needed to 
        meet AOC's planned date for opening the CVC, including what 
        temporary work may be required in the expansion spaces for the 
        CVC to open before the expansion space work is complete. AOC's 
        construction management contractor is monitoring this situation 
        and said in its April 2006 schedule report that concurrent 
        acceptance testing of the CVC's and the expansion spaces' fire 
        protection systems may be difficult because of the 15-workday 
        delay in the expansion space schedule that occurred in April.
---------------------------------------------------------------------------
    \9\ According to AOC, the CVC's occupancy at any one time would be 
temporarily limited to 3,500, compared with about 4,200, the normal 
anticipated occupancy level, until acceptance testing of the fire 
protection system for the expansion spaces has been completed. Although 
AOC anticipates the need for some temporary work, it does not believe 
that the associated costs will be substantial.
---------------------------------------------------------------------------
  --Risks from insufficient stone deliveries remain, but may be 
        diminishing.--According to AOC's construction management 
        contractor, the sequence 2 contractor has, since the week of 
        April 24, received 2 of the 10 truckloads of interior wall 
        stone it was expecting from the wall stone fabricator. The 
        sequence 2 contractor said that the lack of wall stone 
        deliveries has not adversely affected wall stone installation 
        recently. AOC's construction management contractor reported 
        that as of last week, almost all--over 99 percent--of the wall 
        stone needed for the core CVC itself was on site (either 
        installed or awaiting installation); nearly 80 percent of the 
        wall stone needed for the atriums and about 35 percent of the 
        wall stone needed for the East Front were on site; and none of 
        the wall stone for the House connector, Library of Congress, 
        and Cannon tunnels had been delivered. The sequence 2 
        contractor said that truck scheduling issues, not fabrication 
        delays, had caused the lapse in wall stone deliveries over the 
        last 4 weeks and that the delays in installing East Front wall 
        stone have been related more to site conditions than to stone 
        supply. Furthermore, the sequence 2 contractor said that given 
        the East Front wall stone supply on site, the shipments 
        expected, and the pace of installation, it does not foresee any 
        further delays in the CVC work due to a lack of wall stone. The 
        sequence 2 contractor received two wall stone truckloads on May 
        22 and expects to receive all of the remaining wall stone 
        needed for the base project by June 30, 2006. According to AOC 
        and its construction management contractor, although the supply 
        of interior wall stone was insufficient in late 2005 and early 
        2006, it is adequate for the CVC at this time, given the amount 
        of space available for wall stone installation and the quantity 
        of stone on hand--about 4,500 pieces as of May 19--and 
        expected. Also, although none of the wall stone for the House 
        and Senate expansion spaces was on site yet, the subcontractor 
        responsible for this work is not anticipating delivery problems 
        at this time. On the other hand, AOC's construction management 
        contractor reported that no floor stone was installed in the 
        exhibit gallery during the week of April 10 or between May 9 
        and May 17 because the installers ran out of floor stone for 
        that area. As indicated earlier in our testimony, the sequence 
        2 contractor received a shipment of floor stone for the exhibit 
        gallery on May 16 and expects another shipment this week and 
        the final shipment by mid-June.
    Finally, as we have said in previous discussions with AOC, its 
construction management contractor, and the Subcommittee, it will be 
important for AOC to have adequate analysis and documentation of the 
reasons and responsibilities for delays.\10\ On April 11, 2006, AOC 
executed a contract modification authorizing its construction 
management contractor to have one of its managers who has not been 
involved in the CVC project assess the adequacy of this type of 
information. The manager expects to complete his work by the end of 
this week.
---------------------------------------------------------------------------
    \10\ See for example: GAO, Capitol Visitor Center: Effective 
Schedule Management and Updated Cost Information Are Important, GAO-05-
811T (Washington, D.C.: June 14, 2005).
---------------------------------------------------------------------------
Estimated Project Cost and Funding
    As we testified during the Subcommittee's last three CVC hearings, 
we estimate that the total cost to complete the entire CVC project will 
be about $556 million without an allowance for risks and uncertainties 
and could be as much as about $584 million with such an allowance. To 
date, about $530 million has been provided for CVC construction. This 
amount includes about $3.6 million that was made available for either 
CVC construction or operations and has been approved for CVC 
construction by the House and Senate Committees on Appropriations.\11\ 
To obtain the additional funding that it expected to need to complete 
the project's construction, AOC, in December 2005, requested $20.6 
million as part of its budget request for fiscal year 2007. This 
request was based, in part, on discussions with us and took into 
account our November 16, 2005, estimate of the cost to complete the 
project's construction without an allowance for risks and uncertainties 
and funding from existing appropriations. Our subsequent work--
completed in preparation for the Subcommittee's February 15 and March 
15 CVC hearings--indicated that AOC would need about $5 million more, 
or about $25.6 million in additional CVC construction funds, to 
complete construction without an allowance for risks and uncertainties. 
AOC plans to request the additional $5 million as a supplement to its 
fiscal year 2007 budget for CVC construction. This would bring its 
total request for fiscal year 2007 CVC construction funds to $25.6 
million. In addition, AOC has indicated that it plans to use about 
$950,000 of the fiscal year 2007 general administration appropriations 
it has requested for contractual support for its Fire Marshal Division.
---------------------------------------------------------------------------
    \11\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. In June 2005, AOC received approval to 
use about $2.8 million (including about $1.6 million for CVC 
construction) of this $10.6 million, leaving a balance of about $7.7 
million that could be used in the future after a rescission amounting 
to $84,800. AOC recently received approval to use about an additional 
$2 million of these funds for CVC construction, including, for example, 
the fabrication and installation of wayfinding signage and the fit-out 
of the gift shops, and about $2.3 million for CVC operations. Thus, 
about $3.4 million of the $10.6 million remains available for approval 
for use for CVC construction or operations.
---------------------------------------------------------------------------
    As we stated in our March 15 and April 27 testimonies, AOC believes 
that it may be able to reduce the amount of funds it will need in 
fiscal year 2007 for contractual support in testing the CVC's fire 
protection system and plans to explore ways to do so. AOC's Chief Fire 
Marshal received the shop drawings for the CVC's fire protection system 
on May 1 and believes that his office will complete its review by June 
1. His office then plans to determine how much contractual support it 
will need to test the system and to explore cost savings possibilities. 
We plan to monitor these costs and report on them to the Subcommittee 
as soon as AOC has a firmer estimate. In addition, AOC is likely to 
incur additional costs from recent scope and design changes related to 
the CVC's security and fire protection systems and from problems 
associated with the utility tunnel. Sufficient contingency funding may 
be available for these items within our $556 million estimate of the 
cost to complete the project. We plan to reassess our cost-to-complete 
estimate this summer and will keep the Subcommittee apprised of our 
results.
    Mr. Chairman, this completes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.

        APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES--APRIL 28, 2006-MAY 24, 2006
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
                 Activity                                    Location                    completion   completion
----------------------------------------------------------------------------------------------------------------
Plaster Ceiling...........................  East Front Basement.......................      5/01/06  ...........
Wall Stone Area 3.........................  East Front Ground.........................      5/01/06  ...........
Wall Stone Area 1.........................  Atrium South Lower Level..................      5/01/06  ...........
Controls Pt. to Pt. Check.................  AHU-01....................................      5/05/06  ...........
OH Fire Protection Rough In and             Exhibit Gallery...........................      5/09/06  \1\ 3/21/06
 Hydrostatic Test.
Wall Stone Area 5.........................  Orientation Lobby Upper Level.............      5/12/06      5/22/06
Wall Stone Area 2.........................  Atrium South Lower Level..................      5/15/06  ...........
Plaster Ceiling...........................  West Lobby Assembly.......................      5/22/06  ...........
Wall Stone Area 1.........................  East Front Principal......................      5/22/06  ...........
----------------------------------------------------------------------------------------------------------------
\1\ While noting that the sequence 2 contractor had completed this work ahead of schedule, AOC's construction
  management contractor said that the sequence 2 contractor would have to perform the hydrostatic test again
  because of an oversight by the exhibit contractor that resulted in its design being too tall and interfering
  with the fire protection system.
 
Source: AOC's January 2006 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and
  its construction management contractor for the actual completion dates as of May 22, 2006.

                          UTILITY TUNNEL WORK

    Senator Allard. I want to thank you both and thank you Mr. 
Dorn for your testimony.
    Mr. Hantman, do you agree with what Mr. Dorn said, as far 
as the ``R'' tunnel? According to his testimony, you're not 
going to meet the June 1 deadline. He talked about the air 
handling system. Do you agree with his comments or do you have 
a different perspective?
    Mr. Hantman. In meetings that we had with the folks who are 
actually going to be doing the work, we believe that the 1 to 2 
week timeframe for doing the shoring work is pretty much 
achievable. Bob can speak specifically to the people he has 
online and ready to come in and do the rest of the work, once 
that work is in place.
    Senator Allard. Bob.
    Mr. Hixon. Mr. Chairman, our plan was to have ACECO, who is 
our asbestos containment contractor, come in as soon as the 
shoring is completed in the area where we need to work; create 
a containment, clean that area, encapsulate anything that might 
need to be encapsulated. And the expectation was that was going 
to take approximately 1 week. The contractor has 2 weeks worth 
of work to complete in order to insulate the lines, so that we 
can open the system and have the chilled water and steam come 
through.
    Currently with this activity, we also need to be flushing 
the system. This is something the contractor is doing as a part 
of his contract. There were a lot of questions concerning how 
to do that properly and the impact on the plant if it wasn't 
done with the right chemicals and things of that nature.
    We've now arranged with G.E. Betz, who is doing the work 
for the plant, to come in and do that work concurrently. So 
right now, we have two exercises going on. We have G.E. Betz 
preparing to come in and do the chemical treatment and flushing 
of the lines that needs to be done. And we also have people 
prepared to come in and complete the work in the tunnel as soon 
as this work is available to us.
    So, yes, it will have an impact on the mechanical systems, 
as to when we can actually start running chilled water and 
steam through them. We're not certain yet if that would have 
any impact on the end schedule.
    Senator Allard. Have you had a structural engineer look at 
what needs to be done on the tunnel?
    Mr. Hantman. Yes, we have. The Entech Group, who was our 
consultant on this, are the folks who identified the 
delamination.
    Senator Allard. And they had a structural engineer give 
them an evaluation?
    Mr. Hantman. Yes.

                  CAPITOL VISITOR CENTER TUNNEL EGRESS

    Senator Allard. Okay. Thank you. In last month's hearing, 
we discussed the issue of lack of egress from the CVC tunnel. 
Has this issue been resolved with the Office of Compliance and 
do you have an estimate of the additional time and cost that 
might be required?
    Mr. Hantman. As I indicated in my testimony, the Office of 
Compliance is continuing to review the information that they 
have. We met with them recently and reviewed all the 
information and what the tunnel was all about. And get the 
firsthand view of what was in place.
    They're going to be taking a look at existing standards, 
existing codes. The Hughes Organization, who is our life-safety 
expert for our construction designers, has indicated that no 
codes basically dictate travel lengths. So, they are looking at 
this and they expect to come back with a perspective on that, 
prior to the next hearing, Mr. Chairman.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Yes, Mr. Chairman. There seems to be some 
differing opinions here, with respect to the utility tunnel. 
First, we did tour the utility tunnel with the fire marshal a 
couple of weeks ago and he clearly indicated that as a very 
minimum, he would require a sprinkler be installed in a portion 
of the utility tunnel that's under the auditorium, because 
that's a fairly wide area. He's concerned about future storage 
there of combustible materials. So for that portion, he said, 
that he would require it to be sprinkled.
    Now, the rest of the utility tunnel, which goes under the 
street, is a question and again, there seems to be differing 
opinions on whether or not there is a particular section of the 
life safety code that applies to that. The fire marshal 
believes that there is, as Mr. Hantman indicated; the 
Architect's contractor believes that there isn't; and the 
Office of Compliance is researching this right now. So, it's a 
little bit unclear, exactly what the story is with respect to 
the egress requirements in the utility tunnel, at this point.
    Senator Allard. It seems to me like we can get this 
resolved. Do you think you can get this resolved by our next 
meeting?
    Mr. Hantman. Yes, Mr. Chairman.
    Senator Allard. I've been told, the General Counsel from 
Office of Compliance is here?
    Mr. Eveleth. Yes, Mr. Chairman.
    Senator Allard. Can you assure us, that you'll get this 
issue resolved by the time we have our next meeting?
STATEMENT OF PETER EVELETH, GENERAL COUNCIL, OFFICE OF 
            COMPLIANCE
    Mr. Eveleth. My name is Peter Eveleth and I'm the General 
Council of the Office of Compliance.
    In answer to your question, yes, I'm confident that we can 
come back, certainly by the time of the next hearing, with a 
more definitive answer. Let me explain what, in part, the issue 
is here. The life safety code is--there is no definitive 
standard by OSHA regulations, other than a general statement 
that has to do with assuring that the ability of people to exit 
these tunnels in a safe manner. Is that correct?
    They do make reference to the life safety code. There is 
some question of the applicability of the life safety code to 
this situation. In the absence of any specific code, what OSHA 
contemplates is that you begin to look at what general--are 
there consensus standards? What is general industry practice? 
And what we're attempting to do is to find out what the general 
industry practice is there, because of this fuzziness in that 
issue.
    But, the other point I wanted to make is, I believe that 
we're assured by the Architect of the Capitol, and correct me 
if I'm wrong, that however this matter is resolved, whether 
there needs to be an additional egress point installed in the 
CVC tunnel or not, that should not delay, in any manner, the 
opening of the CVC.
    Senator Allard. Okay. Well, I hope that the lawyers can 
quit arguing and come up with a conclusion so that we can move 
forward with this. Mr. Dorn.
    Mr. Dorn. Yes, Mr. Chairman. I just wanted to point out, 
you know really it backs up what the Office of Compliance is 
saying, is there are industry standards. AOC has been applying 
their own standard for years now. They have installed a number 
of egress points along the tunnels, without relying on what the 
national building code or the fire protection code might say.
    When we looked at this issue, we're looking--are they at 
least providing the same protection in the new tunnels, as 
they're providing in the old tunnels? So, absent anything else, 
being consistent with what they've already determined to be 
adequate in the old tunnels, would seem reasonable.
    Senator Allard. Well in view of the fact that we want to 
make sure that we have a safe environment for our workers, the 
only way I see we reach that, is to follow the industry 
standard.
    Mr. Dorn. Right.
    Senator Allard. So, I would hope that we can sit down and 
decide what the industry standard is. We want the workers to be 
in a safe place.
    Mr. Dorn. Yes. And on the issue of being able to open or 
affecting the completion date, it doesn't have to--if you do 
end up installing an egress point somewhere along that tunnel, 
it doesn't have to affect the completion date.
    Senator Allard. Okay.
    Mr. Dorn. But, it could cause a problem, because the pipes 
happen to be on the same wall that you would want to knock out 
in order to put your new egress point in.
    Senator Allard. I see.
    Mr. Dorn. If it popped straight up, you end up in the 
middle of the street, which would not be a good idea.
    So, you need to come out of the side of the tunnel and your 
pipes are in the way.
    Senator Allard. Okay. Well, try and get that resolved by 
our next meeting and then you can give us a full report. Do we 
have a commitment from everybody to get that done?
    Mr. Hantman. Yes, sir.

                           FIRE ALARM SYSTEM

    Senator Allard. Thank you. I understand now, that agreement 
has been reached between the Capitol Police Board and the fire 
marshal, regarding the fire alarm system. While I don't think 
we need to discuss the particulars owing to security 
considerations, can you tell us whether the Office of 
Compliance is in agreement with the plan, Mr. Hantman?
    Mr. Hantman. Well, Mr. Eveleth can certainly give his own 
perspective on that, but we met in fact, with the Office of 
Compliance yesterday, with the Capitol Police Board, with the 
police, with the fire marshal, with GAO in attendance. I 
believe that Bernie summarized it pretty well at the end of the 
meeting, that all of us are in agreement that we have a 
solution that makes sense from both the security and a life-
safety perspective.
    Senator Allard. You're comfortable with that, Mr. Eveleth?
    Mr. Eveleth. I would say so, yes, Mr. Chairman. I mean, 
obviously, one of the things that I can say without being 
concerned about revealing some security information, is that 
this is a continual process. That is, it will be whatever is 
put in place, will be monitored and we will continue to monitor 
it, to be sure that it's working properly and consistent with 
the objectives of the code. I think that's essential that that 
be done, as well.
    Senator Allard. Thank you.
    Mr. Eveleth. But conceptually, we certainly agree with the 
plan.
    Senator Allard. Thank you. The fire system shop drawings 
were submitted to the fire marshal on May 1. When do you expect 
the fire protection system to be approved finally?
    Mr. Hixon. Our understanding is that the drawings will be 
approved on schedule, on June 1. They're continuing the review 
and at this point, the feedback we've been getting is the 
documents are well prepared and they haven't found anything of 
significant issue, yet.
    Senator Allard. Very good. Now----
    Mr. Hixon. Just a clarification on that, Mr. Chairman?
    There are two issues relative to the fire and life safety 
system. One is the hardware. The other is the programming. The 
agreement that we've reached and everybody thinks makes sense 
will require some reprogramming of--or a different approach to 
programming, which can be accomplished fairly easily. The 
hardware and everything that's being installed right now should 
not be impacted by this.
    Senator Allard. Thanks for that clarification. Mr. Dorn, in 
your testimony you noted that the Architect of the Capitol is 
likely to incur additional costs for changes to the CVC's 
security and fire protection systems. Do you believe that AOC 
will need more funding than you already suggested for this 
additional work?
    Mr. Dorn. Mr. Chairman, the Architect has rightfully built 
in some contingency into the amount of money that he has now 
and at this point, we think that they can handle it within the 
$556 million number that we've already talked about.
    Senator Allard. You're comfortable with that, Mr. Hantman?
    Mr. Hantman. Yes, Mr. Chairman.

                               MILESTONES

    Senator Allard. I understand that only one of the nine 
milestones for the last month has been met. Why are so few 
milestones being met? There has been a great deal of slippage 
in the expansion spaces the last month, falling some 15 days 
behind schedule and I'd like to have an explanation on that, 
too.
    Mr. Hixon. Mr. Chairman, I think we need a little better 
perspective of how we're doing. We have certainly had some 
slippage in the east front. That issue has come up already. 
There have been a total of 47 milestones that we have been 
evaluating since the first of the year. Of that 47, 32 have 
been completed, 7 are currently underway and should be done in 
the next few weeks. We have five that are not started, most of 
them related to the east front, with the wood installation in 
the orientation theater. We've had two that have gotten revised 
logic, where we decided not to install the bronze doors when 
scheduled, in order to avoid damage to the bronze doors or some 
auditory and drywall. Which leaves the east front air handling 
unit, which is another problem area.
    So, yes, if you're 3 weeks behind in January to February 
and you never make that up, we will always be chasing trying to 
recover those milestones, because we're measuring against the 
January milestones. We have not adjusted the baseline each 
month to reflect the new schedule. We're still measuring 
against January. So, until they get back to the January 
schedule, they'll always be chasing this.
    We do have some activities that are occurring early: the 
stone installation in the atria areas, and we previously talked 
about the stone installation in the security lobbies. So, there 
are some items that have come in a little bit early.
    The exhibit gallery floor stone is several weeks late and 
is being completed. That is not tying up the rest of the floor 
stone installation, because we need the scaffolding out of the 
way and we need the ceiling work done. The stone for the 
balance of the floors is not the same stone as in the exhibit 
hall, and we have stated in the testimony that we've got 60 
percent of that stone available to us. So the expectation we 
have is, yes, we're behind. We're not getting much further 
behind and we're working very hard to try and recover that 
time.
    Senator Allard. Do you still think in March, you'll be 
ready to begin to train staff in the visitor center and then in 
April, have it in operation?
    Mr. Hixon. Yes, sir. We do. Right now, when we did that 
schedule, we added 30 days to the expectation and we have been 
eating into that 30 days, but we have not run over that, yet. 
It's these areas that are being brought up by GAO in their 
testimony as areas of concern. We're all sharing that data, so 
we share those concerns and keep focusing on those areas.
    Senator Allard. Now, I'm assuming that's April 1, because I 
think what we talked about was 1 month of training. And then, 
people would come in.
    Mr. Hixon. The plan was, we would have, by the middle of 
March, we would be finished with our work and the operations 
personnel would need 3 weeks of testing after we had a 
certificate of occupancy. So, we would be completing that on 
April 1. It wouldn't be April 1; it would be the first week of 
April.

         GOVERNMENT ACCOUNTABILITY OFFICE SCHEDULE REASSESSMENT

    Senator Allard. Mr. Ungar, your testimony indicated GAO 
will reassess the schedule this summer. Do you expect GAO can 
complete a schedule and cost assessment?
    Mr. Ungar. Yes, Mr. Chairman. We hope that we would be done 
with that in August and be able to report to you, if you have a 
September hearing or before, if you don't.

                            UTILITY TUNNELS

    Senator Allard. Okay. Very good. With respect to the 
utility tunnels, what has been accomplished there in the last 
month? Mr. Ayers, are you going to respond?
    Mr. Ayers. Yes, I will.
    Senator Allard. Okay.
    Mr. Ayers. In the last month, we've completed the asbestos 
repairs in the ``R'' tunnel. We've awarded a contract to abate 
the asbestos in the ``B'' tunnel. We've awarded a design 
contract to design the repairs the ``R'' tunnel roof on Second 
Street, behind the Madison Building. We've completed an 
agreement with the Public Health Service for them to have an 
industrial hygienist technician on site for 4 months to help us 
through the testing process. We've completed our structural 
review of the ``Y'' tunnel and started the structural review of 
the ``R'' tunnel. We've completed the design for a new egress 
and ventilation point for the ``Y'' tunnel. We've installed a 
new grate in the ``G'' tunnel to improve the heat condition, as 
well as a variety of administrative functions.
    Senator Allard. Now, I'd like to know what the Public 
Health Service is doing, and what it has found to date, with 
respect to the asbestos exposure issue. Mr. Ayers, are you 
prepared to respond to that?
    Mr. Ayers. I think it's best if we have Ms. Adams, our 
Director of Safety, provide that response.
    Senator Allard. Okay.
    Ms. Adams. My name is Sue Adams. I'm the Director of 
Safety, Fire, and Environmental Programs for the Architect of 
the Capitol.
    The question was, what is the Public Health Service doing 
for us now and what have they found in the data review up to 
this point? I'll start with the data review, if I may. We 
provided the Public Health Service the data that we had for 
asbestos sampling from June 2001 until April--the middle of 
April 2006. Public Health Service reviewed that data and their 
basic conclusion was, they cannot draw any conclusions from the 
data. There are a number of reasons for that.
    Senator Allard. What were the reasons? I would suspect that 
we just don't have the data, is that right, for 2001?
    Ms. Adams. There were 100 data points taken between 2001 
and 2006 that we provided to the Public Health Service. The 
majority----
    Senator Allard. But prior to 2001, was there any 
monitoring?
    Ms. Adams. If I may?
    Senator Allard. Yes.
    Ms. Adams. Typically, the monitoring that has been done in 
the tunnels has been when there have been abatement actions 
that have taken place. And so, we've been battling with 
questions about what has been the exposure for people when 
abatement hasn't been occurring, just general exposure. There's 
no real data, before very recently, that addresses that. So, we 
cannot answer that question.
    Senator Allard. So, it's sporadic information, prior to 
2001, related to when we had some reason to go into the tunnel 
for repairs, is that correct?
    Ms. Adams. Up until actually the end of 2005. That would be 
the case.
    Senator Allard. Oh, oh. So, that's the case between 2001 
and 2005?
    Ms. Adams. Yes. And I believe they would be----
    Senator Allard. Prior to 2001, there was not any monitoring 
that you know of?
    Ms. Adams. I'm not aware of data prior to 2001. All the 
data that we had since 2001 we provided to the Public Health 
Service. There very well could have been older data. We drew a 
2001 date to give to the Public Health Service.
    Senator Allard. Okay. Thank you.
    Ms. Adams. So, they weren't able to draw conclusions about 
the data so we're continuing to monitor. As a result of the 
data, they gave us a number of recommendations, including how 
we should collect the data. We didn't necessarily have adequate 
information, especially from a historical perspective, trying 
to look at records that are three or more years old.
    So, they've come onboard with their industrial hygienist 
technician and they are providing us with data control and 
review. They're also going to start this week with an 
assessment of the current condition of the asbestos in the 
utility tunnels, as Mr. Hantman mentioned in his opening 
statement. They had done that assessment for us in 2001. 
They're going to do that again, in conjunction with an exposure 
evaluation for the individual workers.
    It's important, when we talk about asbestos that we talk 
about what people are doing. The specific tasks they're 
performing and their exposures, in regard to the tasks they're 
performing. Certain types of tasks will create different 
amounts of dust and different amounts of exposure. So, it's a 
task-based analysis. The PHS will be performing that analysis. 
It will take a number of months to actually go through the 
different routine tasks that our workers perform.
    Senator Allard. Okay. Thank you.
    Ms. Adams. You're welcome.
    Senator Allard. Mr. Hantman, is there any further comments 
you want to make on the structural assessment of the tunnels, 
what's been found there, so far? And can you say, 
unequivocally, that there's no danger of collapse, as stated in 
the April 10 report?
    Mr. Hantman. The additional delamination that's been 
discovered since our last hearing, our structural engineer 
indicates that this does not add to the difficult situation we 
have down there. But, the immediate danger of collapse is not 
there, according to our structural engineers.
    What we need to do though, is clearly, we are starting the 
design work on the next area, which is the ``R'' tunnel, that 
we talked about at a couple of hearings back. The design work 
has begun to actually do physical replacement of the areas that 
we think are in the most need.
    Senator Allard. Okay. Now, Mr. Dorn, would you care to 
comment on that?
    Mr. Dorn. Mr. Chairman, I have not been in those tunnels. 
My understanding of what's been done so far, is a visual 
inspection and what they call a sounding type inspection, which 
is to walk along with a hammer and just hit on the concrete and 
see if it sounds like it's delaminated or not.
    What we don't know is what the actual structural condition 
of the tunnels is. There's been no destructive testing, that 
I'm aware of, at this point and so far, it's just visual 
inspection. I will say, that the tunnels, I'm told, are built 
with 12 to 14 inches of concrete and reinforcing steel.
    The steel in the bottom of the tunnels is probably not 
doing much good at all now as there's no concrete encasement 
and you've had a lot of loss of that rebar.
    We don't know what's happening on the top of the tunnel. 
So, as a professional engineer, I would be reluctant to make 
the same claim that the Architect is making, without more than 
a visual inspection. But, they are closer to it than I am.
    Senator Allard. Is that correct? We've only had a visual 
inspection on the tunnels?
    Ms. Adams. Our contractor, Entech, is in the process of 
performing borings, where they actually take physical samples.
    Senator Allard. Okay.
    Ms. Adams. And then, they do a metal----
    Senator Allard. So, you're in the process of doing that 
now?
    Ms. Adams. Yes, sir. For all the tunnels, as they walk 
through. They give us a quick look report, when they come out 
of the tunnels and then they're doing their evaluation of the 
borings and that will take some time.
    Senator Allard. And will you have something on the next 
meeting on that, in June?
    Ms. Adams. I believe we will, for at least the ``Y'' 
tunnel.
    Senator Allard. Very good. Okay. And the ``Y'' tunnel is 
where we have the connectors with the ``B'' tunnel that we're 
putting in from the CVC, is that----
    Ms. Adams. No.
    Senator Allard. Oh, that's the ``R'' tunnel?
    Ms. Adams. ``R'' tunnel.
    Senator Allard. Okay, okay. We don't have any real serious 
structural problems in the ``Y'' tunnel or the ``R'' tunnel?
    Ms. Adams. The ``R'' tunnel was under evaluation by Entech, 
when they found the concern about the delamination. So, they've 
pulled out, until we can complete the shoring.
    Senator Allard. Okay. But, the ``Y'' tunnel is where they 
have the most serious problem?
    Ms. Adams. That's what we believed, before we started this 
evaluation, sir. So, once the shoring is done, Entech will go 
back into the ``R'' tunnel to complete their evaluation.

             OFFICE OF COMPLIANCE VIEWS ON UTILITY TUNNELS

    Senator Allard. I see. The Office of Compliance has 
responded to questions, which were presented at the hearing 
earlier this month, regarding AOC's plan for the utility 
tunnels and they found that AOC's plan may be inadequate to 
fully protect the tunnel workers, including the fact that no 
interim measures were proposed for the ``Y'' tunnel. What is 
your response to this concern?
    Mr. Eveleth. Mr. Chairman, I have a number of responses to 
this. First of all, as has been indicated, this is an evolving 
situation, where Entech discovers that there's a situation 
where the ``R'' tunnel is beginning to delaminate in one area.
    Senator Allard. Yes.
    Mr. Eveleth. Then, they subsequently determined, as I 
understand it, that yet again, another area was discovered as 
delaminating. And so, they're going through the process of 
having the Construction Division of the Architect install 
shoring. So, we don't really have a complete picture of what's 
going on in those tunnels. And that causes us concern.
    The concern is, as well, that earlier reports, back in 2000 
and following, indicated that you couldn't tell visually, 
merely by visually looking at a tunnel, whether there's going 
to be a delamination problem. And so--and there are ways that 
were recommended by experts in that field, as to how you go 
about doing the testing to assure that you're really getting an 
accurate picture of that. I'm not sure, at this point, that 
that has been done here. So, that poses some real serious 
problems.
    The other interim, these are all interconnected problems. 
Obviously, we have identified, back in 2000 for example--or 
1999, we identified the asbestos problem and the confined space 
problem, and the heat stress problems and we issued a full 
report to the Architect of the Capitol at that point. Those 
areas--that still remains to be addressed. And it hasn't been 
fully addressed.
    Our question, really had to do with, can you accelerate 
this process of reducing the heat? And well, then there's the 
issue of well, how can--you can't reduce the heat by using 
fans, unless you get rid of the asbestos. So, how can you 
accelerate the process of removing asbestos? These are all 
interconnected things.
    One of the things that I think we mentioned, is that we are 
in the process of acquiring our own expert in this area, so 
that we can examine what the proposals are and work with the 
Architect and make our own recommendations. We want to be sure 
that this plan is--particularly the temporary measures--
accelerated.
    We also think and one of the points that you made in your 
opening remarks, Mr. Chairman, had to do with worker 
dissatisfaction. We have, from time to time, had tunnel workers 
come to us and tell us what some of their concerns are. And we 
will be sharing that, of course, with the Architect. But, for 
example, the Entech was pulled out of the tunnel, the red 
tunnel, at a certain point in time, when they discovered the 
delamination and indicated that need be--it needed to have 
structural work done, support work done in that area.
    The workers reported to us that they were walking through 
those areas and they were not informed about why Entech--that 
Entech was pulling out or why they were being pulled. Now, I 
can't verify the accuracy of that. I'm saying these are the 
kinds of complaints that we get.
    So, it's absolutely necessary that there be full 
communication between the management of the AOC that's involved 
in this stuff and letting the employees know what the problems 
are, so their confidence level and their safety. And the same 
thing is true with our office. We want more sharing of 
information, as this goes along.
    So, those are some of the issues that we have obviously, 
that the question of decontamination and the asbestos process. 
As we indicated in our answers, the AOC was working on it, but 
they weren't up to speed in terms of that. And so, there are 
these kinds of issues that remain.
    Senator Allard. Have you taken a position on whether you 
think we have to have total removal or whether we can use 
encapsulation?
    Mr. Eveleth. In answer to that question, I can't give you a 
full answer without more data. What I mean by that, is----
    Senator Allard. So, that's what you meant by, you had more 
data gathered to make that recommendation together?
    Mr. Eveleth. Yes, I think so.
    Senator Allard. Okay.
    Mr. Eveleth. From what we have been told by the Architect 
of the Capitol, the removal and replacement with a different 
kind of insulation, may have a significant effect on the heat 
within the tunnels.
    Senator Allard. Okay. I see your point.
    Mr. Eveleth. And so, we don't know how much that would 
reduce it. We don't have the experts yet, to analyze whatever 
data that the Architect may have, but that should, in our view, 
should be a factor in making that determination, because----
    Senator Allard. Can that determination be done rather 
quickly here?
    Mr. Eveleth. Pardon me?
    Senator Allard. How quickly can you get that done--that 
determination?
    Mr. Eveleth. I can't give you a definitive answer on that, 
because we don't have our----
    Senator Allard. I just encourage you to speed that along, 
if you will, please.
    Mr. Eveleth. Yes, we will. Because we understand, that's--
(a), it's expensive.
    Senator Allard. Yes.
    Mr. Eveleth. And (b), it's pretty important to the question 
of heat.

                           ASBESTOS ABATEMENT

    Senator Allard. Moving ahead, yes. Mr. Dorn, the Office of 
Compliance, they've given us their view on the asbestos removal 
issue. In last month's hearing, you indicated your support for 
a hybrid approach to asbestos abatement in the tunnel in which 
asbestos is encapsulated wherever it is in good condition and 
fully remediated in other locations where warranted. Do you 
continue to believe this approach is best and most cost 
effective?
    Mr. Dorn. Yes, sir, I do. And to clarify what Mr. Eveleth 
just said, he said that the asbestos had to come out before you 
increase the ventilation in the tunnel to cool the tunnels. The 
only asbestos that would have to come out, would be the loose 
asbestos that could be stirred up by the increased ventilation. 
The asbestos that's there and properly maintained and 
encapsulated does not have to be removed to increase the 
ventilation in the tunnels.
    And that's--the ventilation is probably the best way and 
the cheapest way to cool the tunnels. Do the things that 
they're already doing, have grates, instead of hard covers on 
top of some of your egress points. Make sure all your fans are 
working and up to a good speed, so that you can move air 
through those tunnels.
    As far as insulation, we're not yet aware of any new super 
insulation that will make a significant difference beyond the 
stuff that falls off the space shuttle. I'm not aware of any 
insulation that has these great properties--that is also 
affordable, that we can use to reduce the heat in the tunnels. 
Ventilation and encapsulation are the ways to reduce the heat 
and also, to allow for a phased abatement of asbestos, if 
that's what the Congress wants to do, is eventually get rid of 
it. It doesn't all have to be done at once.
    Senator Allard. In your view, is it the role of the Office 
of Compliance to prescribe a particular solution to the 
problems, which have been identified in the tunnels?
    Mr. Dorn. They could probably speak to that better than I 
can, but my understanding is, their role is to make sure that 
the Architect, and GAO, and others comply with OSHA standards.
    Senator Allard. I would hope that I can get a commitment 
from you and Mr. Eveleth to work in cooperation with the AOC to 
come up with solutions to asbestos and structural issues, if 
you would?
    Mr. Eveleth. Certainly.
    Senator Allard. Okay. Thank you.
    Mr. Eveleth. Let me also say, if I may, that I agree with 
Mr. Dorn's assessment, that it's the loose asbestos, is what I 
should've said is what we're concerned about.
    Senator Allard. I'm glad for that clarification.
    Mr. Eveleth. And we recognize the fact that this may be in 
stages and it may be that certain tunnels are hotter than 
others. And you might take different measures in some tunnels 
than you would in other tunnels, and this may well be affected 
by the numbers of additional egress points that are opened up 
as well because that provides some degree of ventilation and 
things like that.
    So, there are a number of technical questions that are 
involved in this and we want to work with the Architect and our 
experts, as well.
    Senator Allard. Okay.
    Mr. Eveleth. And to do it without speed.

                       DECONTAMINATION PROCEDURES

    Senator Allard. Very good.
    There has been confusion over the decontamination 
procedures for tunnel workers. At the last hearing, I was told 
that the tunnel workers were following OSHA asbestos 
decontamination procedures. We later learned that the equipment 
and procedures may not have been in place until just recently. 
Are OSHA regulations being followed now?
    Mr. Ayers. I'll certainly do that.
    Senator Allard. Mr. Ayers.
    Mr. Ayers. Yes, sir. We did hear some confusion on that 
issue, since our last hearing and we went out and asked the 
Public Health Service to evaluate whether or not our procedures 
were compliant and whether or not our employees were properly 
following them. We received their report on April 19. They 
indicated that our procedures, they felt, were compliant, but 
were not fully implemented and not being fully utilized by 
employees.
    Senator Allard. Okay. Who is responsible, within AOC, for 
ensuring safe practices are followed in the tunnels?
    Mr. Ayers. Well, I think responsibility relies in a variety 
of areas. Certainly employees, themselves, have a 
responsibility. The first line supervisor has their 
responsibility. And ultimately, the Director of the Power Plant 
needs to ensure that employees are provided the right 
resources, the right policies and procedures, and has effective 
measures in place to ensure they're being followed.
    Senator Allard. Do we have a safety officer from the Power 
Plant who would be responsible?
    Mr. Ayers. We do have a safety officer at the Power Plant, 
yes.
    Senator Allard. And does he hold some responsibility on 
this?
    Mr. Ayers. Yes, sir.
    Senator Allard. Okay. So, where does he fall in line?
    Mr. Ayers. He reports directly to the Director of the 
Capitol Power Plant.
    Senator Allard. Does he communicate directly with the 
workers or does he have an intermediary there?
    Mr. Ayers. Yes. He should communicate with the employees, 
as well as with their supervisor.
    Senator Allard. Okay. And has this safety officer, has he 
visited the tunnel, personally been down there?
    Mr. Ayers. I'm not aware of that personally. I don't know. 
But, I'll respond for the record.
    Senator Allard. We'll need a response on that for the 
record.
    Mr. Ayers. Yes, sir.
    Senator Allard. Does the safety officer make sure that 
decontamination equipment is available to the workers, as well 
as being used?
    Mr. Ayers. Yes. I think that would be part of his 
responsibilities, as well.
    Senator Allard. Okay. Verify that for the record, would you 
please?
    Mr. Ayers. Yes, sir of course.
    [The information follows:]
                              The Architect of the Capitol,
                                     Washington, DC, June 23, 2006.
The Honorable Wayne Allard,
Chairman, Subcommittee on Legislative Branch Appropriations, Committee 
        on Appropriations, United States Senate, Washington, DC 20510.
    Dear Mr. Chairman: Thank you for taking the time to meet with me on 
Monday to discuss construction of the Capitol Visitor Center and the 
Capitol Power Plant's utility tunnels. I appreciate your leadership and 
continued support in these two very important areas. Additionally, 
thank you for providing the opportunity to update you on the 
construction of the Capitol Visitor Center at the May 24, 2006 hearing 
and the opportunity to answer questions and provide information on the 
Capitol Power Plant's (CPP) utility tunnels. During the hearing there 
were several issues raised which require follow-up and additional 
information.
    During the hearing, Mr. Terrell Dorn appeared to contradict my 
testimony regarding utility tunnel asbestos. Both my testimony and Mr. 
Dorn's testimony were correct. The Office of Compliance (OOC) did not 
raise utility tunnel asbestos as a major issue prior to July 2005. In a 
June 30, 2000, letter to AOC, the OOC mentioned the need to repair 
damaged asbestos but the concern was not to the point where OOC felt it 
necessary to issue a formal citation. The CPP took actions to repair 
the damaged asbestos and the repairs were confirmed by the 2001 Public 
Health Survey which found asbestos to be in good condition.
    The Y tunnel interim structural report discussed in the hearing is 
attached for your information. The preliminary Y tunnel structural 
analysis, ``indicates that this cross section, in its current 
condition, appears to have sufficient strength to resist the 
anticipated loading conditions.'' The entire structural report is due 
at the end of July 2006. In the report, there is reference to the need 
to gain access to the GPO building. This issue has been addressed and 
Entech has begun evaluation in this area. Although the final report is 
due July 31, 2006, recent identification of delaminated concrete in the 
R tunnel delayed the consultant's inspection which may delay receipt of 
the final report to mid August 2006.
    During the hearing, you asked a number of questions regarding the 
roles and responsibility of the CPP Safety Specialist. Attached is an 
excerpt from the April 10, 2006 Utility Tunnel report providing 
information regarding various responsibilities for safety. In response 
to your specific questions I offer the following:
    Q: Has the CPP Safety Specialist visited the tunnels, personally 
been down there?
    R: Between mid-March and June 16, 2006, the CPP Safety Specialist 
has been in the utility tunnels on approximately six confirmed 
occasions. Prior to March 2006, the CPP Safety Specialist indicates he 
had inspected the tunnels, however, Tunnel Shop personnel dispute this. 
Unfortunately, there are no definitive records to confirm either 
position.
    Q: Does this individual make sure that decontamination equipment is 
available to the workers, as well as being used?
    R: The CPP Safety Specialist has been assigned to ensure 
decontamination equipment is available and is in use. He also visits 
the decontamination sites periodically.
    As you requested in the hearing, we will provide specific utility 
tunnel milestones before the next hearing scheduled for June 28, 2006. 
Also, I am pleased to inform you that CAPT. James Terra, from the 
Federal Occupational Health, Public Health Service (FOH/PHS) will 
attend the upcoming hearing and be available to discuss the asbestos-
related efforts FOH/PHS is performing for us.
    We will continue to work with this Subcommittee and the Congress to 
effectively keep the utility tunnels safe and functional while we 
institute a multi-year capital repair/replacement program as needed. At 
the same time we will also continue to prioritize the many other 
important fire and life-safety projects we are undertaking throughout 
the Capitol complex.
    Please contact me on (202) 228-1793 if you require additional 
information.
            Sincerely,
                                     Alan M. Hantman, FAIA,
                                          Architect of the Capitol.
                                 ______
                                 
         Attachment--Safety Related Roles and Responsibilities
[excerpted from pgs 8-9 utility tunnels, a report dated april 10, 2006]
    The AOC Safety program consists, in part, of a series of policies, 
procedures, and guidance documents that, in concert, are designed to 
provide for a safe work environment by establishing requirements and 
assigning responsibility for safety throughout the AOC organization. 
Typical assignments include but are not limited to:
  --Safety, Fire and Environmental Programs Office (hereafter referred 
        to as the Central Safety Office): responsible for developing 
        safety policies and guidance documents, appointing and 
        maintaining a trained policy manager for each safety policy 
        area, providing technical assistance to jurisdictions, and, 
        once policies are implemented, performing policy oversight 
        (quality assurance through a series of audits and procedural 
        verifications that act as a check and balance).
  --Jurisdiction Manager, responsible for ensuring development and 
        implementation of policy requirements, assigning and supporting 
        a jurisdiction policy coordinator, providing staff with time 
        and resources necessary to implement and maintain safety 
        policies, and enforcing policies through line management.
  --Policy Coordinator (typically the Jurisdiction Safety Specialist): 
        responsible for generating and maintaining Jurisdiction 
        specific procedures, coordinating and scheduling training, 
        attending training, ensuring PPE meets applicable Federal 
        standards and is National Institute for Occupational Safety and 
        Health (NIOSH) certified.
  --First line supervisor: responsible for identifying safety hazards 
        within work areas under their control, establishing appropriate 
        controls, attending requisite training, ensuring employees 
        attend requisite training, and enforcing safety procedures and 
        safe work practices.
  --Employees: responsible for complying with procedures, wearing 
        required personal protective equipment (PPE), and using safe 
        work practices, notifying their supervisor of hazards they 
        encounter, attending required training, and reporting unsafe 
        conditions.
              Whitlock Dalrymple Poston & Associates, Inc.,
                                        Manassas, VA, May 19, 2006.
Entech Engineering Inc.,
4 South Fourth Street, P.O. Box 32, Reading, Pennsylvania 19603.

Attention: Jeffrey Euclide, P.E.

Re: Capitol Utility Tunnel Condition Assessment, ``Y'' Tunnel 
        Assessment, WDP Project No. 06030
    Dear Mr. Euclide: Whitlock, Dalrymple, Poston & Associates, Inc. 
(WDP) has performed the majority of the planned testing for the ``Y'' 
tunnel. The following is a summary of our work performed to date:
  --Visual and tactile survey.--A visual survey supplemented with 
        select hammer sounding was performed on the entire tunnel 
        length (approximately 2,500 feet). Upon completion of this 
        survey, each tunnel section (pipe support to pipe support) was 
        given a condition rating based on a rating system adapted from 
        the U.S. Department of Transportation and Federal Highway 
        Administration's Culvert Inspection Manual.
  --Nondestructive testing.--Nondestructive testing (NDT) was performed 
        as a follow up to the visual survey at three locations along 
        the main length of tunnel (4 feet 6 inches wide by 7 feet tall 
        vaulted arch). This testing was performed near entry/egress 
        points YG-4, YG-6, and YG-7. Testing was not performed in the 
        northern section of the tunnel (YD-9 to YD-10) due to 
        restricted access at the GPO building. WDP will require access 
        to this area with our testing equipment in order to complete 
        the testing of this section of tunnel.
      At the three accessible test sites, the following nondestructive 
        tests were performed:
    --Surface Penetrating Radar (SPR) was performed in order to 
            identify reinforcing positioning and spacing.
    --Impact-Echo testing was performed to estimate concrete thickness 
            and identify potential additional damage not visible from 
            the inside of the tunnel within the limited test area.
  --Destructive testing.--At or near the NDT test locations, additional 
        destructive testing was performed to identify physical 
        properties of the tunnel concrete as well as to confirm NDT 
        data where possible. The following tests were performed:
    --Five (5) concrete cores were extracted for compressive strength, 
            carbonation, and petrographic testing.
    --Sixteen (16) concrete powder samples for chloride content testing 
            were collected at \1/4\ inch to 1 inch depth at or near the 
            NDT areas. Attempts were made to vary sampling locations 
            between wall and ceiling locations as well as adjacent to 
            damaged or undamaged portions within reasonable limits of 
            the sampling equipment.
    Based on the data obtained from these tests and observations, WDP 
has performed a preliminary structural analysis of the 4\1/2\ foot wide 
by 7 foot tall vaulted arch cross section of the ``Y'' tunnel. This 
preliminary analysis indicates that this cross section, in its current 
condition, appears to have sufficient strength to resist the 
anticipated loading conditions. WDP will continue our condition survey 
and issue a detailed summary of the tunnel ratings, test results, final 
analysis results, and anticipated repair recommendations with our final 
report to Entech and the AOC.
    Should you have any questions regarding this information, please 
feel free to contact us at your convenience.
            Sincerely,
                                       John M. Grill, P.E.,
                                                  Project Engineer.

                           EMPLOYEE RELATIONS

    Senator Allard. Mr. Hantman, I'm very concerned about the 
relationship between your office and the shop employees. There 
seems to be a considerable amount of distrust, confusion, 
finger pointing, and hostility, frankly. You indicate in your 
testimony that communication has been a problem in the past. We 
need to have better communication; is something being done to 
improve communication with workers?
    Mr. Hantman. Our new Director of the Power Plant, Mark 
Weiss, has initiated Tuesday morning meetings every week with 
the tunnel crew, to talk about issues, to hear what their 
issues are, to respond to them, to develop a list of problem 
areas that they see, so we can address them in an orderly way. 
But, we're also looking at bringing in--there are some 
interviews that Mr. Weiss has been having with facilitators, to 
bring somebody in to be able to work out the feelings that 
people have and build a stronger sense of trust in that area.
    Senator Allard. And the workers have representation there, 
at those discussions?
    Mr. Hantman. This is Mark Weiss.
    Senator Allard. Do you want to identify yourself for the 
record?
    Mr. Weiss. Mr. Chairman, my name is Mark Weiss. I'm 
Director of the Power Plant. Those Tuesday meetings, for the 
most part, are with all of the tunnel shop personnel.
    Senator Allard. Is your Safety Director there, too?
    Mr. Weiss. Usually, unless he's occupied in another 
meeting, sir.
    Senator Allard. Okay. I would hope you encourage the Safety 
Director to be there----
    Mr. Weiss. Yes.
    Senator Allard [continuing]. Since he has a direct 
responsibility there.
    Mr. Weiss. Yes, sir.
    Senator Allard. Very good. Thank you.
    Mr. Weiss. You're welcome.

                   EMPLOYEE REVIEW OF APRIL 10 REPORT

    Senator Allard. Have the tunnel shop employees had an 
opportunity to review the report you submitted on April 10 to 
me and Senator Durbin and if so, what comments did they have?
    Mr. Hantman. Mr. Weiss has met with members of the tunnel 
crew and the comments that they came up with have been 
forwarded to the subcommittee. The end of last week, the 
supervisor of the tunnel crew was given a copy of the report to 
review. He has not yet fully reviewed it, but we look forward 
to getting his comments and sharing those with the 
subcommittee, as well.

                GOVERNMENT ACCOUNTABILITY OFFICE REVIEW

    Senator Allard. Mr. Dorn, what work is GAO doing to 
determine the appropriateness of the AOC's plans for correcting 
safety problems in the tunnels and progress in correcting the 
problems, and do you have any preliminary findings?
    Mr. Dorn. What we're doing so far, Mr. Chairman, is working 
with Mr. Weiss and Mr. Potter over at the Capitol Power Plant 
and the AOC engineering. We've interviewed all of the tunnel 
worker employees, and their supervisor. We've had interviews 
with the construction arm of AOC, who also works in the 
tunnels. And we're gathering that information.
    One of the things, I guess I could report, would be just to 
confirm what you said, there is quite a bit of hostility and 
fear of retaliation from the tunnel crew. There's a lot of 
distrust going on there.
    Senator Allard. And what do you expect to report on the 
results of your work?
    Mr. Dorn. We should be able to have something back to the 
subcommittee within the next 60 days, sir.
    Senator Allard. Okay. And what can we expect to be 
accomplished in the utility tunnels by the time of our next 
hearing?
    Mr. Hantman. Mr. Ayers.
    Mr. Ayers. Sure, I can address that. In the next 30 days, 
we will replace a door on the ``R'' tunnel. We will, of course 
as we noted, begin the shoring of the ``R'' tunnel by the CVC 
connection. We will initiate the design work and start the 
design work for the ``R'' tunnel roof replacement, behind the 
Madison Building on Second Street. We have ordered some 
materials for a crossover in the ``V'' tunnel and we should 
receive those materials and have them installed. We will start 
work on an additional egress point and ventilation in the ``Y'' 
tunnel.
    As I noted previously, we have awarded a contract to abate 
the asbestos in the ``B'' tunnel. We will commence that work 
and monitor that. As we have done with the ``R'' tunnel, our 
construction crews have gone through and repaired any loose 
asbestos. We will begin that same work in the ``G'' tunnel and 
as soon as that's finished, we will move that crew over to the 
``Y'' tunnel to do the same.
    And finally, we have a deteriorated expansion joint in the 
``Y'' tunnel that we will soon commence construction on 
rebuilding that expansion joint.
    Senator Allard. I'm going to ask that, when we have our 
next hearing, provide us a time line or milestones, like we 
have with the CVC, so that we can measure progress on this. If 
you would do that, please?
    Mr. Ayers. Yes, sir.
    Senator Allard. That's a good start, but we'd like to have 
a little more specific information on the milestones, if you 
would?
    Mr. Ayers. Yes, sir.

                          SUBCOMMITTEE RECESS

    Senator Allard. That's all the questions I have. The 
subcommittee stands in recess until Wednesday, June 21, when we 
will once again review progress of the CVC construction.
    [Whereupon, at 11:19 a.m., Wednesday, May 24, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
June 7.]






















         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                        WEDNESDAY, JUNE 28, 2006

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:29 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order.
    We meet today to take testimony on the progress of the 
Capitol Visitor Center (CVC). This is our 12th hearing on the 
Capitol Visitor Center. We will also discuss progress on the 
utility tunnel health and safety issues.
    We welcome Architect of the Capitol Alan Hantman, CVC 
project executive Bob Hixon, and Government Accountability 
Office (GAO) representatives Bernie Ungar and Terrell Dorn. In 
addition, in attendance today is Captain Joseph Terra of the 
Public Health Service, Attending Physician Dr. John Eisold, and 
Peter Eveleth of the Office of Compliance (OOC).
    Thank you for your attendance this morning.
    Since our last hearing, the Architect of the Capitol (AOC) 
has discovered that it will take longer to complete the fire 
alarm acceptance process, thereby extending the schedule by 
more than 2 months. And completion of the CVC utility tunnel 
remains a concern.
    As to the utility tunnels, I understand additional asbestos 
abatement work has gone on, and structural condition 
assessments are still underway. The supplemental appropriation 
of $27.6 million has been enacted, and we look forward to 
hearing your plans for allocating these funds to the highest-
priority needs in the tunnel.
    Mr. Hantman, please proceed with your testimony, and then 
we'll turn to GAO for their assessment.
    And I also neglected to acknowledge Stephen Ayers, chief 
operating officer. Thanks for being here, Mr. Ayers.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        CAPTAIN JOSEPH A. TERRA, SENIOR PROGRAM MANAGER, FEDERAL 
            OCCUPATIONAL HEALTH, PUBLIC HEALTH SERVICE, DEPARTMENT OF 
            HEALTH AND HUMAN SERVICES
        STEPHEN AYERS, CHIEF OPERATING OFFICER, ARCHITECT OF THE 
            CAPITOL
        BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, ARCHITECT 
            OF THE CAPITOL

    Mr. Hantman. Thank you, and good morning, Mr. Chairman.
    Senator Allard. Good morning.
    Mr. Hantman. I appreciate this opportunity to again report 
on the progress of the Capitol Visitor Center project. Over the 
past several weeks, we've made excellent progress analyzing the 
project schedule with our contractors and the Government 
Accountability Office team, and meeting with congressional 
oversight committees and leadership to discuss establishing a 
timeframe for construction completion and a subsequent formal 
opening.
    As you know, the CVC is virtually the Nation's beta test 
site for the very comprehensive security and fire and life 
safety systems that are being installed. This means that there 
are many challenges, all of which we are able to overcome in 
bringing this entire system, some 5,000 individual components, 
online. As you know, Mr. Chairman, these components need to 
work as an integrated system under many different scenarios.

                  FIRE ALARM SYSTEM ACCEPTANCE TESTING

    As I reported at our last hearing, agreement has been 
reached on the necessary changes to the acceptance testing 
process for this system between the AOC, the U.S. Capitol 
Police, the fire marshal, the Capitol Police Board, and that 
both the Office of Compliance and GAO have been part of this 
process. The implications of making the necessary programming 
changes to the basic system have become clearer over the last 
month, and we've found that it does, in fact, impact the 
overall acceptance testing process; and, therefore, as you 
mentioned, the project schedule.
    After multiple meetings with the construction team, 
contractors, the fire marshal, and GAO regarding this process, 
we're in agreement that the best way to conduct the fire alarm 
system acceptance testing is to test the central visitor center 
first, with the Senate and House expansion spaces to follow 
sequentially. With this sequence, and based upon the 
information we have today, we're in agreement that the formal 
opening date for the CVC can be set after the mid- to late-July 
2007 timeframe, pending coordination and approval from 
congressional leadership.
    Fortunately, due to our strong teamwork, we're able to 
solve these problems and obtain concurrences from the many 
interested parties while keeping the project moving ahead and 
assuring that outstanding, quality work was being accomplished 
every day. While changing schedules are frustrating for us all, 
the many scope changes that are mandated are being successfully 
incorporated into an already complex construction project that 
is well underway. And this is being done in an expeditious and 
historically sensitive way, which will be a credit to the 
Capitol, the Congress, and the American people for generations 
to come.
    An upcoming major milestone, Mr. Chairman, will be 
beginning the pretesting of the fire alarm system, scheduled 
for this fall. Once this pretesting by the contractor is 
completed, the formal final testing process will begin. While 
the CVC and expansion spaces will still be considered 
construction zones, we'll concurrently begin the facility 
fitout of equipment and training of staff. Once the testing is 
completed and a certificate of occupancy is received, staff 
will be able to test the policies and the procedures regarding 
visitor flow, access, queuing, and security, and refine them 
with test groups of visitors before the CVC officially opens 
its doors to the public.
    Furniture will be moved into the offices in the expansion 
spaces. Visitor services will be up and running. And the House 
and Senate expansion spaces would be available for occupancy 
within the August timeframe.
    Mr. Chairman, thank you for visiting the project worksite 
again 2 weeks ago. The progress made has been significant, and 
the nature and quality of the project spaces continue to become 
more apparent as ceilings are completed and scaffolding is 
removed. Since you saw our progress for yourself, I'll be very 
brief with regard to our project progress update.
    In the great hall, Mr. Chairman, all of the ceiling work 
was completed earlier this month, including drywall 
installation, plaster work, and painting. The scaffolding has 
been removed, revealing the hall's barrel-vaulted ceiling 
structure, and stone masons are preparing to set stone over 
20,000 square feet of floor space, starting next week. While 
the ceiling work was being finished, the two large skylights 
were installed, and that process is nearly complete. In this 
rendering, Mr. Chairman, this photograph, you can actually see 
the dome through the skylight, and it's actually a better view 
than we had in our projected drawing design process.

                           STONE INSTALLATION

    Masons also have resumed setting floor stone in the 
northern half of the exhibition hall, now that all of the floor 
stone for the hall is onsite, this seemed the way to go. Floor 
stone is also complete in the threshold space between the 
exhibit hall and the great hall. In the exhibition hall 
ceiling, the fire and life safety systems, infrastructure, and 
other mechanical work were approved last month, and crews are 
now installing ceiling drywall.
    In the east front, Mr. Chairman, masons continue setting 
stone on the basement and crypt levels and along the monumental 
center stair that connects the CVC to the Capitol. At the crypt 
level, all four fire separation doors are in place within the 
transition zone, and that clears the area for installation of 
wall stone, which now rises more than 10 feet on many walls. An 
abatement contractor has removed the lead paint from the 
original sandstone facade of the Capitol, and will soon begin 
similar work at the Rotunda level. This work was required, 
since much of the original face of the Capitol will be featured 
in the final design.

                        CONSTRUCTION HIGHLIGHTS

    In the orientation theaters, ceiling framework and other 
structural work, as well as the primer painting, has been 
completed. The millwork contractor has begun installing the 
plywood substrate that will support the finished wood panels, 
which are arriving next week.
    In the food service area, the contractor continues to 
install the ceiling drywall, while masons set floor and wall 
tile in the food preparation area. Most of this work is 
substantially complete, and carpet and fabrics for chairs and 
banquettes have recently been approved and are now on order.
    In many areas, particularly in the corridors along the 
great hall and the upper lobby, just beyond the orientation 
theaters, ceiling work continues. Many areas are taking on a 
more finished appearance as plaster work and painting are 
completed. Here, you see, in this photograph, the bronze being 
put on the escalators. And those mechanical systems are 
basically going in very well.
    Outside on the plaza, historic preservation crews continue 
to restore historic elements, like the seatwalls around the 
House and Senate grass ovals. Last week, the two large bronze 
basins for the Olmsted fountains were set into place.
    Finally, we completed a significant milestone in mid-June, 
when the enclosures in the CVC utility tunnel were finished and 
East Capitol Street was opened to traffic and pedestrians.
    Mr. Chairman, together we're working on a most historic 
project, a project that's going to impact every visitor to the 
U.S. Capitol for the foreseeable future. I'm extraordinarily 
proud to be Architect of the Capitol at this time and to lead a 
team of dedicated professionals who are committed to bringing 
the Capitol Visitor Center to a successful completion.

                 CAPITOL VISITOR CENTER UTILITY TUNNEL

    Mr. Chairman, with respect to the utility tunnels, last 
month we discussed several issues in the utility tunnels that 
impacted the tie-in work to the CVC utility tunnel. I'm pleased 
to report that those issues have been resolved, and that last 
week dust cleanup began in the ``R'' tunnel to enable CVC 
insulation work to begin. A crew will be back in the Second 
Street tunnel to start insulation work next week. Meanwhile, to 
offset the impact of the utility tunnel delay, the contractor 
has set up temporary dehumidification units, which are 
providing conditioned air to the orientation theaters so 
millwork can begin in those areas.

             ARCHITECT OF THE CAPITOL-WIDE UTILITY TUNNELS

    In addition to addressing this issue, we've been working 
diligently to address and correct issues in the utility tunnels 
as expeditiously as possible, with worker safety remaining the 
highest priority.
    In anticipation of the passage of the emergency 
supplemental bill earlier this month, our project management 
team developed a draft utility tunnel action plan. The action 
plan identifies projects to be awarded with the emergency 
funding. The team also developed a tracking system for projects 
and other activities within the tunnels. I, again, want to 
thank the subcommittee and Congress for its support of our 
efforts to provide a safe working environment for our workforce 
by providing these funds to repair and improve the utility 
tunnels.
    The Public Health Service continues to conduct personal air 
sampling on AOC tunnel entry teams and conduct a condition 
assessment of the asbestos in all the tunnels. I am pleased to 
have Captain James Terra, who you mentioned before, who is the 
senior project manager with the Public Health Service, with us 
today, and he'll answer any questions you may have about their 
work in the tunnel and data analyses that they're conducting.
    Recently, we have contracted with a facilitator to work to 
improve communication between management and tunnel shop 
personnel. She has been attending the weekly tunnel shop 
meetings and the biweekly executive briefings with Power Plant 
management, tunnel shop personnel, and senior managers.
    Last month, Mr. Chairman, we listed eight tasks we 
identified to complete within 30 days. I'm pleased to report 
that we've completed five of those tasks, and will soon begin 
working on the three remaining tasks. Those include awaiting 
delivery of the crossover elements for the ``V'' tunnel, and 
we'll install those upon receipt. Completion is expected in 
mid-August for this piece of work. Prior to rebuilding an 
expansion joint in the ``Y'' tunnel, we'll be performing 
asbestos abatement in the area of the expansion joint, and the 
abatement work in the ``V'' tunnel is pending, upon receipt of 
acceptable paperwork from the contractor.

                   UTILITY TUNNEL PROJECT MILESTONES

    We have also, going forward, Mr. Chairman, identified some 
14 tasks as project milestones to be completed in the next 30 
days, and they're all listed in my formal testimony. But just 
to highlight a few, we're going to finish the shoring in the 
``R'' tunnel; restart the removal of delaminated concrete in 
identified priority areas once that shoring is complete; award 
contract for additional employee health-related counseling; 
award contract for job hazards analysis and operational safety 
procedures; complete the design and statement of work for 
installation of interim emergency lighting systems for the 
tunnels; award a rental contract for demonstration projects for 
portable cooling units in the ``Y'' tunnel; complete the 
statement of work to study alternative communication systems 
for tunnels to see if we can do something better than the 
existing leaky cable communications system we have in place; 
and last, we'll award structural contract to provide 
professional expertise to both the OOC and AOC, who are working 
together on this.
    In addition, we continue to install shoring in the ``R'' 
tunnel in areas identified by the contractor conducting the 
condition assessment survey. We recently met with the 
contractor to discuss which areas of the tunnel concrete can be 
removed and repaired. The contractor also has completed the 
visual inspection of the ``B'' and the ``V'' tunnels. While 
they noted some concrete deficiencies, they ``did not identify 
any locations in either the `B' or `V' tunnels where concrete 
has deteriorated to the point of collapse.'' They continue to 
perform exploratory and nondestructive testing in these tunnels 
and will provide the results later this summer.
    Last, Mr. Chairman, the OOC has indicated that they require 
expert assistance to review and comment on the April 10 utility 
tunnel report to the Congress. We're working to award a 
contract for this professional assistance and expertise to both 
the OOC and the AOC. With regard to the complaint in February, 
I'm pleased to report that the OOC and the AOC continue to work 
toward a settlement.
    Mr. Chairman, this concludes my statement. And, once again, 
thank you for this opportunity to testify.
    Senator Allard. Thank you for your testimony.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Good morning Mr. Chairman. I appreciate this opportunity to again 
report on the progress of the Capitol Visitor Center project.
    Over the past several weeks, we have made excellent progress 
analyzing the project schedule with our contractor and the Government 
Accountability Office team and meeting with Congressional oversight 
committees and leadership to discuss establishing a timeframe for 
construction completion and a subsequent formal opening.
    As you know, the Capitol Visitor Center and the expansion spaces 
increase the size of the Capitol by two-thirds. With large underground 
public places of assembly there are unique security and fire and life-
safety requirements for this facility that are not fully addressed in 
existing building and fire life-safety codes. Therefore, the CVC is 
virtually the nation's beta test site for the very comprehensive 
security and fire and life-safety systems that are being installed. 
This means that there are many challenges, all of which we are able to 
overcome, in bringing the entire system--some 5,000 individual 
components--online. These components need to work as an integral system 
under many different scenarios.
    As I reported at our last hearing, agreement has been reached on 
the necessary changes to the acceptance testing process for this system 
between the AOC, the U.S. Capitol Police, the Fire Marshal, and the 
Capitol Police Board, and that both the Office of Compliance and GAO 
have been part of this process. The implications of making the 
necessary programming changes to the basic system have become clearer 
over the last month and we have found that it does, in fact, impact the 
overall acceptance testing process and therefore, the project schedule. 
After multiple meetings with the construction team, contractors, the 
Fire Marshal, and GAO regarding this process, we are in agreement that 
the best way to conduct the fire alarm system acceptance testing is to 
test the central Visitor Center first, with the Senate and House 
expansion spaces to follow sequentially. With this sequence, we are in 
agreement that the formal opening date for the CVC can be set after 
mid-to-late July 2007, pending coordination and approval from 
Congressional leadership.
    Fortunately, due to our strong teamwork, we were able to work to 
solve these problems and obtain concurrences from the many interested 
parties while keeping the project moving ahead assuring that 
outstanding, quality work was being accomplished every day. While 
changing schedules are frustrating for us all, the many scope changes 
that were mandated are being successfully incorporated into an already 
complex construction project that is well underway. This has been done 
in an expeditious and historically sensitive way which will be a credit 
to the Capitol, the Congress, and the American people for generations 
to come.
    An upcoming major milestone will be beginning the pre-testing of 
the fire alarm system scheduled for this fall. Once this pre-testing by 
the contractor is completed, the formal final testing process will 
begin. While the CVC and expansion spaces will still be considered 
construction zones, we will concurrently begin the facility fit-out of 
equipment and training of staff.
    Once the testing is completed and a Certificate of Occupancy is 
received, staff will be able to test the policies and procedures 
regarding visitor flow, access, queuing, and security and refine them 
with test groups of visitors before the CVC officially opens its doors 
to the public. Furniture will be moved into the offices in the 
expansion spaces, and visitor services will be up and running. The 
House and Senate expansion spaces would be available for occupancy 
within an August timeframe.
Project Progress Update
    Mr. Chairman, thank you for visiting the project work site again 
two weeks ago. The progress made has been significant and the nature 
and quality of the project spaces continue to become more apparent as 
ceilings are completed and scaffolding is removed. Since you saw our 
progress for yourself, I will be very brief with regard to our project 
progress update.
    In the Great Hall, all of the ceiling work was completed earlier 
this month, including drywall installation, plaster work, and painting. 
The scaffolding has been removed revealing the Hall's barrel-vaulted 
ceiling structure, and stone masons are preparing to set stone over 
20,000 square feet of floor space next week. While the ceiling work was 
being finished, the two large skylights were installed. That process is 
nearly complete.
    Masons resumed setting floor stone in the northern half of the 
Exhibition Hall now that all of the floor stone for the Hall is on 
site. Floor stone is also complete in the threshold space between the 
Exhibit Hall and the Great Hall. In the Exhibition Hall ceiling, the 
fire and life-safety systems infrastructure and other mechanical work 
were approved last month and crews are now installing ceiling drywall.
    In the East Front, masons continue setting stone on the basement 
and Crypt levels and along the monumental center stair that connects 
the CVC to the Capitol. At the Crypt level, all four fire separation 
doors are in place within the transition zone clearing that area for 
installation of wall stone, which now rises more than 10 feet on many 
walls. An abatement contractor has removed the lead paint from the 
original sandstone facade of the Capitol and will soon begin similar 
work at the Rotunda level. This work was required since much of the 
original face of the Capitol will be featured in the final design.
    In the Orientation Theaters, ceiling framework and other structural 
work as well as the primer painting has been completed. The millwork 
contractor has begun installing the plywood substrate that will support 
the finished wood panels which are arriving next week.
    In the Food Service area, the contractor continues to install the 
ceiling drywall while masons set floor and wall tile in the food 
preparation areas. Most of this work is substantially complete. Carpet 
and fabrics for chairs and banquets have recently been approved and are 
being ordered.
    In many areas, particularly in the corridors along the Great Hall 
and on the upper lobby just beyond the Orientation Theaters, ceiling 
work continues and many areas are now taking on a more finished 
appearance as plaster work and painting are completed.
    Outside, on the Plaza, historic preservation crews continue to 
restore historic elements like the seatwalls around the House and 
Senate grass ovals. Last week, the two large bronze basins for the 
Olmsted fountains were set into place. Finally, we completed a 
significant milestone in mid-June when the enclosures of the CVC 
utility tunnel were finished and East Capitol Street was opened to 
traffic and pedestrians.
    Mr. Chairman, together we are working on a most historic project, a 
project that will impact every visitor to the U.S. Capitol. I am 
extraordinarily proud to be Architect of the Capitol at this time and 
to lead a team of dedicated professionals who are committed to bringing 
the Capitol Visitor Center to a successful completion.
Utility Tunnels
    Mr. Chairman, last month we discussed several issues in the utility 
tunnels that impacted the tie-in work to the CVC utility tunnel. I am 
pleased to report that those issues have been resolved and that last 
week, dust clean-up began in the ``R'' tunnel to enable CVC insulation 
work to begin. A crew will be back in the Second Street tunnel to start 
insulation work next week. Meanwhile, to offset the impact of the 
utility tunnel delay, the contractor has set up temporary 
dehumidification units which are providing conditioned air to the 
Orientation Theaters so millwork can begin in those areas.
    In addition to addressing this issue, we have been working 
diligently to address and correct issues in the utility tunnels as 
expeditiously as possible with worker safety remaining the highest 
priority. In anticipation of the passage of the Emergency Supplemental 
bill earlier this month, our Project Management Team developed a draft 
Utility Tunnel Action Plan.
    The Action Plan identifies projects to be awarded with the 
Emergency funding. The team also developed a tracking system for 
projects and other activities within the tunnels. I again want to thank 
the Subcommittee and Congress for its support of our efforts to provide 
a safe working environment for our workforce by providing these funds 
to repair and improve the utility tunnels.
    The Public Health Service continues to conduct personal air 
sampling on every AOC tunnel entry team and conduct a condition 
assessment of the asbestos in all the tunnels. I am pleased to have 
Captain Joseph Terra, Senior Project Manager with the Public Health 
Service with us today to answer any questions you may have about their 
work in the tunnels and data analyses they are conducting.
    Since the last hearing, we have also contracted with a facilitator 
to work to improve communication between management and Tunnel Shop 
personnel. She has been attending the weekly Tunnel Shop meetings, and 
the bi-weekly executive briefings with Power Plant management, Tunnel 
Shop personnel, and senior managers.
    Last month, we listed eight tasks we identified to complete within 
30 days. I am pleased to report that we have completed five of those 
tasks and will soon begin working on the three remaining tasks. We are 
awaiting delivery of the crossover elements for the ``V'' tunnel and 
will install them upon receipt. Completion is expected in mid-August. 
Prior to rebuilding an expansion joint in the ``Y'' tunnel, we will be 
performing asbestos abatement in the area of expansion joint. The 
abatement work in the ``B'' tunnel is pending upon receipt of 
acceptable paperwork from the contractor.
    We have identified the following tasks as project milestones to be 
completed in the next 30 days:
  --Finish shoring in ``R'' tunnel.
  --Install shoring required for additional structural testing as 
        identified by our consultant.
  --Re-start removal of delaminated concrete in identified priority 
        areas once shoring is completed.
  --Complete statement of work for concrete repair.
  --Award contract for additional employee health-related counseling.
  --Complete statement of work for contracting ``Y'' tunnel dust clean-
        up and pipe covering repair.
  --Complete statement of work for asbestos repair and abatement.
  --PHS will complete the asbestos survey; (however, it may not include 
        the closed portion of the ``R'' tunnel).
  --Award contract for job hazards analyses and operational/safety 
        procedures.
  --Complete design and statement of work for installation of interim 
        emergency lighting system for tunnels.
  --Award rental contract for demonstration project for portable 
        cooling unit in ``Y'' tunnel.
  --Modify contract for utility tunnel condition assessment to include 
        as-built drawings, piping assessments, ventilation assessments, 
        etc.
  --Complete statement of work to study alternative communication 
        system for tunnels.
  --Award structural consulting contract to provide professional 
        expertise to OOC and AOC.
    In addition, we continue to install shoring in the ``R'' tunnel in 
areas identified by the contractor conducting the condition assessment 
survey. We recently met with the contractor to discuss which areas of 
the tunnel concrete can be removed and repaired. The contractor also 
has completed the visual inspection of the ``B'' and ``V'' tunnels. 
While they noted some concrete deficiencies, they ``did not identify 
any locations in either the `B' or `V' tunnels where concrete has 
deteriorated to the point of collapse.'' They continue to perform 
exploratory and non-destructive testing in these tunnels and will be 
providing the results later this summer.
    Lastly, the Office of Compliance has indicated that they require 
expert assistance to review and comment on the April 10 Utility Tunnel 
Report to Congress. We are working to award a contract for this 
professional assistance and expertise to both the OOC and the AOC. With 
regard to the complaint filed in February, I am pleased to report that 
the OOC and the AOC continue to work toward a settlement.
    Mr. Chairman, this concludes my statement. Once again, thank you 
for this opportunity to testify. I would be happy to answer any 
questions you may have.

    Senator Allard. Now we'll proceed to GAO testimony. Are you 
going first, Mr. Dorn?
    Mr. Dorn. Yes, sir.
    Senator Allard. If you'd proceed, please, Mr. Dorn.
STATEMENT OF TERRELL DORN, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dorn. Mr. Chairman, last month we said that we couldn't 
predict what day the project was going to finish, but we could 
say that there were going to be future problems. And, 
unfortunately, this month we do have one.
    The CVC team reports that the project opening date has 
slipped 2\1/2\ months, from April to July 2007. Based on our 
analysis and interviews with project staff, we are not 
confident that this will be the last slip, but, pending a more 
rigorous review that we plan to do this summer, we tentatively 
think that July 2007 is a reasonable interim date, for planning 
purposes.
    This is in spite of, as AOC has noted, continued progress 
in almost all areas of the project. After a number of trials 
that the AOC and Manhattan diligently worked through, the wall 
stone in the CVC is substantially complete. The barrel-vaulted 
ceiling of the great hall is now visible. And, after extensive 
underground work, East Capitol Street has been reopened to 
traffic. But the indicators are still there, and they all still 
point to ongoing schedule issues which may lead to future cost 
issues, as schedule and costs are so interrelated.
    As a result, in spite of this month's schedule adjustment 
by the CVC team, we still plan to conduct an analysis of both 
the project's schedule and its cost and will be prepared to 
brief the subcommittee in mid-September.
    The construction contractor continues to miss milestones. 
Out of 14 milestones that need to be completed on time to keep 
the schedule on track, one was completed early, one was 
completed on time, and the remaining 12 were missed. We cannot 
stay on schedule if we can't hit the milestones on time.
    At prior hearings, AOC has pointed out that even though 
they were not completing the milestones on time, they were 
completing them. We agree. Again, progress is being made, but 
what GAO is trying to point out is that if you don't hit the 
milestones on time, you will finish late.
    I equate this to my ride home in the evening. I take a 
commuter rail, the Virginia Railway Express (VRE), and I can 
tell you, from experience, it makes 10 sequential stops on the 
way home, just like our schedule. And if I don't get to those 
stops on time, by the time I get to Fredericksburg, I'm going 
to be late. I can thank the conductor for getting me all the 
way to Fredericksburg and completing the project or trip, but 
my supper is still going to be cold.
    The CVC is the same way. We can see and appreciate the 
progress that's been made to date, but we can't properly plan 
and budget for future operations if we don't hit the 
milestones.
    Seventeen of the project's 23 most critical paths through 
the schedule lost time last month. It's been pointed out to us 
that the team continues to miss milestones because the baseline 
schedule we use is outdated. This indicator of critical paths 
losing time is irrespective of which schedule or completion 
date we use. It says that whether the project is ahead of 
schedule or not, and in spite of the progress that AOC has 
made, that a number of project activities lost time last month.
    On cost, at the last hearing we estimated that the cost to 
complete the CVC without an allowance for risk and uncertainty 
was about $556 million, and with risk and uncertainties, would 
be $584 million. After this month's schedule change, we believe 
that $556 million is less likely, but that our $584 million cap 
is still sufficient. Again, we plan to reassess the cost to 
complete the project concurrently with our schedule analysis 
this summer.
    Utility tunnel work continues, but is taking longer to 
complete than the AOC expected. For example, the shoring and 
insulation work in the ``R'' tunnel that was supposed to be 
completed this month is more likely to be completed by mid-
July.
    AOC continues to make concerted efforts to improve 
relationships with the employees, as you've requested. They've 
got a facilitator, they've got an assigned project manager, 
they're holding weekly meetings, doing a lot of positive things 
to try to help with the relationships. But I have to report 
that what's being told to me is that there is still limited 
improvement, that there is still fear of retaliation, and that 
the employees are still concerned about their relationship with 
the AOC. But it's not for lack of effort from the AOC.
    In summary, Mr. Chairman, AOC's new schedule of opening the 
project in July provides additional time to complete the work 
and tentatively appears reasonable. However, we still plan to 
work with AOC to reassess the schedule and report back to you 
in September. We'll be looking at the cost concurrently with 
the schedule, and, at this time, we expect the cost to be 
somewhere between $556 and $584 million.
    This concludes my statement, Mr. Chairman.
    [The statement follows:]
                   Prepared Statement of Terrell Dorn
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on the 
Architect of the Capitol's (AOC) progress in achieving selected project 
milestones and in managing the project schedule since the 
Subcommittee's May 24, 2006, hearing on the project.\1\ As part of this 
discussion, we will address a number of key challenges and risks that 
continue to face the project, as well as actions AOC has taken or plans 
to take to address these risks. In addition, we will discuss the status 
of the project's costs and funding.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Update on Status of Project's 
Schedule and Cost as of May 24, 2006, GAO-06-803T (Washington, D.C.: 
May 24, 2006).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (AOC and its 
major CVC contractors), AOC's Chief Fire Marshal, and representatives 
from the U.S. Capitol Police. We also reviewed AOC's construction 
management contractor's periodic schedule assessments and daily reports 
on the progress of interior wall and floor stonework.
    In summary:
    Since the Subcommittee's May 24 CVC hearing, AOC has extended the 
project's scheduled completion and opening dates. The CVC team has 
continued to move the project's construction forward, but primarily 
because of significant problems associated with the CVC's fire 
protection system, gift shops, and utility tunnel, AOC has extended the 
scheduled completion dates for the base CVC project and the House and 
Senate expansion spaces by approximately 2\1/2\ months, from February 
23, 2007, to May 7, 2007, for the CVC, and from May 25, 2007, to August 
8, 2007, for the expansion spaces. Furthermore, to allow time for 
possible additional delays and preparation for operations, AOC is now 
proposing to open the CVC in July 2007 with a temporary certificate of 
occupancy and the expansion spaces in August 2007, at which point a 
final certificate of occupancy will be issued for the CVC. Previously, 
AOC was planning to open the CVC in April 2007 and the expansion spaces 
in May 2007. We are reassessing the project schedule, as we stated at 
the Subcommittee's last CVC hearing, and expect to finish our 
reassessment by mid-September. Pending our reassessment, AOC's new July 
and August 2007 time frames appear to be reasonable tentative targets 
for opening the CVC and House and Senate expansion spaces. However, we 
are not as confident as we would like to be about whether the CVC team 
will be able to meet the challenges, risks, and uncertainties that 
continue to face the project, given the difficulties the team has 
historically had in meeting its targets and milestones. Thus, we expect 
to have greater confidence in the target opening dates after we 
complete our schedule reassessment.
  --During the past month, work on the project has progressed in a 
        number of areas. For example, the CVC team has finished 
        restoring and has opened the portion of East Capitol Street 
        that runs above the CVC's utility tunnel and has finished 
        installing the veneer plaster portion of the ceiling in the 
        great hall and piping for the sprinkler system throughout the 
        CVC. In addition, critical interior wall and floor stone 
        installation has continued, together with other interior and 
        exterior construction work, and the sequence 2 contractor has 
        continued work on its area-by-area plans to prevent trade 
        stacking \2\ during finish work. About 96 percent of the 
        interior wall stone for the CVC itself (excluding the atrium 
        areas, the East Front, and the tunnels) is now installed.
---------------------------------------------------------------------------
    \2\ Trade stacking can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
  --Delays associated with the CVC's fire protection system, gift 
        shops, and utility tunnel primarily led the CVC team to add 
        about 50 workdays to the project schedule. During the last 5 
        weeks; the sequence 2 contractor also fell short of its 
        installation target for interior wall stone; the pace of floor 
        stone installation remained far below the targeted pace; and 
        several other base project and expansion space activities--
        including East Front work--fell further behind schedule. 
        Indicators of construction progress that we have been tracking 
        for the Subcommittee also support AOC's extensions of the 
        proposed completion and opening dates. For example, the 
        sequence 2 contractor met only 2 of the 14 milestones we have 
        been tracking for this hearing, and this contractor's monthly 
        billings indicate that construction work is more likely to be 
        completed closer to AOC's new target dates than its previous 
        ones.
  --AOC's new schedule provides additional time to complete work, and 
        we believe, on the basis of the information available to us at 
        this time, that AOC's July and August 2007 proposed opening 
        dates tentatively appear reasonable; however, we have not yet 
        finished reassessing AOC's schedule to better determine whether 
        this additional time will be sufficient in view of the 
        challenges, risks, and uncertainties that the project continues 
        to face. For example, the CVC fire protection system has not 
        yet been fully approved; critical building systems still have 
        to be commissioned and tested; and certain design or work scope 
        elements are still incomplete or are being clarified, refined, 
        or changed, even though the project's overall design is 
        essentially complete. In addition, the delays in completing the 
        utility tunnel have created an additional risk: if the sequence 
        2 contractor has difficulty achieving and maintaining required 
        temperature and humidity levels, the project's ceiling and 
        finish work could be further delayed. More information should 
        be available on this and other schedule-related issues by the 
        time we finish reassessing the project schedule in mid-
        September, following the completion of AOC's reassessment, 
        which is expected by July 31.
    Before the schedule changed this month, we were estimating that the 
total cost to complete the entire CVC project would be about $556 
million without an allowance for risks and uncertainties and $584 
million with such an allowance--an amount that we continue to believe 
should be sufficient. To date, about $530 million has been provided for 
CVC construction. The $26 million in remaining funds needed is 
consistent with our last estimate of the amount of additional funds AOC 
would need to complete the entire CVC project. In addition, as we have 
previously indicated, AOC preliminarily expects to need about $950,000 
in fiscal year 2007 AOC general administration appropriations to pay 
for the contractual support needed to complete acceptance testing of 
the facility's fire protection system in time to meet the project 
schedule. AOC plans to determine if it can reduce the amount needed for 
this contractual support; we will keep the Subcommittee apprised of 
this situation. Furthermore, AOC is likely to incur additional costs 
because of the problems associated with the CVC's fire protection 
system, gift shops, utility tunnel, and other issues. In light of these 
problems, we do not know whether the $556 million estimate, which does 
not include an allowance for risks and uncertainties, will cover the 
costs to complete the project, but we currently believe that our $584 
million estimate, which does include such an allowance, should be 
sufficient. We plan to reassess our cost-to-complete estimate this 
summer and provide our results to the Subcommittee by mid-September.
AOC Has Extended the Project's Proposed Completion and Opening Dates
    AOC has extended the CVC project's proposed completion and opening 
dates because, although the CVC team has continued to make progress in 
a number of areas since the Subcommittee's last CVC hearing, 
significant delays have also occurred, especially in work on the CVC's 
fire protection system, gift shops, and utility tunnel. Indicators of 
progress that we have been monitoring for the Subcommittee support 
AOC's extension of the proposed dates, and remaining challenges, risks, 
and uncertainties could further affect the project's progress. AOC's 
proposed time frames tentatively appear reasonable, but further 
reassessment of the project schedule is needed to gain greater 
confidence in the revised dates.
            AOC Has Postponed the Proposed Completion and Opening Dates 
                    about 2\1/2\ Months
    According to the May 2006 project schedule, the base CVC project 
will be completed in May 2007 and the House and Senate expansion spaces 
will be completed in August 2007, about 2\1/2\ months later than 
indicated in the April 2006 schedule. Moreover, according to the May 
schedule, the base project will be opened in July 2007 and the 
expansion spaces will be opened in August 2007--time frames that AOC 
believes will accommodate possible additional delays and allow start-up 
time for operations.
    According to the May 2006 schedule, most of the physical 
construction work in the CVC, the East Front, and the expansion spaces 
will be completed by December 31, 2006; however, some work in the 
exhibit gallery, the gift shops, and the East Front extends into 2007--
as far as March 2007 for the gift shops and certain East Front work. 
Neither the CVC nor the expansion spaces can be opened until the Chief 
Fire Marshal has completed acceptance testing for the fire protection 
and life safety systems, now scheduled for May 2007 for the CVC and 
August 2007 for the expansion spaces. The Chief Fire Marshal plans to 
issue a temporary certificate of occupancy for the CVC's base building 
when he completes his testing of it and a final certificate after he 
completes his testing of the expansion spaces and limited retesting of 
the CVC's base building. AOC believes that it may be able to shorten 
some of the time scheduled for testing the fire protection system and 
that it may be able to open segments of the expansion spaces earlier 
than August 2007. As we have discussed in previous CVC testimonies, AOC 
is continuing to explore this possibility.
    Although the CVC team has had difficulty meeting milestones and 
continues to face challenges, risks, and uncertainties, the July 2007 
opening time frame for the CVC would give the team 2 to 3 months 
(depending on the specific date in July) after the May 7, 2007, 
scheduled completion date to address additional delays and prepare for 
operations. Some time could also be available in August to address 
issues associated with the acceptance testing of the expansion spaces, 
which is scheduled to begin on May 8, 2007, after the initial 
acceptance testing of the CVC is completed. Thus, AOC's July and August 
2007 time frames for opening the CVC and expansion spaces tentatively 
appear reasonable at this time pending our reassessment of the project 
schedule, to be done over the next several weeks.
            Construction Work Is Progressing
    According to information provided by AOC and its construction 
management contractor and our observations, work on the project has 
advanced, in terms of both the dollar value of the work in place and 
individual project elements. In dollar terms, AOC's construction 
management contractor reported that, as of May 31, the overall CVC 
project was about 82 percent complete and the sequence 2 work was about 
71 percent complete--up from about 81 percent and 70 percent, 
respectively, as of April 30. Progress on individual project elements 
includes the following:
  --Surface work above the CVC utility tunnel was largely completed, 
        leading to the opening of East Capitol Street in June, and work 
        on the House connector tunnel has continued.
  --Interior CVC work has made additional progress, according to AOC's 
        construction management and sequence 2 contractors. For 
        example, the sequence 2 contractor has finished installing 
        veneer plaster ceilings in the great hall; structural steel 
        framing for the glass floor in the exhibit gallery; piping for 
        the heating, air conditioning, and ventilation system 
        throughout the CVC and expansion spaces; and piping for the 
        sprinkler system throughout the CVC. Furthermore, the CVC team, 
        the U.S. Capitol Police, and AOC's Fire Marshal Division have 
        also resolved issues associated with the CVC's security and 
        fire protection systems that, if not resolved, could have 
        impeded construction progress.
  --Wall stone installation has progressed substantially in the East 
        Front plaza level, atriums, and auditorium and continued in 
        other areas, such as the food service area. As of last week, 
        the sequence 2 contractor had installed about 96 percent of the 
        interior wall stone in the CVC itself, excluding the atrium 
        areas, the East Front, and the tunnels.
  --On the East Front exterior, AOC and its construction management 
        contractor reported, new waterproofing was installed under the 
        center steps, a skylight structure was erected and glass was 
        installed in the openings north and south of the great hall, 
        and materials and equipment were delivered for the penthouse 
        mechanical work.
  --In the House and Senate expansion spaces, progress was made in 
        installing drywall, roughing in electrical systems, and 
        performing work in other trade areas.
            Further Delays Have Occurred as Risks Have Materialized
    Since the Subcommittee's May 24 hearing, problems have occurred in 
a number of areas that we expressed concerns about during the 
Subcommittee's last three CVC hearings, These include problems 
associated with the base project's fire protection system and the House 
and Senate gift shops, which have had the largest impact on the 
schedule--resulting in AOC's extension of the date for the CVC to 
obtain a temporary certificate of occupancy from February 23, 2007, as 
shown in the April schedule, to May 7, 2007, as shown in the May 
schedule. Problems have also delayed work on the CVC utility tunnel and 
the expansion spaces.
    To resolve issues associated with the base project's fire alarm 
system and gift shops, the CVC team added a net of 51 workdays to the 
project's May schedule, reflecting (1) additional time for resolving 
issues raised by AOC's Fire Marshal Division about shop drawings for 
the base CVC building's fire alarm system, (2) additional time for 
programming the fire alarm system, and (3) a change in the schedule 
logic involving the time for starting the programming. AOC's Fire 
Marshal Division completed its review on June 1 and approved most 
elements of the base building's fire alarm system, but raised a number 
of problems and concerns. For example, it found that the firefighter 
telephone system and manual pull stations proposed by the subcontractor 
did not meet contract specifications. In addition, the CVC team learned 
that the sequence 2 fire alarm system subcontractor did not plan to 
start programming the fire alarm system until all relevant issues, 
including those raised by the Fire Marshal Division about the CVC's 
fire alarm shop drawings and proposed fire alarm system equipment, were 
resolved. Because the programming had previously been scheduled 
concurrently with other activities, the team added time to the schedule 
for the programming. Work on the gift shops has been delayed because 
the estimated costs and bid price for their fit-out greatly exceeded 
the budget for this work. AOC planned to request approval from the 
House and Senate Committees on Appropriations to reprogram funds from 
CVC operations to construction to cover the shortfall and plans to move 
forward with the gift shops in segments by executing contract 
modifications based on the available funding until its reprogramming 
request is approved. However, AOC said that this reprogramming request 
did not include any contingency funding for the gift shops and 
therefore it anticipates having to request another reprogramming of 
funds for such contingency funding. The CVC team and the Fire Marshal 
Division established and have implemented an expedited process for 
resolving the identified problems and concerns, and according to the 
team and AOC's Chief Fire Marshal, the issues raised by the Fire 
Marshal Division about the CVC's fire alarm shop drawings and proposed 
fire alarm system equipment are being worked through for resolution and 
resubmission to the Fire Marshal Division. However, it is not yet clear 
how much time will be needed to address other fire protection system 
issues; the Fire Marshal Division has not yet completed its reviews of 
shop drawings for other components of the system because the design of 
the CVC's base building fire alarm system had to be approved first; and 
the gift shop design and funding issues have not been fully resolved. 
We plan to include these areas in our reassessment this summer.
    Delays associated with the CVC utility tunnel led the CVC team to 
extend the date for it to become operational from June 29, 2006, as 
shown in the April 2006 schedule, to August 4, 2006, as shown in the 
May 2006 schedule. These delays occurred because preliminary work on an 
old tunnel took longer than expected. The old tunnel, which contains 
piping from the Capitol Power Plant that is connected to piping in the 
CVC utility tunnel, was inaccessible before temporary shoring work was 
completed. According to AOC, this temporary shoring work was completed 
on June 16, and last week the CVC team began asbestos cleanup in the 
old tunnel, in the area where piping from the new tunnel is connected 
to piping in the old tunnel. After this cleanup is done, the CVC team 
is to continue work in the old tunnel necessary to enable steam and 
chilled water to flow from the Capitol Power Plant to the CVC. Given 
the history of problems associated with the utility tunnel, it is not 
clear at this time whether it will be operational on schedule, and 
additional delays could further adversely affect the project, as we 
will discuss later in our testimony. Several other base project 
activities--which we will discuss shortly--have also been delayed, but 
these delays have had a smaller impact.
    Delays in commissioning the air handling units and in installing 
ceiling tile in the expansion spaces during the past month will affect 
the project schedule, and some work has been resequenced, but the 
resequencing will not affect the schedule, according to the sequence 2 
contractor. The air handling units are necessary for testing the fire 
protection system in both the CVC and the expansion spaces, and the 
ceiling tile must be installed in the expansion spaces for that 
testing. According to the fit-out subcontractor, the ceiling tile work 
was delayed because the subcontractor doing the work had to wait for 
direction on audio-visual rough-in work. The sequence 2 contractor 
resequenced the installation of circular staircases in the House and 
Senate atrium areas because extensive concrete chipping in one atrium, 
which was required to correct out-of-tolerance sequence 1 work, and 
scaffolding set up in the atriums to install wall stone precluded the 
sequence 2 fit-out subcontractor from gaining access to work areas in 
both atriums.
    In addition to the construction-related adjustments to the schedule 
for the expansion spaces, the 51-workday delay in the CVC schedule 
produced a corresponding 51-workday delay in the schedule for the 
expansion spaces, extending their opening from May 25, 2007, as shown 
in the April schedule, to August 8, 2007, as shown in the May schedule. 
This extension will occur because, as we have discussed in our previous 
CVC testimonies, AOC plans to have most of the acceptance testing of 
the CVC's fire protection system completed before the acceptance 
testing of the expansion spaces begins.\3\ AOC believes that this 
sequential approach to the acceptance testing will allow the CVC to 
open with a temporary certificate of occupancy somewhat earlier than if 
the acceptance testing were performed concurrently. AOC is still 
considering opening the expansion spaces in sections, which means that 
some sections could possibly open earlier than August 8, 2007.
---------------------------------------------------------------------------
    \3\ AOC is planning to have the smoke control system in the CVC and 
expansion spaces tested at about the same time because certain parts of 
the smoke control system in the expansion spaces must operate before 
the CVC can open.
---------------------------------------------------------------------------
            Indicators of Construction Progress Support Extension of 
                    Project Schedule
    Besides the delays that have already occurred, several indicators 
of construction progress that we have been tracking for the 
Subcommittee suggest that the revised completion and opening dates in 
AOC's May 2006 schedule are more realistic than the previously 
scheduled dates. An update on these indicators follows:
    Sequence 2 contractor continues to miss milestones.--Starting with 
the Subcommittee's June 2005 CVC hearing, at the Subcommittee's 
request, we and AOC have been selecting and tracking sequence 2 
milestones to help the Subcommittee monitor construction progress. 
These milestones include activities that were either on the project's 
critical path or that we and AOC believe are critical to the project's 
timely completion. As figure 1 shows, the sequence 2 contractor has 
generally missed these milestones. For today's hearing, 14 of these 
milestones were due to be completed, according to the project's January 
2006 schedule. One was completed ahead of schedule, one was completed 
on schedule; and none of the remaining 12 had been completed as of June 
26. (See app. I.) AOC's sequence 2 contractor attributed the slippages 
to a number of factors, including the need to do remedial or 
preparatory work in the East Front and auditorium and the need to 
resolve outstanding issues and resequence work for a number of reasons, 
such as to prevent damage or to move materials stored in an area that 
was otherwise ready for the next stage of work.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1.--Sequence 2 Contractor's Progress in Meeting Selected 
                   Milestones as of CVC Hearing Dates

    In total, AOC's construction management contractor reported delays 
in 17 of 23 critical and near-critical paths that AOC's construction 
management contractor identified as important to meeting the base 
project's overall completion date.\4\ According to AOC's construction 
management contractor, delays besides those in the fire protection 
system, gift shops, and utility tunnel have occurred in other activity 
paths since the Subcommittee's last CVC hearing. These other delays 
occurred in, but were not limited to, the East Front, the orientation 
theaters, the exhibit gallery, certain elevator installations, the 
upper level assembly room, and the House connector and Library of 
Congress tunnels. According to the CVC team, these other delays were 
attributable to design changes, water leaks, deficient sequence 1 work, 
changes in the sequence of work activities by the sequence 2 
contractor, and inaccessible work areas. Even more important than the 
individual delays themselves, however, is their likely impact on the 
CVC team's ability to complete construction work on schedule. So many 
activities have fallen behind schedule that relatively short additional 
delays could push the CVC's overall completion date further back. The 
number of critical and near-critical paths increased from 21 in the 
project's April schedule to 23 in the May schedule.
---------------------------------------------------------------------------
    \4\ Construction projects typically have one critical path, which 
is the sequence of activities having the longest duration through the 
schedule. There is no slack time associated with these activities, 
meaning that a delay in a critical path activity will delay the entire 
project unless a way is found to reduce the time required for other 
activities along the critical path. Some projects have multiple 
critical paths simultaneously; in practice, the CVC had what 
essentially amounted to two concurrent critical paths in May--(1) 
acceptance testing of the fire protection system and (2) fit-out of the 
gift shops. (AOC's construction management contractor reported the fit-
out of the gift shops as a near-critical activity because of a change 
in schedule logic it had made, but because this delay would otherwise 
have had the same impact on the project's completion as the acceptance 
testing delay, we regard it as a second critical path.) Generally, the 
more critical and near-critical activities a project has, the greater 
is the risk of late completion because there are more opportunities for 
slight delays that can adversely affect the project's completion.
---------------------------------------------------------------------------
    Value of completed work is consistent with revised schedule.--
Another indicator of construction progress that we and AOC's 
construction management contractor have been tracking is the value of 
the completed construction work billed to the government each month. 
Both we and the construction management contractor believe that the 
sequence 2 contractor's monthly billings, including the bills for 
March, April, and May 2006, indicate that AOC is more likely to finish 
closer to its currently scheduled completion dates than its previously 
scheduled completion dates. While this indicator has some limitations 
(for example, billings lag behind construction), it is generally 
regarded in the construction industry as a useful measure of how likely 
a project is to be completed on time. Figure 2 compares the sequence 2 
contractor's billings since May 2003 with the billings needed to 
complete construction work on schedule and indicates that the sequence 
2 contractor is unlikely to finish the project until the late spring or 
summer of 2007 unless the value of completed work increases 
significantly. We believe that a significant increase will be 
difficult, given the limited number of areas that will be ready for 
finish work at any given time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Notes:
    1. The early and late lines on this figure reflect the cumulative 
billings that would be required to complete the project through 
contract modification number 102 ($224.8 million total contact value) 
by the early and late finish dates shown in the sequence 2 contractor's 
schedule based on the September 2006 contractual completion date.
    2. The actual line reflects the sequence 2 contractor's actual 
monthly billings.
    3. Although bills are typically submitted for payment after work is 
completed, it is often likely that construction work will be completed 
on schedule when the actual billing line falls between the early and 
late lines in the figure. With respect to the CVC, the actual billing 
line has been trending below, and in March 2006 went below, the late 
finish line, where it remained in April and May 2006. Even with the lag 
in billings, this trend indicates that the amount of work being 
completed each month is not sufficient to finish the project on the 
project's previous schedule.

 Figure 2.--Total Billings by the Sequence 2 Contractor for the Entire 
 CVC Project Compared with the Billings Needed to Finish Construction 
                            Work on Schedule

    Interior stone installation is taking longer than expected.--
Overall, about 80 percent of the CVC's interior wall stone has been 
installed (includes the CVC, East Front, atrium areas, and tunnels), 
according to AOC's construction management contractor, and the sequence 
2 contractor installed 4,795 pieces of interior wall stone during the 
last 5 weeks, about 30 percent short of its 6,959-piece production 
target. During the same period, the sequence 2 contractor installed 
about 2,825 square feet of floor stone, or about 20 percent of the 
15,070 square feet specified in a preliminary floor stone installation 
plan that the contractor provided to AOC shortly after the February 15 
CVC hearing. In addition, 4 of the 14 schedule milestones that we and 
AOC have been tracking for the Subcommittee for today's hearing are 
related to interior wall stone installation, and the sequence 2 
contractor met 1 of these 4 milestones.
    According to the CVC team, the sequence 2 contractor has missed its 
stone installation targets for a variety of reasons, including the need 
to correct problematic sequence 1 work or properly prepare certain 
spaces for the installation of wall or floor stone, a change in wall 
stone design, late deliveries of floor stone for the exhibit gallery, 
and delays in some spaces in finishing certain work, such as ceiling 
work, that usually precedes floor stone installation. The sequence 2 
contractor did not meet the milestones for wall stone installation that 
we are tracking for the Subcommittee because certain remedial work was 
necessary and several of its masons were doing noncritical wall stone 
installation in other areas. The masons were doing this noncritical 
work while remedial or preparatory work was being performed in the East 
Front and atrium areas so that wall stone installation could start or 
continue in those areas, according to AOC's construction management 
contractor. In addition, AOC's construction management contractor 
reported that wall stone for remaining work in the upper level of the 
orientation lobby, which had been awaiting delivery because of a change 
in the type of stone to be used, has been delivered.
    The sequence 2 contractor has not yet finished installing floor 
stone in the exhibit gallery, largely because it ran out of floor stone 
for that area during certain periods in April and May. According to the 
sequence 2 contractor, the supplier of floor stone for the exhibit 
gallery is a small company that was not able to fabricate the floor 
stone as quickly as needed. AOC's construction management contractor 
said that the sequence 2 contractor has now received all of the exhibit 
gallery floor stone. The sequence 2 contractor does not expect previous 
installation delays to adversely affect the overall completion of the 
exhibit gallery.
    To finish installing floor stone in other areas of the CVC, the 
sequence 2 contractor said that it (1) plans to move many of the masons 
installing wall stone to floor stone installation soon and (2) has 
drafted a new set of targets for floor stone installation, which the 
CVC team has been reviewing. We plan to review the contractor's revised 
targets when they are provided to us and will track the contractor's 
performance against its revised targets for the Subcommittee's 
subsequent CVC hearings. Finally, according to AOC's construction 
management contractor, over 60 percent of the CVC's interior floor 
stone has been fabricated, and the sequence 2 contractor does not 
anticipate future problems with floor stone supply.
    Figures 3 and 4 show the sequence 2 contractor's progress in 
installing interior wall and floor stone since January 23 and February 
13, 2006, respectively.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 3.--Progress of CVC Interior Wall Stone Installation Compared 
             with Targets Set by the Sequence 2 Contractor 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 4.--Progress of CVC Interior Floor Stone Installation Compared 
       with Preliminary Targets Set by the Sequence 2 Contractor

            Project Schedule Remains Vulnerable to Challenges, Risks, 
                    and Uncertainties
    As we have indicated during the Subcommittee's previous CVC 
hearings, we believe that the CVC team continues to face challenges, 
risks, and uncertainties in completing the project. At this time, the 2 
to 3 months that AOC has added to the proposed opening dates for the 
CVC and the expansion spaces seem sufficient to address these 
challenges, risks, and uncertainties. Nevertheless, given the project's 
history of delays--including those that have occurred since the 
Subcommittee's last hearing--together with information previously 
provided to us by CVC team managers and members about the lack of 
sufficient time in the schedule for certain activities, we are not as 
confident as we would like to be about whether the CVC team will be 
able to address all of the challenges, risks, and uncertainties and 
finish all construction activities by the currently scheduled dates. 
Accordingly, we plan to reassess the project schedule this summer and 
report our results to the Subcommittee by mid-September 2006. A brief 
update follows on the challenges, risks, and uncertainties the CVC team 
continues to face and the team's plans for addressing them:
  --Trade stacking could delay completion.--As we discussed during the 
        Subcommittee's previous CVC hearings, trade stacking could hold 
        up finish work, such as drywall or ceiling installation, 
        electrical and plumbing work, plastering, or floor stone 
        installation. This work could be stacked because of delays in 
        wall stone installation. Trade stacking could also increase the 
        risk of accidents and injuries. Hence, it remains important, as 
        we said at previous CVC hearings, for the CVC team to closely 
        monitor construction to identify potential trade stacking and 
        promptly take steps to address it. The CVC team has also 
        identified trade stacking as a high risk, and in its May 
        progress report, AOC's construction management contractor 
        expressed concern about having enough workers to do ceiling 
        work because much of the wall stone work is to be finished at 
        the same time, making several areas available for ceiling work 
        at the same time. The sequence 2 contractor has developed plans 
        that show when various subcontractors will be working in each 
        area of the CVC except the East Front, which the sequence 2 
        contractor does not expect to be ready for finish work for 
        several weeks. According to the sequence 2 contractor, it 
        intends to continue meeting regularly with its subcontractors 
        to review and update the area plans and to have the area plan 
        for the East Front done before finish work begins there. In 
        mid-June, the sequence 2 contractor reported that its area-by-
        area plans had prevented trade stacking to date. Although we 
        and AOC agree that these area-by-area plans are important and 
        should be helpful in reducing the risk of trade stacking, we 
        are still concerned about the potential for future trade 
        stacking because of the delays that have already occurred and 
        future delays that could occur.
  --Complex building systems remain a significant risk.--The CVC will 
        house complex building systems, including systems for heating, 
        ventilation, and air conditioning; fire protection; and 
        security. These systems not only have to perform well 
        individually, but their operation also has to be integrated. If 
        the CVC team encounters any significant problems with their 
        functioning, either separately or together, during 
        commissioning or acceptance testing, the project could be 
        seriously delayed. During the Subcommittee's March 15 CVC 
        hearing, we noted that the sequence 2 contractor planned to 
        submit the shop drawings for the CVC's fire protection system 
        for review by March 17. However, the contractor did not submit 
        the drawings for the base project until the end of April, in 
        part because more time was needed to incorporate changes, AOC's 
        construction management contractor said. The shop drawings for 
        the CVC's base building fire alarm system were given to AOC's 
        Chief Fire Marshal on May 1, and he and his staff completed 
        their review on June 1. As we previously mentioned, AOC's Fire 
        Marshal Division approved most of the system and is now 
        resolving the open issues with the CVC team. Some additional 
        construction work may be required to address some of the Fire 
        Marshal Division's comments, but AOC does not expect this work 
        to further delay the project's completion. The Fire Marshal 
        Division finished reviewing the shop drawings for the expansion 
        space fire alarm system by June 26. The Fire Marshal Division 
        has not been able to finish reviewing the shop drawings it has 
        received for components of the fire protection system outside 
        the base project because the CVC's base building fire alarm 
        system had to be reviewed first. In addition, the Division did 
        not yet have complete information on when it would receive 
        additional shop drawings. Delays could arise if it takes longer 
        than expected for the team to get approved shop drawings or if 
        the proposed system does not meet the project's design 
        specifications or the fire protection code's requirements.\5\ 
        In addition, the Chief Fire Marshal noted that delays could 
        occur if the CVC team does not adequately pretest the system 
        and correct any problems found during the pretesting. On March 
        23, AOC's commissioning contractor submitted its plan for 
        testing the performance of the CVC's smoke control system, 
        which is a critical component of the CVC's fire protection 
        system and must work properly before the CVC can be opened to 
        the public. This plan had not yet been submitted to or approved 
        by the Fire Marshal Division. In addition, as we have 
        previously noted, the Chief Fire Marshal's timely completion of 
        the fire protection system's acceptance testing depends on his 
        ability to obtain sufficient funding for a contractor to help 
        perform the tests.
---------------------------------------------------------------------------
    \5\ According to the sequence 2 subcontractor that is fitting out 
the House and Senate expansion spaces, the delays in getting approved 
shop drawings for the fire protection system have already postponed 
ceiling close-ins in the expansion spaces, and AOC believes that 
further such delays, along with possible requests for design changes, 
pose the greatest risks to the completion schedule for the expansion 
spaces.
---------------------------------------------------------------------------
  --Building design and work scope continue to evolve.--The CVC has 
        undergone a number of design and work scope changes. Since the 
        Subcommittee's May 24 CVC hearing, AOC's architectural 
        contractor has issued three design changes or clarifications. 
        As of June 22, 2006, this contractor reported, another 14 were 
        in process. In addition, since the project began, AOC has 
        executed more than 80 sequence 2 contract modifications for 
        work that was not anticipated.\6\ Some of these changes, such 
        as changes in the exhibit gallery and in the East Front, have 
        resulted in delays. Furthermore, shop drawings for a number of 
        project elements, such as certain components of the facility's 
        fire protection system discussed above, and the design for the 
        House and Senate gift shops have not yet been fully approved 
        and are subject to change. Further design or scope changes in 
        various project elements are also likely, given the project's 
        experience to date. Project design and scope changes are 
        typically reflected in the development of potential change 
        orders (PCO), many of which result in contract modifications. 
        Figure 5 shows the PCOs submitted for consideration for 
        sequences 1 and 2 since September 2003. Although PCOs are not 
        always approved, they are often regarded as a reasonably good 
        indicator of likely future design or scope changes that can 
        affect a project's cost and schedule. Even more important, the 
        adverse impact of scope and design changes on a project 
        schedule is likely to increase as the project moves toward 
        completion. For example, changes in the design of the gift 
        shops are likely to affect the project schedule more adversely 
        now than if the changes had been made several months ago.
---------------------------------------------------------------------------
    \6\ These data exclude sequence 2 contract modifications for work 
that was planned but not included in the sequence 2 base contract. 
Examples include the fit-out of the House and Senate expansion spaces, 
the construction of the utility tunnel, and the purchase and 
installation of food service equipment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 5.--Cumulative Number of Potential Change Orders Submitted for 
      CVC Sequences 1 and 2 between September 2003 and April 2006

      As the figure indicates, new PCOs for sequence 1 were submitted 
        until shortly before, and even for several months after, 
        November 2004, when AOC determined that the sequence 1 contract 
        work was substantially complete. Similarly, PCOs for sequence 2 
        are still being submitted, and we have seen no indication that 
        their submission is likely to stop soon. It therefore appears 
        likely to us that some of the design or scope changes indicated 
        in PCOs could lead to contract modifications that will affect 
        the project schedule. AOC agrees that it is important to 
        minimize the impact of proposed design and scope changes.
      Three additional issues associated with the CVC's new utility 
        tunnel have resulted, or are likely to result, in additional 
        work or slippages. First, AOC recently said that it plans to 
        add an exit to the new CVC utility tunnel to enhance worker 
        safety. However, the construction work to add this exit may not 
        start until after the CVC is open, according to AOC. Second, 
        AOC recently identified complications that are affecting work 
        on the new CVC utility tunnel. Specifically, AOC found that 
        potential asbestos and other safety-related problems in an 
        older tunnel that intersects the new utility tunnel will have 
        to be addressed before other work needed for the new utility 
        tunnel's operation can proceed in the older tunnel. This 
        additional safety-related work has contributed to the delay in 
        the utility tunnel's completion discussed earlier in our 
        testimony; had not been completed as of June 26; and could lead 
        to additional delays in getting the utility tunnel operational. 
        (AOC expects this work to be done by July 1, 2006.) Third, the 
        delay in starting up the utility tunnel's operations has 
        necessitated the use of temporary humidity control equipment 
        for the orientation theaters to avoid damage to finish work and 
        ceiling tile. In addition, further utility tunnel delays could 
        require additional equipment in other areas, subject certain 
        work to risk of damage, or delay finish or ceiling work in 
        areas not suitable for the use of temporary humidity and 
        temperature control equipment. For example, the CVC team 
        installed ceiling tile in portions of the great hall to take 
        advantage of the scaffolding in place, even though neither the 
        temperature nor the humidity were controlled in that area. 
        According to the CVC team, the installed tile could be damaged 
        if the temperature or humidity is not within the specified 
        levels.
  --Opening the CVC and expansion spaces at different times is likely 
        to result in a temporary cap on CVC occupancy and could 
        increase costs.--AOC's current plan to open the CVC in July 
        2007 before the expansion spaces are scheduled for completion 
        is likely to result in a temporary cap on CVC visitor occupancy 
        and may necessitate the construction of temporary emergency 
        exits for fire and life safety protection.\7\ AOC is proposing 
        this sequential approach because it believes that conducting 
        acceptance testing for the fire protection system for the CVC 
        and the expansion spaces concurrently would delay opening the 
        CVC to the public. AOC's proposed July 2007 opening date for 
        the CVC depends on the timely completion of work not only on 
        the base project but also on the expansion spaces, since 
        certain expansion space work must be completed before the CVC's 
        opening. Because work on both the base project and the 
        expansion spaces has been delayed during the last 3 months, we 
        believe that it will be especially important to monitor the 
        progress of construction to determine what additional work (and 
        funding) may be needed to meet AOC's planned date for opening 
        the CVC, including what temporary work may be required in the 
        expansion spaces for the opening to occur before the expansion 
        space work is completed.
---------------------------------------------------------------------------
    \7\ According to AOC, the CVC's occupancy at any one time would be 
temporarily limited to 3,500, compared with about 4,200, the normal 
anticipated occupancy level, until acceptance testing of the fire 
protection system for the expansion spaces has been completed. Although 
AOC anticipates the need for some temporary work, it does not believe 
that the associated costs will be substantial.
---------------------------------------------------------------------------
  --Risks from insufficient stone deliveries remain, but may be 
        diminishing.--According to AOC's construction management 
        contractor, the sequence 2 contractor has, since the week of 
        May 22, received four truckloads of interior wall stone from 
        the wall stone fabricator. The sequence 2 subcontractor 
        installing the interior wall stone recently asked its supplier 
        to hold fabricated wall stone at its facility pending a request 
        for delivery because of a shortage of storage space on the CVC 
        site. As of June 16, the supplier had two truckloads on hold, 
        according to AOC's construction management contractor. The 
        sequence 2 contractor said that it does not foresee any further 
        delays in the CVC work due to a lack of wall stone. Moreover, 
        although none of the wall stone for the House and Senate 
        expansion spaces was on site yet, the subcontractor responsible 
        for this work is not anticipating delivery problems at this 
        time. AOC's construction management contractor reported that no 
        floor stone was installed in the exhibit gallery during the 
        week of April 10 or between May 9 and May 17 because the 
        installers ran out of floor stone for that area. According to 
        AOC's construction management contractor, the remaining exhibit 
        gallery floor stone has now been delivered, and the 
        installation has been continuing. The CVC team does not expect 
        delays in floor stone shipments to affect the pace of future 
        floor stone installation.
    Finally, as we have said in previous discussions with AOC, its 
construction management contractor, and the Subcommittee, it will be 
important for AOC to have adequate analysis and documentation of the 
reasons and responsibilities for delays.\8\ On April 11, 2006, AOC 
executed a contract modification authorizing its construction 
management contractor to have one of its managers who has not been 
involved in the CVC project assess the adequacy of this type of 
information. The manager submitted his report to AOC in early June. He 
reported generally positive findings but also identified desired 
improvements. He made several recommendations to AOC, which AOC has 
generally agreed with and plans to implement consistent with the 
availability of resources. As we have previously stated, we believe it 
is important for AOC to complete its analysis of delays expeditiously 
given the current September 15, 2006, sequence 2 contract completion 
date and the impact this analysis is likely to have on delay-related 
costs.
---------------------------------------------------------------------------
    \8\ See for example: GAO, Capitol Visitor Center: Effective 
Schedule Management and Updated Cost Information Are Important, GAO-05-
811T (Washington, D.C.: June 14, 2005).
---------------------------------------------------------------------------
Estimated Project Cost and Funding
    As we testified during the Subcommittee's last three CVC hearings, 
we have estimated that the total cost to complete the entire CVC 
project would be about $556 million without an allowance for risks and 
uncertainties and could be as much as about $584 million with such an 
allowance. To date, about $530 million has been provided for CVC 
construction. This amount includes about $3.6 million that was made 
available for either CVC construction or operations and has been 
approved for CVC construction by the House and Senate Committees on 
Appropriations.\9\ To obtain the additional funding that it expected to 
need to complete the project's construction, AOC, in December 2005, 
requested $20.6 million as part of its budget request for fiscal year 
2007. This request was based, in part, on discussions with us and took 
into account our November 16, 2005, estimate of the cost to complete 
the project's construction without an allowance for risks and 
uncertainties and funding from existing appropriations. Our subsequent 
work--completed in preparation for the Subcommittee's February 15 and 
March 15 CVC hearings--indicated that AOC would need about $5 million 
more, or about $25.6 million in total additional CVC construction 
funds, to complete construction without an allowance for risks and 
uncertainties. This would bring AOC's total request for fiscal year 
2007 CVC construction funds to $25.6 million. In addition, AOC has 
indicated that it plans to use about $950,000 of the fiscal year 2007 
general administration appropriations it has requested to provide 
contractual support for its Fire Marshal Division.
---------------------------------------------------------------------------
    \9\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. In June 2005, AOC received approval to 
use about $2.8 million (including about $1.6 million for CVC 
construction) of this $10.6 million, leaving a balance of about $7.7 
million that could be used in the future after a rescission amounting 
to $84,800. AOC recently received approval to use about an additional 
$2 million of these funds for CVC construction, including, for example, 
the fabrication and installation of wayfinding signage and the fit-out 
of the gift shops, and about $2.3 million for CVC operations. Thus, 
about $3.4 million of the $10.6 million remains available for approval 
for use for CVC construction or operations.
---------------------------------------------------------------------------
    As we stated in our last three CVC testimonies, AOC believes that 
it may be able to reduce the amount of funds it will need in fiscal 
year 2007 to provide contractual support for testing the CVC's fire 
protection system and is exploring ways to do so. We plan to monitor 
this situation and report to the Subcommittee as soon as AOC has a 
firmer estimate. In addition, events occurring since the Subcommittee's 
May 24 CVC hearing have raised questions about the sufficiency of the 
$556 million cost-to-complete estimate, given that it does not provide 
an allowance for risks and uncertainties. For example, AOC's extension 
of the project schedule by more than 2 months is likely to result in 
increased costs; AOC recently learned that a redesign of the gift shop 
fit-out did not reduce the cost estimate or bid price to the budgeted 
amount; and the cost estimates for wayfinding signage have exceeded the 
budgeted amount. Nevertheless, at this time, we have no specific 
indication that the total cost to complete the project will exceed our 
$584 million estimate, which does include an allowance for risks and 
uncertainties. We plan to reassess our cost-to-complete estimate this 
summer and will keep the Subcommittee apprised of our results.
    Mr. Chairman, this completes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.

        APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, MAY 25, 2006-JUNE 28, 2006
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
                 Activity                                    Location                    completion   completion
----------------------------------------------------------------------------------------------------------------
Projection Screens........................  Orientation Theaters......................      5/30/06      4/22/06
Floor Stone...............................  East Front Basement.......................      5/30/06  ...........
Ceiling Fabric............................  Congressional Auditorium..................      6/06/06  ...........
Wall Stone Area 2.........................  East Front Principal......................      6/06/06  ...........
Wood Doors and Frames.....................  Food Service..............................      6/13/06  ...........
Plaster Walls.............................  Orientation Lobby.........................      6/15/06  ...........
Wall Stone Area 6.........................  Congressional Auditorium..................      6/15/06  ...........
Finish Paint..............................  West Lobby Assembly.......................      6/20/06  ...........
Finish Paint..............................  East Front Basement.......................      6/20/06  ...........
Wall Stone Area 2.........................  Atria North Lower Level...................      6/20/06      6/20/06
Flooring..................................  East Front Basement.......................      6/23/06  ...........
Stone Stairs..............................  East Front Principal......................      6/27/06  ...........
Ceiling Stone.............................  East Front Principal......................      6/27/06  ...........
Wall Stone Area 1.........................  East Front Gallery........................      6/27/06  ...........
----------------------------------------------------------------------------------------------------------------
Source: AOC's January 2006 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and
  its construction management contractor for the actual completion dates as of June 26.

    Senator Allard. Thank you very much for your testimony.
    Before I raise a question in regard to the milestones, I 
did worry about all this rain that we're getting, and if we'd 
end up with any leaks in the Capitol Visitor Center. I 
understand that it went through all this historic rain in 
pretty good shape and we really don't have any serious problems 
there. Is that correct?
    Mr. Hixon. Mr. Chairman, we've had a considerable amount of 
water enter the building on the east side, down the slope. 
Fortunately, there were no floor finishes in that area. That 
water migrated down to the mechanical level. It's all being 
addressed. There are a few pieces of equipment that may have 
been damaged as a consequence of the water, but it's not an 
insurmountable problem. There is----
    Mr. Hantman. The drains are not in place.
    Mr. Hixon. We do have drains there. We--the drains were 
not--are not completed yet.
    Senator Allard. I see.
    Mr. Hixon. And so----
    Senator Allard [continuing]. That's why we had the problem.
    Mr. Hixon [continuing]. So, we had that issue. We had the 
same thing at the west side, where the drains are in, but, 
because the rainfall was so great, we weren't able to handle it 
all, and we had some water come down through the stairwell. So, 
there's a minimal amount of damage that's occurred to drywall, 
and a lot of it ended up in the mechanical area, where it's 
being addressed.
    Senator Allard. I've been told this is a historic rain. 
Early on in the project, we made some modifications to control 
that drainage in case we have another historic rain, 10 years 
down the road, we can handle it.
    Mr. Hixon. Yes, sir, we expect to not have a problem. The 
design anticipates a 100-year rainfall, yes. But, as a 
consequence----
    Senator Allard. This is a 300-year.
    Mr. Hixon. Yeah. But the systems were not in place along 
the east side to capture all the water that came down.

                   CAPITOL VISITOR CENTER MILESTONES

    Senator Allard. I see. Okay.
    Now, on the milestones, only 2 of the 14 milestones were 
completed this last month. Mr. Hantman, is AOC missing 
milestones each month because the schedule is simply not 
realistic?
    Mr. Hixon. Mr. Chairman, the schedule is realistic, but the 
fact is, we do continue to miss some milestones. We have--a 
large percentage of the work has been completed, but we are not 
hitting each item on the schedule. We have slipped in our 
construction a couple of months, particularly in the east 
front, which is where a lot of the milestones are currently 
reflecting the east front work that should be going on. And 
that's about 6 to 8 weeks behind.
    What we expect to do as a consequence of this schedule 
change on the completion, if this is acceptable to the 
subcommittee, is to use the current baseline--the current 
schedule as a baseline, rather than using the January schedule 
as a baseline. If that's acceptable, then we should be much 
more accurate in achieving our milestones. There is concern, 
however, that we are still not meeting things on--as many 
things on schedule as we should be.
    Senator Allard. Now, in the past, whenever we had these 
milestones you said, ``Well, we can catch up.'' But we're at 
the point now where we're toward the end, and I'm not sure 
there's much catch-up time on some of these milestones. It 
remains a concern, from that point of view.
    Mr. Hixon. Yes, sir. The purpose of this coordination for 
trade stacking is to ensure we don't have a problem with that 
issue. The reality is, there will be issues when we get to the 
end and we have so much work to be done. So, that's something 
that requires a lot of coordination, and there are going to be 
some bumps along the way as we try and reach that. However, in 
a general sense, there are some elements of the work that are, 
in fact, completing early. The atria stone is completing early, 
and that's in the expansion spaces. So, that facilitates, like 
the fire alarm acceptance testing, because there won't be 
construction work in some of the egress corridors. So, there 
are concerns. We don't disagree with GAO's assessment that 
there are concerns. But there is also great progress being 
made. So, we do not expect to have construction for the CVC 
itself continue past the end of the year.
    Senator Allard. I enjoyed Mr. Dorn's analogy, but I was 
thinking, you have a cold supper when you get home, but it's 
not costing you more.
    But when our schedule gets delayed, it gets expensive.
    Since last month's hearing, the Architect of the Capitol 
determined the project will take 51 days longer than 
anticipated. Can you explain the reason for that significant 
delay, Mr. Hantman?

                     FIRE ALARM SYSTEM PROGRAMMING

    Mr. Hixon. Mr. Chairman, I can answer that question. The 
programming that was supposed to begin on June 6 is not 
anticipated to begin until August 15, and that accounts for the 
51-day delay. The programming that's required is a critical 
item within the fire alarm system, and the cause of that delay 
is--we have to complete the fire alarm acceptance process. The 
contractor will not proceed with programming until there's an 
agreement, an acceptable solution for exactly how this 
programming's to function. That is being worked very heavily, 
with weekly work meetings with the fire marshal. We've made a 
great deal of progress, but we are not finished with that 
process. We're hoping to improve on the start date of that, 
because the contractor has advised us that it'll take 6 weeks 
instead of 4 weeks to actually do the programming now, because 
it's more complicated.
    So, we're expecting to start early, but it'll take a little 
longer, so we won't be finished much earlier than the August 15 
date based on what we know today.
    Senator Allard. That was due to a policy change worked out 
between the OOC and the fire marshal, some delays in the fire 
alarm system, which has required that----
    Mr. Hixon. Yes, sir.
    Senator Allard [continuing]. Reprogramming.
    Mr. Hixon. A great deal of that has to do with the 
programmer understanding exactly how the systems need to 
function, because this is--it is different--dramatically 
different from what was in before. And so, he was prepared to 
do it originally, and it would take him 4 weeks, but, because 
of the changes, we had to get a revised specification to him 
which had to be developed after we had determined what the 
requirements were.
    Senator Allard. With respect to the fire alarm system, in 
last month's hearing, Mr. Hantman, you had testified that the 
programming changes that need to occur will not affect the 
system installation, should have no significant impact, if any, 
to the duration of the testing process, and no significant 
impact on the schedule. Now we've learned that this is not the 
case, and we need an explanation. Can you share that, for the 
record, please?
    Mr. Hixon. Mr. Chairman, I can share that. I'm the one that 
provided that information to Mr. Hantman. And the expectation 
at the time was that the program itself could be easily 
accommodated. The contractor is reluctant to start this process 
until we have completed the whole acceptance process. He's 
concerned that we would--he would get partway through the 
programming and then have to start over again. And so, the 
changes require more time than we thought to actually get them 
clarified exactly to what the requirements are. So, last 
hearing, we did not expect it to have an impact. I was 
incorrect; it is having an impact.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Yeah, Mr. Chairman, we'd just like to clarify 
one thing that Bob--Mr. Hixon said, and that is that the 51 
days is not primarily driven by the programming change. The 
real driver there was the need to provide more time to complete 
the review and approval of the shop-drawing process. And then, 
subsequent to that, you have the additional time for the 
programming, and then the fact that the programming, which was 
believed to have been able to start earlier, prior to about 1 
month ago, the team now learned that it has to be sequential; 
it has to wait until all the shop-drawing elements that are 
critical to the programming are approved. So, it wasn't the 
programming itself, or the change in the programming, that 
really drove the large part of the 51 days, the best we can 
determine.
    Senator Allard. And, to that point, Mr. Hixon, what is the 
status of the fire marshal's review of the shop drawings for 
the CVC? And have you begun to prioritize those?
    Mr. Hixon. The shop-drawing review that's been ongoing, 
we've just had--we've had a working session for the last two 
Wednesdays. There'll be another--a third one this Wednesday. 
The items that were not acceptable when the submission was 
completed in June included a lot of product data. That data, 
except for the firemen's telephones, has been resolved. That, 
and the battery calculations, I believe. We have two levels of 
devices, additional devices, required by the fire marshal that 
have all been identified. We have the upper level, to be done 
today, the annunciator panel. So, we've made great progress in 
doing that. We are well into this, well beyond half of the 
items that need to be completed. The goal is to have all of 
this completed so that the matrix for the operation of the 
system is acceptable. And that's a key part. It's in the 
submittal for the fire alarm, but the matrix is what outlines 
how the system needs to function. That matrix should be done by 
the 15th, and that's when we're looking for them to start this 
programming effort. It is true that the programming is not the 
whole process, but that is what is driving them being able to 
start their programming.
    Senator Allard. Is that the 15th of July?
    Mr. Hixon. The 15th of July. That would be starting a month 
earlier than we currently planned--or, I should say that would 
be starting on July 15, in lieu of June 6. But we would be 
finished sooner than we had anticipated in the schedule, but 
now the schedule is going to take 6 weeks. So, the net result 
of all of that is, we currently hope to be done with the 
programming the 1st of September. The schedule anticipates 
completing programming by the middle of September so pretesting 
can commence.
    Senator Allard. Has any prioritization been done or 
attempted on the drawings?
    Mr. Hixon. The items that are being addressed in these work 
sessions are the priorities that were needed first. So, yes, 
the--they are being handled in a priority manner that's 
important to the contractor.
    Senator Allard. Okay. Yes, Mr. Ungar?
    Mr. Ungar. Mr. Chairman, there are two issues here with 
respect to priorities. One is the priority in addressing the 
comments that the fire marshal has already provided, but the 
other issue with priorities is: What is the total list of shop 
drawings and other system elements that have to be approved by 
the fire marshal? And, of that list, what are the priorities 
and how long is it going to take to resolve all those issues? 
The system that Mr. Hixon is talking about is only one 
component--it's a major component--component of a whole series 
of components to the system.
    Senator Allard. That's what I'm trying to get at. On the 
total list, have we had prioritization?
    Mr. Hixon. I'm not sure I understand what Mr. Ungar is 
referring to. We have the fire alarm shop-drawing submittal, 
which consists of product data and also drawings, about 95 
drawings. And so, we have worked through all of those items to 
reach a conclusion. They are--what you get out of that review 
is a whole list of 200-and-some items that have to be addressed 
that relate to the approval of the drawings and to the fire 
alarm product data, the manual pull stations and such. So, we 
are working our way through that. So, I'm not sure----
    Senator Allard. Do you want to clarify that, Mr. Ungar?
    Mr. Ungar. Yes, it's the other aspects of the system. In 
other words, there's the House and Senate expansion space, for 
which shop drawings were just recently reviewed. And there's a 
separate fire protection system in the exhibit gallery. Plus, 
there are other components--at least 10 to 15--that we're aware 
of, different aspects of the system that still have not been 
approved. There may be others that aren't on the list that they 
have. So, what we were trying to obtain was a complete list of 
the items that the fire marshal has to approve, and the 
prioritization of that list, and some idea as to when the 
review will be complete so that everybody knows at what point 
in time we can expect to have all the fire protection and life 
safety issues resolved.
    Senator Allard. Okay.
    Mr. Dorn. My understanding from the fire marshal is, he 
still doesn't know when to expect all of these future 
submittals, so it's hard for him to plan when to have people 
onboard to help him. And the prioritization, he feels like he's 
getting five priority ones, which is the way work goes a lot of 
times, but it makes it hard to prioritize. Which one do you 
want first--which is a 1A, which is a 1B?
    Senator Allard. Now, does the fire marshal have adequate 
resources to accomplish this?
    Mr. Dorn. My understanding is, he could use some help. And 
it--you know, it's up to him to talk to Alan and Bob to get 
that help, but he told me this morning he needs help.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Yeah, I think the problem that he's facing right 
now, Mr. Chairman, is that a lot of these submittals will be 
coming in at the same time.
    Senator Allard. Right.
    Mr. Ungar. And he's got limited staff. And, of course, he's 
not staffed for, you know, ongoing construction of the 
magnitude----
    Senator Allard. Yes.
    Mr. Ungar [continuing]. Of the Capitol Visitor Center. So, 
normally he says that in a typical project you wouldn't have 
all these at the end of the project or toward this part of the 
project, you'd have them earlier, and they'd be spread out a 
little bit. Now he's got a number of them to review. And he 
does plan to get contractor support. He's got some onboard now. 
But he feels there are certain things that he and his staff 
have to review. But once that's reviewed, he can obtain 
contractor support to help do the testing. And so, that's what 
he'd like to do. But the answer--the bottom-line answer to your 
question is, he is short right now, in terms of resources.
    Senator Allard. Mr. Hixon, now you understand the priority 
concerns.
    Mr. Hixon. Now I understand----
    Senator Allard. Why don't you address that----
    Mr. Hixon [continuing]. Exactly what he's addressing.
    Senator Allard [continuing]. And then also manpower issues.
    Mr. Hixon. Yeah. My answer is all related to the CVC proper 
itself, the system overall for the CVC. There is a submission 
in for the expansion space submittal that was to be completed 
on the 26th of this month. And I'm not sure if the review got 
completed on that date or not. There are other elements, such 
as in the exhibit area. There are systems called FM200. There 
is an aspiration system. There are a number of different 
submittals that have come in to the fire marshal over a long 
period of time. They have addressed these in a priority manner. 
The contractor tells them which priority they need first. The 
one that we elected first was the--certainly the CVC fire alarm 
system itself, the primary system. They got the expansion space 
system earlier than they got the CVC, but the fire marshal 
wanted to wait on the expansion system until they had the base 
system and could evaluate that. Then they've gone on to the 
expansion system. So, yes, there are priorities for these other 
components that are a part of the fire alarm system, and those 
are being addressed based on a priority that's provided by 
Manhattan and Gilbane, our construction manager, of what needs 
to be addressed first.
    Senator Allard. So, you don't have a list right now, but 
they're in the process of putting it together?
    Mr. Hixon. No, sir. We have a list--there is a list 
maintained in what we call Prolog, which is the--maintains all 
the administrative--it's got all of those. I was given a copy 
of that yesterday for----
    Senator Allard. I see.
    Mr. Hixon [continuing]. Those. We sit down and--every time 
we meet with the fire marshal, that is reviewed, to look at the 
list. And there certainly is the complication of five first 
priorities, but those are the--they're trying to address those 
and say which ones we need first, which ones we can wait a 
couple of weeks on. And the fire marshal is addressing those in 
that order.
    Senator Allard. Can you help out the fire marshal's 
manpower needs?
    Mr. Hixon. Personally, I cannot. The fire marshal would 
have to contract with external parties to provide that extra 
manpower. And Mr. Hantman might be able to address----
    Senator Allard. Yes. Mr. Hantman?
    Mr. Hantman. Yeah, we are working on that. He has 
agreements, as Bernie indicated, with several consultants out 
there.
    Senator Allard. I see.
    Mr. Hantman. I guess the question is when he can 
effectively bring them on, because he does need to do some of 
the base work himself and have the consultants help him with 
the supporting information. So he is working on that. We're 
working with him to get him the resources to be able to do 
that.
    Senator Allard. As soon as you get those, you can move 
ahead with the extra help that he needs? He can contract that 
out?
    Mr. Hantman. That's what--that's exactly what we're working 
on doing.
    Senator Allard. Yes.
    Mr. Ungar.
    Mr. Ungar. Mr. Chairman, not to belabor the point--Mr. 
Hixon is correct, there is a list. The question is, number one, 
Is it complete? It didn't appear to be complete, based on all 
the discussions we have heard. So, it would be helpful to make 
sure that it's complete. Now, the last time we saw the list, it 
was not prioritized. It may be, now. If it's done now, that's 
fine. And then, third, in terms of help for the fire marshal, 
he did indicate that there may be a possibility that some of 
the fire protection engineers that are currently employed by 
AOC throughout the Capitol campus may be----
    Senator Allard. I see.
    Mr. Ungar [continuing]. May be able to help. But that 
would, of course, be----
    Senator Allard. Okay.
    Mr. Ungar [continuing]. Up to Mr. Hantman. So, that's a 
possibility.
    Senator Allard. Those are available, Mr. Hantman?
    Mr. Hantman. Absolutely.
    Senator Allard. Okay. Well, when we have the next hearing, 
I'll have another question on this priority. Then you can sit 
down with the contractors, in an informal basis, and make sure 
you understand what you're both expecting. It would help, I 
think.

                 CAPITOL VISITOR CENTER UTILITY TUNNEL

    On the CVC utility tunnel, Mr. Hantman, you indicated in 
your testimony that the expected finish date for the utility 
tunnel is now August. Last month, you indicated it would be 
complete in June. A few months ago, AOC had testified that the 
tunnel would be complete in March. Are you confident that the 
August date can be met?
    Mr. Hixon. Mr. Chairman, I'll answer that question. 
Currently, we have a contractor who's doing cleanup in the 
tunnels. He's had some difficulty getting in and out, and he 
couldn't get in on Monday because of rain, but he was back in 
there doing the cleaning that's necessary before the insulators 
can begin their work. We were contemplating that the insulators 
would start last week, last Monday. We expect they will start 
this coming Monday. They have 2 to 3 weeks worth of work to do 
to perform that insulation. The only question right now is, we 
had to remove the boxes of insulation in the tunnel, and they 
were sitting on the--you know, on Second Street in the rain for 
the last couple of days. It should not be damaged by rain, but 
we're not certain yet. But that's the work that'll start here 
in--it'll start on Monday, and should take 2 to 3 weeks. Once 
that work is completed, we should be able to turn on the 
chilled water for the building, and turn on the steam. The 
flushing process, all the preparation that needs to be done to 
the piping in CVC was completed last Saturday. So, we are all 
set with the proper chemical treatment and all that to take the 
water from the plant and circulate it back to the plant.
    Senator Allard. So, the tunnels are operational?
    Mr. Hixon. The--we have the piping in. We just need to put 
the insulation on the piping----
    Senator Allard. Then they'll be operational.
    Mr. Hixon [continuing]. Within the ``R'' tunnel. And as 
soon as we finish that, we can actually start running the water 
through the building.
    Senator Allard. Okay. So, when are the air handlers 
scheduled to be tested?
    Mr. Hixon. The air handlers, at this point, are--they're 
looking at an August or--an August timeframe, probably, for 
getting--the mechanical contractor--for getting the systems up 
and running completely. Based on what we have heard in the last 
few days, there is some damaged insulation that'll have to be 
replaced. We're looking at those dates to find out if there's 
something we can do. We need to--we need to have cooling and 
dehumidification in the building now, but we couldn't get it in 
before this. Now we've got to make sure the systems are really 
ready to receive it.
    Senator Allard. Are we looking at the first part of August 
or the latter part?
    Mr. Hixon. The schedule reflects August. I have also been 
told September by the subcontractor. So, we're endeavoring to 
determine what it is that's caused this to be a problem. We 
were expecting to be able to turn it on right away and start 
moving chilled water and steam through the building.
    Senator Allard. Okay. So, the subcontractor has some doubts 
whether he'll be ready for August, then.
    Mr. Hixon. We--I think the construction manager has some 
doubts if the subcontractor has everything in place that he 
needs in order to have the system function properly.

              CAPITOL VISITOR CENTER UTILITY TUNNEL EGRESS

    Senator Allard. Well, we'll follow up on that question when 
we have our August hearing.
    Mr. Hantman, you committed in last month's hearing to have 
a resolution to the issue of egress in the new utility tunnel. 
Has AOC and the Office of Compliance agreed to a resolution of 
that issue? And what kind of costs of adding an escape hatch 
might we be looking at?
    Mr. Hantman. Mr. Chairman, as you know, this project was 
started several years ago under existing codes and criteria. I 
don't think the Office of Compliance has, as yet, quite 
determined what criteria we should be working to. As you're 
well aware, when we talk about the 12,000 feet of other 
tunnels, we were talking about business best practices, in 
terms of a 300-foot travel distance as being the longest travel 
distance. This is a criteria that we've been developing over 
the past several months for the existing tunnels, and one that 
we will be applying to the new utility tunnel, as well. What 
this basically means is that we will open up the visitor center 
with a certificate of occupancy, and not be impacted by the 
means of egress in the tunnel right now. From a solution 
perspective, we believe that this tunnel, which is basically 
complete, just as the existing tunnels have been up and running 
for many years, that we'll be able to get another means of 
egress that would give us the 300-foot travel distance 
essentially down the road, just as we are in other areas in the 
tunnel system. We're looking at a vent that currently exists on 
the northwest corner of the Library of Congress. It's an air 
vent going into the tunnel, where that vault could be modified 
to be a means of egress. That will give us the travel distance 
that we need, and not interfere with the piping. We have 
discussed this with the fire marshal, mentioned it to the GAO, 
as well, and we think that this is a solution, in terms of 
addressing travel distance, down the road. In terms of the 
existing operation of the tunnel, we don't think that this 
would impact it.
    So, in terms of moving it, the timeframe for actually doing 
that work floats free of the CVC, we believe.
    Senator Allard. Is Mr. Eveleth here? Maybe we can get a 
comment from you as to the egress on the new utility tunnel and 
the cost on that escape hatch.
STATEMENT OF PETER EVELETH, GENERAL COUNSEL, OFFICE OF 
            COMPLIANCE
    Mr. Eveleth. We cannot give you an estimate on the cost, 
but we can say that we did do an investigation of what industry 
practice was, and we concluded that 300 feet was the 
appropriate travel distance. And I believe that there is a 
consensus with the GAO on that; and the AOC, as well. There 
was, as we discussed previously, an exception for--if the area 
were totally sprinklered, 400 feet would be acceptable. But it 
was our conclusion that that exception would not apply, because 
that additional allowance of 100 feet was to encourage 
sprinklers where there was a fire hazard. That is not the case 
in the instance of these tunnels, except for maybe a small 
area. And we had so informed, yesterday, the Architect, as 
well, that the 300-foot was the appropriate standard. And we 
had suggested, though not as a requirement, that perhaps some 
heat sensors could also be installed so that before anybody 
entered the tunnel, they would be aware if there were a rupture 
in the steam lines. That is not a mandatory requirement. We did 
not think it was necessary to sprinkler the whole tunnels, 
however.
    Senator Allard. Mr. Hantman, I guess you can't give us a 
cost estimate, at this point. The thought is that you're going 
to include this in future budgets. Is that what you're 
thinking?
    Mr. Hantman. In the request for funding that we had 
discussed with this subcommittee before, for the tunnel as a 
basic area, the numbers per new means of egress was in the 
range of $250,000 to $300,000. We're assuming, although we've 
not done the design for this, that that would be the same 
magnitude.
    Senator Allard. You will put this money in future budgets 
from your office?
    Mr. Hantman. I think that would be the way to go forward, 
because clearly all of the issues for the additional means of 
egress from the whole tunnel system as it exists right now 
would be done that same way.

              CAPITOL VISITOR CENTER SCHEDULE REASSESSMENT

    Senator Allard. In your testimony, Mr. Hantman, you state 
that AOC will complete its reassessment of the schedule by the 
end of July. We'll be holding our next meeting in early August, 
and expect that the deadline will be met. Can you give your 
commitment to complete the reassessment of the schedule by the 
end of July?
    Mr. Hixon. Mr. Chairman, we will be updating the schedule 
and reviewing the schedule for what we have to do to complete 
the project. We were not anticipating doing a major review of 
the schedule with an independent contractor. We were simply 
going to update the schedule to reflect the things that have 
occurred here in the last month, and project out to the end of 
the job, so that we've got some linkages that were changed in 
the current May report, about sequential or concurrent fire 
alarm acceptance, things of that nature. We were not 
contemplating doing a complete review of the schedule.
    Senator Allard. Are you going to have a reassessment, 
though, by the end of July?
    Mr. Hixon. We would have a new schedule by the end of July. 
We were not contemplating something different other than our 
normal monthly update.
    Senator Allard. I see.
    Mr. Hixon. This has come up, here in the last couple of 
days, and we're not quite sure what, other than the things 
we've done to date--there was some assessments of when we could 
occupy the building, when the expansion space could be--
furniture could be moved in, things of that nature that were 
shared with House Administration, and the Senate Rules 
Committee earlier in the week--that evaluation has already been 
done. So, I'm not sure what else we would be looking for.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Yes, Mr. Chairman, from our perspective, we plan 
to use the next schedule that comes out--probably the June 
schedule--as the basis for our reassessment. So, what we were 
hoping and expecting would be for AOC, as a very minimum, to 
ask its construction management contractor to take a hard look 
at the significant remaining work, which would be the fire 
acceptance system and the commissioning of the air handling 
system and some of the finish work, to make sure that the time 
in the schedule is sufficient and reasonable for that work, 
given the history of the project. I think Mr. Dorn alluded to 
the--that the--some of the durations have not been adequate, 
historically, and we want to make sure that everybody's 
comfortable, from this point forward, that that's the case, so 
that we would have an adequate basis to re-look at the 
schedule, because these are the activities that are going to 
drive when the facility will be able to open.
    Senator Allard. I think that's important, if we can get 
some reevaluation, so the GAO can do an evaluation in August, 
so we'll have something for our September hearing.
    Mr. Hixon. We can certainly do that, Mr. Chairman, and 
review it. But we are in the throes right now of just beginning 
the review for the current June report that should be coming to 
us shortly. So, we can do the evaluation for that. But that 
report will be out, the middle of the month, and I'm not sure 
if that'll be as thorough as GAO is looking for. To get in to 
do a more thorough evaluation of the durations would take a few 
weeks, which would result in that data coming out in the mid-
August report.
    Senator Allard. Does that get you started, Mr. Ungar?
    Mr. Ungar. Well, if we have a good start with this 
schedule, the--the schedule that the team is working on now--
that would be helpful. And then, if, a week or two later, AOC 
would like to provide additional information, we could 
certainly use that. As long as we had it before the middle of 
August, we would have enough time, I think, to deal with that. 
But I think it's very important now, because everybody is 
really looking toward the next couple of months to get at least 
a firmer handle on when we can expect the project to be done.
    Senator Allard. We'd like to get a firmer handle, if we 
can.
    Mr. Hixon. Well, we can certainly have the construction 
manager review the data. They're doing that anyway, but we can 
have them make a special effort to look at the durations that 
remain for the project.
    Senator Allard. We'd appreciate that.
    Mr. Hixon. Yeah.

        ARCHITECT OF THE CAPITOL-WIDE UTILITY TUNNEL MILESTONES

    Senator Allard. Now, this is to you, Mr. Ayers. Last month, 
you described some milestones for the utility tunnels. In AOC's 
testimony, you say only five of the eight milestones were met. 
Which ones were not met, and why?
    Mr. Ayers. Yes, Mr. Chairman. We had three milestones that 
were not met. First is to begin the asbestos abatement in the 
``B'' tunnel. While we have awarded that contract, the 
contractor submittals and paperwork has not been satisfactory. 
We don't want that contractor to proceed until all of that 
paperwork, safety plans, and submittals are satisfactory and 
compliant. So, that work has not yet started, but we do expect 
it to start very soon.
    Second, in the ``V'' tunnel, we had planned to install a 
crossover in that tunnel, and our material has not arrived. We 
don't expect it to arrive until the end of July, and install it 
the latter portion of July and early August.
    And, finally, we had noted that we were going to begin the 
expansion joint replacement in the ``Y'' tunnel. That work, 
quite frankly, has turned out to be far more complicated than 
we anticipated, and we don't believe that work is going to 
commence until August, as well.
    Senator Allard. We're going to move into the Power Plant 
tunnel issues. And, Mr. Hixon, our thought was that we could 
use your seat there for any additional witnesses that would 
come in. I apologize.

                      TUNNEL CONDITION ASSESSMENTS

    Now, I understand the structural condition assessment for 
the ``Y'' tunnel is complete, and the contractor found the 
condition was not as dire as the AOC anticipated. And AOC's 
original plan called for replacing the ``Y'' tunnel, one of the 
most expensive elements of the April 10 plan submitted to 
Senator Durbin and me. Based on the structural assessment, is 
replacement of the tunnel necessary?
    Mr. Ayers. No, sir. Our current assessment does not 
indicate that it's necessary. We believe that--and our 
contractor is indicating--that the ``R'' tunnel may be in worse 
condition than we had anticipated. We believe those funds may 
be better used in the ``R'' tunnel.
    Senator Allard. Can you tell us when you'll have a plan for 
repairing the ``Y'' tunnel, then?
    Mr. Ayers. I'll have to respond to that for the record.
    Senator Allard. Okay.
    [The information follows:]

    The ``Y'' tunnel is in need of various upgrades to bring it 
into compliance with current safety and construction standards. 
As presented in the AOC's August 31, 2006, Report to Congress, 
AOC has a plan in place to complete necessary structural, 
mechanical, and electrical renovations to extend the life of 
the ``Y'' tunnel until a new tunnel or alternative system is 
designed, constructed, and operating. In fall 2006, AOC will 
commence an Alternatives Study to determine long-term options 
for delivering utilities to the buildings and will include the 
``Y'' tunnel. The results of the study will provide 
recommendations for distributing steam, chilled water, and 
other utilities to buildings serviced by the utility tunnel 
system.

    Senator Allard. Now, is Entech working full time on the 
remaining structural assessments? And, if not, can you expedite 
that effort?
    Mr. Ayers. They are not working full time. I was advised 
yesterday that, as of last Friday, they were not onsite, and 
were not onsite this week. I've asked our contractual 
representative, this morning, to see if they can get Entech 
back onsite for us, and stay onsite full time.
    Senator Allard. I think that would be helpful.
    Mr. Ayers. Yes, sir. I agree.
    Senator Allard. Yes. When will the structural assessment 
for all the tunnels be complete?

                             SPENDING PLAN

    Mr. Ayers. We believe that will be complete in mid-August.
    Senator Allard. Okay. Now, on the spending plan for the 
tunnels. The President recently signed into law the emergency 
spending bill for 2006, including the $27.6 million to address 
problems in the utility tunnels. What is the status of your 
detailed spending plan? And do you still anticipate these funds 
can be obligated prior to the end of the year?
    Mr. Ayers. First, of course. We are still awaiting the 
warrant from the Treasury Department, so the funds are not in 
our hands to begin executing. We don't have them yet, but we 
have reached out to the Treasury Department, and we're close to 
the receipt of those funds.
    Regarding a spending plan, we have put together a detailed 
spending plan, from now through December. It outlines each 
element of work that we have shared with the subcommittee. I 
think, in the next 2 to 3 weeks, our priority is to get this 
spending plan reviewed by the Office of Compliance, as well as 
the remainder of our team, to be sure it is focused on the 
highest priority efforts. I can give you some of the highlights 
of that plan. Of course, in July, we will be awarding 
approximately $1.5 million of condition assessment and program 
support work. We think one of the highest priorities is the 
concrete repair work. And we expect to award a significant 
contract for that in July. And, of course, the major portion of 
that emergency supplemental funding was the replacement of a 
portion of the ``R'' tunnel along Second Street by the Madison 
Building. That is expected to be awarded in December. And that 
design is underway already.
    Senator Allard. And what you've discovered in the ``R'' 
tunnel is more serious than what you anticipated?
    Mr. Ayers. Yes. Yes.
    Senator Allard. Can you elaborate on that?
    Mr. Ayers. Well, we've found delamination--significant 
delamination in the ``R'' tunnel, that we were not aware of. We 
have gone in there, in the past 30 days, and shored that work. 
So, that gives us indication that it may be in worse condition 
than anticipated.
    Senator Allard. I see. Will you be prepared to elaborate on 
that more when we get into testimony in August, or will we have 
to wait later for a more complete evaluation on that ``R'' 
tunnel?
    Mr. Ayers. I think that we will receive the consultant's 
report in mid-August.
    Senator Allard. In mid-August, okay.
    Mr. Ayers. Yes.
    Senator Allard. You think we could have that report ready 
for our September hearing?
    Mr. Ayers. Yes, we will.

                      UTILITY TUNNEL AIR SAMPLING

    Senator Allard. Captain Joseph Terra, senior program 
manager of the Federal Occupational Health, Public Health 
Service, is in attendance.
    Captain Terra, could you describe what the Public Health 
Service has been doing for the Architect of the Capitol?
    Captain Terra. Certainly, Mr. Chairman.
    Beginning in 2000, to 2001, the Federal Occupational Health 
Agency conducted an asbestos survey for the Architect of the 
Capitol, at which time we found conditions to be good, and also 
with a recommendation that that material is in--had a potential 
for--medium to high potential for damage.
    On April 20 and May 25, our staff members reviewed exactly 
142 personal samples and 49 area air samples that were 
historical data that were collected from a collection of 
private contractors or CPP staff. That data, we found to be 
inclusive in any way, due to the lack of activity 
characterization and comprehensive task identification. 
Essentially, the information that goes along with the testing 
was lacking, and we were unable to provide any conclusive 
statement regarding that data. We did recommend that we 
establish procedures to systematically assess potential 
exposures for the tunnel workers that include addressing 8-hour 
OSHA time-weighted averages and excursion exposures. We also 
recommended that the Architect conduct a physical-conditions 
assessment of the ACM in the tunnels.
    On May 1, FOH put an IH technician down in the tunnels to--
--
    Senator Allard. ``IH,'' meaning what?
    Captain Terra. Industrial hygiene. I'm sorry, Mr. Chairman.
    Senator Allard. Okay.
    Captain Terra. Put an industrial hygiene technician down 
in--with the tunnel workers to assess exposures, given the 
activities and personal protective equipment conditions that 
they're currently using. Since that time, May 1 to this 
morning, 156 samples were taken. That data generally shows 
levels below the analytical limit of quantitation and/or OSHA 
exposure limits for those activities conducted, with the caveat 
that those activities conducted are not, as noted by our 
people, representative of the day-to-day activities that tunnel 
workers normally would experience, because of the current 
conditions there, and their--I guess, their limited activities 
resulting from that.
    On May 19, we reviewed the Capitol Power Plant tunnel 
worker asbestos decon procedures. We found those procedures 
generally compliant with OSHA regulations, but not fully 
implemented. Also, there was some question as to the tunnel 
pressure air differentials. And those had not been fully 
characterized. Essentially, which way is the air moving? We 
could not determine and pass that information on.
    On May 23, we began, in the Capitol Power Plant tunnels, 
conditions assessment that--as had been previously recommended. 
We are 80 percent complete with that conditions assessment, and 
reports are forthcoming.
    And on June 19, we began the last of those recommendations, 
which was the development of a Capitol Power Plant tunnel 
worker asbestos exposure assessment protocol, and that work is 
ongoing.
    Senator Allard. Is the AOC taking all appropriate steps to 
protect worker safety and health?
    Captain Terra. They are following the recommendations that 
we have put forth to appropriately cover worker protection in 
those tunnels, that's correct.

                       DECONTAMINATION PROCEDURES

    Senator Allard. Okay. And are the appropriate OSHA-
compliant decontamination procedures being followed?
    Captain Terra. At the time of our review, no, they had not 
been. The policy was in place. It still required additional 
review. We--in our opinion, the policy was sufficient and 
compliant, but the workers were not following, uniformly, 
those--that policy.
    Senator Allard. When did AOC get the workers to follow the 
policy, do you know?
    Captain Terra. I do not. Our review was conducted on May 
19, and the recommendations from that were that----
    Senator Allard. So, in other words----
    Captain Terra [continuing]. The findings from that.
    Senator Allard [continuing]. We had the paperwork done, but 
the officers weren't following procedure.
    Captain Terra. Yes, sir.
    Senator Allard. And we don't know when they started 
following procedure.
    Captain Terra. I do not.
    Senator Allard. Is there anybody that can respond to that 
timeline?
    Mr. Ayers.
    Mr. Ayers. We believe they are following the appropriate 
decontamination procedures now.
    Senator Allard. Okay.
    Mr. Ayers. As well as--in our last hearing, we discussed 
the requirement to get agreement on that with the Office of 
Compliance. We do believe we are in agreement now that our 
procedures are compliant. The Office of Compliance did point 
out that our procedures required--or didn't require showering, 
and that they felt that showering is required. We have 
subsequently changed those procedures, yesterday, and are 
beginning the implementation of those. So, we believe employees 
are appropriately following procedures.
    Senator Allard. As of yesterday.
    Mr. Ayers. New procedures, as of yesterday; but, as of some 
time ago, they were appropriately following the procedures.
    Senator Allard. Okay.
    Has the Office of Compliance verified this, Mr. Eveleth? If 
you would respond.
    Mr. Eveleth. We have been in contact with the Architect of 
the Capitol regarding these matters, and have reported that to 
this subcommittee. We found, yesterday, that, for the first 
time, there was a revised policy that was issued, as was 
indicated, and that the--requiring that the workers do take 
showers. And there were several other matters that we brought 
to their attention, and we are continuing to work with them on 
that. There are some minor issues that still need to be worked 
out, I believe, with the Architect of the Capitol, in--but, 
basically, we believe that they have come into compliance. They 
had not briefed--from our information, they had not briefed the 
workers, the tunnel workers, as of yesterday, on all of these 
procedures, and that they were representing to us that they 
were going to brief them today on these procedures.
    Senator Allard. Okay.
    Mr. Eveleth. So, we also understood that the Architect's 
contractors were not briefed on these procedures, and that they 
were--it was reported to us that they were not properly being 
decontaminated, but that it was the intention of the Architect 
to be sure that the contractors, as well, were briefed on these 
procedures; because, otherwise, the contractors could be 
tracking asbestos out of the tunnels.
    Senator Allard. Mr. Hantman, are the workers scheduled to 
be briefed today? And the contractors, are they scheduled to be 
briefed?
    Mr. Ayers. Yes, Mr. Chairman. It's my understanding that 
employees were briefed this morning. We have revised our tunnel 
control access procedures; whereby, before anyone enters the 
tunnel, they need to check in with our tunnel shop, go through 
a standard safety briefing, get a status report on the 
operation of each tunnel. And it's at that meeting that anyone 
that wants to enter, or needs to enter, the tunnel will receive 
such a briefing each day.
    Senator Allard. Captain Terra, are there other things the 
Architect of the Capitol should be doing? I think you mentioned 
air differentials need to be dealt with. Are there other things 
now?
    Captain Terra. That was a question, certainly, that was 
raised when we reviewed the decon procedures. That 
recommendation that someone characterized that, essentially 
that the airflows from the decon area into the dirty area--I 
can't answer if that--that's an issue that's been followed up 
on at the agency level.
    Senator Allard. Maybe we can get those clarified for the 
next meeting.
    Captain Terra. Certainly.

                      MEDICAL SURVEILLANCE PROGRAM

STATEMENT OF DR. JOHN EISOLD, ATTENDING PHYSICIAN, U.S. 
            SENATE
    Senator Allard. Now, Dr. Eisold, could you describe the 
medical surveillance program that your office provides to the 
Architect of the Capitol employees who may be exposed to 
various hazardous materials, and who conducts the medical 
surveillance?
    Dr. Eisold. Mr. Chairman, the medical surveillance program 
is a very important program. People who are identified to be 
potentially in contact with environmental contaminants that 
might affect their health are put in this program. It's a large 
program. The primary contractor, through the Architect, is the 
Washington Occupational Health Associates. We have worked with 
them for over 11 years, and they are an integral part of our 
medical surveillance program and have provided a wonderful 
service for us all. They have over 800 people in that program, 
175 of which are under asbestos surveillance. But there are 
other reasons for following people, whether it's hearing 
conservation or other environmental contaminants.
    Senator Allard. We've received a letter from your office, 
dated June 22, on your procedure and involvement here. We also 
have a letter from the Washington Occupational Health 
Associates, Incorporated. I will make that a part of the 
record.
    [The information follows:]
                           The Attending Physician,
                             Congress of the United States,
                                                     June 22, 2006.
The Honorable Wayne Allard,
United States Senate, S-128, U.S. Capitol,
Washington, DC.
    Dear Senator Allard: I am aware that you are concerned about the 
health of the Architect of the Capitol employees that work in the 
tunnels of the Capitol Power Plant. I am also aware that there have 
been suggestions that some of these workers may be suffering health 
consequences as a result of exposure to asbestos. I would like you to 
know that these workers participate in the Medical Surveillance Program 
that is managed by the Environmental and Occupational Health Section of 
my office. They are evaluated for exposure to asbestos, noise, and 
their ability to wear respiratory protection equipment. The components 
of the medical exams afforded to these workers are defined by the 
Occupational Safety and Health Administration. The medical evaluation 
is completed by an Occupational and Environmental Health specialist who 
is contracted by the AOC. The physician is board certified in 
Occupational and Environmental Medicine as well as Internal Medicine. 
Up to this point, no workers have been medically excluded from working 
in this environment.
    In response to your concern we have requested that our consultant 
provide us with a report on the health status of the tunnel workers. 
You will find a copy of that report attached to this letter. The exams 
will often reveal health conditions that are not related to 
occupational exposures. When that happens, the worker is notified of 
the results and is referred to their own health care provider for 
appropriate follow up.
    If you should have any further questions regarding this matter 
please contact myself or the head of the Occupational Health section of 
my office, Mr. Wesley Mills at 202-225-7993.
            Sincerely,
                                     John E. Eisold, M.D., F.A.C.P.
                                 ______
                                 
           Washington Occupational Health Associates, Inc.,
                                     Washington, DC, June 22, 2006.
Wesley E. Mills, REHS
Environmental Health Specialist, Office of the Attending Physician, 
        United States Congress.
    Dear Mr. Mills: At your request, Washington Occupational Health 
Associates, Inc. (WOHA) undertook a review of the medical records of 
employees of the Architect of the Capitol who work in the tunnels of 
the Capitol Power Plant. Ten individuals were identified for us as 
performing this function. All are followed in an asbestos medical 
surveillance program in accordance with OSHA Standard 29 CFR 1926.1101.
    Charts of these individuals were reviewed including their history 
forms, physical examination findings, pulmonary function test results, 
and x-ray reports. In addition, selected original x-rays were also 
reviewed. The result of the review indicates no findings in these 
individuals consistent with dust induced diseases such as asbestosis. 
There were pleural changes on some x-rays that could be interpreted as 
markers of possible past asbestos exposure but could also be 
interpreted as due to confounding factors noted on the histories.
            Sincerely,
                              Kenneth H. Chase, MD, FACOEM,
                                                         President.
                     Samuel J. Scott, Jr., MD, MPH, FACOEM,
                                         Senior Clinical Associate.

                      TRANSFER OF MEDICAL RECORDS

    Senator Allard. There's been some concern about the 
transfer of medical records to an outside organization. Can you 
explain whether medical records are transferred outside of your 
office?
    Dr. Eisold. I'm glad you brought that up, because it was 
misrepresented in the Hill newspaper the other day, and I'd 
like to clarify that.
    Senator Allard. Yes.
    Dr. Eisold. As I have stated before, the Washington 
Occupational Health Associates is an integral part of our team, 
so they are part of our healthcare team. The records that were 
being reviewed by them are the records they did--they screened 
previously over many years. So, there really was no transfer of 
records outside of our own circle of influence.
    Now, if an employee wanted to have a secondary review by 
somebody, a different contractor, we would be more than happy, 
under proper consent by them, to forward whatever records they 
wanted to somewhere else. But the contractor that was re-
reviewing the records was doing it just to be conscientious, 
and it's our--the same people that have--see these people all 
the time. So, there really was no breach in confidentiality. 
And I think that's very important, because that's very 
important to us.
    Senator Allard. If I was a patient, and I had my chest x-
rayed, perhaps by a family physician, he just would 
automatically refer that to a consultant to verify any 
observations, or lack of observations, that he saw. Same thing 
with bloodwork.
    Dr. Eisold. That is often done----
    Senator Allard. That's part of doing routine business.
    Dr. Eisold. You work closely with your consultants, but the 
further the reach goes, then you really do want to get 
permission to send those records elsewhere. But, in this 
particular case, they're part of our team, to begin with.
    Senator Allard. So, they're contracted in, as part of the 
team.
    Dr. Eisold. Absolutely.
    Senator Allard. Okay.
    Now, the AOC tunnel shop employees have suggested that 
their health has been affected as a result of exposure to 
asbestos. We don't expect you to compromise patient 
confidentiality, but do you have any information confirming 
this?
    Dr. Eisold. I have absolutely all the information. I have 
reviewed the charts myself, and there is no information that 
would confirm that.
    I want to make a clear distinction here. Potential exposure 
to asbestos is what we're talking about.
    Senator Allard. Yes.
    Dr. Eisold. Medical surveillance is to identify those 
people who may have some adverse consequence to that potential 
exposure. If there is an adverse consequence--that is, in this 
particular case, you call it asbestosis--it is a very specific 
diagnosis based upon very specific x-ray findings and pulmonary 
function findings. We have no such findings. So that--we have 
people who we have cleared to work in that environment, and we 
have no adverse consequences noted that could be due to 
asbestos.
    Senator Allard. Okay. Do you believe a second opinion would 
be appropriate? And, if so, who should perform this?
    Dr. Eisold. I think that--in this particular case, I don't 
think a second opinion is necessary, because the objective of 
that is fairly clear, there's nothing--there are no findings. 
However, as a physician, I often get second opinions, only 
because it can confirm what you're doing, or get a second idea. 
So, there's nothing ever wrong about getting a second opinion.
    In terms of who that second opinion should be, there are a 
myriad of very qualified groups in the local area, within the 
Federal Government, that could provide such an opinion.
    Senator Allard. They're board certified.
    Dr. Eisold. Board certified and as I say, we just happened 
to pick this group years ago, and they've been very effective 
for us, but there are certainly other very qualified people, 
and you don't need to go far to find them.
    Senator Allard. Now, who would make the decision that these 
folks are entitled to a second opinion? Is it Mr. Hantman that 
makes that decision?
    Dr. Eisold. You know, I think it would be a combination. 
Any employee can make that decision himself and decide they 
want to get a second opinion if--and pay for it out of pocket. 
So, they're--they are free agents, and I would--you know, if 
their records needed to be made available, I'd--certainly would 
do that. So, they're not, you know, closely kept, in that 
regard.
    Senator Allard. So, either them or their insurance policy--
--
    Dr. Eisold. Or--that, or the Architect may want to--decide 
to have an entity come in to re-review things, you know, if 
they're--you know, an outside, objective view, so that--
whatever seems most appropriate, we could help provide the 
records.
    Senator Allard. Okay.

                          OFFICE OF COMPLIANCE

    Mr. Eveleth, what is the Office of Compliance doing to 
ensure a cooperative approach to resolving the utility tunnel 
issue? When do you expect the complaint to be settled?
    Mr. Eveleth. Well, we are in the process, Mr. Chairman, of 
negotiating a contract with the Architect of the Capitol, as 
was alluded to earlier, so that we will have onboard, as a 
resource to us, necessary experts to--so that we can analyze 
the AOC's plans for making repairs, both short term and long 
term, to the tunnels. At the same time, we are discussing with 
the Architect of the Capitol a resolution--an overall 
resolution of the complaint. Obviously, our assessment of the 
plan is what is necessary to do so. So, we are proceeding and 
meeting with the general counsel, and--of the Office of the 
Architect of the Capitol, and we will be continuing to do so. I 
can't, at this point, give you a date when that resolution will 
be achieved. However, I would say that there is nothing that--
the fact that there is litigation pending now is not 
interfering with our ability to fully discuss all the issues 
that are involved and to reach a resolution.
    Senator Allard. Do you believe that the AOC is doing all it 
can to adequately address the safety and health concerns in the 
utility tunnels now?
    Mr. Eveleth. I think they're making a major effort to do 
so.
    Senator Allard. So, you would verify they're making the 
effort. Is it actually being done?
    Mr. Eveleth. Well, in some areas, it is, that we know 
about; in some areas, we don't know about. In other words, we 
need to have our experts and--advise us of the plans that the 
Architect has. This is an ongoing process.
    Senator Allard. Okay. Now, what will OOC's role be, going 
forward, once the complaint is settled?
    Mr. Eveleth. Well, part of that will be what we will 
negotiate in the settlement agreement. That is to say, we 
will--what we--for example, we have developed a scope of work 
for the expert--that is, the areas that the expert will look 
at. And what we've agreed with, with the Architect on, that we 
will mutually share that information. And they are--have agreed 
to mutually share--to share with us the information that they 
obtain from their own experts as they move along in assessing 
the conditions of the tunnels and all the other issues that are 
involved in rectifying these problems.

                          SUBCOMMITTEE RECESS

    Senator Allard. The subcommittee stands in recess until 
Wednesday, August 2, when we will once again review progress of 
the CVC construction and the utility tunnels.
    [Whereupon, at 11:41 a.m., Wednesday, June 28, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]























         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                       WEDNESDAY, AUGUST 2, 2006

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:37 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        DOUG JACOBS, PROJECT ARCHITECT, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL
        KENNETH LAUZIERE, CHIEF FIRE MARSHAL, ARCHITECT OF THE CAPITOL
        GARY LEE, PROJECT ADMINISTRATOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The subcommittee will come to order. We 
meet today to take testimony on the progress of the Capitol 
Visitor Center (CVC). This is our 13th hearing on the Capitol 
Visitor Center construction. We welcome Architect of the 
Capitol (AOC) Alan Hantman, CVC Project Architect Doug Jacobs, 
and Government Accountability Office (GAO) representatives, 
Bernie Ungar and Terry Dorn. CVC Project Director Bob Hixon is 
on vacation this week but we look forward to seeing him in 
September. Thank you for your attendance this morning.
    Before we begin the hearing, I would like to recognize the 
fact that Mr. Hantman announced earlier this week that he will 
not seek a second term as Architect of the Capitol. Alan, many 
important accomplishments have been made under your leadership 
as Architect of the Capitol. We appreciate your service to the 
Congress and to the Nation and I wish you best when it is time 
to depart.
    Since our last hearing, AOC has made good progress on floor 
stone installation, particularly in the great hall, but there 
has been slippage in several other areas. In addition, we are 
concerned about a fire system issue that arose within the last 
week or so. While a resolution seems to have been identified, 
the problem is symptomatic of an ongoing problem with 
communication and coordination between the AOC Project Office 
and the fire marshal and others.
    Mr. Hantman, please proceed with your testimony and then we 
will turn to GAO for their testimony.
    Mr. Hantman. Good morning and thank you, Mr. Chairman, for 
your kind words. I appreciate this opportunity to again report 
on the progress of the Capitol Visitor Center project. Since 
our June hearing, the contractor has, as you've indicated, made 
good progress in many areas of the project site and we've 
reached some important milestones, which I'll discuss as part 
of the project update.

                      FIRE AND LIFE SAFETY SYSTEMS

    First, I'd like to update you on the issue that you raised, 
the CVC's fire and life safety systems. As I've stated before, 
the CVC is virtually a beta test site for the very complex 
security and fire and life safety systems that are being 
installed. Last week, our CVC management team did an excellent 
job working through a new issue related to the fire alarm 
system. Since details about any of the fire system components 
are security sensitive, I cannot address the specifics of this 
particular issue at the hearing. What I can say, though, is 
that to ensure life safety concerns are promptly addressed, the 
team modified a fire alarm component designed to add the 
necessary redundancy that will ensure the CVC meets fire and 
life safety requirements. The AOC fire marshal has stated that 
this approach is preferable to the original design and a 
contractor has advised that the fix will be less costly and 
time consuming than he originally thought. After walking the 
area with the contractor, our AOC team believes this work can 
be accomplished concurrently with ongoing work but will make a 
final cost and schedule determination upon review of the 
contractor's proposal. We will certainly keep you informed of 
our progress.
    To prevent this from happening in the future, Mr. Chairman, 
we are developing specific measures to ensure that all fire 
alarm system components yet to be installed are acceptable. We 
will focus on the unique elements of the CVC's complex fire and 
life safety systems for which the existing building codes are 
unclear or do not apply and we will intensify our communication 
efforts among the team members to ensure that no significant 
additional issues arise as we work to complete construction on 
the CVC. To implement these measures, Mr. Chairman, we have 
asked the construction manager to expand the agenda for the 
weekly progress meeting to include all outstanding issues that 
we have not yet brought to closure, specifically fire and life 
safety requirements. We have also expanded the attendance of 
our weekly progress meeting to include the fire marshal and a 
representative from the Capitol Police. Although both have been 
actively involved in the process, we did not request their 
presence at every weekly meeting and that now has changed. They 
will ensure that all fire and life safety and security concerns 
are identified and that the contractor is aggressively working 
to bring them to closure. The team will also try to anticipate 
any future requirements and work together to resolve them 
before we reach that milestone in the project. The first 
meeting is scheduled for this week and we are optimistic that 
this meeting will fix the communication challenges you pointed 
out and that we have experienced in the past.

                        OVERALL PROJECT SCHEDULE

    Mr. Chairman, due to concerns about the fire and life 
safety acceptance testing process and some schedule slippage in 
several project activities, GAO recommended last month that we 
work with our construction manager to, ``take a hard look at 
the significant remaining work to make sure that the time and 
the schedule is sufficient and reasonable for that work.'' That 
process has begun and our team has completed an internal cost 
to complete analysis of the project. That report indicates that 
we continue to expect the project to be available for a public 
opening next summer and the construction can be completed with 
the funding already in place. While the existing funding also 
can cover the acceleration and delay claims we have received 
thus far, additional funds may be necessary to accommodate any 
future delay claims. Since we've not received any such claims 
to date, it would not be prudent at this time to estimate the 
cost of any future claims prior to their receipt or the 
negotiation process that might follow. We will keep you and 
your staff fully apprised of the status of this issue and 
report back to you if and when potential additional delay costs 
arise.
    Mr. Chairman, with respect to project update, while our 
team continues to work on these issues, work continues to 
progress in many areas of the project site. First, I'm pleased 
to announce that we have now activated chilled water service to 
the CVC to allow climate control with chilled water. In the 
weeks ahead, we will continue to work with the contractor on a 
plan to bring all of the CVC's air handling units online. The 
contractor expects to have climate control throughout most of 
the CVC in the fall.
    For our first board, Mr. Chairman, we show the exhibition 
hall here and as you know, that hall will house historic 
documents and therefore climate and dust control is most 
crucial in this space. We are on track for mid-August operation 
of the first air handling unit to serve this specific space. 
Having conditioned air in the exhibition hall will also allow 
the contractor to install millwork and acoustic fabric panels 
in the ceiling. The final coat of plaster has been applied to 
the insulated ceiling panels, down the center of the hall, and 
the scaffolding is being dismantled. This plaster needs to dry 
before we turn on the first air handling unit and make sure 
that the ducts are all cleaned as well.
    Later this month, a crew will begin assembling the support 
system in the exhibition hall for a long, curving marble wall, 
which we refer to as the Wall of Aspirations. This wall will 
house some 40-50 historic documents at any one time and it is 
the centerpiece of the exhibition hall.

                        FLOOR STONE INSTALLATION

    Mr. Chairman, another significant milestone met last week 
was the beginning of floor stone installation in the great 
hall. Having the space available, now that the ceiling work is 
complete, has allowed several mason teams to work concurrently. 
They have made tremendous progress in less than 4 weeks. They 
are ahead of schedule with more than 50 percent of the work 
completed on the floor. Above the great hall, the structure and 
glass for both skylights are in place, as you can see in this 
photo. By the end of August, most of the finishes, with the 
exception of the light fixtures, will be installed in the great 
hall.

                         MILLWORK INSTALLATION

    A third significant milestone has been the start of 
millwork installation. In mid-July, after 2 weeks of 
dehumidification efforts in the orientation theatres, the 
millwork contractor began installing wood trim elements in the 
south orientation theatre ceiling. Similar work is now ongoing 
in the north orientation theatre and other millwork is being 
delivered for the exhibition hall and the food service area. In 
the food service area, wall tile has essentially been completed 
in the servery and the food preparation areas. Stonework is 
finished on the columns and the walls in both the servery and 
sitting areas are ready to receive millwork and other finish 
elements. Drywall is complete in the food service area. Ceiling 
and acoustic fabric panels will soon be installed between the 
soffits. These panels will help reduce noise when the facility 
is occupied at full capacity. Installation of these finish 
materials will begin later this month.

                              CEILING WORK

    The ceiling work, Mr. Chairman, continues to be a critical 
activity, as its completion is necessary to free up the floor 
space below for mason teams. This work is progressing well. 
Most of the ceiling soffits above the entrance lobby are 
complete. Once final inspections are finished, ceiling panels 
will be set into place and the area will be turned over to the 
floor stone masons. Another critical project area is the east 
front transition zone. Much progress has been made here since 
we last briefed you. Wall stone is complete on the upper level 
of the CVC. In addition, wall stone installation is nearly done 
in the carriage way and along the new monumental stair that 
leads to the crypt. At the crypt level, efforts to remove the 
lead-based paint on the original sandstone facade are complete. 
Wall and column stone installation is nearly complete on that 
level. At the Rotunda level, Mr. Chairman, abatement work is 
finished on the north side and nearing completion along the 
south face of the Capitol. Crews will soon begin installing the 
metal framework that will support all of the wall, column, and 
ceiling stone at the Rotunda level.

                   INSTALLATION OF EXTERIOR ELEMENTS

    Mr. Chairman, we are seeing good progress being made on 
installation of exterior elements as well. The historic 
preservation contractor continues to set paving stones around 
the north fountain in a decorative paving pattern, reviving an 
Olmsted design element lost at the beginning of the 20th 
century. Crews are now completing the final masonry work to 
prepare the fountains for operation. They've not been 
functioning for decades and were actually used as planters. 
Along the large, grass oval panels, something we call the 
Omsted eggs, mason teams continue to rebuild the historic seat 
walls. In addition, work is moving forward on new plaza 
elements, most notably, the seat wall around the great hall 
skylights. The stonework is now complete around the south 
skylight and is well underway under the north skylight. These 
seat walls will enclose pools of water around the skylights and 
provide a welcoming spot for people to meet and to sit and 
enjoy the wonderful views of our Capitol. An area that used to 
be a huge parking area on the east front of the Capitol will 
now become a pedestrian zone.

                           PROJECT MILESTONES

    Mr. Chairman, we did an assessment of our project 
milestones and determined that eight milestone activities were 
identified for monitoring for the period of June 28 to today. 
Two of the eight activities were completed on or ahead of 
schedule. Two others were completed 4-5 working days beyond 
their scheduled completion dates. These activities involve 
plaster walls and ceilings in the orientation lobby and the 
west lobby areas respectively and they are not on the critical 
path. Of the four remaining activities, the visitor auditorium 
drywall ceiling is awaiting delivery and installation of 
winches, which are scheduled to arrive within the week. The 
visitor auditorium area wall stone has been delayed due to a 
substrate issue, which should be resolved shortly. We also have 
an opportunity to gain efficiencies by installing two air 
handlers concurrently. One air handler was scheduled for 
completion August 1 and the second air handler is scheduled for 
completion on September 6. Now both will be complete on August 
25.
    We are continuing to work the complex fire alarm system and 
are scheduled to finalize the operation matrix by August 21, so 
programming of the fire alarm software can proceed.
    In summary, Mr. Chairman, of the 45 milestone activities 
identified for monitoring between January 11 and today, 41 are 
now complete. Mr. Chairman, I want to personally commend the 
entire CVC team for their efforts. The scope changes and the 
requirements to establish alternative building and fire and 
life safety construction methodologies for this underground 
public assembly facility, where codes do not adequately address 
these complex issues, created extraordinary challenges for the 
Government and the contractor. As you can see, we are 
continuing to work through these challenges and will present 
the Congress and the American people with a first-class 
facility that will stand the test of time.

                            UTILITY TUNNELS

    Mr. Chairman, with respect to the utility tunnels, we 
reported last month that dust clean up in the ``R''/CVC tunnel 
intersection was begun to facilitate utility tie-in work. I am 
pleased to report that this work was finished and the portion 
of the insulation of the chilled water piping that was needed 
has been completed to allow service to the CVC. Water treatment 
for the chilled water has been completed in the CVC and chilled 
water from the Capitol Power Plant is now being provided for 
use by the contractor for climate control. It is available to 
the contractor to turn on as each successive air handling unit 
is put into action and he is ready to do so. All of them should 
be online this fall.
    In addition to addressing this issue, we've been working 
diligently to address and correct issues in the utility tunnels 
as expeditiously as possible with worker safety remaining the 
highest priority. At the last hearing, we identified 14 tasks 
as project milestones to be completed by today and we completed 
12 of the 14 milestones. Because of the high temperatures in 
the tunnels, we had to address the work crew's work and rest 
schedules during the installation of shoring in the ``R'' 
tunnel. Temperatures within the tunnels exceeded 120 degrees on 
several occasions, which is a safety concern and that slowed 
our progress. Therefore, we did not meet the milestone to 
install shoring north of the CVC tunnel for structural testing 
or the milestone to begin removal of the delaminated concrete. 
We should begin this work within the next few days. Tasks that 
were completed included the completion of the shoring in the 
``R'' tunnel and the completion of a statement of work for 
contracting ``Y'' tunnel dust cleanup and pipe covering repair. 
We completed the design and statement of work for installation 
of an interim emergency lighting system for tunnels and 
completed the statement of work to study alternative 
communication systems for the tunnels. Mr. Chairman, I want to 
thank you again for your support of the emergency supplemental 
funding. We have begun obligating these funds to execute 
projects identified in our utility tunnel action plan. We 
finalized the procurement to rent a portable trailer-mounted 
air conditioner and exhaust fan to help cool the tunnels. As I 
previously stated, we also awarded a contract to begin asbestos 
clean up in the tunnels. In addition, we modified our 
consultant contract to include the pipe supports in the 
structural assessment and develop as-built drawings for the 
tunnels and associated infrastructure such as piping, valves 
located within the tunnels, and a tunnel power study. We 
recently received the draft structural report assessment for 
the tunnels from our contractor, except for the ``R'' tunnel, 
due to its partial closure due to weather. We are currently 
reviewing the report along with our consultant so we can 
determine the best direction moving forward to upgrade the 
tunnels and bring them into the condition that provides 
appropriate levels of safety and service to the Capitol 
complex.
    Last, Mr. Chairman, the Office of Compliance has indicated 
they require expert assistance to review and comment on the 
utility tunnel work efforts. Last week, we awarded a contract 
for this professional service and expertise to be used by both 
the Office of Compliance and the AOC. We continue to work with 
the Office of Compliance on settlement and technical matters.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my statement and once again, 
thank you for this opportunity to testify.
    Senator Allard. Thank you for your testimony.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Good morning, Mr. Chairman. I appreciate this opportunity to again 
report on the progress of the Capitol Visitor Center project. Since our 
June hearing, the contractor has made good progress in many areas of 
the project site and we have reached some important milestones, which I 
will discuss as part of the project update.
    First, I would like to update you on the status of the CVC's fire 
and life-safety systems. As I have stated before, the CVC is virtually 
a beta test site for the very complex security and fire and life-safety 
systems that are being installed. Last week our CVC management team did 
an excellent job working through a new issue related to a fire alarm 
system. Since details about any of the fire system components are 
security sensitive, I cannot address the specifics of this particular 
issue at this hearing. What I can say is that to ensure life-safety 
concerns are properly addressed the team modified a fire alarm 
component design to add the necessary redundancy that will ensure the 
CVC meets fire and life-safety requirements.
    The AOC Fire Marshal has stated that this approach is preferable to 
the original design and the contractor has advised that the fix will be 
less costly and time consuming than he originally anticipated. After 
walking the area with the contractor, our AOC team believes this work 
can be accomplished concurrently with ongoing work, but we will make a 
final cost and schedule determination upon review of the contractor's 
proposal. We will keep you informed of our progress.
    To prevent this from happening in the future, we are developing 
specific measures to ensure that all fire alarm system components yet 
to be installed are acceptable. We will focus on the unique elements of 
the CVC's complex fire and life-safety systems for which the existing 
building codes are unclear or do not apply, and we will intensify our 
communication efforts among the team members to ensure that no 
additional issues arise as we work to complete construction on the CVC.
    To implement these measures, we tasked the construction manager to 
expand the agenda for the weekly progress meeting to include all 
outstanding issues that we have not brought to closure, specifically 
fire and life-safety requirements. We have also expanded the attendance 
of our weekly progress meeting to include the Fire Marshal and a 
representative from the Capitol Police. Although both have been 
actively involved in this process, we did not request their presence at 
every weekly meeting, which has now changed. They will ensure all fire 
and life-safety and security concerns are identified and that the 
contractor is aggressively working to bring them to closure. This team 
will also try to anticipate any future requirements and work together 
to resolve them before we reach that milestone in the project. The 
first meeting is scheduled for this week and we are optimistic that 
this meeting process will fix the communication challenges we have 
experienced in the past
    Mr. Chairman, due to concerns about the fire and life-safety 
acceptance testing process and some schedule slippage in several 
project activities, GAO recommended last month that we work with our 
construction manager to take a ``hard look at the significant remaining 
work to make sure that the time in the schedule is sufficient and 
reasonable for that work.'' That process has begun and our team has 
completed an internal cost-to-complete analysis of the project. That 
report indicates that we continue to expect the project to be available 
for a public opening next summer and the construction can be completed 
with the funding already in place. While the existing funding also can 
cover the acceleration and delay claims we have received thus far, 
additional funds may be necessary to accommodate any future delay 
claims. Although we have not received any such claims to date, it would 
not be prudent at this time to estimate the cost of any future claims 
prior to their receipt or the negotiation process that might follow. We 
will keep you and your staff fully apprised of the status of this issue 
and report back to you if or when potential additional delay claim 
costs is known.
Project Update
    Mr. Chairman, while our team continues to work on these issues, 
work continues to progress in many areas of the project site.
    First, I am pleased to announce that we have now activated chilled 
water service to the CVC to allow climate control with chilled water. 
In the weeks ahead, we will continue to work with the contractor on a 
plan to bring all of the CVC's air handling units on line. The 
contractor expects to have climate control throughout most of the CVC 
in the fall.
    As you know, Mr. Chairman, the Exhibition Hall will house historic 
documents and therefore, climate and dust control is most critical in 
this space. Having conditioned air in the Exhibition Hall will also 
allow the contractor to install millwork and acoustic fabric panels in 
the ceiling. The final coat of plaster has been applied to the 
insulated ceiling panels down the center of the Hall and the 
scaffolding is being dismantled. Later this month, a crew will begin 
assembling the support system for a long curving marble wall, which we 
refer to as the Wall of Aspirations. This wall will house between 40 
and 50 historic documents at any one time and is the centerpiece of the 
Exhibition Hall.
    Another significant milestone met last month was the beginning of 
floor stone installation in the Great Hall. Having that space 
available, now that ceiling work is complete, has allowed several mason 
teams to work concurrently. They have made tremendous progress and, in 
less than four weeks, more than 50 percent of the floor is complete. 
Above the Great Hall, the structure and glass for both skylights are in 
place. By the end of August, most of the finishes, with the exception 
of light fixtures, will be installed in the Great Hall.
    A third significant milestone has been the start of millwork 
installation. In mid-July, after two weeks of dehumidification efforts 
in the orientation theaters, the millwork contractor began installing 
wood trim elements to the South Orientation Theater ceiling. Similar 
work is now ongoing in the North Orientation Theater and other millwork 
is being delivered for the Exhibition Hall and Food Service Area.
    In the Food Service Area, wall tile has essentially been completed 
in the servery and food preparation areas. Stonework is finished on the 
columns and the walls, and both the servery and seating areas are ready 
to receive millwork and other finish elements. Drywall is complete in 
the Food Service Area ceiling and acoustic fabric panels will soon be 
installed between the soffits. These panels will help reduce noise when 
the facility is at full capacity. Installation of these finish 
materials will begin later this month.
    The ceiling work continues to be a critical activity as its 
completion is necessary to free up the floor space below to mason 
teams. This work is progressing well. Most of the ceiling soffits above 
the entrance lobby are complete. Once final inspections are finished, 
ceiling panels will be set into place and the area will be turned over 
to the floor stone masons.
    Another critical project area is the East Front transition zone. 
Much progress has been made here since we last briefed you. Wall stone 
is complete on the upper level of the CVC. In addition, wall stone 
installation is nearly done in the Carriageway and along the new 
monumental stair that leads to the Crypt. At the Crypt level, efforts 
to remove the lead-based paint on the original sandstone facade are 
complete. Wall and column stone installation is nearly complete on that 
level. At the Rotunda level, abatement work is finished on the north 
side and nearing completion along the south face of the Capitol. Crews 
will soon begin installing the metal framework that will support all of 
the wall, column, and ceiling stone at the Rotunda level.
    Mr. Chairman, we are seeing good progress being made on 
installation of exterior elements as well. The historic preservation 
contractor continues to set paving stones around the north fountain in 
a decorative paving pattern reviving an Olmsted design element lost at 
the beginning of the 20th Century. Crews are now completing the final 
masonry work to prepare the fountains for operation. Along the large 
grass oval panels, mason teams continue to rebuild the historic seat 
walls. In addition, work is moving forward on new plaza elements, most 
notably the seat wall around the Great Hall skylights. The stonework is 
now complete around the south skylight and is well underway around the 
north skylight. These seat walls will enclose pools of water around the 
skylights and will provide a welcoming spot for people to sit and enjoy 
the splendor of the Capitol Dome.
    Mr. Chairman, we did an assessment of our project milestones and 
determined that eight milestone activities were identified for 
monitoring during the period between June 28, 2006 and August 2, 2006. 
Two of the eight activities were completed on or ahead of schedule. Two 
others were completed 4 to 5 working days beyond their scheduled 
completion date. These activities involved plaster walls and ceilings 
in the Orientation Lobby and West Lobby areas, respectively, and are 
not on the critical path. Of the 4 remaining activities, the Visitor 
Auditorium drywall ceiling is awaiting delivery and installation of 
winches, which are scheduled to arrive within the week. The Visitor 
Auditorium Area wall stone has been delayed due to a substrate issue, 
which should be resolved shortly. We also have an opportunity to gain 
efficiencies by installing two air handlers concurrently. One air 
handler was scheduled for completion on August 1 and the second air 
handler is scheduled for completion on September 6. Now both will be 
complete on August 25. We are continuing to work the complex fire alarm 
system and are scheduled to finalize the operation matrix by August 21 
so programming of the fire alarm software can proceed. Lastly, of the 
45 milestone activities identified for monitoring between January 11, 
2006 and August 2, 2006, 41 are now complete.
    Mr. Chairman, I want to personally commend the entire CVC team for 
their efforts. The scope changes and the requirement to establish 
alternative building and fire and life-safety construction codes for 
this underground public assembly facility created extraordinary 
challenges for the government and the contractor, but as you can see, 
we are continuing to work through these challenges and will present the 
Congress and the American People with a first-class facility.
Utility Tunnels
    Mr. Chairman, last month we reported that dust clean-up in the 
``R''/CVC tunnel intersection was begun to facilitate utility tie-in 
work. I am pleased to report that this work was finished and a portion 
of the insulation of the chilled water piping has been completed to 
allow service to the CVC. Water treatment for the chilled water has 
been completed in the CVC and chilled water from the Capitol Power 
Plant is now being provided for use by the contractor for climate 
control.
    In addition to addressing this issue, we have been working 
diligently to address and correct issues in the utility tunnels as 
expeditiously as possible with worker safety remaining the highest 
priority. At the last hearing we identified 14 tasks as project 
milestones to be completed by today, and we completed 12 of the 14 
milestones. Because of the high temperatures in the tunnels we had to 
adjust work-crew's work and rest schedules during the installation of 
shoring in the ``R'' tunnel. Temperatures within the tunnels exceeded 
120 degrees on several occasions, which is a safety concern and slowed 
progress. Therefore, we did not meet the milestone to install shoring 
north of the CVC tunnel for structural testing or the milestone to 
begin removal of the delaminated concrete. But we should begin this 
work within the next few days. Tasks that were completed include the 
completion of the shoring in the ``R'' tunnel; we completed a statement 
of work for contracting ``Y'' tunnel dust clean-up and pipe covering 
repair; completed the design and statement of work for installation of 
an interim emergency lighting system for tunnels, and completed the 
statement of work to study alternative communication system for 
tunnels.
    Mr. Chairman, I want to thank you again for your support of the 
Emergency Supplemental funding. We have begun obligating these funds to 
execute projects identified in our Utility Tunnel Action Plan. We 
finalized a procurement to rent a portable trailer-mounted air 
conditioner and exhaust fan to help cool the tunnels. As I previously 
stated we also awarded a contract to begin asbestos clean-up in the 
tunnels. In addition, we modified our consultant contract to include 
pipe supports in the structural assessment, develop as-built drawings 
for the tunnels and associated infrastructure such as piping, valves, 
and equipment located within the tunnels, and a tunnel power study.
    We recently received the draft structural condition assessment for 
the tunnels from our contractor, except for the ``R'' tunnel due to its 
partial closure earlier this summer. We are currently reviewing the 
report, along with our consultants, so we can determine the best 
direction moving forward to upgrade the tunnels to bring them into the 
condition that provides appropriate levels of safety and service to the 
Capitol complex.
    Lastly, the Office of Compliance has indicated they require expert 
assistance to review and comment on the Utility Tunnel work efforts. 
Last week, we awarded a contract for this professional assistance and 
expertise to be used by both the OOC and the AOC. We continue to work 
with the OOC on settlement and technical matters.
    Mr. Chairman, this concludes my statement. Once again, thank you 
for this opportunity to testify. I would be happy to answer any 
questions you may have.

    Senator Allard. Mr. Dorn.
STATEMENT OF TERRELL DORN, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dorn. Since our last hearing, the CVC team, as Alan has 
said, has continued to move the project forward and according 
to the team, the completion dates remain the same. The risk, 
however, particularly with the fire protection system, have 
materialized, threatening those dates.
    Last week, I attended an annual conference of the 
Construction Industry Institute (CII) where I heard private 
sector companies and some Government agencies talk about their 
implementation of construction and best practices and research 
aimed at achieving the same process improvements in 
construction that are seen in other industries. One of the 
research teams reported out on their work regarding leading 
indicators to project outcome. The research team was composed 
of managers from major private sector corporations, a couple of 
academics, and a representative from our construction manager, 
Gilbane, and I salute Gilbane for supporting this work, made up 
this team. What I would like to do is briefly list a few of 
those leading indicators identified by other major construction 
owners as indicative of project risk and relate them to our 
work here on the CVC.
    The Construction Industry Institute defines a leading 
indicator as a fundamental project characteristic or event that 
reflects or predicts project health and review in a timely 
manner, which your monthly hearings are certainly doing. These 
indicators allow for proactive management to influence project 
outcomes.
    The first indicator, in no particular order, is, ``The 
project milestones are not being met and are consequently 
jeopardizing future project milestones.'' Since the last 
hearing, the CVC team missed the timely completion of 50 
percent of its scheduled milestones in spite of two things that 
should have been in their favor. This month, they changed the 
baseline they measure themselves against, effectively moving 
the goal posts closer and second, they waited until late in the 
month to decide what they were going to measure themselves 
against. Giving some context to the milestones we have 
discussed so far, chilled water is definitely available to the 
CVC but it is not able to be used yet because the air handlers, 
for one reason or another, are not ready to take that chilled 
water. Second, floor stone has significantly improved in 
placement over the past few weeks but it is still far behind 
where they had planned to be at this point in the schedule.
    The second indicator was, ``Float for project activities 
are being used at an increasingly high rate and actual 
scheduled activities are lagging behind the planned scheduled 
activities over several reporting periods.'' While the 
contractor reports that the CVC completion date did not change, 
again, continuing the trend of recent months, significant 
amounts of floator schedule contingency were lost all across 
the project. For example, last month, 17 out of the 23 most 
critical paths lost time and this month, 17 out of the 24 most 
critical paths through the project schedule lost time, most of 
them slipping by over 2 weeks.
    The next indicator is, ``Significant project scope items 
are inadvertently omitted from bid packages, and owner and/or 
contractor are requesting an excessive number of contract 
changes during the project execution.'' The project has 
undergone and continues to experience a number of design and 
work scope changes. Since the sequence 2 contractor started, 
about 100 contract modifications have been issued for work that 
was not anticipated. Since the last hearing, there have been 
nine design changes issued and another eight are in process. 
The number of potential change orders in the system continues 
to rise. The fire alarm system issues are an example of another 
unanticipated issue that is now likely to cost the Government 
more money.
    Another indicator from CII is that, ``The project is using 
new technology or construction practices that are unproven in 
commercial or industrial use.'' The CVC is a large and complex 
project and as Mr. Hantman described this morning is a beta 
test site for some technologies. The CII research team 
recognizes this as a risk that needs to be managed.
    Another indicator is that, ``The project team's response to 
requests for information, questions and changing events that 
can significantly impact the results, is slow, inadequate or 
incomplete.'' Over the last couple of months, issues with the 
CVC's fire protection system continued. Even though the team 
has taken the important step of meeting on this subject, issues 
remain unresolved for months, some affecting cost and schedule. 
Improved management control in this area is needed and AOC is 
taking steps to improve its meetings and resolution of critical 
fire alarm issues. The schedule's most critical path runs 
through elements of the fire alarm system, meaning that any 
further delays in this area will delay the completion of 
construction. The team can take some comfort in knowing that 
according to the research, the issues faced by the CVC team are 
the same issues facing other large projects in the private 
sector. The fact that these issues exist is not a death 
sentence to successful project completion. They are indicators 
of project risks that need to be successfully addressed. Some 
of these the CVC team is already attempting to do and with 
continued and increased management attention, it is something 
they can be successful at. In the meantime, we continue to be 
concerned, and are more concerned, in spite of the team's 
internal evaluation, that the project schedule may not 
realistically reflect the remaining risk to the project. Over 
the next few weeks, we will be conducting a more detailed 
analysis of the schedule with the anticipation that we can 
discuss it at the September hearing, assuming we have one.
    In addition, we continue to believe that the project is 
likely to cost between $556 million and $584 million, including 
our analysis of risk and uncertainty. Before the hearing in 
September, we intend to update our estimate to reflect the 
events that have happened since our last estimate, such as the 
continued project delays.

                           PREPARED STATEMENT

    In summary, work on the project has continued. Continued 
attention to project risk and these leading indicators is 
needed, particularly to the fire protection system. Delays in 
several areas of the project happened again this month and we 
continue to believe that the project's cost and schedule need 
to be reassessed and we will report out on them at the next 
hearing. That concludes my statement, Mr. Chairman.
    [The statement follows:]
                   Prepared Statement of Terrell Dorn
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on the 
Architect of the Capitol's (AOC) progress in achieving selected project 
milestones and in managing the project's schedule since the 
Subcommittee's June 28, 2006, hearing on the project.\1\ As part of 
this discussion, we will address a number of key challenges and risks 
that continue to face the project, as well as actions AOC has taken or 
plans to take to address these risks. In addition, we will discuss the 
status of the project's costs and funding.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Update on Status of Project's 
Schedule and Cost as of June 28, 2006, GAO-06-827T (Washington, D.C.: 
June 28, 2006).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (AOC and its 
major CVC contractors), AOC's Chief Fire Marshal, and representatives 
from the U.S. Capitol Police, the General Services Administration, and 
the Office of Compliance. We also reviewed AOC's construction 
management contractor's periodic schedule assessments and daily reports 
on the progress of interior wall and floor stonework.
    In summary:
    Since the Subcommittee's June 28 CVC hearing, the CVC team has 
continued to move the project's construction forward, and the project's 
overall targeted completion dates have remained about the same as we 
reported at that hearing. However, risks have materialized, especially 
in connection with the CVC's fire protection system, and a number of 
important activities have been delayed, lessening our confidence in the 
likelihood of the CVC team's meeting the targeted completion dates. We 
will reassess the project's schedule and monitor the team's progress in 
achieving effective management control over the CVC's fire protection 
system work during the next several weeks and report our results to the 
Subcommittee in September.
  --During the past month, work on the project has progressed in a 
        number of areas. For example, chilled water began flowing from 
        the Capitol Power Plant to the CVC this week, and the sequence 
        2 contractor expects to have dehumidified air in the exhibit 
        gallery by around mid-August. In addition, critical interior 
        wall and floor stone installation has continued, together with 
        other interior and exterior construction work. Almost all of 
        the interior wall stone for the CVC itself (excluding the 
        atrium areas, the East Front, and the tunnels) is now 
        installed.
  --A number of problems have developed in connection with the CVC's 
        fire protection system, which we now consider to be the single 
        greatest source of risk to meeting the project's scheduled 
        completion dates. Although the overall schedule for completing 
        this system has not slipped since the Subcommittee's last CVC 
        hearing, some activities have been delayed, and the team 
        continues to encounter new issues or ``surprises'' with the 
        fire protection system. The CVC's fire protection system has 
        not yet been fully approved, and a significant problem with the 
        installation of one of the system's components was recently 
        identified. Although this problem has been resolved, 
        communication and management issues surfaced that could further 
        affect work on the system if they are not effectively resolved 
        quickly. In addition, critical building systems still have to 
        be commissioned and tested, and certain design or work scope 
        elements are still incomplete or are being clarified, refined, 
        or changed, even though the project's overall design is 
        essentially complete.
  --Several activities important to the CVC's completion, such as East 
        Front work, have been delayed since the Subcommittee's last CVC 
        hearing. During the last 5 weeks, the sequence 2 contractor 
        exceeded its target for interior floor stone installation but 
        again fell short of its target for interior wall stone 
        installation. In addition, the sequence 2 contractor met only 2 
        of the 8 milestones we have been tracking for this hearing. 
        Although this contractor's monthly billings were higher in June 
        than in May, the trend in billings continues to indicate that 
        construction work is more likely to be completed closer to 
        AOC's new target dates than its previous ones.
  --AOC's schedule provides additional time to complete work after 
        construction work is scheduled to be done. This additional time 
        will give AOC some leeway, if necessary, to address risks and 
        uncertainties such as those associated with complex building 
        systems and trade stacking, should it occur. The CVC's complex 
        heating, air conditioning, and ventilation (HVAC); fire 
        protection; and security systems have to work together as well 
        as separately, and uncertainties associated with each could 
        affect the schedules for all. During the past month, the 
        sequence 2 contractor has continued work on its area-by-area 
        plans to prevent trade stacking \2\ during finish work. In our 
        reassessment of the project's schedule, we will determine 
        whether the additional time AOC has scheduled is likely to be 
        sufficient to address these and other risks and uncertainties. 
        AOC's construction management contractor has not yet completed 
        its reassessment of the schedule but expects to have it done 
        shortly.
---------------------------------------------------------------------------
    \2\ Trade stacking can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
    We previously estimated that the total cost to complete the entire 
CVC project would be about $556 million without an allowance for risks 
and uncertainties and $584 million with such an allowance. To date, 
about $530 million \3\ has been provided for CVC construction. AOC and 
its construction management contractor have completed their 
reassessments of the cost to complete the project and believe that 
sufficient funding will be available except for potential delay-related 
costs, assuming that AOC receives about $26 million in fiscal year 2007 
appropriations for CVC construction. This is the amount our previous 
cost-to-complete estimate showed would be necessary without provision 
for risks and uncertainties. We have not increased our $556 million 
estimate (which includes this $26 million) to reflect recent events. 
The results of our reassessment of the cost to complete the project, 
which we expect to have by mid-September, will include an assessment of 
the impact of these events. Although we anticipate that our $556 
million estimate is likely to increase, we have no specific indication 
at this time that the cost to complete the entire project will exceed 
our $584 million estimate, which does include an allowance for risks 
and uncertainties, such as potential delay-related costs. In addition, 
as we have previously indicated, AOC preliminarily expects to need 
about $950,000 in fiscal year 2007 AOC general administration 
appropriations to pay for the contractual support needed to complete 
acceptance testing of the facility's fire protection system in time to 
meet the project's schedule. AOC plans to determine if it can reduce 
the amount needed for this contractual support; we will keep the 
Subcommittee apprised of this situation.
---------------------------------------------------------------------------
    \3\ Since our last CVC testimony, the House and Senate Committees 
on Appropriations approved an AOC request to reprogram about $1 million 
from CVC operations funding to CVC construction. We have not reflected 
this reprogramming in our cost-to-complete estimates or funding figures 
above, but will include this change, as well any other changes we 
believe are appropriate, in our next CVC testimony.
---------------------------------------------------------------------------
Proposed Completion and Opening Dates Have Held Steady and Construction 
        Has Progressed, but Risks and Delays Threaten the Project's 
        Current Schedule
    The proposed completion and opening dates in the CVC project's 
schedule have remained about the same since the Subcommittee's last CVC 
hearing, and work on the project has continued to progress, but risks 
have materialized, delaying several important activities and 
threatening the project's current schedule. Most important, a problem 
with a component of the fire protection system was identified and has 
now been resolved. At this time, the problem seems to have greater 
implications for the project's cost than for its schedule, but the 
underlying management control issues that it reveals could adversely 
affect the schedule, even though AOC has agreed to take actions that we 
suggested to enhance its management control over the design and 
completion of the fire protection system. In addition, risks have led 
to problems in a number of areas, such as the HVAC systems, the gift 
shops, and the exhibit gallery, causing delays in these activities and 
increasing the risk of delay for the project as a whole. For example, 
the proposed opening of the exhibit gallery was deferred about 3 
months--to June 29, 2007--after the team learned that it must have a 
certificate of occupancy before the artifacts for display can be 
delivered and installed. The indicators of progress that we have been 
tracking for the Subcommittee showed mixed results during June, but the 
improvements in some are not sufficient to offset our concerns about 
the risks and uncertainties and delays. Overall, we have diminished 
confidence in the likelihood that the team will be able to meet its 
currently proposed opening dates. As noted, we plan to reassess the 
project's schedule and report our results to the Subcommittee in 
September.
            AOC's Proposed Completion and Opening Dates Have Remained 
                    about the Same
    According to the June 2006 project schedule, the base CVC project 
will be completed in May 2007 (except for the exhibit gallery) and the 
House and Senate expansion spaces will be completed in August 2007. 
These dates are about the same as those indicated in the May 2006 
schedule. Moreover, according to both schedules, the base project will 
be opened in July 2007 and the expansion spaces will be opened in 
August 2007--time frames that AOC believes will accommodate possible 
additional delays and allow start-up time for operations.
    According to the June 2006 schedule, most of the physical 
construction work in the CVC, the East Front, and the expansion spaces 
will be completed by December 31, 2006; however, some work extends into 
2007--as far as April 2007 for the exhibit gallery and March 2007 for 
the gift shops, certain East Front mechanical work, and the 
installation of wayfinding signage. Certain other construction work, 
such as the completion of space for the Capitol Guide Service, East 
Front finish work, and seating installation in the auditorium, also 
extends into 2007. Neither the CVC nor the expansion spaces can be 
opened until the Chief Fire Marshal has completed acceptance testing 
for the fire protection and life safety systems, now scheduled for May 
2007 for the CVC and August 2007 for the expansion spaces. The Chief 
Fire Marshal plans to issue a temporary certificate of occupancy for 
the CVC's base building when he completes his testing of it and a final 
certificate after he completes his testing of the expansion spaces and 
limited retesting of the CVC's base building. AOC believes that it may 
be able to shorten some of the time scheduled for testing the fire 
protection system and that it may be able to open segments of the 
expansion spaces earlier than August 2007. As we have discussed in 
previous CVC testimonies, AOC is continuing to explore this 
possibility.
            Construction Work Is Progressing
    According to information provided by AOC and its construction 
management contractor and our observations, work on the project has 
advanced, in terms of both the dollar value of the work in place and 
individual project elements. In dollar terms, AOC's construction 
management contractor reported that, as of June 30, the overall CVC 
project was about 84 percent complete and the sequence 2 work was about 
74 percent complete--up from about 82 percent and 71 percent, 
respectively, as of May 31. Progress on individual project elements 
includes the following:
  --Interior CVC work has moved forward, according to AOC's 
        construction management and sequence 2 contractors. For 
        example, the chilled water systems were flushed, and chilled 
        water began flowing from the Capitol Power Plant to the CVC 
        this week. The sequence 2 contractor expects to have 
        dehumidified air in the exhibit gallery by around mid-August. 
        In addition, the sequence 2 contractor has installed about 95 
        percent of the floor stone in the exhibit gallery and has 
        installed about half of the floor stone in the great hall. 
        Millwork in the south orientation theater has begun; bulkheads 
        were being hung and finished; and the installation of kitchen 
        wall and floor tile was substantially completed on the lower 
        level. On the upper level and in the auditorium, mechanical, 
        electrical, and plumbing rough-ins were substantially 
        completed. Furthermore, the CVC team and AOC's Fire Marshal 
        Division have continued resolving issues associated with the 
        CVC's fire protection system.
  --Surface work continued, including the installation of (1) stone 
        pavers above the CVC, (2) stone steps on the concrete base slab 
        between and around the trees planted alongside the auditorium, 
        and (3) the skylight structure in the north opening above the 
        great hall. Work on the House connector tunnel has also 
        continued.
  --Wall stone installation has now been fully completed in the food 
        service area; all but four pieces have been installed in the 
        great hall; and installation has progressed substantially in 
        the East Front basement and plaza levels, atriums, and 
        auditorium. As of last week, the sequence 2 contractor had 
        installed 99 percent of the interior wall stone in the CVC 
        itself, excluding the atrium areas, the East Front, and the 
        tunnels.
  --On the East Front exterior, AOC and its construction management 
        contractor reported, the center steps have been reinstalled 
        over new waterproofing material, and air-handling equipment has 
        been placed on the East Front penthouse area.
  --In the House and Senate expansion spaces, progress was made in 
        installing and priming drywall; installing mechanical, 
        electrical, and plumbing systems; and inspecting wall and 
        ceiling close-ins.
            Risks Associated with the Fire Protection System Pose the 
                    Greatest Challenge to the Project's Schedule
    According to the project's June 2006 schedule, the completion date 
for the fire protection system has not changed, but for a variety of 
reasons, we are concerned that this system is at significant risk of 
delay. Moreover, delays in completing this system could directly affect 
the CVC's completion date. Specifically, the activities associated with 
the fire protection system now constitute the single longest path 
through the project's schedule, meaning that each day the system's 
completion is delayed, the CVC's completion could also be delayed.
    Our analysis indicates that progress on the fire protection system 
has been affected by communication and management issues, despite the 
team's various efforts to coordinate activities and prevent problems, 
as well as identify and resolve problems. A number of issues or 
``surprises'' have occurred, requiring unanticipated changes to the 
fire protection system, the interrelated security system, the schedule, 
or a combination of these elements. The changes include adding control 
panels for the fire alarm system in the expansion spaces, changing the 
specifications for the programming of the fire alarm system, adding 
activities to the schedule for the fire alarm system, and changing the 
sequence of activities associated with the fire alarm system. AOC and 
its construction management contractor have attempted to avoid problems 
such as these by such means as holding biweekly or weekly meetings with 
the CVC team and AOC's Fire Marshal Division and by meeting with 
representatives of the U.S. Capitol Police when specific security 
issues arise. In our opinion, these biweekly or weekly meetings--which 
started in early 2005 and are chaired by a senior engineer with AOC's 
construction management contractor--have generally helped to identify 
and resolve the specific issues being addressed. AOC's weekly risk 
management meetings have also been helpful in identifying and 
addressing specific risks. However, the U.S. Capitol Police, which is 
responsible for managing the CVC's security system, has not always 
participated in the fire protection meetings and does not participate 
in the risk management meetings. As a result, representatives have not 
always been present to identify issues associated with the interface 
between the security and the fire protection systems. Furthermore, some 
issues have not been addressed because the issues have not been 
included in the meeting agendas or specifically raised. As we reported 
during the Subcommittee's June 28, 2006, CVC hearing, the CVC team has 
not had a comprehensive, prioritized list of system designs that have 
to be approved by AOC's Fire Marshal Division. In addition, although 
the team does address various parts of the fire protection system 
during its progress review, fire protection system, and risk management 
meetings the team is just now developing a comprehensive list of the 
system elements that can be used to (1) discuss their status or (2) 
systematically and effectively identify potential or actual problems 
with the design, installation, or testing of all of the system's 
components. The team is working to develop such lists and expects to 
complete them shortly. The lists should be particularly useful in 
identifying potential issues, including those involving the interface 
between the security and the fire protection systems.
    Notwithstanding the regular meetings between the CVC team and the 
Fire Marshal Division, a problem with a component of the CVC's fire 
protection system recently arose. This component is being installed as 
an alternative to an approach that was originally planned to provide a 
level of protection specified in the life safety code. Designed to 
provide an equivalent level of protection, the alternative approach is 
necessary because the original one could not be accommodated within the 
CVC's design. However, according to AOC's Fire Marshal Division, the 
component--which the sequence 2 contractor has almost completely 
installed--would not provide an equivalent level of protection because 
it does not meet a survivability standard applicable to the original 
system. The CVC team and the Fire Marshal Division resolved this issue 
last week, but additional work is required and additional costs will be 
incurred. The exact impact of the additional work on the project's 
schedule and cost is not yet clear, and AOC expects to have more 
information on both shortly. Moreover, although this issue has been 
resolved, other issues may arise and other changes may be required 
because the design of the fire protection system has not yet been fully 
approved; efforts to resolve open issues for some shop drawings have 
dragged on for several months; installation is still in progress; and 
pretesting and testing of the fire protection system have not yet 
begun.
    We have not fully evaluated all of the circumstances surrounding 
the problem with this component of the CVC's fire protection system. 
However, according to the information we have gathered, issues in at 
least two areas--communication and management--contributed to the 
problem.
  --Communication broke down because certain requirements were not 
        stated explicitly in writing, assumptions varied, and 
        information was conveyed largely through document exchanges 
        rather than meetings, during which the unwritten requirements 
        and differences in assumptions could have surfaced, leading to 
        earlier resolution of the problem. According to both the CVC 
        team and AOC's Chief Fire Marshal, much of the communication 
        problem stemmed from the uniqueness of the CVC and the 
        application of the component in question and the fact that the 
        situation being addressed is not specifically covered in the 
        life safety code and other project-related documents.
  --Management issues also contributed to the problem with the 
        component, despite all the efforts of the CVC team and the Fire 
        Marshal Division to coordinate and successfully address the 
        fire safety issues. The CVC team and the Fire Marshall Division 
        have not been able to resolve all issues quickly. For example, 
        resolution of the team's shop drawings and product 
        specifications for the fire protection system component in 
        question has dragged on for over 9 months and is still not 
        complete. Resolution of the Fire Marshal Division's comments on 
        some other fire protection system components is also taking 
        several months, but a recent change in AOC's approach to 
        resolving comments seems to have improved the situation. 
        Notably, the Division's comments on the team's February 2006 
        submittal for another fire protection system component in the 
        exhibit gallery had not yet been resolved as of last week. At 
        the same time, though, the CVC team has been working 
        aggressively to resolve the Division's comments on the drawings 
        for the base project's fire alarm system, and recently, at the 
        Architect of the Capitol's direction, the team and the Fire 
        Marshal Division have been meeting (as well as exchanging 
        documents) to discuss the Division's comments on the team's 
        submittal for this system. This process appears to be working 
        well.
    During the last 2 weeks, we met with AOC to discuss our concerns 
about the fire protection system and suggested that AOC take immediate 
steps to enhance management control over the completion of the fire 
protection system as well as its interface with the CVC's security 
system. In particular, we believe it is important for AOC to determine 
immediately and on an ongoing basis whether other problems with the 
design, installation, or testing of the fire protection system and its 
interface with the security system could have significant adverse 
effects on life safety, functionality, or the project's schedule or 
cost. To complement the team's ongoing efforts, which we believe have 
been quite helpful, we suggested, and AOC agreed, to have weekly 
meetings with key CVC team members and representatives from AOC's Fire 
Marshal Division and the U.S. Capitol Police to discuss all elements of 
the fire protection system and to identify and resolve any concerns, 
problems, or issues associated with all aspects of the system's design, 
installation, pretesting, or final testing, including any quality, 
scheduling, or coordination matters, and to focus on expeditiously 
attaining fully approved designs for all aspects of the system. In 
addition, we asked AOC's Chief Fire Marshal if he could develop his 
plans for acceptance testing of the fire protection system in the next 
few weeks so that the CVC team could factor these plans into its work, 
scheduling, and resource planning. The Chief Fire Marshal agreed and 
said that he has proposed that (1) his Division meet with the CVC team 
and the U.S. Capitol Police to identify potential submission items; (2) 
all submission items be tracked in weekly meetings; and (3) the 
submission items be prioritized for review and resolution. In addition, 
both AOC and a U.S. Capitol Police representative agreed that 
participation by the U.S. Capitol Police in more of the team's weekly 
meetings should prove helpful. Although it may be impossible to prevent 
all problems or surprises, we believe that these steps, if effectively 
implemented by all parties, can reduce the risks associated with the 
fire protection system's completion and the system's interface with the 
CVC's security system and identify problems early enough to minimize 
their consequences.
            Other Risks Have Materialized, Delaying Activities 
                    Important to the Project's Completion
    Although the scheduled completion date for the CVC has remained 
about the same as we reported at the Subcommittee's June 28 hearing, 
problems in a number of areas have either delayed or could delay 
activities whose late completion could adversely affect the project's 
overall completion. For example, according to the construction 
management contractor, the date for the air-handling units to be 
mechanically ready slipped by 2 weeks because of further problems in 
completing tunnel pipe insulation work, and efforts to close in the 
ceiling in the upper-level orientation and security lobby slipped by 3 
weeks because of problematic sequence 1 work that required remediation. 
According to the project's June schedule, additional delays in these 
activities of 15 and 25 workdays, respectively, could further delay the 
project's overall completion. In addition, a delay of as little as 2 
workdays in completing the gift shops--whose design, AOC says, has now 
been agreed upon--could affect the project's overall completion date. 
As we will discuss later in our testimony, several other activities 
that are important to meeting the CVC's May 2007 scheduled completion 
date have also been delayed.
    Several activities important to completing the House and Senate 
expansion spaces have also been delayed since the Subcommittee's last 
CVC hearing. For example, AOC's construction management contractor 
reported design-related delays of about a month each in activities 
involving a custom light fixture, a concrete ramp, and a special fire 
suppression system. Furthermore, the sequence 2 subcontractor doing the 
expansion work identified other concerns that could delay the 
completion of its work, some of which could affect the CVC's opening. 
For example, the subcontractor reported being instructed to stop 
certain work in the U.S.Capitol Police's command center pending the 
resolution of an issue involving the facility's fire protection system. 
The subcontractor also reported that a lack of humidity controls, 
caused by the delay in getting the air-handling units operational, 
could delay certain casework and ceiling tile installation.
    Finally, although not critical to the CVC's opening, work being 
done to connect the Library of Congress's Jefferson building to the 
tunnel linking it with the CVC may fall behind by as much as 53 
calendar days because of an asbestos problem. However, the contractor 
believes that it may be able to recover some of this time after the 
asbestos abatement work is completed.
            Indicators of Construction Progress Show Mixed Results
    The four indicators of construction progress that we have been 
tracking for the Subcommittee show mixed results since the 
Subcommittee's June 28 CVC hearing. An update on these indicators 
follows:
    Sequence 2 contractor has continued to miss most milestones.--
Starting with the Subcommittee's June 2005 CVC hearing, at the 
Subcommittee's request, we and AOC have been selecting and tracking 
sequence 2 milestones to help the Subcommittee monitor construction 
progress. These milestones include activities that were either on the 
project's critical path or that we and AOC believe are critical to the 
project's timely completion. As figure 1 shows, the sequence 2 
contractor has generally missed these milestones. For today's hearing, 
the contractor met 2 of the 8 milestones that were due to be completed, 
according to the project's June 2006 schedule, and for both, the work 
was completed ahead of schedule. However, the contractor was late in 
meeting 2 other milestones and had not met the remaining 4 milestones 
as of July 31. (See app. I.) The sequence 2 contractor attributed the 
slippages to a number of factors, including the need to do remedial or 
other work first, the work itself or necessary preceding work taking 
longer than expected, and a resequencing of work by the contractor.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1.--Sequence 2 Contractor's Progress in Meeting Selected 
                   Milestones as of CVC Hearing Dates

    In total, AOC's construction management contractor reported delays 
in 17 of 24 critical and near-critical paths that AOC's construction 
management contractor identified as important to meeting the base 
project's overall completion date.\4\ According to AOC's construction 
management contractor, delays occurred in, but were not limited to, the 
utility tunnel, East Front, orientation theaters, exhibit gallery, 
certain elevator installations, the upper level assembly room, the 
atrium, and the Library of Congress tunnels. According to the CVC team, 
these other delays were attributable to such factors as water leaks, 
deficient sequence 1 work, changes in the sequence of work activities 
by the sequence 2 contractor, the need to do lead abatement work, and 
inaccessible work areas. Even more important than the individual delays 
themselves, however, is their likely impact on the CVC team's ability 
to complete construction work on schedule. So many activities have 
fallen behind schedule that relatively short additional delays could 
push the CVC's overall completion date further back. The number of 
critical and near-critical paths increased from 23 in the project's May 
schedule to 24 in the June schedule, and a number of the activities 
that slipped in June had also slipped in the May schedule.
---------------------------------------------------------------------------
    \4\ Construction projects typically have one critical path, which 
is the sequence of activities having the longest duration through the 
schedule. There is no slack time associated with these activities, 
meaning that a delay in a critical path activity will delay the entire 
project unless a way is found to reduce the time required for other 
activities along the critical path. Some projects have multiple 
critical paths simultaneously; in practice, the CVC had what 
essentially amounted to two concurrent critical paths in May--(1) 
acceptance testing of the fire protection system and (2) fit-out of the 
gift shops. In June, there was one critical path--acceptance testing of 
the fire protection system. Generally, the more critical and near-
critical activities a project has, the greater is the risk of late 
completion because there are more opportunities for slight delays that 
can adversely affect the project's completion.
---------------------------------------------------------------------------
    Value of completed work increased in June, but trend continues to 
indicate completion in late spring or summer of 2007.--Another 
indicator of construction progress that we and AOC's construction 
management contractor have been tracking is the value of the completed 
construction work billed to the government each month. Although the 
sequence 2 contractor's billings for June were about $2.2 million 
higher than for May, both we and the construction management contractor 
believe that, overall, the sequence 2 contractor's monthly billings, 
including the bills for March through June 2006, indicate that AOC is 
more likely to finish closer to its currently scheduled completion 
dates than its previously scheduled completion dates. While this 
indicator has some limitations (for example, billings lag behind 
construction), it is generally regarded in the construction industry as 
a useful measure of how likely a project is to be completed on time. 
Figure 2 compares the sequence 2 contractor's billings since May 2003 
with the billings needed to complete construction work on schedule and 
indicates that the sequence 2 contractor is unlikely to finish the 
project until at least late spring or summer 2007 unless the value of 
completed work increases significantly and is sustained at the 
increased level. We believe that such a significant increase will be 
difficult, given the limited number of areas that will be ready for 
finish work at any given time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Notes:
    1. The early and late lines on this figure reflect the cumulative 
billings that would be required to complete the project through 
contract modification number 110 ($226.8 million total contact value) 
by the early and late finish dates shown in the sequence 2 contractor's 
schedule, which is based on the September 2006 contractual completion 
date.
    2. The actual line reflects the sequence 2 contractor's actual 
monthly billings.
    3. Although bills are typically submitted for payment after work is 
completed, it is often likely that construction work will be completed 
on schedule when the actual billing line falls between the early and 
late lines in the figure. With respect to the CVC, the actual billing 
line has been trending below, and in March 2006 went below, the late 
finish line, where it remained through June 2006. Even with the lag in 
billings, this trend indicates that the amount of work being completed 
each month is not sufficient to finish the project by the previously 
scheduled completion date.

 Figure 2.--Total Billings by the Sequence 2 Contractor for the Entire 
 CVC Project Compared with the Billings Needed to Finish Construction 
                            Work on Schedule

    Interior wall stone installation is taking longer than expected, 
but floor stone installation exceeded target.--Overall, about 84 
percent of the CVC's interior wall stone has been installed (in the 
CVC, East Front, atrium areas, and tunnels), according to AOC's 
construction management contractor, and the sequence 2 contractor 
installed 2,890 pieces of interior wall stone during the last 5 weeks, 
about 61 percent of its 4,736 piece production target. During the same 
period, the sequence 2 contractor installed about 7,130 square feet of 
floor stone, or about 5 percent more than the 6,770 square feet 
specified in the floor stone installation plan that the contractor 
recently provided to AOC. In addition, 2 of the 8 schedule milestones 
that we and AOC have been tracking for the Subcommittee for today's 
hearing are related to interior wall stone installation, and the 
sequence 2 contractor completed work for one ahead of schedule, but has 
not yet completed the other one, according to AOC's construction 
management contractor. Although the sequence 2 contractor made good 
progress in installing interior wall stone in the base project, it 
encountered delays in installing wall stone in the East Front and 
atrium areas. According to the construction management contractor, the 
East Front delays were attributable to a need for remedial, 
preparatory, and lead abatement work, and the atrium delays were 
attributable to the need to do remedial work and a decision by the 
sequence 2 contractor to resequence work affecting those areas.
    Figures 3 and 4 show the sequence 2 contractor's progress in 
installing interior wall and floor stone since January 23 and February 
13, 2006, respectively.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 3.--Progress of CVC Interior Wall Stone Installation Compared 
             with Targets Set by the Sequence 2 Contractor 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 4.--Progress of CVC Interior Floor Stone Installation Compared 
       with Preliminary Targets Set by the Sequence 2 Contractor

            Project's Schedule Remains Vulnerable to Challenges, Risks, 
                    and Uncertainties
    As we have indicated during the Subcommittee's previous CVC 
hearings, we believe that the CVC team continues to face challenges, 
risks, and uncertainties in completing the project. In our view, the 
remaining work associated with the fire protection system poses the 
greatest single risk to meeting AOC's July and August 2007 proposed 
opening dates. At this time, we are uncertain whether the 2 to 3 months 
that AOC has added to the schedule for addressing the challenges, 
risks, and uncertainties that continue to face the project--including 
the fire protection system--will be sufficient, particularly given the 
project's history of delays, the difficulties the CVC team has 
encountered in getting effective control over the fire protection 
system, and the large number of near-critical activities that can 
affect the project's overall completion if they incur relatively short 
additional delays. Accordingly, we plan to monitor the actions taken by 
the CVC team to enhance its control over the completion of the fire 
protection system, reassess the project's schedule this summer, and 
report our results to the Subcommittee by mid-September 2006. A brief 
update follows on the challenges, risks, and uncertainties the CVC team 
continues to face and the team's plans for addressing them:
  --Complex building systems remain a significant risk.--The CVC will 
        house complex building systems, including HVAC, fire 
        protection, and security systems. These systems not only have 
        to perform well individually, but their operation also has to 
        be integrated. If the CVC team encounters any significant 
        problems with them, either separately or together, during the 
        resolution of design issues, installation, commissioning, or 
        testing, the project could be seriously delayed. The risks and 
        uncertainties associated with the fire protection system are 
        apparent: the shop drawings for some elements of the system 
        have not yet been approved; installation has begun, and issues 
        other than the problem we discussed earlier may require 
        resolution. In addition, the process for testing the system is 
        not yet clear; the time needed to complete these activities is 
        uncertain, and the fire protection system must work in tandem 
        with the security system. The unanticipated problems that 
        emerged in reviewing the design of the fire alarm system and in 
        programming it illustrate the impact such problems can have on 
        the project's schedule. Additional delays could occur if the 
        team takes longer than expected to get approved shop drawings, 
        if the proposed system does not meet the project's design 
        specifications or the life safety code, or if the fire 
        protection system does not work effectively with the security 
        system.\5\ Additionally, the Chief Fire Marshal noted that 
        delays could occur if the CVC team does not adequately pretest 
        the system and correct any problems found during the 
        pretesting. On March 23, AOC's commissioning contractor 
        submitted its plan for testing the performance of the CVC's 
        smoke control system, which is a critical component of the 
        CVC's fire protection system and must work properly before the 
        CVC can be opened to the public. As of July 27, this plan had 
        not yet been submitted to or approved by the Fire Marshal 
        Division. Moreover, as we have previously noted, the Chief Fire 
        Marshal's timely completion of the fire protection system's 
        acceptance testing depends on his ability to obtain sufficient 
        funding for a contractor to help perform the tests.
---------------------------------------------------------------------------
    \5\ According to the sequence 2 subcontractor that is fitting out 
the House and Senate expansion spaces, the delays in getting approved 
shop drawings for the fire protection system have already postponed 
ceiling close-ins in the expansion spaces, and AOC believes that 
further such delays, along with possible requests for design changes, 
pose the greatest risks to the completion schedule for the expansion 
spaces.
---------------------------------------------------------------------------
  --Trade stacking could delay completion.--As we discussed during the 
        Subcommittee's previous CVC hearings, trade stacking could hold 
        up finish work, such as drywall or ceiling installation, 
        electrical and plumbing work, plastering, or floor stone 
        installation. This work could be stacked because of delays in 
        wall stone installation. Trade stacking could also increase the 
        risk of accidents and injuries. Hence, it remains important, as 
        we said at previous CVC hearings, for the CVC team to closely 
        monitor construction to identify potential trade stacking and 
        promptly take steps to address it. The CVC team has also 
        identified trade stacking as a high risk. The sequence 2 
        contractor has developed plans that show when various 
        subcontractors will be working in each area of the CVC except 
        the East Front, which the sequence 2 contractor does not expect 
        to be ready for finish work for several weeks. According to the 
        sequence 2 contractor, it intends to continue meeting regularly 
        with its subcontractors to review and update the area plans and 
        to have the area plan for the East Front done before finish 
        work begins there. According to the sequence 2 contractor, its 
        area-by-area plans have prevented trade stacking to date.
  --Building design and work scope continue to evolve.--The CVC has 
        undergone a number of design and work scope changes. Since the 
        Subcommittee's June 28 CVC hearing, AOC's architectural 
        contractor has issued nine design changes or clarifications. As 
        of July 27, 2006, this contractor reported, another eight were 
        in process. In addition, since the project began, AOC has 
        executed about 100 sequence 2 contract modifications for work 
        that was not anticipated.\6\ Some of these changes, such as 
        changes in the exhibit gallery and in the East Front, have 
        resulted in delays. Furthermore, although shop drawings have 
        been approved for almost all project elements except the fire 
        protection system, according to AOC, further design or scope 
        changes in various project elements are likely, given the 
        project's experience to date. In fact, in reporting on the June 
        schedule, AOC's construction management contractor noted that 
        anticipated changes to the House expansion space could affect 
        ceiling close-ins. Project design and scope changes are 
        typically reflected in the development of potential change 
        orders (PCO), many of which result in contract modifications. 
        Figure 5 shows the PCOs submitted for consideration for 
        sequences 1 and 2 since September 2003. Although PCOs are not 
        always approved, they are often regarded as a reasonably good 
        indicator of likely future design or scope changes that can 
        affect a project's cost and schedule. Even more important, the 
        adverse impact of scope and design changes on a project's 
        schedule is likely to increase as the project moves toward 
        completion. For example, changes in the design of the gift 
        shops are likely to affect the project's schedule more 
        adversely now than if the changes had been made several months 
        ago.
---------------------------------------------------------------------------
    \6\ These data exclude sequence 2 contract modifications for work 
that was planned but not included in the sequence 2 base contract. 
Examples include the fit-out of the House and Senate expansion spaces, 
the construction of the utility tunnel, and the purchase and 
installation of food service equipment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 5.--Cumulative Number of Potential Change Orders Submitted for 
       CVC Sequences 1 and 2 between September 2003 and June 2006

      As the figure indicates, new PCOs for sequence 1 were submitted 
        until shortly before, and even for several months after, 
        November 2004, when AOC determined that the sequence 1 contract 
        work was substantially complete. Similarly, PCOs for sequence 2 
        are still being submitted, and we have seen no indication that 
        their submission is likely to stop soon. It therefore appears 
        likely to us that some of the design or scope changes indicated 
        in PCOs could lead to contract modifications that will affect 
        the project's schedule. AOC agrees that it is important to 
        minimize the impact of proposed design and scope changes.
      Additional delays associated with the CVC's new utility tunnel 
        have resulted, or are likely to result, in additional work or 
        slippages. As we have previously testified, the delay in 
        starting up the utility tunnel's operations has necessitated 
        the use of temporary humidity control equipment for the 
        orientation theaters to avoid damage to finish work and ceiling 
        tile. Moreover, utility tunnel delays could require additional 
        equipment in other areas, subject certain work to risk of 
        damage, or delay finish or ceiling work in areas not suitable 
        for the use of temporary humidity and temperature control 
        equipment. For example, the CVC team installed ceiling tile in 
        portions of the great hall to take advantage of the scaffolding 
        in place, even though neither the temperature nor the humidity 
        were controlled in that area. According to the CVC team, the 
        installed tile could be damaged if the temperature or humidity 
        is not within the specified levels. The CVC team has completed 
        the preparatory work necessary to begin running chilled water 
        through the CVC utility tunnel and expects to have steam 
        running through the tunnel by mid-August. The team expects to 
        have the first air-handling unit--which serves the exhibit 
        gallery--providing dehumidified air to the exhibit gallery by 
        mid-August. To keep the CVC and expansion space finish work on 
        schedule, the team will have to either get the other air-
        handling units operational within the necessary time frames or 
        obtain temporary equipment to provide conditioned air, where 
        feasible.
  --Opening the CVC and expansion spaces at different times is likely 
        to result in a temporary cap on CVC occupancy and could 
        increase costs.--AOC's current plan to open the CVC in July 
        2007 before the expansion spaces are scheduled for completion 
        is likely to result in a temporary cap on CVC visitor occupancy 
        and may necessitate the construction of temporary emergency 
        exits for fire and life safety protection.\7\ AOC is proposing 
        this sequential approach because it believes that conducting 
        acceptance testing for the fire protection system for the CVC 
        and the expansion spaces concurrently would delay opening the 
        CVC to the public. AOC's proposed July 2007 opening date for 
        the CVC depends on the timely completion of work not only on 
        the base project but also on the expansion spaces, since 
        certain expansion space work must be completed before the CVC's 
        opening. Because certain work on both the base project and the 
        expansion spaces has been delayed during the last several 
        months, we believe that it will be especially important to 
        monitor the progress of construction to determine what 
        additional work (and funding) may be needed to meet AOC's 
        planned date for opening the CVC, including what temporary work 
        may be required in the expansion spaces for the opening to 
        occur before the expansion space work is completed. AOC's Chief 
        Fire Marshal has not yet worked out the details of how he will 
        conduct his acceptance testing for the CVC and the expansion 
        spaces; so the order in which various CVC and expansion space 
        areas will be available for opening is not yet clear. More 
        information on this sequencing issue should be available by the 
        Subcommittee's next CVC hearing because the Chief Fire Marshal 
        expects to have his testing plan done soon.
---------------------------------------------------------------------------
    \7\ According to AOC, the CVC's occupancy at any one time would be 
temporarily limited to 3,500, compared with about 4,200, the normal 
anticipated occupancy level, until acceptance testing of the fire 
protection system for the expansion spaces has been completed. Although 
AOC anticipates the need for some temporary work, it does not believe 
that the associated costs will be substantial.
---------------------------------------------------------------------------
  --Risks from insufficient stone deliveries appear to be 
        diminishing.--Although wall stone shortages have caused delays 
        in the past, they have not recently been a problem. All of the 
        wall stone for the base project and atrium areas has been 
        delivered, and AOC does not anticipate a problem with the 
        remaining wall stone deliveries. According to the construction 
        management contractor, about 3,700 pieces of wall stone for the 
        East Front and all of the wall stone for the tunnels still have 
        to be delivered. For a time, the sequence 2 contractor did have 
        a problem with the delivery of floor stone for the exhibit 
        gallery, but that problem has been resolved, and the contractor 
        does not anticipate problems with floor stone deliveries for 
        other areas. The sequence 2 subcontractor doing the House and 
        Senate expansion space work said that some wall stone for the 
        expansion spaces has been delivered, and at this time he does 
        not anticipate a delivery problem with the remaining wall 
        stone.
    Finally, as we have said in previous discussions with AOC, its 
construction management contractor, and the Subcommittee, it will be 
important for AOC to have adequate analysis and documentation of the 
reasons and responsibilities for delays.\8\ On April 11, 2006, AOC 
executed a contract modification authorizing its construction 
management contractor to have one of its managers who has not been 
involved in the CVC project assess the adequacy of this type of 
information. The manager submitted his report to AOC in early June. He 
reported generally positive findings but also identified desired 
improvements. He made several recommendations to AOC, which AOC has 
generally agreed with and plans to implement consistent with the 
availability of resources. As we have previously stated, we believe it 
is important for AOC to complete its analysis of delays expeditiously 
given the current September 15, 2006, sequence 2 contract completion 
date and the impact this analysis is likely to have on delay-related 
costs.
---------------------------------------------------------------------------
    \8\ See for example: GAO, Capitol Visitor Center: Effective 
Schedule Management and Updated Cost Information Are Important, GAO-05-
811T (Washington, D.C.: June 14, 2005).
---------------------------------------------------------------------------
Estimated Project Cost and Funding
    Our most recent estimate of the cost to complete the CVC project 
was made several months ago. At that time, we estimated that the total 
cost to complete the entire CVC project would be about $556 million 
without an allowance for risks and uncertainties and could be as much 
as about $584 million with such an allowance. To date, about $530 
million \9\ has been provided for CVC construction. This amount 
includes about $3.6 million that was made available for either CVC 
construction or operations and has been approved for CVC construction 
by the House and Senate Committees on Appropriations.\10\ AOC and its 
construction management contractor have completed their reassessments 
of the cost to complete the project and have concluded that the amount 
of funds provided to date plus the $26 million that AOC hopes to 
receive in fiscal year 2007 CVC construction funds will be sufficient 
to complete the project except for possible delay-related costs. (This 
$26 million in additional funds is the amount our previous cost-to-
complete estimate showed would be necessary without provision for risks 
and uncertainties.) AOC and its construction management contractor 
acknowledged, however, that in drawing their conclusions, they assumed 
that some funds that have been slated for use for possible delay-
related costs may have to be used for other purposes, thus possibly 
requiring additional funding for potential delay-related costs. As we 
testified during the Subcommittee's June 28 CVC hearing, recent events 
have raised questions about the sufficiency of the $556 million cost-
to-complete estimate, given that it does not provide an allowance for 
risks and uncertainties. Although recent events suggest to us that our 
previous $556 million estimate may increase, we have not changed it yet 
pending the results of our reassessment of the cost to complete the 
project, which we expect to have by mid-September. Notwithstanding our 
pending reassessment, we have no specific indication that the total 
cost to complete the project will exceed our $584 million estimate, 
which does include an allowance for risks and uncertainties.
---------------------------------------------------------------------------
    \9\ See footnote 3.
    \10\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million (reduced to $10.5 million by a subsequent budget 
rescission of $84,800) could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. AOC has now received approval to obligate 
the entire $10.5 million, which we will discuss further in our next CVC 
testimony.
---------------------------------------------------------------------------
    In addition, AOC has indicated that it plans to use about $950,000 
of the fiscal year 2007 general administration appropriations it has 
requested to provide contractual support for its Fire Marshal Division. 
As we stated in our last several CVC testimonies, AOC believes that it 
may be able to reduce the amount of funds it will need in fiscal year 
2007 to provide contractual support for testing the CVC's fire 
protection system and is exploring ways to do so. We plan to monitor 
this situation and report to the Subcommittee as soon as AOC has a 
firmer estimate.
    AOC currently has sufficient contingency funding available to cover 
anticipated possible delay-related costs associated with the asbestos 
problem identified in connection with the work being done to connect 
the tunnel running from the CVC to the Jefferson Building. Even after 
considering use of the contingency to address anticipated possible 
costs for the asbestos problem, AOC would have contingency funding 
available for some additional problems or changes related to the 
Jefferson Building work. We will continue to monitor this work and the 
use of the contingency funds for it.
    Mr. Chairman, this completes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.

       APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, JUNE 29, 2006-AUGUST 2, 2006
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
               Activity                                    Location                      completion   completion
----------------------------------------------------------------------------------------------------------------
Wall Stone Area 3.....................  East Front Ground.............................      7/17/06  \1\ 7/15/06
Plaster Walls.........................  Orientation Lobby.............................      7/18/06  \1\ 7/25/06
Plaster Ceilings......................  West Lobby Assembly...........................      7/19/06  \1\ 7/25/06
Hang VP Drywall Ceiling...............  Congressional Auditorium, Lower Level.........      7/20/06      ( \2\ )
Wall Stone Area 6.....................  Congressional Auditorium......................      7/20/06      ( \3\ )
Flush and Treat HVAC Piping...........  CVC...........................................      7/24/06      6/24/06
Fire Alarm Record Submittal...........  CVC...........................................      7/31/06      ( \4\ )
Install AHU-EF-1......................  Mechanical System.............................      8/01/06      ( \5\ )
----------------------------------------------------------------------------------------------------------------
\1\ Work noted as substantially complete by contractor.
\2\ Preceding work took longer than expected.
\3\ Work delayed by concrete tolerance issues related to sequence 1.
\4\ Contractor needed to incorporate a revised sequence of operations specification recently received from AOC,
  and other issues took longer than expected to resolve.
\5\ Work was re sequenced after schedule was updated in June and is now expected to be done in late August.
 
Source: AOC's June 2006 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and its
  construction management contractor for the actual completion dates and reasons for missing milestones.

    Senator Allard. Mr. Dorn, I want to thank you for your 
testimony and your help to the subcommittee in following the 
progress of this very complex, difficult and important project. 
I want to direct my first question to Mr. Hantman. It has to do 
with our appropriation process. It looks like we are going to 
have some delays here. We have some challenges in having our 
legislation ready by the first of October. What impact might 
there be if we don't get the 2007 appropriations bill passed on 
time?

               POTENTIAL IMPACT OF CONTINUING RESOLUTION

    Mr. Hantman. My sense, Mr. Chairman, and I would ask Gary 
Lee, who is monitoring our dollars for us, to verify that this 
is the case, is that the dollars that already have been 
appropriated but not yet obligated, could potentially be used 
if we modified an obligation plan. We have dollars for future 
settlements and things of that nature, that we might have to, 
depending on the length of a continuing resolution, to move 
from one pot into another. My sense is that with the dollars 
that we do have already, we should be able to get by that 
period of time.
    Senator Allard. A continuing resolution would keep us at 
last year's funding level. Ordinarily that is the case, at the 
minimum and it could be more, depending on what it might say 
but historically, that's what we've done. So you are saying the 
difference between that and the increases in there, you could 
get by.
    Mr. Hantman. Gary, did I speak correctly on that?
    Mr. Lee. Yes, if it was a lengthy delay, we would face the 
risk of running out of money for some things that we need to 
extend, such as our construction management staff. We currently 
have them onboard through December, some into January.
    We have a construction management staff that is assisting 
the AOC in managing the project and we have, of course, a 
contract with Gilbane as the CM. We have already negotiated an 
extension for their contract that carries their staff through--
some of them until December, some extend into June of next 
year. We would have to potentially do an extension beyond that 
if the job runs over. We have money in the 2007 appropriation 
to cover that so if that money was delayed, then we wouldn't be 
able to process that extension and we could be in trouble there 
if we didn't have it by December.
    Senator Allard. For the record, would you give us your name 
and your position?
    Mr. Lee. I'm Gary Lee. I'm the Project Administrator. I 
work under Bob Hixon, Project Executive for the project team.

                            COST TO COMPLETE

    Senator Allard. Very good. Now, I'd like to go to the cost 
reassessment. Mr. Hantman, the Architect of the Capitol's 
office has reassessed the cost of completing the Capitol 
Visitor Center, and doesn't believe there is any additional 
costs beyond that included in the 2007 appropriations bill with 
the exception of future delay claims.
    Mr. Hantman. That's correct, sir.
    Senator Allard. Do you think that is realistic Mr. Ungar?
    Mr. Ungar. Mr. Chairman, we haven't done our reassessment 
yet but based on all the events that have occurred over the 
last few months, our confidence is lessened, less than it was 1 
month or so ago, so we believe that there may be the need for 
additional funds, over and above the amounts that AOC 
anticipates that would be needed for delay related costs but we 
are not in the position yet to give any specific numbers.
    Senator Allard. Mr. Hantman, earlier estimates included 
contingency amounts for delayed claims.
    Mr. Hantman. That's correct.
    Senator Allard. Does your estimate assume using those 
contingencies to pay for some of these items?
    Mr. Hantman. As the negotiations for delayed claims go on, 
we get a better handle on as we move forward. We have a 
significant amount of dollars currently appropriated to handle 
existing delayed claims. What I think Bernie and I are talking 
about is potential future ones that may come up--we've not 
heard anything about it from the contractors as of yet. We 
know, for instance, on the delay on the ``R'' tunnel and the 
utility lines coming on through. Those kinds of issues do 
impact contractors and their flow of work. So we may be hearing 
something on that. We've not yet heard that to date and 
couldn't quantify any potential issues relative to that.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Mr. Chairman, at this point, again, we don't 
have any specific numbers but our thinking is that it is likely 
that AOC would have to use some of its money that is, I'll use 
the word slated, for delays right now, for changes that are 
forthcoming. But again, the exact amount, we are not in a 
position right now to estimate.
    Senator Allard. Now, when in September are you anticipating 
having a reassessment available?
    Mr. Ungar. Before your hearing, sir.
    Senator Allard. We wanted to hear that!
    Mr. Ungar. We're targeting right now for mid-September. We 
don't know exactly when the hearing is going to be, but by the 
15th we'll be ready.
    Senator Allard. Yes, the 18th is when we are looking at for 
a hearing.
    Mr. Ungar. Okay.

                     DOCUMENTING REASONS FOR DELAYS

    Senator Allard. Now, the CVC project has experienced a 
number of delays during sequence 2 and the Government 
Accountability Office has emphasized the importance of you 
having adequate analysis and documentation of the reasons and 
responsibilities for delays, something that did not happen 
during sequence 1. The September 15 contract completion date 
for sequence 2 is rapidly approaching. What have you done to 
ensure that you have adequate information on the reasons for 
delays during sequence 2 as well as a view regarding 
responsibility for the delays? Mr. Hantman?
    Mr. Hantman. We've certainly been talking with the 
contractors. The detailed delay claims that have come through, 
Mr. Lee has been reviewing, along with Gilbane, and we've been 
settling those as we can. Mr. Lee can talk specifically about 
some of them, rather than in general as we have talked about 
them in these hearings. There are more that are still 
outstanding. Negotiations are ongoing on those delay claims.
    Senator Allard. So there have been requests at this point 
in time for additional extensions?
    Mr. Hantman. Yes. There are time and dollar impacts on some 
of the claims that have come in, yes. And we have negotiated 
some of those.
    Senator Allard. All right.
    Mr. Hantman. And the process of negotiating them is 
ongoing.
    Senator Allard. Will you be able to give us a report on the 
18th?
    Mr. Hantman. I think basically, the issue, Mr. Chairman, is 
the contract completion date is September 15 right now. We have 
not negotiated with the contractor yet, an extension of time 
beyond September 15 for them to complete the project. Although, 
the schedules that we have been working on basically 
contemplate the idea of a completion in the December timeframe. 
We still need to negotiate those but the CVC contract calls for 
the construction of a complete and usable Capitol Visitor 
Center. It's really not a level of effort contract where we 
purchase construction services for a finite period of time. So, 
when the contract completion date is reached, the contract 
still remains in place and the contractor still remains 
obligated to continue working. The contract itself provides the 
remedies of relief that we and the contractor are entitled to, 
in the event of late completion. So we still need to negotiate 
all of those. We will be sending a letter to the contractor 
prior to September 15 reminding him of the completion date and 
that he needs to give us whatever claims he has for ongoing 
work or for delays. We will send him that letter and that 
timely completion remains essential but we request that he 
submit any requests for additional time to which he believes he 
is entitled.
    Senator Allard. But you do need some sort of contractual 
change, don't you?
    Mr. Hantman. Ultimately, it will have to be--yes. And how 
that is addressed is something that we and our attorneys are 
talking about right now.
    Senator Allard. Are they indicating to you that they can 
have this done rather quickly here, with the 15th coming up?
    Mr. Hantman. I don't think it will be done prior to the 
15th. Gary, do you have any sense of that?
    Mr. Lee. No, I don't believe it is going to be done by the 
15th. We will be in negotiations with the contractor to work 
out a revised completion date and once we have that worked out, 
we'd be issuing a modification to their contract.

                           PROJECT MILESTONES

    Senator Allard. On the milestones, only two of the eight 
milestones were completed on time in the last month, two were 
completed late; four have yet to be completed. Why haven't all 
the milestones been met? The excuse that was given to us at the 
last hearing, by Mr. Hixon, was that they were going back to a 
January schedule. AOC moved the schedule to June and you are 
still missing milestones. Can somebody respond to that?
    Mr. Jacobs. Mr. Chairman, the milestones that we're 
tracking are not necessarily contractual milestones. They are 
just indicators that the contractor uses to try to make sure 
that the work is getting done in a timely manner. Other 
priorities often arise where they have to re-sequence some 
things. In this case, although we were able to get two done on 
time and two done very shortly thereafter, there were issues 
that arose. For instance, the air handlers. One of those was 
intended to be done in August but the contractor found that it 
would be more efficient to actually bring it online with two 
air handlers at the same time. Therefore, although we didn't 
meet that milestone, it helped to improve on a later milestone.
    Senator Allard. I noticed that in your testimony and the 
Architect of the Capitol's testimony. But do we have a 
milestone there that is going to have the potential of delaying 
the project where it can't be done concurrently?
    Mr. Jacobs. No. Well, of those lists, the one that there is 
some risk on, is the fire alarm, resolving the fire alarm 
programming issues. So we are tracking that one very closely. 
We are working with the contractor to get their submittal in. 
It will be one of the topics of the upcoming fire alarm meeting 
with the fire marshal on Friday. We expect to be able to return 
comments within a week or so. Therefore, August 21 is the date 
that we anticipate that all of the issues related to that 
programming will be complete and that the contractor can start 
programming the fire alarm system.
    Senator Allard. Okay, now that does move us into the fire 
monitoring issue. Mr. Ungar, did you have a comment?
    Mr. Ungar. Oh, no sir. I was going to agree with Mr. Jacobs 
that that would be the milestone that we would have picked 
also, that could be real problematic if it continues to slip.

                     FIRE ALARM ACCEPTANCE TESTING

    Senator Allard. I want to pursue your problem with the fire 
alarm system and I want to be sensitive to your statement that 
for security reasons, there are some aspects of this that we 
probably wouldn't want to discuss in a public forum but I am 
going to press you for giving us additional comments about how 
this problem came about in a general sense.
    Mr. Jacobs. We only learned about this problem very 
recently. It was a concern that the fire marshal had about a 
particular component of the life safety systems. This 
particular component is actually unique to the CVC, that it is 
an equivalency that the fire marshal's office and the designers 
had come up with to address some conflicting code versus 
security requirements on the project. As such, because there is 
not really a standard for this, there were no standard details, 
no standard specifications to which the designers could refer. 
In addition, because this is unique to the CVC and it is not 
industry standard, the contractor did not realize that there 
were any special needs related to this particular system 
component. As a result, we really didn't realize until just 
recently that there was an issue. When we did realize it, we 
immediately sat down with the contractor and with the fire 
marshal's office and we were able to work out a compromise that 
basically kept all of the existing work in place but added to 
it to improve some redundancy.
    Senator Allard. I'd just comment that it has been over a 9 
month period that this subcommittee has consistently brought up 
issues with the fire alarm system and demanded that we had some 
plans as we moved along. It is disappointing that we continue 
to push this issue and we continue to have problems with the 
fire alarm system. Mr. Hantman, the reason AOC brought on the 
project management contractor, Gilbane Building Company, was to 
try and identify problems like we have with the fire damper 
monitoring system, long before it becomes a problem. Are you 
satisfied with the support they are providing?
    Mr. Hantman. We have directed them, Mr. Chairman, to 
include on their list of works and their meetings, full 
involvement and review of the prioritized list of fire and life 
safety issues and to take that list on a weekly basis, as 
opposed to biweekly, and include all of the key players. That 
would include the fire marshal, the Capitol Police, and all of 
the contractors, to make sure that, on a weekly basis, all of 
these issues are constantly reviewed. They had not been 
constantly reviewed in the past. Key issues were addressed as 
they came up as opposed to an overview of the whole list of 
issues on that priority list.
    Senator Allard. And now you are beginning to involve them 
in your meetings, where in the past, the fire marshal and the 
police, you hadn't involved them in your meetings?
    Mr. Hantman. They had been involved in our meetings, 
definitely, but not every weekly meeting. Now they will be at 
every weekly meeting to make sure that we are touching base and 
giving progress reports on a weekly basis.
    Senator Allard. I think that should be helpful. I'm glad to 
hear that change in your plans. When, Mr. Hantman, will you 
know the exact cost impact associated with the fire dampers?
    Mr. Hantman. Gary, do we have a sense of that?
    Mr. Lee. Well, it will probably still be a couple of weeks 
before we have a better idea on this. Basically, we're having 
to--although we have an approach, we have to work out the 
specifics on this. That is something that we will be talking to 
the contractor about on Friday. Because of the sensitivity of 
this, we need to make sure that the fire marshal's office is in 
full agreement on the specifics of how they plan to tackle this 
issue. So once we know the specifics, we'll be in a much better 
position to understand how much time is going to be involved 
and what the potential cost will be.
    Senator Allard. Okay, now let's move on to some of the 
other fire system issues. They've dragged on for several months 
and many of those remain unresolved. At last month's hearing, 
Mr. Hixon testified that the matrix for the fire alarm system, 
outlining how the system needs to function, was to be completed 
by July 15. Did that happen?
    Mr. Jacobs. No, Mr. Chairman, unfortunately it did not. It 
is a very complicated issue, trying to put this on paper and 
figure out how all of the different parts of the program need 
to work. The contractor is working on it and that also is 
something that we expect to have a draft of from them this 
Friday. We are then anticipating that there will be about 2 
weeks of back and forth with the fire marshal reviewing that 
matrix. So that was the date that Mr. Hantman had referred to 
as being August 21, when we think that it will be fully 
approved and when programming can start.
    Senator Allard. What other components of the Capitol 
Visitor Center's fire protection system have not been approved 
and what steps are you taking to ensure that additional 
surprises do not occur with design, installation or testing of 
these components?
    Mr. Jacobs. At this point in the project, there are not any 
outstanding submittals or I should say, not any submittals that 
the fire marshal's office has not seen before. All of them have 
been submitted in some portion. There are quite a number that 
are still not fully approved that we are still going through 
the resubmittal process on. That is the intent of this list 
that we're talking about. We've had a list in the past that 
tracked the submittals, the status of the submittals. What 
we've done is we've expanded that list to not only include 
submittal specific items but also to include overriding--you 
know, larger issues, basically, that may not be submittal 
specific. So the idea is, that by looking at these issues 
themselves, we can track those much better and make sure that 
we are moving forward in resolution on those.
    Senator Allard. Mr. Ungar, are you satisfied with that? Do 
they have the systems in place to ensure that we don't have any 
more surprises like this?
    Mr. Ungar. Mr. Chairman, I don't think we totally have the 
system in place. Hopefully it will be working shortly but I did 
just want to clarify one thing that Mr. Jacobs mentioned, that 
is I do not believe that all of the aspects of the fire 
protection system have yet been provided to the fire marshal. 
One in particular that I know hasn't come to him yet, has to do 
with particular, separate fire alarm panels that will be 
required in the House and Senate expansion spaces. I believe 
there may be others. I don't know how much of a potential 
problem they present but to our knowledge, the fire marshal 
hasn't seen those and one of the issues that we are concerned 
about is making sure that there is a complete list so everybody 
agrees where the project stands in that regard.
    Mr. Jacobs. And I would follow up just to say that that is 
a component of a larger submittal that they have seen. That 
particular element, Mr. Ungar is correct, still needs to be 
provided to them.
    Senator Allard. But don't you agree we need to have a fully 
approved design for the fire protection system?
    Mr. Jacobs. Absolutely.
    Senator Allard. And when will you have that done?
    Mr. Jacobs. Again, we have the list that we will be 
tracking all of these issues on and there are target dates for 
all of these. They probably will continue now through early 
fall.
    Senator Allard. Here is part of the problem as I see it. 
The fire marshal has got his staff year around but then you 
dump a whole bunch of work on him at the end. It is difficult 
for him to meet these deadlines and so that is why we have been 
pushing to get these to him so that he can plan for his whole 
year. According to GAO, the Capitol Visitor Center's fire 
protection system now represents the single greatest risk to 
project completion. Mr. Hantman, do you agree with GAO's 
assessment?
    Mr. Hantman. Yes, I do, Mr. Chairman. In the past, we had 
an awful lot of discussion about the stonework and the 
deliveries and the courts' suits and things of that nature. I 
think that is basically in hand. We have still a modicum of 
stone to be delivered and installed but there is no doubt that 
the fire alarm system, the installation of it and the ultimate 
testing of it, is the most critical path.
    Senator Allard. Is there anything you personally plan to do 
to oversee the successful completion of the fire protection 
system?
    Mr. Hantman. We've established Wednesday meetings, which I 
have initiated and I attend. I push people for resolution of 
issues so that we just don't discuss something and push it off 
into the future. I think we've made an awful lot of progress 
over the last couple of months with the addition of these 
meetings, with all people around the table. I just lock the 
door and say, ``Nobody leaves until we resolve these issues.''
    Senator Allard. Our subcommittee recently provided some 
reprogramming dollars so the fire marshal could deal with some 
of these fire system-testing procedures. Does the fire marshal 
have sufficient resources with these funds?
    Mr. Hantman. Yes, I believe he does. He has already brought 
one consultant on. He has three other consultant firms that he 
is talking to and is ready to bring on so that he can meet the 
workload. He is working very closely with the contractors to 
find out when this information is going to flow and he has the 
resources now to bring that help on.
    Senator Allard. Now, can you give us some idea of when we 
will have a complete schedule for testing all of the life 
safety systems?
    Mr. Hantman. Do we have information on that? That is 
something that the fire marshal's office is working on. We have 
preliminarily put together what we believe the plan, the 
schedule would be. The fire marshal, his office is further 
developing that. I'm not sure exactly when. Maybe we can 
introduce the fire marshal himself and he can respond to that.
    Senator Allard. Mr. Lauziere, would you like to comment, 
perhaps? Identify yourself for the record and state your 
position, if you will.
    Mr. Lauziere. Thank you, Mr. Chairman. My name is Kenneth 
Lauziere. I am the Chief Fire Marshal for the Office of the 
Architect of the Capitol. We do have a plan that we've been 
working on with both our consultants and with my office for the 
fire protection system acceptance plan as well as the overall 
commissioning plan for the building systems. As you certainly 
know, the entire system of fire protection and life safety also 
encompasses all of the building systems, whether it be the 
security, the air handling, emergency generators, things of 
this nature.
    Senator Allard. That's why they emphasized all----
    Mr. Lauziere. That's exactly--yes, very much so. So we're 
working on that plan. We do have a list that we had submitted 
to the CVC team some time ago, which encompassed all of the 
code mandated, the fire code and building code mandated 
subsystems that needed to be affirmed and tested prior to 
occupancy of the building. We are now expanding that to make 
sure that we not only pick up those elements but that we also 
provide all of the subsets of what each of those encompasses so 
that we can get a handle on just how much time and what effort 
the contractor needs to make sure he does his pre-testing in 
preparation for our final acceptance of the systems.
    Senator Allard. You've got some more work to do.
    Mr. Lauziere. We do have some more work to do. My goal is 
that by the end of August, we're going to have our plan 
together that will give them the entire subset listing of what 
the life safety components are so that they can make sure that 
we have that in target with the contractor.
    Senator Allard. It sounds like we're going to have a lot to 
cover on September 18.
    Mr. Lauziere. Possibly so, that's correct, yes.

                 CAPITOL VISITOR CENTER UTILITY TUNNEL

    Senator Allard. Okay, thank you. On the CVC tunnel, I'm 
curious as to what the status of connecting the new CVC utility 
tunnel to the existing ``R'' tunnel. Has the necessary asbestos 
remediation and re-insulation work been completed?
    Mr. Hantman. Yes, it has, Mr. Chairman. There is one 
section of insulation that will have to be replaced later on 
but that will be contained until that gets done. The basic 
insulation of all of the pipes tied in now has been completed. 
That space had been remediated so you don't need to wear 
protective gear in that particular ``T'' intersection where the 
``R'' tunnel ties into the CVC tunnel. So that's why we now 
have the valves open and the chilled water flowing right now.
    Senator Allard. Now, just so everybody understands, the 
focus on the hearing is the Capitol Visitor Center, we are 
particularly interested in the tunnel issue because that had an 
impact on our completion date on the Capitol Visitor Center.
    We have some separate issues on the utility tunnels that we 
will pursue in a different forum because we are focusing on the 
Capitol Visitor Center issues at these hearings.
    Mr. Hantman. That's fine, sir.

               CAPITOL VISITOR CENTER AIR HANDLING UNITS

    Senator Allard. Mr. Hantman, you said that the chilled 
water is now available from the utility tunnel. Is it actually 
being used and are any of the air handlers in the Capitol 
Visitor Center now providing cool air to the exhibited area and 
if not, why not?
    Mr. Hantman. The air handling unit number one was the first 
air handling unit scheduled to be online. Chilled water now 
sits at the valve right at that unit. There is still some 
additional testing and cleaning that needs to be done in the 
exhibition area before that valve is turned on and water 
actually flows into air handling unit number one. For instance, 
in the ceiling of the exhibition area, in the photo that we 
showed earlier, they just completed cement issues work on the 
ceiling. There is still debris that needs to be cleaned up. 
That work has been done, the painting has been done. The 
scaffolding is beginning to come down and all of that debris 
that has fallen beneath the scaffolding needs to be cleaned up 
before we turn on the air handling unit. We can't risk the 
debris in that area being sucked into the air handling units.
    Senator Allard. So when the air handlers are used, how do 
we isolate the areas from the unheated portions?
    Mr. Hantman. The access to the exhibition area, for 
instance, Mr. Chairman, that air handling unit number one 
serves, has basically three entry points.
    Senator Allard. I see.
    Mr. Hantman. We currently have them all covered right now, 
for dehumidification purposes as well as ultimately for turning 
on the air conditioning in that space and finishing off the 
work.
    Senator Allard. When do you think steam would be available 
for the air handling units?
    Mr. Jacobs. It should be the middle of this month; August 
18 is our current date.
    Senator Allard. How are you controlling the humidity in the 
meantime?
    Mr. Hantman. We have temporary dehumidifiers that are in 
the orientation theatres and we've been dehumidifying, I 
believe, the exhibition space as well so that we can begin the 
installation of millwork and ceiling panels. So that work, that 
may have been temporary units that are sitting on the plaza and 
we pipe in dehumidification air so that we can keep the very 
uncomfortable air that we see here from impacting the finishes 
that we are installing.
    Senator Allard. Mr. Ungar, do you have any comments on this 
plan and some of the things that they've explained as far as 
the air handling units?
    Mr. Ungar. Yes, Mr. Chairman, one thought. As far as Mr. 
Hantman explained it, that's fine. We also have seen some 
information pulled together by the construction management 
contractor that raises some concerns and issues with respect to 
the readiness of the air handling units. We're not in a 
position to fully evaluate those but we have been seriously 
considering bringing on a consultant very shortly to help us 
sort through those, particularly with respect to our 
reassessment of the schedule and being confident that we are 
where we are supposed to be and that we can rely on the 
schedule and that the problems that have been identified either 
will or will not affect the ability to bring the air handling 
units on when the schedule would indicate.
    Senator Allard. The bottom line is this air handling unit 
issue could impact our completion schedule?
    Mr. Ungar. It could, yes sir. It is very important.
    It is very important too, not only from the standpoint of 
the eventual opening but a lot of the work that Mr. Hantman 
talked about, the finish work, will require conditioned air and 
it is going to be more difficult in some areas to get that and 
right now. One particular problem the sequence 2 subcontractor 
responsible for the House and Senate expansion space is having 
is being delayed and being able to do some of his ceiling work 
because he lacks conditioned air. So it is very important that 
that be taken care of.
    Senator Allard. Mr. Dorn.
    Mr. Dorn. In addition, the air handling system needs to be 
completed so that you can get your testing of the fire alarm 
system done. So one of those is going to become the longest 
pole in this tent and it is just which one finishes first. But 
the air handler system is critical to finishing this job.

                            EXHIBIT GALLERY

    Senator Allard. We hope to hear some good news in 
September. I understand that the opening of the exhibit gallery 
cannot occur until the end of June. That's the current 
schedule, because there must be a certificate of occupancy on 
hand before the artifacts can be installed in the visitor's 
center. It looks to me like we're cutting it a bit close, from 
our June completion date to a July opening. I wonder if you 
would comment on that, Mr. Hantman?
    Mr. Hantman. We have talked in that timeframe, Mr. 
Chairman, in the June/July timeframe of being able to bring in 
visitors for test cases with our guides to train them in terms 
of how people can move through the visitor's center. We still 
anticipate that we'll be done. One of the things with our 
artifacts and the agreements that we have with the various 
institutions that will be lending us these artifacts--and 
sometimes they are only lent for a period of 5 or 6 months--is 
that we really don't want to take the original artifacts until 
we are ready to have our grand opening, whatever date the 
Congress ultimately agrees on. So if that is in September or 
October--whatever it turns out to be, we would want to be 
bringing in the those artifacts perhaps a month beforehand and 
not have our clock ticking on borrowing them for 5 or 6 months 
in advance. So we would certainly have the capability of 
putting in replicas and so labeling these exhibits as temporary 
exhibits, so that we can have that in there, test out the 
systems and have people see what will ultimately be the 
originals.
    Senator Allard. So July would be a training period, 
basically? Our actual opening period is going to be some time 
after July?
    Mr. Hantman. I think the Capitol Preservation Commission is 
discussing that now.
    Senator Allard. Okay. Are you working with the office that 
provides the certificate of occupancy so that issues that might 
come up at the end have been discussed and talked about before 
we get to that point?
    Mr. Hantman. Yes. Our fire marshal, Ken Lauziere, 
essentially will be providing the certificate of occupancy so 
he is very much involved in when people can come on in and what 
we can do in the space.
    Senator Allard. So he is the one that will be providing 
that certificate?
    Mr. Hantman. That's correct, sir.
    Senator Allard. Mr. Ungar, any comments as we close up the 
hearing?
    Mr. Ungar. Just one suggestion, Mr. Chairman, for Mr. 
Hantman, that came to my mind after we did our statement and 
that is, given the importance of the fire protection system, he 
might want to look at the staffing level within the team to 
deal with this issue. When you look at this, there is no one 
particular person on the AOC team who is really an expert in 
this area. The construction management contractor has an 
individual who is overseeing this, a senior engineer who is 
very good and is doing generally a very good job. The problem 
is, is that there are a lot of issues and he is handling not 
only the fire protection issue, but he is also handling the 
heating, air-conditioning and ventilation system and the 
security system. There are so many things coming up that they 
just might want to take a look at this and make sure that they 
have enough capacity to handle all these issues in a timely 
way. One problem that they are having is that the submissions 
that relate to the fire protection system for the review and 
approval of the fire marshal are languishing. Many of them are 
taking as many as 9 months and maybe even more to get through 
the process and a whole series of things that have to happen, 
so again, I think they need to look at the staffing level very 
closely.
    Senator Allard. Those are helpful comments. Mr. Hantman, do 
you have any closing comments?
    Mr. Hantman. Mr. Chairman, we are making progress as 
evidenced by the photographs and the documentation that GAO is 
also providing. This is a magnificent challenge, Mr. Chairman, 
no doubt about that, a very complex project. As you pointed out 
and I've also talked about, a beta test site. I have no doubt 
that we are going to be able to work through any challenges and 
this project is going to be something that the Congress and the 
American people will be very proud of for generations to come. 
We have had some bumps in the road. We're working them out and 
I think the project team has, in fact, been able to integrate 
the many changes that have come forward and we've been directed 
to make, many multi-million dollar changes. I think one of the 
things that we've not been very good at is determining what the 
impact of those changes would be on the base project or the 
schedules. We do appreciate the work that GAO has done, looking 
at risk on this. I think doing the actual work, getting it 
incorporated is something we've done well, but in terms of 
projecting out, the impacts on the project, this is something 
that we could and will improve upon.

                          SUBCOMMITTEE RECESS

    Senator Allard. Thank you both for your testimony and the 
panel. The subcommittee stands in recess until September, a 
date that has yet to be determined. Thank you. The subcommittee 
is in recess.
    [Whereupon, at 11:40 a.m., Wednesday, August 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]















         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2006

                               U.S. Senate,
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard and Durbin.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The hour of 10:30 having arrived, we'll go 
ahead and call the subcommittee to order.
    Before beginning the hearing today, I'd like to comment on 
the serious incident which occurred on Monday in which an 
individual was able to breach several security checkpoints and 
penetrate the Capitol through a Capitol Visitor Center (CVC) 
construction door, demonstrating a major flaw in Capitol Police 
security. The security of the Capitol complex is of utmost 
importance. And for us to discover a hole in our security 
system in this manner is completely unacceptable to me and to 
this subcommittee.
    We have every expectation that a thorough review is being 
undertaken to ensure such a situation could never be repeated. 
This is a very serious matter, and we'll be following up with 
the police chief. I expect a full report on what happened, what 
changes have taken place to prevent a similar reoccurrence, and 
how the police are reevaluating our security plans already in 
place.
    The police force has increased by about one-third since 
September 11. Clearly, the resources are available to fully 
protect the Capitol complex against this type of breach. And 
this happened after we had had assurances time and time again 
from the Sergeant at Arms and the police chief that the Capitol 
was adequately secured. And so, this is disturbing to me.
    I also want to take just a moment to commend those 
employees in the flag office who helped--who actually subdued 
this individual--Karen Livingston, who is the supervisor, 
Dennis Anthony, who is the assistant supervisor, and Isaac 
Livingston, who is a clerk there. Without their heroic efforts, 
who knows where that individual may have gone. We need to 
recognize them in a public way for their great job.
    We meet today to take testimony on the progress of the 
Capitol Visitor Center. This is our 14th hearing on the CVC. We 
welcome Architect of the Capitol Alan Hantman, CVC Project 
Executive Bob Hixon, and the Government Accountability Office 
(GAO) representatives Bernie Ungar and Terry Dorn.
    Mr. Hantman, we know progress has been made since our last 
hearing, but I'm very disappointed that more hasn't been 
accomplished and momentum seems to be sliding. Since we were 
last briefed, 7 weeks ago, the project schedule has slipped 
4\1/2\ months, there have been additional changes to the fire 
and life safety system, the pace of work on the air handling 
units has slowed considerably, and new issues have arisen, such 
as the need to redesign the archway on the east front. Only 2 
out of 17 milestones were accomplished on time since our last 
hearing. Schedule slippages occurred in all 18 critical, or 
near-critical, paths.
    It's been a longer period of time than we usually have 
between hearings, and I'm often asked the question, ``Well, are 
your hearings making a difference?'' It's been a while since 
we've had a hearing, there's been some slippage occurring. I'm 
going to let you know we're going to continue to have these 
hearings until we get completion, because it's obvious they are 
making a difference.
    The CVC team will tell us that the project will be 
completed in September 2007. One year ago, the Architect 
testified before this subcommittee that the project would be 
completed September 15, 2006. In that hearing, we discussed 
concerns with the fire-protection system's design and testing. 
Today, we will have a conversation that should give us all an 
unfortunate feeling of ``deja vu.''
    At last year's hearing, GAO predicted a spring or summer 
2007 opening, which the Architect expressed disagreement and 
even irritation with. Now it appears the GAO was entirely too 
optimistic. As to the price tag, it appears the cost likely 
will exceed GAO's earlier high-end estimate of $584 million. 
Mr. Hantman, we need your action plan on how we will get this 
project on track. We need a plan for an opening that is 
realistic and attainable. We cannot continue to lose 2 weeks 
each month in the project schedule. The project team must focus 
on those high priority activities that have the most impact on 
the completion date. The action plan is due to the subcommittee 
by October 20. Owing to the congressional schedule, we will not 
be able to hold a hearing in October, but would like to hold a 
hearing in November. We expect to see all the milestones set 
for the next 2 months to be met. We want your contractors and 
subcontractors to be devoting the full effort and resources 
needed to achieve these targets.
    Mr. Hantman, please proceed with your testimony, and then 
we will turn to GAO for their statement.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you, Mr. Chairman, and good morning. And 
thank you for your sobering comments, as well.
    As you point out, since our August hearing the contractor 
has made progress on the project, but there are areas of 
concern, and we are continuing to monitor those areas.

                      FIRE AND LIFE SAFETY SYSTEMS

    First, I'd like to update you on the status of the CVC's 
security and fire and life safety systems. As we discussed last 
month, the implementation of the CVC's fire alarm system and 
associated programming requirements continues to be our main 
focus, since the pretesting and final testing sequences 
directly impact the occupancy of the facility. As of late 
August, the fire alarm system contractors have received the new 
detailed design requirements and are now finalizing their 
submittals.
    The fire marshal has been an active participant throughout 
this process, because the timely installation of all fire alarm 
system components is critical to ensure that the contractor's 
pretesting process is completed as expeditiously as possible. 
The fire marshal would then begin the anticipated 5\1/2\ month 
final acceptance testing of the fire and life safety systems.
    It should be noted, Mr. Chairman, that this duration now 
includes 1 month instead of 2 months to test the House and the 
Senate expansion spaces, since these spaces are now tracking to 
be completed at the same time as the CVC. While this pushes the 
completion date for the fire and life safety testing of the CVC 
portion of the project 1 month, we agree with the fire marshal 
that it would be prudent to test the facility as a whole rather 
than test them sequentially.

                          MANAGEMENT CONTROLS

    Mr. Chairman, recognizing, as you clearly indicated, that 
delays have resulted from the integration of new requirements 
or revisions related to security and fire and life safety 
systems and the continued slippage in several of the project 
activities from stone installation, east front, to the 
operation of air handling units, we have further strengthened 
management controls to address these matters.
    Last month, we discussed our efforts to intensify 
communication among team members. Toward that end, the AOC and 
Gilbane are tracking the submittal and review process 
continuously to ensure that potential issues are identified 
early and included on the weekly meeting agenda with the fire 
marshal. We continue to resolve potential conflicts related to 
the unique elements of security and fire and life safety 
systems for which the existing building codes are unclear.
    In addition, the subcontractors have joined the general 
contractor in attending our weekly meetings to review their 
individual schedules and discuss issues of concern.
    To reduce the turnaround time for information, we're now 
walking the site with the contractors on a frequent basis to 
ensure that all parties fully comprehend the specific design or 
construction issues of concern. This enabled our team to 
resolve, specifically, four issues within 1 week.
    Looking ahead, I recently assigned my new deputy director 
for technical support as a fresh set of eyes to look for 
opportunities to improve and control the schedule. Mr. Bradley 
Macomber has just joined us from Arlington County. He's a 
retired lieutenant colonel with the Army Corps of Engineers, 
with much experience in terms of scheduling and project 
management. He just joined us this week, and he will be taking 
a look at the scheduling and seeing what we can add to that.
    Another critical schedule item remains. It is the HVAC 
system and the required testing, balancing, and commissioning 
of its many components. I am pleased to report that this week 
chilled water is being delivered to all 21 units. Now that 
we've resolved the outstanding issues related to the delivery 
and return of chilled water and steam, we expect the contractor 
will be able to air condition the entire CVC by mid-fall. This 
will clear the way for installation of finish materials in all 
areas, as well as the placement of the 5,000 fire and life 
safety devices on those finished surfaces, a process that's 
necessary for the completion of the pretesting phase.

                          FUNDING REQUIREMENTS

    As you're aware, Mr. Chairman, the original project 
completion date for sequence 2 was revised as a consequence of 
delays during the completion of the sequence 1 contract. Funds 
for the expected cost of those delays are included in our 
current appropriations and the fiscal year 2007 budget request. 
We're anticipating that additional funds will be necessary in 
the 2008 budget to accommodate additional work or delay costs 
incurred by the sequence 2 contractor. Again, since we've not 
received any potential cost proposals from the contractor, it 
would be imprudent at this time to make any estimates prior to 
their receipt and prior to the negotiation process that would 
follow. We'll keep this subcommittee fully apprised when 
potential delay costs do become known.
    In addition, we're concerned that the contractor continues 
to miss monthly milestones, as you indicated, Mr. Chairman. 
This trend is an issue, since it could result in potential 
trade-stacking, which could cause delays. Currently, the 
contractor's trade-stacking plan has been effective, but we 
recognize the need to avoid further delays and complete the 
final acceptance testing process by next summer. To help avoid 
potential delays, we've had frequent meetings with the 
contractor and major subcontractors to identify scheduled 
activities that must be completed quickly and possibly 
expedited to ensure the timely completion of pretesting 
activities.
    We've also reviewed the mechanical system requirements with 
the mechanical subcontractor to ensure the systems will be 
ready for commissioning in December 2006, and he's assured us 
that this can be done.

                         OVERALL PROJECT UPDATE

    Mr. Chairman, while these initiatives are underway, the 
contractor is making good progress in many areas of the project 
site. For example, in the great hall, mason teams have set all 
of the floor stone within the walls of the hall. They're now 
setting stone at the top of the central west stairs, in the 
adjacent corridors, and the threshold transitions from the 
great hall leading to the food service area.
    In the exhibition hall, Mr. Chairman, masons have completed 
setting all floor and wall stone. A final coat of ceiling paint 
was applied at the end of August, and crews have now dismantled 
the scaffolding in the space. As shown here, workers are 
currently assembling the steel support system for the marble 
wall of aspirations, which will house approximately 50 historic 
documents. Most of the engraved white marble wall stones are on 
pallets in the exhibition hall, awaiting installation.
    Inside the north and south orientation theaters, a millwork 
contractor is continuing to install wood ceiling panels. The 
ceiling work should be completed in both theaters by mid-
October, clearing the way for crews to dismantle the 
scaffolding and begin installing the metal stud wall framing 
that will support the acoustic wall panels on the theater 
walls.
    Now, just outside the theaters, at the upper level, floor 
stone installation continues, and is nearly complete in the 
lobby outside the south orientation theater. The masons are 
moving east along the south corridor toward the CVC entrances, 
where other mason teams are already busy setting floor stone at 
the east side lobby. So, you can see, Mr. Chairman, floor stone 
is now the primary activity, as nearly all of the approximately 
46,000 pieces of wall stone inside the CVC proper have been 
installed. There are only about 150 or so pieces inside the CVC 
proper to be installed.
    Ceiling work continues to be a critical activity throughout 
the facility, as its completion is necessary to free up the 
floor space for the mason teams. This work is progressing well, 
especially in the corridors flanking the great hall on both 
levels and in the CVC entrance lobby, where many of the final 
ceiling inspections have been completed, allowing floor stone 
installation to proceed.
    In the east front, Mr. Chairman, where the CVC connects to 
the Capitol Building, stone installation has been completed on 
the basement level. Masons are nearly finished setting stone in 
the crypt level, and crews continue installation of the metal 
framework that will support the stone at the Rotunda and the 
gallery levels. Masons have completed the installation of 
original marble panels in the east front, near the law library 
and the memorial doors. The sequence 2 contractor is 
undertaking measures with the stone contractor to expedite the 
fabrication and delivery of new stone for a redesigned support 
beam above the new central stair in the east front transition 
zone. The completion of this stonework is critical to allow for 
the installation of east front escalators.
    In the food service area, Mr. Chairman, ceiling drywall 
installation is complete, and crews have installed many of the 
light trays and have completed the framework for curving 
soffits that will support acoustic fabric ceiling panels. The 
installation of the ceiling panels is expected to begin next 
week. As you can see on the right-hand side over there, kitchen 
equipment is being installed in virtually finished space for 
the kitchen area.
    In the House expansion space, crews are installing metal 
stud framing that will support stone and millwork panels in the 
two-story hearing room. Workers are also finishing up work on 
the bulkheads and soffits in the adjacent meeting rooms, and 
masons continue setting stone for the pilasters in the adjacent 
corridors.
    In the Senate expansion space, electricians continue 
installing light fixtures in the ceiling grids and in the 
meeting rooms, while carpenters continue to lay out the 
millwork for the meeting room walls. Meanwhile, crews continue 
assembling the formwork and reinforcing steel for the subway 
entrance ramp that will connect the Russell subway tunnel to 
the upper level, near the Senate stairwell atrium. In the 
Senate Recording Studio, on the upper level, only minor above-
ceiling work remains to be done.
    Finally, Mr. Chairman, we're making progress on the 
exterior elements, as well. In August, masons were busy near 
the House and Senate steps restoring some of the approach 
sidewalks and adjacent areas. Those masons have moved back on 
the east front plaza and are continuing to rebuild the historic 
seat walls around the House and the Senate eggs, while other 
masons are setting pavers in a decorative paving pattern around 
the north and the south fountains.
    In addition, stonework is nearly complete on the seat walls 
around the great hall skylights, and waterproofing tests for 
the fountain features around the skylights have been conducted.
    Mr. Chairman, repair work will have to be done at the north 
skylight seat wall where the intruder's car--which you 
discussed earlier today--cracked several stone pieces.
    In summary, Mr. Chairman, the contractor's making progress 
in many areas of the project site, and we continue to expect 
that construction of the CVC proper will be completed in the 
December-January timeframe, with completion of the expansion 
space following in February. This will allow the pretesting of 
security and fire and life safety systems to occur early in 
2007, with the final testing to begin in March 2007. We 
continue working with our consultants and the contractors to 
facilitate the resolution of the issues related to security, 
fire and life safety, and HVAC systems to allow occupancy of 
key areas within House and Senate expansion spaces next August 
and the CVC, as a totality, in September 2007.
    Mr. Chairman, this concludes my statement, and, once again, 
thank you for this opportunity to testify.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Good morning, Mr. Chairman. I appreciate this opportunity to report 
on the status of the Capitol Visitor Center project. Since our August 
hearing, the contractor has made progress on the project site, but 
there are areas of concern that we are continuing to monitor.
    First, I would like to update you on the status of the CVC's 
security, and fire and life-safety systems. As we discussed last month, 
the implementation of the CVC's fire alarm system and associated 
programming requirements continues to be our main focus since the pre-
testing and final testing sequences directly impact the occupancy of 
the facility.
    As of late August, the fire alarm system contractors have received 
the new detailed design requirements and are now finalizing their 
submittals. The Fire Marshal has been an active participant throughout 
this process because the timely installation of all fire alarm system 
components is critical to ensure that the contractor's pre-testing 
process is completed as expeditiously as possible. The Fire Marshal 
would then begin the anticipated 5\1/2\ month final acceptance testing 
of the fire and life-safety systems. It should be noted that this 
duration now includes one month instead of two months to test the House 
and Senate expansion spaces since these spaces are now tracking to be 
completed at the same time as the CVC. While this pushes the completion 
date for the fire and life-safety testing of the CVC portion of the 
project one month, we agree with the Fire Marshal that it would be 
prudent to test the facility as a whole rather than test them 
sequentially.
    Mr. Chairman, recognizing that delays have resulted from the 
integration of new requirements or revisions related to security, and 
fire and life-safety systems, and the continued slippage in several of 
the project activities from stone installation, East Front, to the 
operation of air handling units, we have further strengthened 
management controls to address these matters. Last month, we discussed 
our efforts to intensify communication among team members. Toward that 
end, the AOC and Gilbane are tracking the submittal and review process 
continuously to ensure that potential issues are identified early and 
included on the weekly meeting agenda with the Fire Marshal. We 
continue to resolve potential conflicts related to the unique elements 
of the security, and fire and life-safety systems for which the 
existing building codes are unclear. In addition, the subcontractors 
have joined the general contractor in attending weekly meetings to 
review their individual schedules and discuss issues of concern. To 
reduce the turn-around time for information, we are now walking the 
site with the contractors on a frequent basis to ensure that all 
parties fully comprehend the specific design or construction issues of 
concern. This enabled our team to resolve four items within one week. 
Looking ahead, I recently assigned my Deputy Director for Technical 
Support as a fresh set of eyes to look for opportunities to improve and 
control the schedule.
    Another critical schedule item remains the CVC's complex HVAC 
system and the required testing, balancing, and commissioning of its 
many components. I am pleased to report that this week chilled water is 
being delivered to all 21 units. Now that we have resolved outstanding 
issues related to the delivery and return of chilled water and steam, 
we expect that the contractor will be able to air condition the entire 
CVC by mid-fall. This will clear the way for installation of finish 
materials in all areas as well as the placement of the 5,000 fire and 
life-safety devices on those finished surfaces, a process that is 
necessary for the completion of the pre-testing phase.
Funding Status
    As you are aware, Mr. Chairman, the original project completion 
date for Sequence 2 was revised as a consequence of delays during the 
completion of the Sequence 1 contract. Funds for the expected costs of 
those delays are included in our current appropriations and fiscal year 
2007 budget request. We are anticipating that additional funds will be 
necessary in the fiscal year 2008 budget to accommodate additional work 
or delay costs incurred by the Sequence 2 contractor. Again, since we 
have not received any potential cost proposals from the contractor, it 
would be imprudent at this time to make any estimates prior to their 
receipt and prior to the negotiation process that would follow. We will 
keep the Subcommittee fully apprised when potential delay costs become 
known.
    In addition, we are concerned that the contractor continues to miss 
monthly milestones. This trend is an issue since it could result in 
potential trade-stacking, which could cause additional delays. 
Currently, the contractor's trade-stacking plan has been effective, but 
we recognize the need to avoid further delays and complete the final 
acceptance testing process by next summer. To help avoid potential 
delays, we have had frequent meetings with the contractor and major 
subcontractors to identify schedule activities that must be completed 
quickly, and possibly expedited, to ensure the timely completion of 
pre-testing activities. We have also reviewed the mechanical system 
requirements with the mechanical subcontractor to ensure that the 
systems will be ready for commissioning in December 2006.
Project Update
    Mr. Chairman, while these initiatives are underway, the contractor 
is making good progress in many areas of the project site. For example, 
in the Great Hall, mason teams have set all of the floor stone within 
the walls of the Hall. They are now setting stone at the top of the 
central west stairs, in the adjacent corridors, and the threshold 
transitions from the Great Hall leading to the food service area.
    In the Exhibition Hall, masons have completed setting all floor and 
wall stone. A final coat of ceiling paint was applied at the end of 
August and crews have now dismantled the scaffolding in the space. 
Workers are currently assembling the steel support system for the 
marble ``Wall of Aspirations,'' which will house approximately 50 
historic documents. Most of the engraved white marble wall stones are 
on palettes in the Exhibition Hall awaiting installation.
    Inside the North and South Orientation Theaters, a millwork 
contractor is continuing to install wood ceiling panels. The ceiling 
work should be completed in both theaters by mid-October, clearing the 
way for crews to dismantle the scaffolding and begin installing the 
metal stud wall framing that will support the acoustic wood panels 
along the theater walls.
    Just outside the theaters at the upper level, floor stone 
installation continues and is nearly complete in the lobby outside the 
South Orientation Theater. The masons are moving east along the south 
corridor toward the CVC entrances where other mason teams are already 
busy setting floor stone at the eastside lobby. As you can see, Mr. 
Chairman, floor stone installation is now the primary activity as 
nearly all of the approximately 46,000 pieces of wall stone inside the 
CVC proper have been installed, with only 150 or so pieces remaining.
    Ceiling work continues to be a critical activity throughout the 
facility as its completion is necessary to free up the floor space for 
the mason teams. This work is progressing well especially in the 
corridors flanking the Great Hall on both levels and in the CVC 
entrance lobby where many of the final ceiling inspections have been 
completed allowing floor stone installation to proceed.
    In the East Front, where the CVC connects to the Capitol Building, 
stone installation has been completed on the basement level and masons 
have nearly completed setting stone in the Crypt level. Crews continue 
installation of the metal framework that will support the stone at the 
Rotunda and Gallery levels and masons have completed the installation 
of the original marble panels in the East Front near the Law Library 
and Memorial Doors. The Sequence 2 contractor is undertaking measures 
with the stone subcontractor to expedite the fabrication and delivery 
of new stone for a redesigned support beam above the new central stair 
in the East Front transition zone. The completion of this stonework is 
critical to allow for the installation of East Front escalators.
    In the food service area, ceiling drywall installation is complete 
and crews have installed many of the light trays and have completed the 
framework for curving soffits that will support acoustic fabric ceiling 
panels. The installation of the ceiling panels is expected to begin 
next week.
    In the House expansion space, crews are installing metal stud 
framing that will support stone and millwork panels in a two-story 
Hearing Room. Workers are also finishing up work on the bulkheads and 
soffits in the adjacent meeting rooms and masons continue setting stone 
for the pilasters in the adjacent corridors.
    In the Senate expansion space, electricians continue installing 
light fixtures in the ceiling grids and in the meeting rooms while 
carpenters continue to layout the millwork for the meeting room walls. 
Meanwhile, crews continue assembling the formwork and reinforcing steel 
for the subway entrance ramp that will connect the Russell Subway 
Tunnel to the upper level near the Senate stairwell atrium. In the 
Senate Recording Studio on the upper level, only minor above-ceiling 
work remains before close-in inspections can occur.
    Finally, we are making progress on the exterior elements as well. 
In August, masons were busy near the House and Senate steps restoring 
some of the approach sidewalks and adjacent areas. Those masons have 
moved back on the East Front Plaza and are continuing to rebuild the 
historic seat walls around the House and Senate ``eggs'' while other 
masons are setting pavers in a decorative paving pattern around the 
north and south fountains. In addition, stone work is nearly complete 
on the seat walls around the Great Hall skylights and waterproofing 
tests for the fountain features around the skylights have been 
conducted.
    In summary, the contractor is making progress in many areas of the 
project site and we continue to expect that construction of the CVC 
proper will be completed in the December/January time frame, with 
completion of the expansion space following in February. This will 
allow the pre-testing of security, and fire and life-safety systems to 
occur early in 2007 with the final testing to begin in March 2007. We 
continue working with our consultants and contractors to facilitate the 
resolution of issues related to security, fire and life-safety, and 
HVAC systems to allow occupancy of key areas within House and Senate 
expansion spaces next August and the CVC as a totality in September 
2007.
    Mr. Chairman, this concludes my statement. Once again, thank you 
for this opportunity to testify. I would be happy to answer any 
questions you may have.

    Senator Allard. Mr. Dorn.
STATEMENT OF TERRELL DORN, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BERNARD L. UNGAR, DIRECTOR, PHYSICAL INFRASTRUCTURE, 
            GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dorn. Thank you, Mr. Chairman.
    Today, we've provided the subcommittee a 22-page report 
with details about the current status of the Capitol Visitor 
Center, but I can sum it up much quicker than that. The CVC is 
late, and it's getting later. Significantly later when compared 
to this time last year or to this time last month. It is later 
for a number of reasons, including the late addition of more 
detail to the schedule, resequencing of work already in the 
schedule, additional changes that are adding work to the 
contractors, and what could be perceived by some as sluggish 
work in some areas, activities not starting when they're 
planned, and, they're taking longer to do once they are 
started. No rocket science there.
    The contractor continues to miss milestones from the 
schedule. This month, he only completed 2 of the 17 milestones 
on time. The most critical path lost over 60 days last month. A 
number of near-critical paths lost over 100 workdays last 
month. The contractor's monthly billing, as a leading 
indicator, is still insufficient to finish the project on 
schedule.
    The AOC's estimate is that the project will now be finished 
September 17, 2007. This is not comparable to the September 
2007 opening that they mentioned last month, because last 
month's schedule included additional time after construction to 
prepare for operations and other problems that they might have. 
This month's schedule does not include that same amount of 
time. This month's schedule has been described by CVC team 
members as aggressive.
    Since the last hearing, the AOC, Gilbane, and Manhattan 
worked together, and aggressively, to iron out details of the 
fire alarm system and to find other ways to shorten the 
schedule. Because of those positive efforts by Manhattan and 
the others to change and improve the situation, the 
contractor's schedule, like last year, was too uncertain for 
GAO to conduct the detailed analysis that we had planned for 
this month. We do, however, have comments and predictions about 
the CVC schedule.
    With a couple of caveats, the September 2007 schedule, as 
stated by the CVC team, is doable. First, provided that the 
continuing fire alarm analysis that is scheduled to be 
completed in October does not extend the schedule, and, second, 
not without improved execution and increased accountability 
among the CVC team members. To get different results, something 
has to change. Without those changes in the mitigation of risks 
previously identified, it is more likely that the project will 
finish later in the fall or winter.
    Historically, as you said, this contract has lost 2 to 3 
weeks per month, for various reasons. Assuming that there are 
about 6 months of construction left before the testing phase 
begins, it would indicate that, unless something changes the 
project's momentum, the project is much more likely to be 
completed in November to December 2007, with CVC opening at 
some point after AOC completes its work, at Congress' 
discretion.
    A new risk that may adversely affect the needed forward 
momentum of this project is the pending and well-deserved 
retirement of Mr. Hantman, along with the likely, but 
unannounced, retirements of two very key AOC members of the CVC 
team. The loss of institutional knowledge and direction from 
these three fine gentlemen couldn't hit the project at a worse 
time. In addition, the likely reduction in onsite services from 
the project architect, RTKL, planned to begin next month, could 
increase the amount of time it takes to resolve project issues 
and further slow the project down. The team relies heavily on 
Tim, from RTKL--too much, some may say, but that is because he 
does good work and he's a valuable team player.
    We were able to prepare a new cost-to-complete estimate. 
Our previous estimate of the project was that it would cost 
somewhere between $556 million and $584 million, based on the 
number of risks and uncertainties that could occur in the 
future. But we were concerned that the project could cost more.
    Due to these continued delays and to the number of proposed 
changes to the project that are still remaining to be 
processed, we now estimate that the CVC project is likely to 
cost about $584 million without an allowance for risk and 
uncertainties, and as much $596 million with an allowance for 
risk and uncertainties. To date, about $531 million has been 
provided for CVC construction by the Congress. AOC has 
requested an additional $27 million for construction and fire 
alarm testing in the fiscal year 2007 budget. Some additional 
funding beyond that request may be required in fiscal year 
2007, with the remainder expected to be needed in fiscal year 
2008.
    Given the magnitude of the continuing problems, we are 
recommending that AOC promptly develop an action plan setting 
forth specific steps that the AOC and the rest of the CVC team 
will take to enhance the execution of the schedule and the 
project.
    Items they should consider in the development of this plan 
include making more visible, aggressive, and focused efforts to 
ensure that priority is placed on critical activities, and that 
they are completed as planned; continue to consider targeted 
acceleration, where it can be justified and where it will not 
affect safety or quality; and ensure that mechanisms are in 
place to promptly resolve issues as they arise.
    So, in summary, Mr. Chairman, we believe the AOC schedule 
is doable, but not without dramatic change, and that the 
project is much more likely to be completed in November to 
December 2007, and, without change, beyond that.
    We believe that the CVC is now likely to cost about $584 
million, possibly rising to as much as $596 million if the AOC 
is not able to adequately address the continuing risk and 
uncertainties facing the project.
    And, third, we recommend that the AOC promptly develop an 
action plan to enhance the execution of the project.
    This concludes my statement. Mr. Ungar and I are available 
to try and answer any questions that you all may have.
    [The statement follows:]
                   Prepared Statement of Terrell Dorn
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on (1) the 
Architect of the Capitol's (AOC) progress in achieving selected project 
milestones and in managing the project's schedule since the 
Subcommittee's August 2, 2006, hearing on the project; (2) our 
assessment of the project's currently scheduled completion date; and 
(3) an update on the project's expected cost at completion and funding 
situation.\1\ As part of this discussion, we will address a number of 
key challenges and risks that continue to face the project, as well as 
actions we believe that AOC will need to take to meet its currently 
scheduled completion date.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Update on Status of Project's 
Schedule and Cost as of August 2, 2006, GAO-06-828T (Washington, D.C.: 
Aug. 2, 2006).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (AOC and its 
major CVC contractors), AOC's Chief Fire Marshal, and representatives 
from the U.S. Capitol Police. We also reviewed AOC's construction 
management contractor's periodic schedule assessments, potential change 
order log, and daily reports on the progress of interior wall and floor 
stonework. We retained a mechanical consulting engineering firm 
(Kincaid/Bryant) to help us assess the CVC team's progress in 
completing the project's heating, ventilation, and air-conditioning 
(HVAC) system. In addition, we reviewed the contract modifications made 
to date and the estimates of cost increases provided by AOC and its 
construction management contractor, including their estimates of the 
costs related to delays,\2\ and their preliminary cost estimates for 
recent changes to the CVC's fire protection and security systems. Our 
assessment was somewhat constrained because the CVC team is still 
analyzing the impact on the project's schedule and cost of the recently 
identified changes required for certain components of the fire 
protection and security systems. The team expects to have firmer 
schedule and cost information around mid-October, at which time we may 
have to revise our estimates if this later information differs 
significantly from the current information.
---------------------------------------------------------------------------
    \2\ The estimates for most of the delay-related costs were provided 
by AOC and its construction management contractor for budgetary 
purposes only and do not reflect any judgments by GAO of the validity 
of any potential contractor claims.
---------------------------------------------------------------------------
    In summary:
  --Since the Subcommittee's August 2 CVC hearing, the CVC team has 
        continued to move the project's construction forward, but the 
        project's overall targeted completion date has slipped 
        significantly. The schedule for the project's most critical 
        activity--the fire protection system--has slipped about 4 
        months, bringing the new targeted overall completion date to 
        mid-September 2007, and other important activities have also 
        been significantly delayed. Unlike the previous CVC schedule, 
        the new schedule (1) does not allow any time to address 
        problems that may arise or to prepare for operations after a 
        certificate of occupancy has been issued; (2) assumes that AOC 
        will be able to bring exhibits into the CVC before a 
        certificate of occupancy has been issued; and (3) provides for 
        opening the CVC and the House and Senate expansion spaces at 
        the same time. It is not yet clear to us whether the need for 
        time to prepare for operations or for a certificate of 
        occupancy to receive the exhibits will affect the facility's 
        opening date, but these factors should not delay the completion 
        of construction.
  --During the past month, work on the project has progressed in a 
        number of areas. For example, the sequence 2 contractor expects 
        to have dehumidified air in the exhibit gallery by around mid-
        October. In addition, critical interior floor stone 
        installation has continued, together with other interior and 
        exterior construction work. Almost all of the interior wall 
        stone for the CVC itself (excluding the East Front and the 
        tunnels) is now installed.
  --A number of problems have developed in connection with the CVC's 
        fire protection system, which is the principal cause of the 
        completion date's slippage and continues to be the single 
        greatest source of risk to meeting the project's new scheduled 
        completion dates. Although the CVC team has worked closely with 
        AOC's Chief Fire Marshal and has made substantial progress in 
        resolving issues, the resolution, along with necessary changes 
        to certain security system-related components, has resulted in 
        a need for significant additional work. The CVC team based its 
        mid-September 2007 project completion date on its preliminary 
        estimate of the time needed to do this additional work. 
        Although the team believes that the time it added to the 
        schedule should be sufficient, it will not make a definitive 
        determination until it completes its analysis of the required 
        changes, which it expects to do by mid-October.
  --Several other activities important to the CVC's completion, such as 
        the HVAC system's installation and East Front work, have been 
        delayed since the Subcommittee's last CVC hearing--an outcome 
        anticipated by our assessment of the CVC team's performance 
        against the indicators of progress that we and the Subcommittee 
        have been tracking. For example, during the last 7 weeks, the 
        sequence 2 contractor did not meet its overall target for 
        interior floor stone installation and continued to experience 
        delays in installing wall stone in the East Front. In addition, 
        the sequence 2 contractor met only 2 of the 17 milestones that 
        we have been tracking for this hearing. The project continues 
        to face risks and uncertainties, such as getting its complex 
        building systems to function together as well as separately and 
        trade stacking.\3\
---------------------------------------------------------------------------
    \3\ Trade stacking can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
    According to our assessment of the project's new schedule, the 
revised completion date is achievable if the CVC team confirms that it 
has added enough time to the schedule to make the necessary changes to 
the fire protection and security system components and if, and only if, 
the team promptly makes significant improvements in its execution of 
the project and its schedule. To facilitate such changes, we are 
recommending that AOC develop and submit to Congress an action plan as 
soon as possible, but no later than mid-October 2006, setting forth the 
specific steps it will take to meet its scheduled completion dates. We 
are identifying specific actions that we believe AOC should consider in 
developing this plan, including, for example, (1) making more 
aggressive, visible, and focused efforts to keep the work on schedule, 
with particular emphasis on critical and key near-critical activities; 
(2) making sure sufficient work is performed to meet the scheduled 
dates and quickly identifying and addressing problems that arise; and 
(3) promptly responding to design questions and concerns and requests 
for design instructions and clarifications. AOC generally agreed with 
our recommendation. AOC's prompt development and effective 
implementation of this action plan is critical because the construction 
work that has to be done in the next 3 to 4 months is a prerequisite to 
other work that is essential to the CVC's completion, including the CVC 
team's pretesting of the fire protection system and the Chief Fire 
Marshal final acceptance testing of the CVC. In addition, Congress can 
use this plan as a mechanism for holding AOC accountable for managing 
the project and as a vehicle for working closely with AOC to ensure 
that the schedule implications of all proposed scope or design changes 
are quickly determined and considered by all appropriate stakeholders 
before final decisions on the proposed changes are made.
    We previously estimated that the total cost to complete the entire 
CVC project would be about $556 million without an allowance for risks 
and uncertainties and $584 million with such an allowance. Our updated 
assessment indicates that the estimated cost of the entire CVC project 
at completion is likely to be about $584 million without an allowance 
for risks and uncertainties and about $596 million with such an 
allowance--increases of $28 million and $12 million, respectively. 
Delay-related costs (which AOC and its construction management 
contractor have estimated for budgetary purposes only) are the largest 
component of the increase, followed by the additional costs estimated 
by the CVC team for changes to the fire protection and security systems 
and additional contingency funds for future changes. Our estimate could 
change if the additional costs turn out to be significantly different 
from the preliminary estimates. To date, about $531 million \4\ has 
been provided for CVC construction. For fiscal year 2007, AOC has 
requested $26 million in CVC construction appropriations, plus $950,000 
in AOC general administration appropriations for contractual support to 
complete acceptance testing of the CVC's fire protection system on 
schedule. During fiscal year 2007, AOC is also likely to need, but has 
not yet requested, some additional funds to pay for changes. Although 
AOC agrees that it will likely need additional funds, it does not 
believe that it will need as much as we have estimated. We believe our 
estimate is reasonable. In addition, AOC notes that it may be able to 
cover at least part of the increased costs from funding sources other 
than new appropriations after obtaining the necessary congressional 
approvals.
---------------------------------------------------------------------------
    \4\ Since we last updated information on the amount of funding 
provided for CVC construction, the House and Senate Committees on 
Appropriations approved an AOC request to reprogram about $1 million 
from CVC operations funding to CVC construction.
---------------------------------------------------------------------------
Construction Has Progressed, but the Scheduled Completion Date Has 
        Slipped Further, and Several Actions Are Needed to Meet the 
        Current Schedule
    Work on the CVC project has continued, but the scheduled completion 
date has slipped about 4 months beyond the date discussed at the 
Subcommittee's August 2 CVC hearing. At that hearing, we said that 
despite some improvement in the indicators of progress we have been 
tracking, we were losing confidence in the ability of the CVC team to 
meet its scheduled completion dates, given the delays experienced thus 
far and the risks and uncertainties facing the project. Unfortunately, 
our concerns materialized. For example, certain important work related 
to the CVC's fire protection and HVAC systems and the East Front was 
not completed on time, and further delays occurred in the schedules for 
these areas--all of which are important to the project's timely 
completion. Although AOC significantly enhanced its management control 
over the design of the CVC's fire protection system, as we had 
recommended, the team determined that it will take more time than 
previously expected to install certain components of the fire 
protection and security systems to meet life safety and security 
requirements. The CVC team is still determining the precise impact of 
this additional work on the schedule, but has developed preliminary 
time estimates that it believes it can achieve and may even be able to 
shorten after its analysis is done. Recognizing these uncertainties, 
the team has established a mid-September 2007 date for completion and 
possible occupancy for both the CVC and the House and Senate expansion 
spaces.\5\ Our discussions with CVC team managers and staff, analysis 
of the project's current schedule, and observations, together with the 
results of our mechanical consultant's work, indicate that this 
September 2007 time frame is reasonable and achievable, pending the 
completion of the team's analysis, if and only if meaningful and 
significant changes occur in the project's execution from this point 
forward. We will discuss the necessary actions shortly.
---------------------------------------------------------------------------
    \5\ AOC's June and July schedules provided time between the base 
project's completion and the CVC facility's opening to prepare for 
operations and to install the exhibits in the exhibit gallery because 
the CVC team believed that a certificate of occupancy was required 
before the exhibits could be brought into the building. The team now 
believes that it may be able to fully prepare for opening and install 
the exhibits before it has a certificate of occupancy. As of September 
15, it was not clear to us that these assumptions had been validated.
---------------------------------------------------------------------------
            AOC's Scheduled Completion Dates Have Slipped
    According to the June 2006 project schedule--the schedule in effect 
at the Subcommittee's last CVC hearing--the base CVC project was to be 
completed in May 2007 (except for the exhibit gallery), and the House 
and Senate expansion spaces were to be completed in August 2007, 
although their physical construction work was to be substantially 
completed in January 2007. The project's current schedule (August 2006) 
shows both the base CVC project and the expansion spaces completed on 
September 17, 2007, although the physical construction work in the 
expansion spaces is now scheduled to be substantially completed in 
March 2007. However, this schedule is based on a preliminary estimate 
and provides no time for additional delays. Specifically, the sequence 
2 subcontractor responsible for the installation of certain fire 
protection and security system components is still analyzing the impact 
on the schedule of changes needed to meet life safety and security 
requirements. This subcontractor has made a preliminary estimate that 
it believes is reasonable and achievable pending the completion of its 
analysis, but it will not commit to a date until its analysis is 
completed, which it believes will be around mid-October. In addition, 
unlike the June and July schedules, the current schedule for completing 
the base project allows no time for additional delays, for starting up 
operations, and for delivering exhibits to the exhibit gallery after a 
certificate of occupancy is issued. Although the sequence 2 contractor 
believes it may be able to shorten the time in the current schedule for 
making changes to the fire protection and security system components, 
this possibility has not been confirmed, and it is uncertain whether 
the elimination of schedule time for the three items discussed above 
will be problematic.
    As we have previously testified, most of the physical construction 
work in the CVC, the East Front, and the expansion spaces is scheduled 
to be completed by December 31, 2006; however, some work extends into 
2007--as far as May 2007 for the exhibit gallery and certain East Front 
work, April 2007 for the gift shops, and March 2007 for the 
installation of wayfinding signage and turnover of audio-visual 
equipment in the orientation theaters. Certain other construction work, 
such as the completion of space for the Capitol guide service and the 
installation of seats in the auditorium, also extends into 2007. 
Neither the CVC nor the expansion spaces can be opened until the Chief 
Fire Marshal has completed acceptance testing for the fire protection 
and life safety systems, now scheduled for September 2007 for the CVC 
and the expansion spaces. However, unlike the previous project 
schedules, the current schedule shows that AOC's Chief Fire Marshal 
plans to begin testing the expansion spaces before he completes his 
testing of the base CVC building so that some of the testing will be 
done concurrently. Previous project schedules showed that the expansion 
space testing would not start until the base building testing was 
complete. According to the CVC team and the Chief Fire Marshal, this 
change should eliminate the need for temporary construction measures 
and a temporary certificate of occupancy for the base building and for 
limited retesting of the base building after the expansion spaces have 
been tested. Also, according to AOC's Chief Fire Marshal, AOC may be 
able to open certain parts of the expansion spaces earlier than mid-
September 2007. As we have discussed in previous CVC testimonies, AOC 
is continuing to explore this possibility.
            Construction Work Is Progressing
    According to information provided by AOC and its construction 
management contractor and our observations, work on the project has 
advanced, in terms of both the dollar value of the work in place and 
individual project elements. In dollar terms, AOC's construction 
management contractor reported that, as of August 31, the overall CVC 
project was about 86 percent complete and the sequence 2 work was about 
77 percent complete--up from about 84 percent and 74 percent, 
respectively, as of the Subcommittee's last CVC hearing. Progress on 
individual project elements includes the following:
  --Interior CVC work has moved forward, according to AOC's 
        construction management and sequence 2 contractors. For 
        example, 9 of the CVC's 21 air-handling units were reportedly 
        capable of providing cool air to certain parts of the building. 
        In addition, the sequence 2 contractor is expecting to charge 
        the CVC's entire HVAC system with chilled water this week and 
        to start providing dehumidified air to the CVC soon. The 
        sequence 2 contractor has also installed all of the floor stone 
        in the exhibit gallery and inside the great hall. The 
        installation of wood ceiling panels is essentially complete in 
        one of the two orientation theaters; the installation of 
        ceiling drywall is complete in the food service area; and 
        ceiling framing has been ongoing in the assembly rooms, 
        auditorium, and great hall lobby.
  --Surface work continued, including the installation of stone pavers 
        above the CVC and seat wall stone around the great hall 
        skylights. Work on the House connector tunnel and on linking 
        the Library of Congress tunnel with the Jefferson Building has 
        also continued.
  --Wall stone has now been fully installed in the food service area, 
        upper level west lobby, East Front basement and ground levels, 
        and atrium areas. As of last week, only about 130 pieces of 
        wall stone had not been installed in the CVC itself, excluding 
        the upper two levels of the East Front and the tunnels.
  --In the House and Senate expansion spaces, preparations for wall and 
        ceiling close-in inspections have continued.
            Schedule Slippages in Critical and Key Near-Critical Paths 
                    Have Worsened, Significantly Extending the 
                    Project's Completion Dates and Complicating Project 
                    Management
    During the Subcommittee's last CVC hearing, we expressed 
considerable concern about the risk of delay in work on the CVC's fire 
protection system, as well as on other important areas, such as the 
CVC's HVAC system, the East Front, and ceiling close-ins in the upper 
level security lobby. Together, delays in these areas, according to 
AOC's construction management contractor, have extended the CVC's 
completion date by 95 workdays, from May 2007, as projected for the 
Subcommittee's last CVC hearing, to September 2007, as shown in the 
project's August 2006 schedule. This delay was primarily driven by 
slippages in the schedule for completing the CVC's fire protection 
system, which constitutes the CVC project's critical path--the single 
longest path through the project's schedule, meaning that each day the 
system's completion is delayed, the CVC's completion could also be 
delayed. AOC has significantly improved its control over the design of 
the facility's fire protection system, and the CVC team has been 
working closely with AOC's Chief Fire Marshal and U.S. Capitol Police 
representatives. We believe that these steps have resulted in improved 
coordination and communication and facilitated quicker resolution of 
problems and issues than previously occurred. However, the changes that 
have to be made to certain fire protection and security system 
components to address life safety and security issues have added 
considerable time to the schedule. These include (1) changes to the 
fire alarm system's programming; (2) architectural changes in a number 
of locations to enhance their fire protection capability; (3) wiring 
changes associated with having to add a major new fire alarm system 
control panel, enhance the fire damper monitoring system, use a 
different testing method, and link a security system component with a 
fire protection system component; and (4) changes associated with 
adding fire alarm system control panels to meet security requirements. 
According to the CVC team, the amount of time added to the August 
schedule to make these changes reflects the team's best thinking but is 
preliminary pending the team's receipt of all the detailed information 
it needs to estimate the impact of these changes on the schedule. The 
team has received much of this information and expects to receive the 
rest within the next several days. The needed information consists 
largely of shop drawings being prepared by the sequence 2 fire alarm 
subcontractor, which reflect the changes required for life safety and 
security. The team believes that it will be able to make a firm 
estimate by around mid-October.
    As we have pointed out in our previous CVC testimonies, this 
project has many near-critical paths that can also affect its 
completion date, some with relatively small slippages. Such a situation 
greatly complicates project management because problems arising in 
multiple areas can adversely affect the completion date, and the team 
must focus on a number of important areas simultaneously to avoid 
delaying the project's overall completion. AOC's construction 
management contractor identified 21 near-critical paths in the August 
schedule, 5 of which the CVC team considers particularly important 
because of their potential impact on the project's completion. These 
are the CVC's HVAC system, ceiling close-ins in the upper level 
security lobby, and three East Front paths. According to the CVC team, 
further delays in these areas could postpone testing of the CVC's fire 
alarm system, which, in turn, could delay the project's completion. 
According to AOC's construction management contractor, these areas have 
slipped by 74, 68, and over 100 workdays, respectively, compared with 
the schedule in effect at the Subcommittee's last CVC hearing. 
According to this contractor, these slippages occurred because of an 
electrical problem and problems with steam condensate that affected the 
HVAC system; problematic sequence 1 and preceding work that complicated 
the ceiling close-ins; and multiple issues that limited progress on the 
3 East Front near-critical paths, including lead abatement 
requirements; electrical, ductwork, and structural conflicts; 
competition for space for workers; and a need to redesign and order new 
stone for the archway above the stair and escalators on the East Front.
    Because the CVC's HVAC system affects many activities, has had a 
number of problems, and poses significant risks to the project's 
successful completion, we asked our mechanical engineering consultant 
to assess the status of the CVC's 21 air-handling units. He observed 
the status of the units on August 11, and September 6, 2006, and 
compared their actual and scheduled mechanical readiness to provide 
conditioned air to the CVC. On the basis of his observations at the CVC 
site on those 2 days, he reported the following:
  --The units' actual and scheduled stage of completion did not always 
        match; some units were ahead of and some were behind schedule.
  --The scheduled completion dates for the units did not always match 
        those for work in the spaces where the units have to be 
        balanced or where the space has to be clean for the units to 
        operate safely, suggesting a possible misalignment of 
        priorities for finishing the spaces and finishing the units.
  --Only limited progress was made between his visits to the site. 
        Remaining work included insulating pipe, wiring control units, 
        and cleaning the units and ducts.
  --On both visits, he saw relatively few workers near the units, and 
        little work was being performed on them.
    We discussed these observations with AOC's sequence 2 and 
construction management contractors, as well as the sequence 2 
subcontractor responsible for the work. The construction management 
contractor confirmed that efforts to finish the units had been limited, 
and the sequence 2 contractor and the subcontractor committed to 
completing all the work necessary for all 21 units be operational by 
December 31, 2006, except for the final commissioning of some units. 
The sequence 2 contractor said that it would ensure the alignment of 
the schedules and priorities for finishing the units and the spaces 
they are to serve. Last Friday, AOC's construction management 
contractor said that finishing the scheduled work for the CVC's air-
handling units in a timely manner is important, and completing the work 
necessary to get steam and chilled water to all the units over the next 
3 weeks is critical to meeting the project's revised completion 
schedule. Accordingly, we have arranged for our mechanical engineering 
consultant to reassess the status of this work in October.
    The construction management contractor reported slippages in all of 
the remaining near-critical paths since the Subcommittee's last CVC 
hearing. In the 2-month period covered by the schedules between this 
hearing and the last one, 5 near-critical paths lost at least 100 
workdays and 11 lost at least 40 workdays. For example, the exhibit 
gallery path slipped 105 workdays; the bronze door path slipped 43 
workdays; the auditorium path slipped 98 workdays; and the orientation 
theater path slipped 85 workdays, as reported by AOC's construction 
management contractor. Slippages occurred for various reasons. For 
instance, according to the construction management contractor, the 
orientation theater path slipped because of slow progress in installing 
wood ceiling panels and in the sequence 2 contractor's resequencing of 
work; the exhibit gallery path slipped because of problems in finishing 
the ceiling and schedule logic changes; and the bronze door path 
slipped because of production problems at the fabricator's plant.
    Several activities important to completing the House and Senate 
expansion spaces have also been delayed since the Subcommittee's last 
CVC hearing. For example, AOC's construction management contractor 
reported a 23-workday delay in completing the circular stairs in the 
atrium areas. This delay occurred because the spaces housing the stairs 
were not available while sequence 2-related work was being done in 
those areas. Also delayed were ceiling close-ins that had to wait for 
approval of the fire alarm system, a special fire suppression system 
that was not installed because it had not been approved, and millwork 
that was not installed in the Senate lower level because of delays in 
getting approved shop drawings. Furthermore, the sequence 2 
subcontractor doing the expansion work identified a number of concerns 
that could affect the project's completion. For example, the 
subcontractor reported that ceiling close-in delays could postpone 
testing and balancing of the HVAC system; a lack of conditioned air 
could adversely affect certain casework and ceiling tile work; and 
changes being considered in the design of the expansion spaces could 
delay their completion, including work that could affect the testing 
and balancing of the HVAC system.
    Finally, although not critical to the CVC's opening, work being 
done to connect the Library of Congress's Jefferson building to the 
tunnel linking it with the CVC has fallen about a month behind because 
of an asbestos problem. This delay was shorter than initially 
estimated. Overall, the project's schedule today, compared with the 
schedule in effect at the Subcommittee's September 15, 2005, CVC 
hearing, reflects an average loss of about 3 out of every 4 weeks due 
to schedule slippages.
            Indicators of Construction Progress Do Not Instill 
                    Confidence in the CVC Team's Ability to Meet 
                    Scheduled Completion Dates
    The four indicators of construction progress that we have been 
tracking for the Subcommittee support extension of the project's 
schedule and suggest that changes in the project's execution will be 
necessary to achieve the scheduled dates. An update on these indicators 
follows:
    Sequence 2 contractor has continued to miss most milestones.--
Starting with the Subcommittee's June 2005 CVC hearing, at the 
Subcommittee's request, we and AOC have been selecting and tracking 
sequence 2 milestones to help the Subcommittee monitor construction 
progress. These milestones include activities that were either on the 
project's critical path or that we and AOC believe are critical to the 
project's timely completion. As figure 1 shows, the sequence 2 
contractor has generally missed these milestones. For today's hearing, 
the contractor met 2 of the 17 milestones that were due to be 
completed, according to the project's June 2006 schedule, and for both, 
the work was completed ahead of schedule. However, the contractor was 
late in completing work for 2 other milestones and had not completed 
the work for the remaining 13 milestones as of September 15, 2006. (See 
app. I.) The sequence 2 contractor attributed the slippages to a number 
of factors, including the need to replace water-damaged insulation, 
necessary preceding work taking longer than expected, and a 
resequencing of work by the contractor.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 1.--Sequence 2 Contractor's Progress in Meeting Selected 
                   Milestones as of CVC Hearing Dates

    Value of completed work has increased since the last hearing, but 
trend reflects the sequence 2 contractor's difficulties in meeting 
scheduled completion dates.--Another indicator of construction progress 
that we and AOC's construction management contractor have been tracking 
is the value of the completed construction work billed to the 
government each month. Overall, the sequence 2 contractor's monthly 
billings, including the bills for March through August 2006, indicate 
that AOC is more likely to finish closer to its new scheduled 
completion dates than its previously scheduled completion dates. While 
this indicator has some limitations (for example, billings lag behind 
construction), it is generally regarded in the construction industry as 
a useful measure of how likely a project is to be completed on time. 
Figure 2 compares the sequence 2 contractor's billings since May 2003 
with the billings needed to complete construction work on schedule and 
indicates that a late summer 2007 completion date is reasonable.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Notes:
    The early and late lines on this figure reflect the cumulative 
billings that would be required to complete the project through 
contract modification number 126 ($232.5 million total contact value) 
by the early and late finish dates shown in the sequence 2 contractor's 
schedule, which is based on the September 2006 contractual completion 
date.
    The actual line reflects the sequence 2 contractor's actual monthly 
billings.
    Although bills are typically submitted for payment after work is 
completed, it is often likely that construction work will be completed 
on schedule when the actual billing line falls between the early and 
the late lines in the figure. With respect to the CVC, the actual 
billing line has been trending below, and in March 2006 went below, the 
late finish line, where it remained through August 2006. Even with the 
lag in billings, this trend indicates that the amount of work being 
completed each month is not sufficient to keep the project on schedule.

 Figure 2.--Total Billings by the Sequence 2 Contractor for the Entire 
 CVC Project Compared with the Billings Needed to Finish Construction 
                            Work on Schedule

    Installation of interior wall and floor stone is taking longer than 
expected.--Overall, about 86 percent of the CVC's interior wall stone 
has been installed (in the CVC, East Front, atrium areas, and tunnels), 
according to AOC's construction management contractor, and the sequence 
2 contractor installed 1,325 pieces of interior wall stone during the 
last 7 weeks. Although the sequence 2 contractor has installed almost 
all of the wall stone in the CVC itself and all of the wall stone in 
the atrium areas, wall stone installation in the East Front is 
significantly behind schedule. According to the sequence 2 contractor's 
January 2006 wall stone installation schedule, the East Front wall 
stone was to be completely installed by July 10, 2006. As of September 
15, about 4,700 pieces of wall stone remained to be installed in the 
East Front. During the same 7-week period, the sequence 2 contractor 
installed about 24,040 square feet of interior floor stone, or about 73 
percent of the 33,000 square feet specified in the floor stone 
installation plan that the contractor provided to AOC. According to the 
construction management contractor, the sequence 2 contractor installed 
the floor stone inside the great hall sooner than planned, but work has 
been impeded in other areas by the lack of available space.
    Figure 3 shows the sequence 2 contractor's progress in installing 
interior floor stone since February 13, 2006.\6\
---------------------------------------------------------------------------
    \6\ We have discontinued presenting the figure we previously 
included in our testimonies comparing actual to targeted wall stone 
installation because all targeted quantities were to have been 
installed by August 7, 2006, according to the sequence 2 contractor's 
January 2006 installation plan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Figure 3.--Progress of CVC Interior Floor Stone Installation Compared 
       with Preliminary Targets Set by the Sequence 2 Contractor

            Project's Schedule Remains Vulnerable to Challenges, Risks, 
                    and Uncertainties
    As we have indicated during the Subcommittee's previous CVC 
hearings, we believe that the CVC team continues to face challenges, 
risks, and uncertainties in completing the project. Given the project's 
history of delays, the difficulties the CVC team has encountered in 
resolving problems that arise quickly, and the large number of near-
critical activities that can affect the project's overall completion, 
the CVC's efforts to identify potential problems early and resolve 
issues quickly will be even more important from this point forward, 
since AOC has left no ``slack'' in the schedule for contingencies. In 
our view, the remaining work associated with the fire protection system 
poses the greatest single risk to meeting AOC's mid-September 2007 
completion date. The steps AOC has taken to mitigate this risk have 
been helpful, but much work remains to be done on the CVC's fire 
protection system and its linkages with other building systems. In 
addition, the project continues to face risks and uncertainties 
associated with other work important to its completion, such as the 
CVC's HVAC system, the East Front, and ceiling close-ins. AOC's current 
project schedule does not provide the 2 to 3 months that its previous 
schedule allowed for addressing the ongoing challenges, risks, and 
uncertainties. Accordingly, we plan to continue to monitor the CVC 
team's efforts to meet its schedule for the fire protection system and 
other key near-critical activities as well as the timeliness of the 
actions taken by the CVC team to address problems, concerns, and 
questions that arise. A brief update follows on the challenges, risks, 
and uncertainties the CVC team continues to face and the team's plans 
for addressing them:
  --Complex building systems remain a significant risk.--The CVC will 
        house complex building systems, including HVAC, fire 
        protection, and security systems. These systems not only have 
        to perform well individually, but their operation also has to 
        be integrated. If the CVC team encounters any significant 
        problems with them, either separately or together, during the 
        resolution of design issues, installation, commissioning, or 
        testing, the project could be seriously delayed. The 
        unanticipated problems that emerged in reviewing the design of 
        the fire alarm system and in programming it illustrate the 
        impact such problems can have on the project's schedule. 
        Additional delays could occur if the team takes longer than 
        expected to get approved shop drawings, if the proposed system 
        does not meet the project's design specifications or the life 
        safety code, or if the fire protection system does not work 
        effectively with the security or other building systems.\7\ 
        Additionally, the Chief Fire Marshal noted that delays could 
        occur if the CVC team does not adequately pretest the system 
        and correct any problems found during the pretesting. On March 
        23, AOC's commissioning contractor submitted its plan to the 
        CVC team for testing the performance of the CVC's smoke control 
        system, which is a critical component of the CVC's fire 
        protection system and must work properly before the CVC can be 
        opened to the public. As of September 13, this plan had not yet 
        been submitted to or approved by the Fire Marshal Division. 
        Moreover, as we have previously noted, the Chief Fire Marshal's 
        timely completion of the fire protection system's acceptance 
        testing depends on his ability to obtain sufficient funding for 
        a contractor to help perform the tests.
---------------------------------------------------------------------------
    \7\ According to the sequence 2 subcontractor that is fitting out 
the House and Senate expansion spaces, the delays in getting approved 
shop drawings for the fire protection system have already postponed 
ceiling close-ins in the expansion spaces, and AOC believes that 
further such delays, along with possible requests for design changes, 
pose the greatest risks to the completion schedule for the expansion 
spaces.
---------------------------------------------------------------------------
  --Trade stacking could delay completion.--As we discussed during the 
        Subcommittee's previous CVC hearings, trade stacking could hold 
        up finish work, such as drywall or ceiling installation, 
        electrical and plumbing work, plastering, or floor stone 
        installation. This work could be stacked because of delays in 
        wall stone installation. Trade stacking could also increase the 
        risk of accidents and injuries. Hence, it remains important, as 
        we said at previous CVC hearings, for the CVC team to closely 
        monitor construction to identify potential trade stacking and 
        promptly take steps to address it. The CVC team has also 
        identified trade stacking as a high risk. The sequence 2 
        contractor has developed plans that show when various 
        subcontractors will be working in each area of the CVC except 
        the East Front. According to the sequence 2 contractor, it 
        intends to continue meeting regularly with its subcontractors 
        to review and update the area plans. The CVC team identified 
        one recent instance of trade stacking that occurred in an 
        effort to expedite certain East Front work. In transmitting the 
        team's monthly progress report for August, AOC noted that the 
        compressed time frame for bringing all of the air-handling 
        units on line will require bringing more technicians and 
        mechanics to complete the work and may result in trade 
        stacking.
  --Building design and work scope continue to evolve.--The CVC has 
        undergone a number of design and work scope changes. Since the 
        Subcommittee's August 2 CVC hearing, AOC's architectural 
        contractor has issued nine design changes or clarifications. As 
        of September 14, 2006, this contractor reported, another six 
        were in process. In addition, since the project began, AOC has 
        executed over 100 sequence 2 contract modifications for work 
        that was not anticipated.\8\ Some of these changes, such as 
        changes in the exhibit gallery and in the East Front, have 
        resulted in delays. Furthermore, although shop drawings have 
        been approved for almost all project elements except the fire 
        protection system, according to AOC, further design or scope 
        changes in various project elements are likely, given the 
        project's experience to date. In fact, in reporting on the 
        August schedule, AOC's construction management contractor noted 
        that anticipated changes to the House expansion space could 
        affect ceiling close-ins. Project design and scope changes are 
        typically reflected in the development of potential change 
        orders (PCO), many of which result in contract modifications. 
        Figure 4 shows the PCOs submitted for consideration for 
        sequences 1 and 2 since September 2003. Although PCOs are not 
        always approved, they are often regarded as a reasonably good 
        indicator of likely future design or scope changes that can 
        affect a project's cost and schedule. Even more important, the 
        adverse impact of scope and design changes on a project's 
        schedule is likely to increase as the project moves toward 
        completion.
---------------------------------------------------------------------------
    \8\ These data exclude sequence 2 contract modifications for work 
that was planned but not included in the sequence 2 base contract. 
Examples include the fit-out of the House and Senate expansion spaces, 
the construction of the utility tunnel, and the purchase and 
installation of food service equipment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Figure 4.--Cumulative Number of Potential Change Orders Submitted for 
      CVC Sequences 1 and 2 between September 2003 and August 2006

    As the figure indicates, new PCOs for sequence 1 were submitted 
until shortly before, and even for several months after, November 2004, 
when AOC determined that the sequence 1 contract work was substantially 
complete. Similarly, PCOs for sequence 2 are still being submitted, and 
we have seen no indication that their submission is likely to stop 
soon. It therefore appears likely to us that some of the design or 
scope changes indicated in PCOs could lead to contract modifications 
that will affect the project's schedule. AOC agrees that it is 
important to minimize the impact of proposed design and scope changes.
    Additional delays associated with the CVC's new utility tunnel have 
resulted, or could result, in additional work or slippages. As we have 
previously testified, the delay in starting up the utility tunnel's 
operations has necessitated the use of temporary humidity control 
equipment for the orientation theaters to avoid damage to finish work 
and ceiling tile. Moreover, delays in getting conditioned air inside 
the CVC have resulted in the sequence 2 contractor's bringing 
additional temporary equipment into the auditorium area. Such delays 
may subject certain work to the risk of damage or delay finish or 
ceiling work in areas not suitable for the use of temporary humidity 
and temperature control equipment. For example, the CVC team installed 
ceiling tile in portions of the great hall to take advantage of the 
scaffolding in place, even though neither the temperature nor the 
humidity was controlled in that area. According to the CVC team, the 
installed tile could be damaged if the temperature or humidity is not 
within the specified levels. The CVC team has been providing cool air 
to the food service area and on the service level, but planned to turn 
off the chilled water supply to the CVC this week so that it can charge 
the entire CVC system with chilled water. At the Subcommittee's last 
CVC hearing, we reported that the CVC team had expected to have steam 
running to the CVC and to be providing dehumidified air to the exhibit 
gallery by mid-August. However, as we discussed earlier, the team 
experienced problems. The CVC began receiving steam earlier this week 
and now expects to be able to provide dehumidified air to the CVC by 
mid-October. Remaining risks involve having sufficient manpower to meet 
the scheduled dates for getting the HVAC system fully operational and 
being able to quickly overcome any problems that may arise in getting 
the system properly balanced, controlled, and commissioned.
  --Late identification or slow resolution of problems or issues could 
        delay completion.--Historically, the project has experienced or 
        been at risk of experiencing some delays resulting from slow 
        decision-making. In addition, some CVC team members believe 
        that some of the problems that have resulted in delays, such as 
        certain problems associated with the East Front or with 
        problematic sequence 1 concrete work could have been identified 
        and addressed earlier than they were. In responding to these 
        comments, the sequence 2 contractor said that although earlier 
        identification of these types of problems is conceptually 
        possible, it is difficult in practice. Looking forward, we do 
        not believe that the team will be able to meet its scheduled 
        completion date if it does not quickly decide on issues; 
        respond to concerns, questions, and submittals; or resolve 
        problems. Last week, AOC told the CVC team that starting 
        October 1, the architectural contractor will be decreasing its 
        staffing support to the project. In our opinion, this increases 
        the risk of slow responses to design questions or requests for 
        design instructions at a very critical time, particularly since 
        we have not seen evidence of a decrease in potential change 
        orders. AOC believes that it will be able to provide its CVC 
        construction contractors with sufficient architectural support 
        to respond to appropriate questions or requests in time to 
        avoid delays. We believe that this situation needs close 
        monitoring, as well as corrective action if problems arise.
  --Risks from insufficient stone deliveries appear to be 
        diminishing.--Although wall stone shortages have caused delays 
        in the past, they have not recently been a problem. All of the 
        wall stone for the base project and atrium areas has been 
        delivered, and AOC does not anticipate a problem with the 
        remaining wall stone deliveries. According to the construction 
        management contractor, about 2,400 pieces of wall stone for the 
        East Front and all of the wall stone for the tunnels still have 
        to be delivered. For a time, the sequence 2 contractor did have 
        a problem with the delivery of floor stone for the exhibit 
        gallery, but that problem has been resolved, and the contractor 
        does not anticipate problems with floor stone deliveries for 
        other areas. The sequence 2 subcontractor doing the House and 
        Senate expansion space work said that some wall stone for the 
        expansion spaces has been delivered and at this time he does 
        not anticipate a delivery problem with the remaining wall 
        stone.
    Finally, as we have said in previous discussions with AOC, its 
construction management contractor, and the Subcommittee, it will be 
important for AOC to have adequate analysis and documentation of the 
reasons and responsibilities for delays.\9\ On April 11, 2006, AOC 
executed a contract modification authorizing its construction 
management contractor to have one of its managers who has not been 
involved in the CVC project assess the adequacy of this type of 
information. The manager submitted his report to AOC in early June. He 
reported generally positive findings but also identified desired 
improvements. He made several recommendations to AOC, which AOC has 
generally agreed with and plans to implement consistent with the 
availability of resources. As we have previously stated, we believe it 
is important for AOC to complete its analysis of delays expeditiously 
given the September 15, 2006, sequence 2 contract completion date and 
the impact this analysis is likely to have on delay-related costs. AOC 
has been working with the sequence 2 contractor to address this issue.
---------------------------------------------------------------------------
    \9\ See, for example, GAO, Capitol Visitor Center: Effective 
Schedule Management and Updated Cost Information Are Important, GAO-05-
811T (Washington, D.C.: June 14, 2005).
---------------------------------------------------------------------------
            New Project Schedule Appears Achievable Only under Certain 
                    Conditions
    Last week, the CVC team completed the development of a new project 
schedule--the August 2006 schedule--that reflects the results of its 
preliminary analysis of the impact on the schedule of recent changes to 
certain components of the fire protection and security systems. While 
the team believes that its preliminary estimate is likely to provide 
sufficient time to accomplish the needed work, it does not believe it 
can make a definitive determination until after it has had a chance to 
fully analyze the changes to these systems. Although the team was 
striving to have all the necessary submittals approved by October 1, 
this is not likely. However, the sequence 2 contractor and its 
subcontractor responsible for most of the related work believe that 
they expect to have enough of the needed information in the next 
several days and will be able to make a definitive determination on the 
amount of time needed by around mid-October. The team plans to reflect 
any changes necessary in the September project schedule, which it 
expects to issue at about that same time.
    The August project schedule shows that all physical construction 
work on the CVC, the East Front, and the expansion spaces will be 
completed by spring 2007 and that the pretesting and final testing of 
all of fire protection, life safety, and related systems for these 
areas will be carried out between then and mid-September 2007. The 
schedule reflects the amount of time that AOC's Chief Fire Marshal said 
he would need to perform his acceptance testing, although the team is 
working with him to see if certain aspects of the testing can be done 
differently to achieve some time savings. Unlike the previous project 
schedule, the new schedule does not allow any time for addressing 
problems, risks, or uncertainties or for preparing for operations; it 
also assumes that the exhibits can be delivered and set up before the 
final acceptance testing of the facility has been completed. The team 
assumes that it will be able to arrange for the delivery and set up of 
the exhibits and to prepare adequately for operations before it 
receives a certificate of occupancy, but had not confirmed this 
assumption as of September 15, 2006.
    Accordingly, we are focusing the results of our schedule assessment 
on the completion of the CVC's construction, including the facility's 
acceptance testing but excluding preparations for operations and the 
delivery and setup of the exhibits. Although we would feel more 
comfortable if the schedule did contain some time for addressing 
problems, risks, and uncertainties, our analysis of the schedule; 
observations of the team's progress; discussions with CVC team managers 
and members, U.S. Capitol Police representatives, and AOC's Chief Fire 
Marshal; and the results of our mechanical engineering consultant's 
work indicate that the mid-September time frame for completing the 
project is achievable subject to two conditions:
  --The team's remaining analysis of the impact of the fire protection 
        and security system changes shows that the team can finish the 
        necessary work within the scheduled time.
  --The team promptly makes significant changes in its execution of the 
        schedule and project.
            Recommendation
    Given the magnitude of the recent schedule slippages and the 
consequences of the risks that have materialized, the time it has taken 
the team to identify and resolve problems, the team's performance 
relative to the indicators of progress that we and the Subcommittee 
have been tracking, and the risks and uncertainties that continue to 
face the project, we are convinced that the team will not be able to 
meet the new schedule or any schedule with completion dates close to 
mid-September 2007 unless it quickly and substantively changes its 
execution of the project and schedule. We are recommending that the 
Architect of the Capitol promptly develop an action plan setting forth 
specific steps that AOC and the CVC team will take to enhance AOC's 
execution of the schedule and project. Types of actions the team should 
consider are as follows:
  --Make more visible, aggressive, and focused efforts to manage 
        activities in the project's critical and key near-critical 
        paths according to the schedule, making sure that priority 
        activities receive priority attention.
  --See that sufficient effort is applied to meet important dates. The 
        CVC team may wish to consider including the use of targeted 
        acceleration when it is justified and will save time without 
        adversely affecting worker safety, work quality, or facility 
        functionality or causing trade stacking. In addition, any 
        consideration of acceleration should balance its impact on the 
        schedule against its potential impact on cost.
  --Ensure that mechanisms are in place to identify and quickly resolve 
        problems, issues, risks, questions, and concerns raised by 
        construction contractors or others; provide needed design 
        guidance and instructions; and respond to submittals 
        effectively and quickly, including closely monitoring the 
        turnaround time for architectural support from this point 
        forward.
  --Continuously ensure the effective operation of mechanisms put in 
        place to coordinate work among the many contractors and 
        subcontractors constructing the building and to coordinate with 
        AOC's Chief Fire Marshal, U.S. Capitol Police, and the Capitol 
        Power Plant.
  --Continue to see that requests for discretionary changes to the 
        project's scope or design are promptly brought to the attention 
        of the Capitol Preservation Commission, along with the impact 
        of such requested changes on the project's schedule.
    AOC agreed that additional actions are needed to improve the extent 
to which the CVC team meets its scheduled dates and said that it would 
identify and take such actions. To help put the CVC team in a better 
position to meet the project's scheduled completion date, after 
considering the actions we have identified, the Architect of the 
Capitol should promptly provide the Capitol Preservation Commission, 
the House and Senate Committees on Appropriations, and the Senate 
Committee on Rules and Administration and the Committee on House 
Administration with a plan setting forth the actions it and the CVC 
team will take to enhance their execution of the project and its 
schedule--particularly to accomplish all of the critical work that 
needs to get done in the next 3 to 4 months. AOC should submit the plan 
as soon as possible, but no later than mid-October 2006. Congress can 
then use this plan to hold AOC accountable for managing the project and 
to work closely with AOC to ensure that the schedule implications of 
all proposed scope or design changes are quickly determined and 
considered by all appropriate stakeholders before final decisions on 
the proposed changes are made.
Project's Estimated Cost and Funding
    Relying on cost estimates provided by AOC and its construction 
management contractor, we now estimate that the total cost to complete 
the entire CVC project will be about $584 million without an allowance 
for risks and uncertainties and could be as much as about $596 million 
with such an allowance. This updated $584 million estimate is about $28 
million greater than our previous estimate of $556 million, which did 
not include an allowance for risks and uncertainties, and matches our 
previous estimate of $584 million, which did include an allowance for 
risks and uncertainties. The $28 million increase consists of estimated 
costs related primarily to additional delays and, to a lesser extent, 
the recently identified changes to the CVC's fire protection and 
security systems and provision for future changes. (AOC estimated the 
additional delay-related costs for budgetary purposes only and did not 
provide for possible concurrent delays.) Moreover, with additional 
risks and uncertainties, we believe the entire project could cost 
another $12 million at completion ($596 million minus $584 million). 
The mounting costs of delays are a major reason for our emphasis on the 
need for AOC and its other CVC team members to make significant changes 
in their project management.
    To date, about $531 million has been provided for CVC construction. 
This amount includes about $3.9 million that was made available for 
either CVC construction or operations \10\ and has been approved for 
CVC construction by the House and Senate Committees on Appropriations. 
Our previous cost-to-complete estimate showed that another $26 million 
in construction funds would be necessary without an allowance for risks 
and uncertainties to reach the previous cost estimate of $556 million. 
AOC has requested this additional $26 million in its fiscal year 2007 
budget for CVC construction. AOC has also requested $950,000 in fiscal 
year 2007 general administration appropriation funds to provide 
contractual support for the Chief Fire Marshal's final acceptance 
testing of the CVC. Given the new cost-to-complete estimate, AOC will 
likely need some additional funding for changes during fiscal year 
2007.
---------------------------------------------------------------------------
    \10\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million (reduced to $10.5 million by a subsequent budget 
rescission of $84,000) could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. AOC has now received approval to obligate 
the entire $10.5 million.
---------------------------------------------------------------------------
    AOC agreed that it would likely need additional funds but did not 
believe it would need quite as much as we had estimated for future 
changes and contingencies. Given the project's experience with cost 
growth and the trends in the number of potential change orders 
submitted, we believe our estimate is reasonable. In addition, AOC 
noted that it could possibly use some funds that have been slated for 
covering sequence 2 delay-related costs for other CVC-related costs 
during fiscal year 2007, assuming that some of this delay-related 
funding may not be needed for some time. AOC recognized, however, that 
it may need additional funding for potential delay-related costs if it 
were to do this. AOC also noted that it may be able to cover some 
portion of the increased costs by reprogramming funds from other 
sources after obtaining the necessary congressional approvals.
    Mr. Chairman, this completes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.

            APPENDIX I.--CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, JULY-SEPTEMBER 2006
----------------------------------------------------------------------------------------------------------------
                                                                                         Scheduled      Actual
                Activity                                    Location                     completion   completion
----------------------------------------------------------------------------------------------------------------
Lower level--Hang VP drywall ceiling....  Congressional auditorium....................    7/20/2006     \1\ 9/9/
                                                                                                            2006
Wall stone Area #6......................  Congressional auditorium....................    7/20/2006    \1\ 9/11/
                                                                                                            2006
Install AHU-EF-1/AHU-EF-2...............  Mechanical system...........................     8/1/2006      ( \2\ )
Install bronze doors....................  Food service................................     8/3/2006      ( \3\ )
Grid for wood ceiling...................  Orientation theater.........................     8/8/2006      ( \4\ )
Pre FPT controls test...................  SF fans.....................................    8/15/2006      ( \5\ )
Wood doors and frames...................  Food service................................    8/21/2006      ( \6\ )
Finish paint............................  West lobby assembly.........................    8/21/2006  ...........
Install wood ceiling panels.............  Orientation theater.........................    8/22/2006      ( \4\ )
Wall stone Area #1......................  East Front principal........................    8/28/2006      ( \7\ )
Ceiling fabric..........................  Congressional auditorium....................    8/28/2006  ...........
Install stone...........................  Exhibit gallery.............................    8/31/2006      ( \8\ )
Plaster ceiling.........................  East Front Basement.........................     9/5/2006  ...........
Controls Pt. to PT. check...............  AHU-01......................................     9/8/2006     8/5/2006
Wall stone Area #2......................  East Front principal........................    9/12/2006      ( \6\ )
Ceiling panels..........................  Orientation lobby...........................    9/12/2006  ...........
Floor stone.............................  Food service................................    9/19/2006     9/4/2006
----------------------------------------------------------------------------------------------------------------
\1\ Work is substantially complete.
\2\ Assembly of the upper level air-handling units has been slowed during replacement of water-damaged
  insulation.
\3\ Bronze door installation has been resequenced to make upper level security doors the highest priority.
\4\ Installation has been slowed while coordinating with the audio-visual contractor on the installation of
  above-ceiling equipment.
\5\ Test could not be done because preceding work had not been completed.
\6\ Installation of wood doors has been resequenced; a template was developed to prevent delays of follow-on
  work.
\7\ Installation of principal level wall stone has been affected by ductwork revisions and metal stud design
  issues.
\8\ Aspiration wall-stone installation has been delayed because preceding work took longer than expected.
 
Source: AOC's June 2006 CVC sequence 2 construction schedule for the scheduled completion dates, AOC and its
  construction management and sequence 2 contractors for the actual completion dates, and the sequence 2
  contractor or subcontractors for reasons for delay.

    Senator Allard. Thank you.
    I will now call on Senator Durbin.
    Senator Durbin. I don't have an opening statement.
    Senator Allard. We'll now go on to our question and 
response period.

                      CHANGES TO PROJECT EXECUTION

    The first question I have deals with changes to project 
execution. Now, according to the GAO, the completion date is 
achievable, and I quote, ``if, and only if, the team promptly 
makes significant improvements in the way it executes the 
project and its schedule.''
    Mr. Hantman, do you agree with that assessment?
    Mr. Hantman. Mr. Chairman, clearly with project milestones 
having not been met, to the extent they nearly should be met, 
and with continued communication being needed to strengthen all 
of the issues that occur on a day-to-day basis, some of them 
known, some of them unknown, that we do, in fact, need to 
strengthen these communications. My testimony indicated we've 
taken several steps in that direction; I think continued 
oversight is necessary--day-to-day communication at all levels, 
with the contractors and with our consultants, is something 
that we are involved with right now in--very actively. We will 
continue to do so, and I think we will certainly identify 
specifics in an action plan that will tie all of this together.
    Senator Allard. Will you commit to delivering an action 
plan by October 20?
    Mr. Hantman. Yes, I will.
    Senator Allard. Thank you.
    Mr. Ungar, can you elaborate on what the CVC project team 
must do to get the project on track?
    Mr. Ungar. Yes, sir, Mr. Chairman, Senator Durbin. First 
and foremost, as you indicated in your opening statement, Mr. 
Chairman, focus on the schedule--more aggressive, more direct, 
more visible effort to manage the project to the schedule. In 
our view, that hasn't been done sufficiently in the past, and, 
if it's not done in the future, the prediction that Mr. Dorn 
made is certainly very likely.
    It's true, as Mr. Hantman indicated, that the team does get 
together quite often, talks about issues and problems, and 
works toward resolving them, but they're not within the 
framework, with the specific dates in the schedule, to the best 
that we can see, particularly not focusing on the critical path 
and the key near-critical paths, many of which have slipped 
extremely significantly over the last several months. So, 
without that significant effort on the schedule, progress is 
going to be limited.
    Some other efforts are also very important, though. Next 
would be to make sure that the team applies sufficient both 
supervisory and work effort to meet the schedule. As Mr. Dorn 
indicated, we have seen some instances where it would appear as 
though the lack of sufficient effort is contributing to not 
meeting the schedule. And the prime example of that would be 
the heating, air-conditioning, and ventilation system. Because 
of some concerns there that we've had, we had a consultant come 
in recently and look at that, and his basic conclusion was that 
there's nothing that would prevent the work from getting done, 
other than effort being applied to it, that he could see. And 
we have talked to the team about that, and they have committed 
to apply the effort to get that work done by the end of the 
year, except for possibly some commissioning activities. And 
that's very critical, because it contributes to the fire 
protection system.
    Another point I'd like to stress is one that Mr. Dorn 
mentioned, that is, it's very important to this project to 
identify problems early, and, once identified, to get them 
resolved. Whether it's decisions or whether it's action, 
whatever it is, there have been a number of problems on this 
project that have drug out, drug out, and drug out, and are 
talked about week after week after week, and are not fixed. One 
of those examples is all the stonework on the east front. That 
has been consistently extended, in terms of the completion 
date. So, that's just one example.
    And finally, two other points. One, it's very important to 
make sure all the work among the many different contractors and 
subcontractors is well coordinated, going forward, and two, 
that the team continues diligently to work with the Congress in 
trying to make sure that any discretionary changes to the 
project that are requested are not made before the impact on 
the schedule is considered.
    And that would be the specific steps that we would suggest 
that AOC consider in putting its action plan together.
    Senator Allard. I'd have to agree with your assessment. And 
if I was to be asked to write a letter of recommendation today, 
for the contractor, I would be hard-pressed to give him a 
favorable recommendation, considering what's happened in the 
last year and what's happened here in the last 6 weeks, and the 
lack of progress.

                          SUCCESSION PLANNING

    Mr. Hantman, I understand that key members of the CVC team 
are planning to retire this winter. I'm concerned about that. 
That's long before the CVC is going to be ready to be opened. 
Have you developed a succession plan to ensure the project 
doesn't lose momentum and key institutional knowledge?
    Mr. Hantman. Mr. Chairman, one of the people who is working 
directly with Bob Hixon will be retiring in December. He had 
been working on negotiations with contractors relative to 
trying to settle things and problems that might exist there. 
And the Gilbane people have been working very closely with him, 
and there will be continuity on the Gilbane side to continue 
these kind of negotiations and adjustments, as necessary. So, 
that continuity will continue.
    We also have other key members on Bob's staff who are very 
actively involved in key areas of the project and have great 
experience on the GSA side to be able to pick up some of the 
issues there.
    I think I could let Bob talk to that.
    Senator Allard. Mr. Hixon.
    Mr. Hixon. Yes, sir. As we mentioned, Gary Lee is retiring. 
Gary does a lot of the detail work and the quality work, and 
that'll be a loss to us. But we also anticipate that a lot of 
these items should be resolved by the time he's retiring. The 
claims issues are being handled heavily by the Gilbane folks 
now, while under sequence 1 a lot of that was handled 
personally by Gary. But, yes, that will be an impact to us when 
he's gone.
    The balance of the issues, we're looking at ensuring that 
we have staff onboard through the completion of the 
construction. We're not expecting to lose anybody before the 
actual construction itself is completed. After that, after the 
February-March timeframe, we will have the pretesting 
completed, and we will just be in a mode where we're supporting 
the fire marshal as he goes through his final acceptance 
testing. The personnel that we'll have onboard to handle that 
should be, certainly, able to deal with those issues.
    We're also working right now with the closeout of 
administrative issues, all the contracts, all the old task 
orders. We're doing that right now so that those issues will 
be--except for the current task orders that are ongoing, the 
closeout packages are being prepared. So, I think we'll be in 
reasonable shape.
    Concerning Mr. Hutchison, with RTKL, he has essentially 
moved up a level in the organization, so he is not onsite 5 
days a week, he's onsite 3 days a week. They have other 
personnel onboard, and they will be assigning people to start 
doing the inspections onsite. So, RTKL has assured us that Mr. 
Hutchison is available if we need him, any day, so we don't 
expect that to be a serious issue. It may impact being able to 
make a decision immediately, because he won't be there onsite, 
but he's available to come out to the site promptly. He would 
just have to coordinate that with his ongoing work. So, we 
don't expect that to be a significant problem.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Mr. Chairman, if I could just add one comment 
there.
    The work that the team has to do in the next 3 to 4 months 
is absolutely critical to meeting its schedule. If there are 
any delays whatsoever in getting issues resolved relating to 
the architectural situation, it could really significantly hurt 
the project team's efforts to meet the schedule. So, I think 
it's very important for AOC to very closely monitor this issue 
from this point forward, at least from October 1 forward, to 
make sure, if there is any slip in responding to questions and 
getting needed answers and everything that RTKL does, that 
that's rectified immediately.

                         LESSONS LEARNED REPORT

    Senator Allard. I mentioned several hearings back that I 
wanted to have a lessons-learned report. I'd like to get that 
report before we lose key personnel. Can I get a commitment 
from you, Mr. Hantman, and you, Mr. Dorn or Mr. Ungar, to get 
us a lessons-learned report by January? Then that gives 3 
months here to get that compiled while we've got key personnel 
that we can visit with and learn from. I think this lessons-
learned report, and perhaps some suggestions on how those 
things can be corrected that have gone badly, I think would be 
very helpful to future projects around the Capitol here. I 
would like to have a commitment from both you, Mr. Ungar, and 
Mr. Hantman, if you could have that by January for us.
    Mr. Ungar. Yes, sir. Did you want separate reports or----
    Senator Allard. I think we could have it in the same 
report. Let's do it that way.
    Mr. Ungar. Maybe we could work that through, then?
    Senator Allard. Yes, if you would, please.
    I would hope that you can agree on many of these things, 
but if there is a disagreement, footnote it or however you want 
to stick that in the report.

                        SCHEDULE FOR PRETESTING

    I understand, Mr. Baker, who's vice president for Manhattan 
Building Company is present. Is that Mr. Baker here? Yes, would 
you come up to the table? I had just one question for you, Mr. 
Baker.
    Thank you. Do you believe your schedule for completing 
pretesting by mid-March is realistic and achievable? And is 
Manhattan willing to do all it needs to meet that timeframe?
    Mr. Baker. Yes, sir, we do.
    Senator Allard. Thank you. That's all we need.
    Now I'll call on my colleague Senator Durbin.

                            COMPLETION DATE

    Senator Durbin. Thank you, Mr. Chairman, for this 14th 
hearing on the status of the Capitol Visitor Center. I think 
the record will show that this subcommittee, and the chairman, 
in particular, have dedicated more time and effort to this 
project than any other oversight subcommittee on the Hill, and 
I commend my colleague from Colorado for his work on this 
project.
    This is beginning to remind me of the movie ``Groundhog 
Day'', where we wake up every September to be told that this 
project will be finished next September, and it will cost more 
money. And I'm beginning to wonder how long we can do this, how 
long we can continue along this line.
    Last year, we were told by Mr. Hixon that this project was 
64 percent complete. What's the percentage today?
    Mr. Hixon. The percentage today is about 85 percent of the 
whole project, 77 percent for the current phase.
    Senator Durbin. So, we're edging ever so close to a 
completion date here.
    Mr. Hixon. Yes, sir.
    Senator Durbin. And yet, since our last hearing, only 2 of 
the 17 milestones have been reached. Is that correct?
    Mr. Hixon. Yes, sir, only 2 of the milestones were reached 
on time, 4 of the 17 milestones have been completed.

                      IMPROVING PROJECT MANAGEMENT

    Senator Durbin. That's not very encouraging. The GAO says 
if we're going to have this done in 1 year, that things are 
going to have to change pretty dramatically. Their words were 
that this could be open to the public in 1 year if, and only 
if, the team promptly makes significant improvements in the 
execution of the project and its schedule. So, business as 
usual won't--according to the GAO, won't result in an opening 
in 1 year. Do you agree with that?
    Mr. Hixon. I believe that there are some--we need some 
increased emphasis on the schedule. There are also a number of 
issues that have occurred recently that have impacted the 
schedule, and those are the things that we are working through. 
But that has caused some delay in the completion of activities.
    Senator Durbin. Aside from the fact that we call you up 
here periodically to hammer on you to get this project done, 
what more do we have to do to make sure that people pay 
attention to meeting the schedule and completing this project?
    Mr. Hixon. The schedule issue is something that continues 
to be a heavy point of our meetings. I think GAO has 
recommended that we increase the discussion of the actual 
schedule itself during weekly meetings. We've begun to do that. 
Recently we had some general discussions we've been having for 
some time, but they weren't very detailed, as far as 
evaluating, for the 2-week look ahead, which things are 
supposed to start and haven't started, and which things are 
supposed to be complete and haven't been completed. And those 
are the actions that I think need to be made to provide more 
emphasis on ensuring that the field team, together with the 
project management team, are aligned in making sure these 
activities take place on time.

                            COST TO COMPLETE

    Senator Durbin. Each year, when there are budget requests 
from the Architect of the Capitol for this project, they are 
characterized as, quote, ``costs to complete construction of 
the Capitol Visitor Center.'' We have been appropriating that 
amount to complete construction now for several years. I 
assume, in the next year's budget request, there will be 
another request for an amount to ``complete construction of the 
Capitol Visitor Center.'' Do you think that's what's going to 
happen, Mr. Hantman?
    Mr. Hantman. Our anticipation is that further funds would 
be necessary in the 2008 budget to complete the construction 
and to settle whatever claims might be outstanding.
    Senator Durbin. Yes, Mr. Ungar?
    Mr. Ungar. Mr. Durbin, I think we would agree with that, 
but we would also say that we believe that AOC is likely to 
need more money in fiscal year 2007 to complete construction, 
unless it, in effect, borrows from funds that are slated for 
other purposes right now.
    Senator Durbin. Mr. Ungar, do you have any reason--or can 
you explain to us why these estimates to complete this project 
have been so bad so often?
    Mr. Ungar. I can certainly partially explain that, Senator 
Durbin. One of the reasons is the changes, the extent and the 
number of changes, haven't been fully anticipated. And also the 
extent to which the project has been delayed hasn't been fully 
factored into all the estimates that have come forth so far, at 
least from AOC. We are a little on the higher side than AOC has 
been, although even as the chairman pointed out, we are now 
pretty much estimating the most likely cost at our previous 
high number, and from a risk standpoint, when you factor risks 
in, the cost could go even higher, but that's because of, 
primarily, delay-type situations and additional problems with 
key building systems, including the fire protection system and 
the heating, air-conditioning, and the ventilation system.
    Senator Durbin. Well, we haven't quite reached the end of 
the road here, and I hope we do in my political lifetime, but 
I'd like to ask you, Mr. Ungar, could you reflect on what went 
wrong? I mean, if we had to do this all over again, where--
what--was there a key element here that we just got wrong from 
the start?
    Mr. Ungar. Well, let me start, Senator Durbin--and maybe 
Mr. Dorn and Mr. Hantman may want to add in, here, it's just 
not one factor. I think there are many factors that contributed 
to where we are today, going back to before the beginning of 
construction. First and foremost, I would say there was a very 
unrealistic expectation up front about the expected completion 
date, and that has continued to exist up until roughly today. 
Initially, this project was to be done, I think, by January 
2005, for the inauguration. I think it was pretty well 
understood by most at that time that that was extremely 
optimistic and aggressive, and also probably not realistic. And 
the schedules that have come out so far, from that time, also 
have been generally unrealistic and optimistic. I think they've 
got one now----
    Senator Durbin. Who produces those schedules?
    Mr. Ungar. Well, initially the schedules are done primarily 
by the contractors. And they're, of course, reviewed by the 
construction manager under the contract. The timeframe--the 
first timeframe set was--I believe--was the expectation set, at 
least informally, by Congress, as I recall. But then, the 
subsequent schedules were set by AOC and the contractors, 
working together. Of course, this was split into several 
segments.
    Senator Durbin. Does the contractor face any penalty for 
blowing the schedule and seeing the cost run up? Is there 
anything written into the contract to give an incentive to the 
contractor to be honest about----
    Mr. Ungar. Well----
    Senator Durbin [continuing]. Completion?
    Mr. Ungar. There are provisions in the contracts for 
liquidated damages if they don't meet the dates. Now, the 
problem has been, Senator Durbin, that there have been so many 
changes that have been taking place, for a variety of reasons. 
Many of those were not controllable by AOC, they were 
unexpected conditions, and Congress did add considerably to the 
scope of the project by legislation as a result of 9/11. So, 
there were a number of things that were not anticipated that 
affected that. On the other hand, there was a major problem 
here at the beginning of sequence 2 with the wall stone, 
getting the adequate wall stone. That apparently was not a 
government caused problem. So, there were some concurrent 
issues going on at the same time.
    Senator Durbin. I'm----
    Mr. Hantman. If I may, Mr.------
    Senator Durbin [continuing]. Sorry to interrupt you, but 
I--go ahead, Mr. Hantman, I'm sorry.
    Mr. Hantman. I think the basic question, Senator Durbin, 
really talks about, how do you want to run a project of this 
magnitude? And the issue is, you would normally have a complete 
set of construction documents. You would bid them, you'd get a 
price, and you'd build it that way. Part of our problem, 
Senator, was, in the middle of the design development, even 
before the bids came out, we had the situation where we had the 
two police officers murdered, we had 9/11. What we needed to do 
was split the package in half in order to try to begin to meet 
the schedule, basically, which Congress wanted, which was for 
the inaugural in 2005. We split out the foundation work, the 
excavation work into a single package. We bid that so that we 
could redesign the rest of the project for new mechanical 
criteria which the ``men in black'' and other people were 
telling us we had to do for major security. Also, fire and life 
safety-related issues had to be incorporated into the project. 
So, we started the project by building the half of it, and then 
we had to change the construction documents and then rebid the 
second part. We also had to get two major contractors' work to 
match together while under construction, as well as incorporate 
new changes.
    Senator Durbin. I will acknowledge all of those things, and 
I will acknowledge that Congress was complicit in some of these 
problems. But, having acknowledged that a long time ago, we're 
still facing the same problem. There's no end in sight. There's 
no ultimate cost in sight. This is apparently the long march, 
and I hope I'm here to see it come to an end.
    I'm going to ask it, in separate questions, talk about the 
safety record at the work site, update me on what's being done 
there, as well as the asbestos exposure in the tunnels. I've 
talked to the chairman informally. I'm going to be meeting with 
some of your workers, next week, who we believe may have been--
I pray to God they weren't, but may have been exposed to 
asbestos, to make sure that we're taking care of them, for 
their sake and their families.
    Thank you very much.
    Senator Allard. Thank you, Senator Durbin.
    And I would just reinforce, again, as I had mentioned 
earlier, that come after the first of the year, we plan on 
having some hearings on the utility tunnel project and some of 
these other issues of security. Meantime, I appreciate you 
taking the time to work with the tunnel workers. Hopefully we 
can begin to get some answers when we have these hearings in 
January.

                       INCENTIVE-DRIVEN CONTRACTS

    I want to follow up on Senator Durbin's question a little 
bit. I've been involved in a couple of major federally funded 
construction projects in Colorado. One was a combination mass 
transit/highway system, and we had incentive contracts. And we 
got it done on time and on budget. Another big project, the 
cleanup of a nuclear weapons facility, one of the most 
contaminated sites in the world, with incentive contracts, we 
got that cleaned up a year ahead of time, $500 million savings.
    Why won't an incentive-driven contract work in projects 
that we have around the Capitol?
    Mr. Hixon. Mr. Chairman, I think the issue here that we're 
dealing with is things that we have done to delay the 
contractor that has impacted their progress. When the 
contractor was 2 weeks away from completing his tunnel 
connection work so that we could have chilled water and steam 
provided to the building, that was in March--on March 23. The 
contractor was told he could not work in the tunnels anymore 
until we reconciled the issues of the asbestos and the 
condition of the concrete. Subsequently, on July 31, we were 
able to receive chilled water, and on August 31 we were able to 
receive steam. And so, what we've had is a delay in the 
mechanical systems as a consequence of that.
    We've also had the shop drawing submittals that were 
provided in May, and we were anticipating that we would have 
approval of the fire alarm shop drawings in June so that we 
could commence with the pretesting--the final installation and 
the pretesting of the systems in September. As we sit here 
today, we are near completion with the revised fire alarm shop 
drawings. I'm looking for the riser diagram that was due last 
week and has been revised for some panel work that needs to be 
done in some of the secure areas. That riser diagram is now 
planned to come in on Friday. So, here we are, at the end of 
September, getting the final shop drawings submitted to replace 
those that were submitted in May. And, of course, the 
contractor is proceeding where he can, but he is not able to 
proceed freely, out of concern that he might have to take work 
out.
    So, I think these two items, both the tunnel issue 
impacting the mechanical contractors' performance and the fire 
alarm changes that are affecting the fire alarm system 
installation, have now caused those issues to become critical--
the mechanical, especially, because it has the smoke-control 
requirement that ties into the fire alarm. That is what's 
pushing us out.
    If we didn't have those issues to deal with, we would, in 
fact, be talking about architectural issues that have slid out 
some, but those have been overshadowed by the fire alarm and 
the mechanical issues. And, as a consequence of that, we now 
have this additional time. We have potential additional cost 
associated with that.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. I wouldn't disagree with anything Mr. Hixon 
said. The point, I think, that needs to be considered here is 
that, yes, there have been very significant problems that have 
slowed progress, not at the fault of the contractors. The 
question is, once those problems arise, how much time does it 
take to get them fixed? And that's the point we're focusing on. 
I think that the team, right now, has very good control over 
the fire protection changes. They're working very diligently. 
They're on top of that. They monitor it almost daily. Well, I 
know Mr. Hixon does, anyway. So, they seem to be doing 
everything they can.
    But if you look at the other problems, they came up, and it 
just took a long time, and has been taking a long time, to get 
those fixed. So, that's where I think a lot of effort needs to 
be applied.
    And with respect to the current contract arrangement, even 
though the contract completion date expired a few days ago, 
there is a provision in there for award fee. I don't know if 
any of that has been expended. And I don't know whether there 
is any possibility, looking forward, when the contract is 
amended, that perhaps, something could be done to focus in on 
meeting the schedule and getting the project done, in terms of 
the award-fee funds that might be applied. Maybe that's not as 
effective as an incentive-type arrangement, but there's a 
possibility.
    Senator Allard. Mr. Dorn.
    Mr. Dorn. Yes, actually, I believe Bob can confirm the 
amounts, but some of the award fee has been expended. But I 
believe they have not been given the full amount.
    Senator Allard. I hope they haven't been rewarded 
prematurely.

                       CONTRACTOR ACCOUNTABILITY

    Okay. Let me go to the next question. Mr. Hantman, how do 
you hold the contractor accountable for doing his work in a 
timely manner, when you don't have a set fixed completion date?
    Mr. Hixon. Mr. Chairman, I'll answer that. We are working 
with milestone activities. These are not contractual milestone 
activities, these are essentially commitments within the team. 
Your point is well taken. The contract completion date of 
September 15 is passed. We have had communications back and 
forth. In order to extend the contract completion date, we 
require the information from the contractor to justify the time 
extension, which is due, but has not yet been received.
    We're essentially working off of the schedule that we have. 
We went and reviewed that schedule last Friday with the 
contractor and major subcontractors to ensure that the schedule 
was realistic and achievable, and included in that are areas 
where we need to finish--food service area, orientation 
theaters, things of that nature, which we've been tracking for 
some time. But, clearly, without a contractual completion date, 
that gets a little awkward, but that is also not unusual for a 
major project, where these issues come up and the resolution of 
the time required for a change order to the contract takes some 
time to get the necessary paperwork in and resolve the issue. 
So, we're not in an unusual situation. It's not a desirable 
situation.
    Senator Allard. Can you give us a fixed completion date, do 
you think?
    Mr. Hixon. At this time, I would rather not project the 
date that--we think, contractually, it will change. I can tell 
you that right now we're looking at having all activities in 
the CVC portion completed by March 16, that that would have no 
negative float in the schedule. There are also some activities 
in the east front that would occur after that, a few items, 
like the circular stairs and the expansion space. But when you 
look at the schedule for work areas being finished 
architecturally, at one point we were looking at September-
October for a lot of areas to be complete. We now have those 
areas being completed in December and January.

                           LIQUIDATED DAMAGES

    Senator Allard. AOC has been mandated to incorporate 
construction clauses requiring liquidated damages in all of its 
construction contracts. How are you going to implement that 
directive from Congress if you don't know if the contractors 
have finished the contract on time or not, Mr. Hantman?
    Mr. Hixon. Mr. Chairman, I can answer that. I have written 
a letter to the contractor--this was the same one I referred to 
before--putting him on notice that we needed his request for a 
time extension, and noting that he's liable for liquidated 
damages for any days of delay beyond those that are excusable. 
We recognize there's some entitlement, but he needs to provide 
the justification. If, in the end, there was not adequate 
justification for all the time until he is complete, then he 
would be liable for the liquidated damages. They are already in 
the contract.

                               AWARD FEES

    Senator Allard. The project's late, and it's over budget. 
Is the contractor still getting any bonuses or award fees in 
spite of these results?
    Mr. Hixon. Yes, sir. The basis for those award fees is not 
tied exclusively to his scheduled completion, they're tied to a 
number of activities, per the contract. He's evaluated on those 
approximately quarterly. He's been getting evaluations that 
indicate that he has done a pretty good job. He has not gotten 
the entire fee for any one of the evaluation quarters. And the 
amount of money available that isn't provided to him on those 
evaluation quarters is rolled over to be available for the 
follow-on period as an incentive to improve performance there.
    Generally, the contractor's performance has been good. The 
issues that he's been dealing with, for the most part, are 
trying to accommodate the things that we have imposed on him. 
Now, he is not perfect, he is not hitting all his milestones, 
based on his own schedule, and those are areas of concern, but 
I don't want to leave the impression that we think the 
contractor is not working very diligently to provide us a high 
quality facility as quickly as possible.
    Senator Allard. Okay. I want to move to the next question 
here.

                         UNANTICIPATED PROBLEMS

    I understand that the current schedule has no float for 
unanticipated problems that may arise. The schedule we 
discussed back in August had 2 months available after fire 
testing was to have been completed, prior to the opening. Given 
the project's history to date, why doesn't that schedule 
contain any cushion?
    Mr. Hixon. Mr. Chairman, the schedule reflects the actual 
completion date. It reflects the difference between a May 4 
fire marshal completion date, which we had previously, and the 
current September 17 date. The efforts that we are going 
through now are trying to determine if there are ways that we 
can do some activities concurrently in order to not have to 
wait until the last item is checked before we can have the 
public in the building--doing operations activities. That still 
needs to be reconciled, but those are the things that we're 
looking at.
    The contractor's schedule itself, we keep looking for ways 
to improve that. And as we get closer to the end, things are a 
little more succinct and easy to identify, but we need the shop 
drawings approved before he will ever begin to agree to do 
anything in any shorter period than he currently reflects in 
the schedule.

                           FIRE ALARM SYSTEM

    Senator Allard. Let's move to the fire alarm system. I've 
been talking about the fire alarm system for well over 1 year 
now. Mr. Dorn, is it surprising that the project continues to 
run into problems with the fire alarm system design?
    Mr. Dorn. One of the things that's concerned us about the 
fire alarm system and other issues on the CVC is that the 
issues need more detail. They're doing a 2-week lookahead 
schedule, which is great, at a high level. Bob mentioned that 
the problem that's been happening is they're not looking far 
enough out in detail and coming up with specific steps to 
resolve the issues when they can. Not only is that an issue 
with the fire alarm system, but it's an issue with things like 
east front stone, where no one is going out a couple of weeks 
ahead of time to find problems before you're there with your 
workers, ready to hang stone. It's a common problem on the CVC.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Mr. Chairman, just to add to what Mr. Dorn said, 
I would answer your question: we're definitely not surprised 
that they're having problems with the fire protection system. 
What is surprising is the magnitude and impact. We knew, for a 
while, that--the condition that was there because of the timing 
of all the submissions to the fire marshal and the extent to 
which there have been some coordination and communication 
issues--the project was at very high risk for these types of 
problems. And that was identified a long time ago. Again, I 
think it's just the magnitude of these problems that has been 
somewhat surprising.
    Senator Allard. Well, can you be more specific on what's 
caused our time delays on the fire alarm critical path?
    Mr. Ungar. I'll try, Mr. Chairman. There have been several 
issues recently that are contributing to these delays. One is a 
significant change in the way that the fire alarm system is 
going to be programmed. That happened a couple of months ago, 
and that's certainly affected the timing. That is also going to 
affect the location of a major fire control panel in the 
building, and a lot of wiring that has to be changed that's 
associated with that. Another issue that's affected the fire 
protection system is the need, because of some other problems, 
to enhance the fire protection level of the locations where a 
lot of these wires are located, and that's another major 
change. Another one is to add additional fire control panels to 
the House and Senate shell space, for a variety of reasons, and 
also to add additional fire control panels to some secure areas 
in the building for security reasons. There have also been 
changes made to meet the fire marshal's requirements, in terms 
of his views of the fire safety code and life safety code. So, 
there are a number of factors that are driving the process.
    Senator Allard. So, you're not surprised that we've run 
into these problems with the fire alarm system.
    Mr. Ungar. Absolutely not. Again, it's something that--as 
you indicated--we've been talking about for a long time. There 
have been time periods--there were situations--in which the 
communication and coordination with the fire marshal haven't 
been as good as they needed to be. There are also some issues 
that aren't really directly related to that particular issue, 
so it's not all due to disagreements with or late submissions, 
if you will, to the fire marshal. For example, the need to add 
some special panels into the House and Senate shell spaces for 
security reasons, in our view, is something that should have 
been identified a long time ago, and that's not something 
that's being driven by the fire marshal. That's a security 
requirement. Now, when it's done, it's got to meet his 
requirements, but the need for those things isn't directly a 
fire marshal requirement.
    Another major change that's affecting, at least in some 
degree, the schedule, has to do with linkages between the fire 
protection system and the security system. Those aren't being 
driven by the fire marshal, but the fire marshal certainly has 
to be, you know, in agreement with the changes so that they 
won't adversely affect the fire protection system. And the team 
and the fire marshal and the U.S. Capitol Police have been 
working close together to address that issue.
    Senator Allard. Mr. Hantman, can you complete a list of 
reasons for changes to the fire alarm system associated costs 
by the next hearing?
    Mr. Hantman. Absolutely. We can do that.
    Senator Allard. Thank you.
    Is it realistic to think that we can make up time on the 
fire alarm system with a double shift? Mr. Hixon.
    Mr. Hixon. We do not believe, at this time, that we can do 
that. The contractor has already been approached about doing 
that--the subcontractor that'll actually be performing the 
acceptance testing with the fire marshal--and in discussions 
with the fire marshal, has said that a double shift is not 
desirable, because you have a select number of people who are 
involved in reviewing the performance of the system, and they 
don't want more than one person in control of the panel, so 
that you end up with somebody leaving off and the next person 
comes on shift and they're not sure what's happened in the 
previous shift. That issue has been discussed a few times 
between the fire marshal and the contractor, and I think both 
parties are opposed to going to a double shift.
    The current schedule anticipates we would use evenings and 
weekends to correct any deficiencies that are found in the 
system, so that the testing continues on schedule. So, if 
something is encountered during the day, you fix it at night, 
and then retest it and go on.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. I hate to add a couple of more things, but I'd 
like to, Mr. Chairman, just add to what Mr. Hixon said. The 
subcontractor he referred to, who had a concern about working 
double shifts, has committed to, once he gets all the 
information he needs to determine how long this is going to 
take to do all the work, offering some options and alternatives 
to the team as to how--what steps--he might be able to take to 
speed up the work. He's not committing to double shifts, but he 
said there may be some things he could do. Of course, they may 
cost more to do that.
    In addition to that, the fire marshal has agreed to 
consider some suggestions made by the team that might result in 
a shortening of his acceptance testing period, but he certainly 
hasn't agreed to those. He said he is willing to consider some 
suggestions, and some suggestions have been made. And I'm using 
the word ``suggestions'' lightly here. But there is a 
possibility that there could be some shaving of the time, 
although, at this point in time, we certainly wouldn't want to 
count on that. And, in fact, it could even, in some instances, 
be a little bit more time. There is the potential there for 
that.

                              HVAC SYSTEM

    Senator Allard. I'm going to move on to the HVAC system. 
Mr. Hantman, what accounts for the delays in getting the air 
handling units operational?
    Mr. Hantman. As far as the air handling units are 
concerned, I think Mr. Hixon had referred, earlier in the 
testimony, to the issues of delays that were caused by the 
``R'' tunnel, the existing steam lines and chilled-water taps 
in existing tunnels under Second Street, and the issues that we 
were having relative to asbestos and concrete in those tunnels. 
The resolution of that ``R'' tunnel interface with the tunnel 
leading to the Capitol Visitor Center specifically held off 
delivery of those utilities to the air handling units.
    Bob, anything further?
    Mr. Hixon. That's correct. But, as a consequence of that, 
here in the recent few weeks, we've had a much renewed effort 
by the mechanical contractor now that the steam is available 
into the facility. Right now, we've got chilled water to 22 of 
the 23 air handling units that we have onsite, and, as a 
consequence of that, they will be doing the water testing, and 
then we will start working on steam getting to the individual 
units. So, in the next few weeks--we've talked about 3 weeks 
being critical here, if we can get these next 3 weeks of work 
done on schedule, then we should have the systems all 
operational the way they're supposed to operate, in December, 
which is the target.
    Senator Allard. Now, according to the GAO's analyst, and I 
quote, ``nothing he could see would have prevented the 
completion of the work, other than the lack of effort.'' Do you 
agree with that?
    Mr. Hixon. We agree that there was a lack of emphasis by 
the subcontractor responsible for that work during this recent 
period. They were waiting for the steam--I believe they were 
waiting for the steam to be available. I think they just 
emphasized those crews on some other work. Clearly, they were 
not performing some work that they could have performed during 
this period of time.
    Senator Allard. Do we have a date established as to when 
the HVAC system's going to be completed?
    Mr. Hixon. I'm sure we do on the schedule; I don't have it 
off the top of my head, but it's in December. We need to be 
careful on what we're talking about completed. We're talking 
about ready for the final commissioning activities. We're 
expecting the systems to all be operational and ready to go in 
December. Then we will be going through the commissioning 
process to make sure they all function properly with our 
commissioning agent, and then we also have to make sure the 
smoke-test portion of the system functions properly.

                            COST TO COMPLETE

    Senator Allard. Let me go to cost to complete. Mr. Ungar, 
the GAO was unable to complete a formal reassessment of the 
cost to complete the project, since the CVC project team is 
still analyzing the fire alarm system design changes. When will 
GAO be able to update the cost and schedule assessments?
    Mr. Ungar. Mr. Chairman, as soon as we receive from AOC its 
next schedule update, as well as all the costs that are 
estimated, a little bit more firmly at that time--hopefully, 
with respect to all these fire alarm system changes--we would 
be in a position to give you an update, if you're going to have 
your mid-November hearing. As long as we get the information in 
mid-October and see the action plan that AOC develops, we 
should be able to provide you something at the next hearing in 
mid-November.
    Senator Allard. And we've already got a commitment on 
October 20. I look forward to that.
    On cost increases, the GAO predicts that cost will increase 
by as much as $40 million over the earlier estimate of $556 
million. When will additional funds be needed, above the $25.6 
million included in the fiscal year 2007 appropriations budget? 
You've mentioned that you thought there would be more money 
that would be needed. Can GAO respond?
    Mr. Ungar. We can respond. We don't know exactly when, Mr. 
Chairman. Our sense of this is that it's likely to be needed--
some additional funds are likely to be needed in fiscal year 
2007, unless AOC uses funds that have been slated in the budget 
for other purposes related to the project. So, it's a little 
uncertain right now.
    As the project has gone on and you've asked us for these 
numbers, we've, almost in all cases, had about a $5 to $10 
million difference of opinion with AOC. And once again, we have 
that. So, I think we're probably, at this point, thinking that 
the project may need around $5 or $10 million--closer to the 
$10 million--in fiscal year 2007 for changes and those types of 
expenses, unless AOC uses more of its money for other purposes 
than it's indicated so far.

                                EXHIBITS

    Senator Allard. Last question. This has to do with the 
exhibit area. The current project assumes that you'll be able 
to bring exhibits into the CVC before a certificate of 
occupancy has been issued. On what basis have you made this 
assumption? Has this been cleared with those institutions who 
will be lending the exhibit items?
    Mr. Hixon. Mr. Chairman, I can answer that question. Marty 
Sewall, our exhibits director, has been having conversations 
with the various personnel who are providing the documents and 
artifacts. She has received paperwork from those folks and is 
going through the evaluation. At this time, it appears that a 
certificate of occupancy, per se, is not required by any of 
these individuals. What they do need is assurance that we have 
operable fire systems in the building. And so, we're proceeding 
along that line, at this time. But she continues to research 
the issue, working with people like the Smithsonian, to see how 
they handle this issue, as well.
    Senator Allard. We keep coming back to fire alarm system 
and the fire system, don't we?

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess until November 15.
    [Whereupon, at 11:40 a.m., Thursday, September 21, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, November 15.]



















         PROGRESS OF CONSTRUCTION OF THE CAPITOL VISITOR CENTER

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2006

                                   U.S. Senate,    
            Subcommittee on the Legislative Branch,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senator Allard.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. The meeting will come to order. We meet 
today to take testimony on the progress of the Capitol Visitor 
Center (CVC). This is our 15th hearing on the Capitol Visitor 
Center. We welcome the Architect of the Capitol, Alan Hantman; 
CVC Project Executive, Bob Hixon; and GAO representatives, 
Bernie Ungar and Bradley James, a new face. Welcome.
    This is likely my last hearing on the CVC as chairman of 
the Legislative Branch Subcommittee. While there have been 
many, many challenges with this project, I do believe the 
hearings have served to improve project oversight and 
management. There is still a long road ahead but the project is 
now 88 percent complete. It is my hope that the next chairman 
continues the practice of regular hearings until the project's 
completion.
    Oversight of this project is a critical function of the 
subcommittee at this juncture. GAO has been a great partner in 
this oversight function, specifically Bernie Ungar, Terry Dorn, 
Bradley James and a team of others and I'd like to offer my 
deep appreciation for their efforts.
    It is my expectation that they will continue to closely 
monitor the project's progress. It would be helpful, whenever 
there is not a monthly hearing scheduled, to receive a briefing 
document from GAO on the project status.
    Mr. Hantman, since our hearing in September, some progress 
has been made in the area of the fire protection system, one of 
the most critical elements of the project at this point, but 
unfortunately the project has slipped again, owing to the fire 
protection system and other issues.
    I understand the project completion date, including 
installation of the exhibits, would be the end of November and 
a realistic opening may be in the year 2008. While we were 
hopeful that most, if not all, milestones would be met since 
our last hearing, it appears that only 4 of the 18 milestones 
were completed on time. In addition to the fire protection 
system, problems continue with the heating, ventilation and 
cooling systems despite AOC's testimony last month that the 
issues were resolved.
    Moreover, with the additional slippage in the schedule, GAO 
is projecting a price tag in excess of $600 million. While AOC 
recently submitted an action plan for getting the project on 
track, which I requested in the September hearing, it's not 
clear whether it is sufficient to complete the project by the 
end of 2007 and without breaching $600 million in total cost.
    Before concluding, let me reiterate my hope that the next 
chairman of the subcommittee will continue the practice of 
regular hearings, requiring a full reporting of progress, an 
assessment of milestones and accountability for project results 
by the Architect and his contractors.
    Let me also say, as it is likely your last appearance, Mr. 
Hantman, before this subcommittee, that we greatly appreciate 
your service to the Congress and your stewardship of the 
Capitol complex these last 10 years. We wish you all the best.
    Mr. Hantman, please proceed with your testimony and then we 
will turn to GAO for their statement.
STATEMENT OF ALAN M. HANTMAN, FAIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY BOB HIXON, PROJECT DIRECTOR, CAPITOL VISITOR CENTER, 
            ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you, Mr. Chairman. I appreciate this 
opportunity to report on the status of the Capitol Visitor 
Center project and as you mentioned, since this may be the last 
time I testify before the subcommittee, I'd like to thank you, 
Mr. Chairman, Senator Durbin, and the entire subcommittee for 
your support and direction since we began these hearings. I'd 
also like to specifically thank Carrie Apostolou and Nancy 
Olkewicz for their exceptional support, not only on the Capitol 
Visitor Center project but also for their support throughout 
the AOC budget process.
    In addition, I'd like to acknowledge the Capitol 
Preservation Commission for its leadership and guidance during 
the project's design and construction process. The Commission 
has worked closely with our team to keep the project moving 
forward. Perhaps most important to this process has been the 
open dialogue the Commission and this subcommittee have 
maintained with the project team to ensure that all parties 
work together to identify and resolve issues as expeditiously 
and effectively as possible to deliver a world class Capitol 
Visitor Center to Congress and the American people.
    Mr. Chairman, this is an exciting time for the project as 
many areas are now taking on a much more finished appearance. 
As you mentioned, we are 88 percent finished. Since our 
September hearing, the contractor has made significant progress 
throughout the project site, which I will discuss in greater 
detail later in my testimony.
    As described in our action plan, we have modified several 
of our existing procedures and initiated several others to help 
minimize the possibility of any further construction delays, to 
expedite the fire and life safety acceptance testing process 
and to facilitate occupancy of the CVC.
    With regard to the programming and testing of the CVC's 
fire and life safety system, I am pleased to report that the 
fire alarm contractor's most recent shop drawings meet basic 
requirements. While some fine-tuning is still necessary, the 
contractor can continue installing the system components. We've 
received the fire alarm contractor's installation schedule and 
it indicates that the pretesting process will begin in early 
2007 and be completed by mid-May. Based upon this date, final 
acceptance testing will commence in mid-May and should be 
completed by October 2007 with, as you mentioned, the 
installation of historic documents, artifacts, gift shop 
materials, and other items in November.
    We continue to pursue opportunities for an earlier 
completion of pretesting and final acceptance testing. As I've 
testified previously, construction codes for the integration of 
this complex fire and life safety system with necessary 
security systems do not exist. This team has basically designed 
a system that may well become a model for this type of 
facility.
    The final resolution of the riser diagram, the receipt of 
the installation schedule, has answered many system 
installation and programming questions but the need to finalize 
these details has resulted in the October 2007 facility 
construction completion date. We are reviewing possible cost 
implications of the construction completion date at this time.
    Regarding the operation of the CVC's mechanical system and 
the required testing, balancing, and commissioning of its many 
components, here too, I'm pleased to report progress. Chilled 
water balancing has been completed for all 23 air handling 
units and steam is now being delivered to all units as well. By 
next week, the contractor expects to deliver fully conditioned 
air into the great hall from two units, with more units coming 
online in the weeks ahead. The contractor has sequenced the 
commissioning of the units to ensure that the most critical 
areas, like the orientation theaters, food service area, and 
the exhibition hall, where finish materials are already being 
installed under temporary humidification efforts, receive 
conditioned air first. Since the final commissioning of the 
HVAC system is critical to the success of the fire system 
pretesting efforts, we've taken additional steps, as outlined 
in the action plan, to look ahead; to identify the mechanical 
commissioning process as the next major milestone that could 
potentially delay the pretesting. We have this at the top of 
our list of critical milestones to monitor closely, and we are 
proactively working to ensure the commissioning is completed on 
schedule.
    With perhaps some of our greatest challenges behind us, as 
we near the final stages of construction, it becomes critical 
that any potential new issues are promptly identified and 
addressed immediately. In our action plan, we detailed our 
efforts to proactively address schedule slippages, to 
accelerate appropriate construction opportunities and increase 
manpower and to further strengthen our management controls.
    The plan also discusses the methods by which we are 
intensifying the communication and coordination within the 
project team, increasing contractor performance by modifying 
the award fee structure and continuing to explore acceptable 
ways to reduce the duration of the fire, and life safety 
pretesting and final testing processes.
    These strategies have already begun to bear fruit. Now that 
the fire alarm subcontractor and the fire marshal have 
increased communication with each other to several times each 
week, or daily when necessary, this latest round of drawings 
remained consistent with the agreed-upon design approach and 
ultimately, resulted in a more favorable submission of the fire 
alarm system shop drawings than previous submittals. As a 
result, the contractor has resumed installation of the system 
components.
    Mr. Chairman, we've also begun to see immediate improvement 
since the action plan was put into place. As of this morning, I 
was ready to state that 8 of 18 milestones had been completed 
since our September hearing, 4 completed on time and the 
balance within 2 weeks of the proposed schedule, which is an 
improvement compared to prior schedules. I have since found out 
that the air handling units numbers 3 and 16 were close to 
being mechanically ready but need a bit more time.
    In addition, the contractor indicated a ninth milestone 
relating to the kitchen exhaust duct will be completed by 
Friday, November 17, 2006. A 10th milestone related to elevator 
number 17 has been re-sequenced with the overall sequence of 
completion expected to be on time.
    Of the eight remaining milestones, we are projecting that 
four will be completed by the end of this month and the 
remaining four are being re-sequenced since they related to the 
east front construction issues, which I will address 
momentarily.
    We're not there yet, Mr. Chairman, but the action plan has 
begun to help us identify and resolve potential problems in 
advance and meet schedule dates more effectively.
    Since our last meeting, Mr. Chairman, construction 
continues to move forward and the progress is quite notable in 
many areas. Nowhere is this more evident than in the great 
hall, where all the scaffolding was removed in late October so 
that stone masons could complete the installation of stone on 
the monumental stairs. All the floor stone and the wall stone 
is complete within the hall and mason teams are now setting the 
final stones at the east end of the hall and along the water 
fountains at the base of the stairs.
    The view from the entrance level mezzanine into the great 
hall is now unobstructed and as you can see, you can get a real 
sense of the proportions of that dignified space. It's flooded 
by light from the large skylights above. It's kind of easy to 
picture it furnished with the 19-foot high plaster cast of the 
Statute of Freedom with other statutes from the Capitol's 
collection and the information desks and benches, which will 
serve the many thousands of daily visitors to the Capitol.
    In the upper left hand corner, Mr. Chairman, is the 
artist's rendering, which indicates that we are very true in 
terms of the construction to what the intent, the design intent 
was, and that shows the Statute of Freedom in place.
    By the end of the month, the only remaining architectural 
elements to be installed in the great hall will be the 
decorative light fixtures, which are currently being 
fabricated.
    In the orientation theaters, the scaffolding has been 
dismantled, clearing the way for the completion of floor 
stonework. Meanwhile, a millwork contractor has begun 
installing the finish wall panels and by mid-December, we 
expect carpet installation to begin. The film contractor 
continues to refine the orientation film that will play in both 
theaters. Based on the first cut that we reviewed a few months 
ago, the film will provide visitors an informative and 
uplifting experience just before they begin their tour of the 
Capitol.
    In the exhibition hall, the contractor continues to 
assemble the steel support structure for the centerpiece of the 
hall, a marble wall of aspirations that will house between 40 
and 50 historic documents. The contractor resumed the wall 
construction earlier this month after resolution of engineering 
issues and began to set marble at the wall earlier this week. 
By the end of the year, another contractor will begin 
installing the square glass floor panels that surround the wall 
of aspirations. A ceiling contractor also has crews assembling 
the ceiling grid along the length of the hall at the same time. 
So despite the multiple trades working in this same area, the 
work plan for the exhibition hall has helped keep contractors 
on track and avoid trade stacking.
    I'd also like to note that all of the floor and wall stone 
is complete in the exhibition hall, so from an architectural 
standpoint, the space will really come together in just a few 
short weeks.
    In the food service area, acoustic fabric ceiling panels 
continue to be installed and in a few weeks, the wall panels 
will be added. Banquets, now in fabrication, will then be 
installed to define the seating areas. Movable tables and 
chairs will provide flexibility for various sized groups of 
diners. The installation of the kitchen equipment is continuing 
and will be completed by early next year.
    Work continues inside the east front of the Capitol. Mr. 
Chairman, this area continues to be our most challenging 
because of unforeseen site conditions, security requirements, 
and the complexity and confined nature of this space itself. 
While the contractor continues to resolve issues, crews have 
made progress installing the steel framework that will support 
stone along the walls at the Rotunda and the gallery levels. 
Although this work is scheduled for completion in mid-spring, 
it can be done in parallel with the final fire alarm acceptance 
testing and will not impact its schedule.
    In the transition zone between the east front and the CVC, 
masons have finished installing stone on a redesigned archway 
and have begun dismantling the scaffold above the central 
staircase and the escalator path end zone. The ceiling 
contractors assembling the scaffold needed to install the metal 
framework that will support the plaster ceiling. The escalators 
will be installed in January, upon ceiling completion.
    Mr. Chairman, this will be a wonderful transition 
experience for visitors as they walk up the stairs or ride the 
escalators into the Capitol with the new carriageway windows 
providing exterior light and views of the House and the Senate 
wings as they enter.
    In the Senate expansion space, the ceiling panels are being 
installed in many areas of the Senate recording studio. In 
several meeting rooms, masons are setting stones for the 
pilasters that accentuate the corridors and final ceiling 
close-in inspections are ongoing.
    In the Senate atrium, crews are assembling the steel 
support system for the handsome spiral staircase that connects 
all three levels of the Senate expansion space.
    Outside, masons continue setting stone at the facade and 
piers along the CVC entrance walls and along the monumental 
stairs connecting the plaza to the entrance below. Earlier this 
year, historic preservation crews reassembled the original 
stonework for many of the historic elements, including the 
Olmsted-designed fountains, lanterns, and seat walls that you 
can see in this photograph. On the Senate plaza, masons and 
paving crews have restored the area around the Senate triangle, 
itself a fully restored, landscaped area just beyond the north 
entrance gate.
    When complete, the east front plaza will welcome people 
respectfully and will revive the pedestrian-friendly 
environment envisioned by Frederick Law Olmsted in 1874.
    As you can see, the CVC project is moving forward on many 
fronts and as spaces near completion, many people outside the 
project team are beginning to focus on its historic 
significance and positive impact to the Capitol complex. This 
year alone, members of my staff and I have escorted nearly 300 
groups through the site, mostly Members of Congress and their 
staff. Those who have gone on a tour have told us afterward 
that they have a much better understanding of the magnitude and 
the complexity of the project and a greater appreciation of the 
many benefits it will provide for the occupants of the Capitol 
and its visitors.
    Just 2 weeks ago, I had the honor of escorting the CEOs of 
45 of the largest and most respected architectural firms in the 
country through the CVC. These professionals were deeply 
impressed by the importance of the project and the high level 
of quality of the materials and the craftsmanship.
    In closing, Mr. Chairman, I'd like to say that it has been 
a privilege to be a steward of a project of such importance. As 
you know, at roughly three-quarters the size of the Capitol 
Building itself, the visitor center is the largest and most 
significant addition to the Capitol in its 213 year history. 
Upon its completion, for the first time in the Capitol's 
history, the millions of visitors who come here each year will 
have the amenities and educational opportunities expected in 
our Capitol Building set within a secure environment that is 
open and welcoming. Both the House and Senate will also be able 
to effectively utilize their much-needed, new meeting, 
recording, and support spaces to facilitate their effective 
operations going forward.
    I want to thank the Congress for this rare opportunity to 
be part of such a historic endeavor. I'd also like to thank not 
just the CVC team but also my entire AOC team, who often work 
behind the scenes to maintain and care for the Capitol complex. 
With more than 15 million square feet of building space and 
over 300 acres to maintain, my staff quietly and effectively 
works on several hundred projects each and every day. Their 
tireless efforts, their skills, and their commitment to public 
service are a credit to each of them, the Office of the 
Architect of the Capitol, and the United States Congress. It 
has been an honor to lead this dedicated team of professionals 
and to have served Congress for 10 years, as the 10th Architect 
of the Capitol.
    Thank you, Mr. Chairman. This concludes my statement. I'd 
be happy to answer any questions you may have.
    Senator Allard. Thank you.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Good afternoon, Mr. Chairman. I appreciate this opportunity to 
report on the status of the Capitol Visitor Center project. Since this 
may be the last time I testify before the Subcommittee, I would like to 
thank you Mr. Chairman, Senator Durbin, and the entire Subcommittee for 
your support and direction since we began these hearings. I would also 
like to specifically thank Carrie Apostolou and Nancy Olkewicz for 
their exceptional support, not only on the Capitol Visitor Center, but 
also for their support throughout the AOC budget process. In addition, 
I would like to acknowledge the Capitol Preservation Commission for its 
leadership and guidance during the project's design and construction 
process. The Commission has worked closely with our team to keep the 
project moving forward. Perhaps most important to this process has been 
the open dialogue the Commission and this Subcommittee have maintained 
with my project team to ensure that all parties work together to 
identify and resolve issues as expeditiously and effectively as 
possible to deliver a world-class Capitol Visitor Center to Congress 
and the American people.
    Mr. Chairman, this is an exciting time for the project as many 
areas are now taking on a much more finished appearance. Since our 
September hearing, the contractor has made significant progress 
throughout the project site which I will discuss in greater detail 
later in my testimony. As described in the Action Plan, which we 
recently submitted, we have modified several of our existing procedures 
and initiated several others to help minimize the possibility of any 
further construction delays, to expedite the fire and life-safety 
acceptance testing process, and to facilitate occupancy of the CVC.
    With regard to the programming and testing of the CVC's fire and 
life-safety system, I am pleased to report that the fire alarm 
contractor's most recent shop drawings meet basic requirements. While 
some fine-tuning is still necessary, the contractor can continue 
installing the system components. We have received the fire alarm 
contractor's installation schedule and it indicates that the pre-
testing process will begin in early 2007 and be completed by mid-May. 
Based upon this date, final acceptance testing will commence in mid-May 
and should be completed by October 2007. The installation of historic 
documents, artifacts, gift shop materials and other items can begin in 
November 2007.
    We continue to pursue opportunities for an earlier completion of 
pre-testing and final acceptance testing. As I have testified 
previously, construction codes for the integration of this complex fire 
and life-safety system with necessary security systems do not exist, so 
this team has basically designed a system that may well become a model 
for this type of facility. The final resolution of the riser design and 
the receipt of the installation schedule have answered many system 
installation and programming questions, and the need to finalize these 
details has resulted in the October 2007 facility construction 
completion date. We are reviewing possible cost implications of the 
construction completion date at this time.
    Regarding the operation of the CVC's HVAC system and the required 
testing, balancing, and commissioning of its many components, here too, 
I am pleased to report progress. Chilled water balancing has been 
completed for all 23 air handling units and steam is now being 
delivered to all units as well. By next week, the contractor expects to 
deliver fully-conditioned air into the Great Hall from two units, with 
more units coming on-line in the weeks ahead. The contractor has 
sequenced the commissioning of the units to ensure that the most 
critical areas like the Orientation Theaters, the Food Service Area, 
and the Exhibition Hall, where finish materials are already being 
installed under temporary dehumidification efforts, receive conditioned 
air first. Since the final commissioning of the HVAC system is critical 
to the success of the fire system pre-testing efforts, we have taken 
additional steps, as outlined in our Action Plan, to look ahead to 
identify the HVAC commissioning process as the next major milestone 
that could potentially delay the pre-testing. We have this at the top 
of our list of critical milestones to monitor closely and we are 
proactively working to ensure the commissioning is completed on 
schedule.
    With perhaps some of our greatest challenges behind us as we near 
the final stages of construction, it becomes critical that any 
potential new issues are promptly identified and addressed immediately. 
In our Action Plan, we have detailed our efforts to proactively address 
schedule slippages, to accelerate appropriate construction 
opportunities and increase manpower; and to further strengthen our 
management controls. The Plan also discusses the methods by which we 
are intensifying the communication and coordination within the project 
team; increasing contractor performance by modifying the award fee 
structure, and continuing to explore acceptable ways to reduce the 
duration of the fire and life-safety pre-testing and final acceptance 
testing process.
    These strategies have already begun to bear fruit. Now that the 
fire alarm subcontractor and the Fire Marshal have increased 
communication with each other to several times each week, or daily when 
necessary, this latest round of drawings remained consistent with the 
agreed-upon design approach and ultimately, resulted in a more 
favorable submission of fire alarm system shop drawings than previous 
submittals. As a result, the contractor has resumed installation of the 
system components. We have seen immediate improvement since the Action 
Plan was put into place. Ten of 18 milestones have been completed since 
our September hearing; five were completed on time and the balance was 
completed within two weeks of the proposed scheduled date, which is an 
improvement compared to prior schedules. Of the eight uncompleted 
milestones, we are projecting that four will be completed by the end of 
this month. The remaining four are being re-sequenced since they are 
related to East Front construction issues which I will address 
momentarily.
Project Update
    Mr. Chairman, since our last hearing, construction continues to 
move forward and the progress is quite notable in many areas. Nowhere 
is this more evident than in the Great Hall, where all the scaffolding 
was removed in late October so that stone masons can complete the 
installation of stone on the monumental stairs. All the floor and wall 
stone is complete within the Hall and mason teams are now setting the 
final stones at the east end of the Hall and along the water fountains 
at the base of the stairs.
    The view from the entrance level mezzanine into the Great Hall is 
now unobstructed and you can get a real sense of the proportions of 
that dignified space, flooded with light from the large skylights 
above. It is easy to picture it furnished with the nineteen-foot-high 
plaster cast of the Statue of Freedom, with other statues from the 
Capitol's collection, and the information desks and benches which will 
serve the many thousands of daily visitors to the Capitol. By the end 
of this month, the only remaining architectural element to be installed 
in the Great Hall will be the decorative light fixtures, which are 
currently being fabricated.
    In the Orientation Theaters, the scaffolding has been dismantled, 
clearing the way for the completion of floor stone work. Meanwhile, a 
millwork contractor has begun installing the finish wall panels and by 
mid-December, we expect carpet installation to begin. The film 
contractor continues to refine the orientation film that will play in 
both theaters. Based on the first cut we reviewed a few months ago, the 
film will provide visitors an informative and uplifting experience just 
before they begin their tour of the Capitol.
    In the Exhibition Hall, the contractor continues to assemble the 
steel support structure for the centerpiece of the Hall, a marble 
``Wall of Aspirations'' that will house between 40 and 50 historic 
documents. The contractor resumed the wall construction earlier this 
month after resolution of engineering issues and began to set marble at 
the wall earlier this week. By the end of the year, another contractor 
will begin installing the square glass floor panels that surround the 
Wall of Aspirations. A ceiling contractor also has crews assembling the 
ceiling grid along the length of the hall at the same time, so despite 
the multiple trades working in this same area, the work plan for the 
Exhibition Hall has helped keep contractors on track and avoid trade 
stacking. I would also like to note that all of the floor and wall 
stone is complete in the Exhibition Hall so from an architectural 
standpoint, the space will really come together in just a few short 
weeks.
    In the Food Service Area, acoustic fabric ceiling panels continue 
to be installed and, in a few weeks, the wall panels will be added. 
Banquettes, now in fabrication, will then be installed to define the 
seating areas. Moveable tables and chairs will provide flexibility for 
various size groups of diners. The installation of the kitchen 
equipment is continuing and will be completed by early next year.
    Work continues inside the East Front of the Capitol. This area 
continues to be our most challenging because of unforeseen site 
conditions, security requirements, and the complexity and confined 
nature of the space itself. While the contractor continues to resolve 
issues, crews have made progress installing the steel framework that 
will support stone along the walls at the Rotunda and Gallery levels. 
Although this work is scheduled for completion in mid-spring, it can be 
done in parallel with the final fire alarm acceptance testing and will 
not impact its schedule.
    In the transition zone between the East Front and the CVC, masons 
have finished installing stone on a redesigned archway and have begun 
dismantling the scaffold above the central staircase and escalator 
paths in this zone. The ceiling contractor is assembling the scaffold 
needed to install the metal framework that will support the plaster 
ceiling. The escalators will be installed in January upon ceiling 
completion. This will be a wonderful transition experience for visitors 
as they walk up the stairs or ride the escalators into the Capitol, 
with the new carriageway windows providing exterior light and views of 
the House and Senate wings as they enter.
    In the Senate Expansion space, the ceiling panels are being 
installed in many areas of the Senate Recording Studio. In several 
meeting rooms, masons are setting stones for the pilasters that 
accentuate the corridors, and final ceiling close-in inspections are 
ongoing. In the Senate Atrium, crews are assembling the steel support 
system for the handsome spiral staircase that connects all three levels 
of the Senate Expansion space.
    Outside, masons continue setting stone at the facade and piers 
along the CVC entrance walls and along the monumental stairs connecting 
the Plaza to the entrance level below. Earlier this year, historic 
preservation crews reassembled the original stonework for many of the 
historic elements, including the Olmsted-designed fountains, lanterns, 
and seat walls. On the Senate Plaza, masons and paving crews have 
restored the area around the Senate Triangle, itself a fully-restored 
landscaped area just beyond the north entrance gate. When complete, the 
East Front Plaza will welcome people respectfully and will revive the 
pedestrian-friendly environment envisioned by Frederick Law Olmsted in 
1874.
    As you can see, the CVC project is moving forward on many fronts 
and as spaces near completion, many people outside the project team are 
beginning to focus on its historic significance and positive impact to 
the Capitol complex. This year alone members of my staff and I have 
escorted nearly 300 groups through the site--mostly Members of Congress 
and their staffs. Those who have gone on a tour have told us afterward 
that they had a much better understanding of the magnitude and 
complexity of the project, and a greater appreciation of the many 
benefits it will provide for the occupants of the Capitol and its 
visitors. Just two weeks ago, I had the honor of escorting the CEOs of 
45 of the largest and most respected architectural firms in the country 
through the CVC. These professionals were deeply impressed by the 
importance of the project and the high level of quality of the 
materials and craftsmanship.
    In closing, Mr. Chairman, I would like to say that it has been a 
privilege to be the steward of a project of such importance. As you 
know, at roughly three-quarters the size of the Capitol itself, the 
Capitol Visitor Center is the largest and most significant addition to 
the Capitol in its 213-year history. Upon its completion, for the first 
time in the Capitol's history, the millions of visitors who come here 
each year will have the amenities and educational opportunities 
expected in our Capitol Building, set within a secure environment that 
is open and welcoming. Both the Senate and House will also be able to 
effectively utilize their much-needed new meeting, recording, and 
support spaces to facilitate their effective operations going forward. 
I want to thank the Congress for this rare opportunity to be part of 
such an historic endeavor.
    I would also like to thank not just the CVC team, but my entire AOC 
team, who often work behind the scenes to maintain and care for the 
Capitol complex. With more than 15 million square feet of building 
space and over 300 acres to maintain, my staff quietly and effectively 
works on several hundred projects each and every day. Their tireless 
efforts, their skills, and their commitment to public service are a 
credit to each of them, the Office of the Architect of the Capitol, and 
the United States Congress. It has been an honor to lead this dedicated 
team of professionals and to have served Congress for ten years as the 
10th Architect of the Capitol.
    Thank you, Mr. Chairman. This concludes my statement and I will be 
happy to address any questions you may have.

    Senator Allard. Now I'll call on Mr. Ungar.
STATEMENT OF BERNARD L. UNGAR, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY 
            OFFICE
ACCOMPANIED BY BRADLEY JAMES, ASSISTANT DIRECTOR, PHYSICAL 
            INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ungar. Thank you, Mr. Chairman. We too, are pleased to 
be here, not only at this hearing but to have been at the 
previous 14 hearings to help support the subcommittee. It 
certainly keeps us on our toes, that's for sure.
    I'd also like to thank Alan and the AOC and the CVC team 
for their help. I know that it has been--they would use more 
colorful language--a pain for them and certain locations for us 
to be watching over their shoulder just about every day but 
they have been very helpful and they have provided the 
information that we've asked for and that has been very 
positive.
    I'd also like to thank the other GAO members who have 
helped Mr. Dorn and me get ready for these hearings but today 
in particular, I'd like to thank Mr. James, who has been with 
us only for a short time but he has been with the Government 
for 33 years and he is retiring at the end of the year. He will 
hopefully come back a little bit later to help us part time, 
but his help has been invaluable. He has been very aggressively 
trying to help sort out the issues with the CVC and I'm sure 
that after he does leave finally, he'll be very much missed and 
we really appreciate his help.
    With respect to the CVC, as Mr. Hantman indicated and as 
usual, there has certainly been progress since the last 
hearing. It's quite evident when you visit the site. A lot of 
work has been done in many areas, no question about that.
    The main problem that we've identified historically has 
been the fire protection system and fortunately, considerable 
progress has been made with respect to that system. The team 
has worked with the fire marshal to get the critical elements 
of the system either approved or close to approval to the point 
where they can continue installation of the equipment. That's a 
very significant event and it's a long time in coming but it's 
been very helpful and it did occur between these two hearings. 
So that's very positive.
    The other positive aspect besides progress on the project 
is what Mr. Hantman mentioned, the action plan. It was issued 
just recently to the subcommittee. It does contain a lot of 
actions that are pointed in the right direction. Hopefully they 
will be effectively implemented and have a significant effect. 
It's too early to tell but hopefully that will happen.
    On the other hand, as we have consistently and persistently 
said, the pace of the work, although moving forward and 
advancing, has not been sufficient to overcome the impact of 
changes, problems, and delays. This has been a continuous 
problem and as Mr. Hantman indicated again, since the last 
hearing, the extra time it has taken to get the design of the 
fire protection system elements through the review process 
added another 6 weeks to the schedule, so the schedule did slip 
from September 17--this is the completion schedule--from 
September 17, 2007, to late October 2007, in between the two 
hearings.
    In addition to slippages with the fire protection system, 
there are many other critical areas and activities with respect 
to the project that have slipped this time and they have 
slipped previously. These are very important. They are not on 
the critical path but they are close to being on a critical 
path and many of them, if they have relatively small slippages 
in the future, could adversely effect the completion date of 
the project. So it is very important to monitor those.
    The one concern that we are adding this time to the fire 
protection system is a major area of concern, is one that Mr. 
Hantman had mentioned and that is the heating/air-conditioning/
ventilation system. That has become a major issue in our minds. 
There have been a number of problems with it. It actually 
slipped almost 4 weeks between the two hearings. It's been 
slipping continuously throughout the project for a variety of 
reasons. Progress has been made on some of the individual units 
but not on others. There are coordination issues among all the 
parties that have to deal with this system. There are 
coordination and linkages issues between the readiness of the 
units and the readiness of the spaces that they are to serve 
and there is a high risk, in our view, of major further delay.
    And I'd just like to divert for a minute here because this 
directly relates to the situation with the milestones. It has 
been particularly troublesome this time, to pull this 
information together for the subcommittee.
    What we reported in our statement was that there were four 
milestones met--that was as of yesterday, based on the team's 
report that the air handling units numbers 3 and 16 would be 
mechanically ready today. This was despite evidence that 
existed that they would not be ready today but that was their 
report. So we had to wait until today to go down and actually 
verify this. So, we did ask the CVC team to basically flip the 
switch this morning and the switch was flipped but it didn't 
work like it was supposed to work. Actually, one of the units 
didn't even turn on. The other unit had problems in that it 
couldn't perform the functions that it was supposed to perform 
and some of the problems, at least one of the major problems 
was known for a long time. It's one of these problems that has 
lingered in this project, without being resolved and it should 
have been resolved.
    The bottom line then, with the milestones, as we stand 
right now, would be that there were 3 met, 4 finished late and 
11 not done at all and even though it is believed that the ones 
that aren't done will be done rather soon, the problem is, they 
will be late. Whether they will be as timely as estimated right 
now, we don't know.
    The slippages that have occurred since the last hearing, 
the slippages that have consistently occurred over the course 
of the project, and the four major indicators that we have been 
tracking for the subcommittee all indicate that the schedule is 
not going to be met.
    We feel at this point in time that it is very unlikely that 
the October 2007 timeframe for completion of the project will 
be met unless the action plan or other actions identified in 
the action plan or additional actions can effectively be 
applied to meet the schedule. At this point in time, it's too 
early to tell but unless something is done to control and 
curtail these slippages, we're not going to get the project 
done this year. There is no question about that in our mind.
    There are a couple of things that are really important here 
to think about and one is that in order for this action plan to 
be effective and fortunately, it's got off on a very positive 
start through Bob Hixon's efforts. There has to be a sense of 
responsibility and urgency among all the team members to get 
the project done on the schedule. And we just have not seen 
that as a pervasive situation. Some of the members are very 
aggressive and very concerned and very targeted toward getting 
done on time. Others are not.
    I believe one of those individuals is here right now. I 
think the work on the expansion space, for the most part, has 
been going very well. The project director, Mr. Six, for that 
piece of work, is certainly attune to the schedule and he is 
certainly attuned and trying very hard to get done.
    I'd also like to point out that one of the other 
subcontractors, the electrical subcontractor, is very much 
committed to this project. So it's not a situation where we 
have some people who are not. There are a lot of people who are 
but in order for this project to finish on schedule, everybody 
has to pull together and everybody has to be focused on meeting 
the schedule and that hasn't been the case so far.
    Other things have to happen as well but that's the major 
issue. I think they have to get the schedule focused on, they 
have to talk about it weekly, at a minimum. They have to 
pinpoint the areas that need to be addressed, like the HVAC 
area--pinpoint responsibilities and hold people accountable for 
meeting the timeframes.
    In terms of the estimated cost of the project, largely 
because of the delay that occurred between the hearings, we 
have increased our estimate to $592 million--that's an increase 
of $8 million since the last hearing, without risk and 
uncertainties. That is largely due to the delay that occurred, 
the 6-week delay, and to changes that came up during the 
period. I'd just like to point out one in general, to give you 
an idea of why these costs are going up so much.
    During the course of the period between hearings, even 
though extensive coordination has taken place between the team, 
the fire marshal and the Capital Police, unfortunately the 
Capital Police identified an additional issue that needed to be 
changed, an additional security measure that needed to be 
corrected. While this may not affect the overall completion 
date, this one measure alone is into hundreds of thousands of 
dollars in terms of estimated cost. So it just gives you an 
idea of why the costs keep changing and it's very difficult for 
us, or for anybody, to really predict where the cost number is 
going to end up because at this point in a project, you would 
expect not to have these kinds of major changes. But it keeps 
happening and the delays keep happening, so with those two 
situations, it's very difficult to try to pinpoint where it's 
going to end up.
    We've given our best guess. We think that with the risks 
and uncertainties, it's likely to be well over $600 million as 
we mentioned. But it's just a very difficult thing to do.
    When we started, before the hearing or at least before 
today, we had two recommendations. I'd like to add a 
recommendation though, to help facilitate getting the project 
done.
    One recommendation is to have the Architect focus on the 
heating/air-conditioning and ventilation system as much, as 
aggressively as possible, to get problems identified, get them 
resolved and get the work and the people coordinated as quickly 
as possible. This is very important because this system is 
critical to the pretesting--well, first of all, it's critical 
to finishing the facility in those areas where they need 
conditioned air. It's critical to the pretesting and it's 
critical to the acceptance testing. So if this continues to 
slip, it's going to affect the whole project. It really does 
need to have a significant amount of focus and attention and I 
think Mr. Hixon is probably getting tired of me badgering him 
about it but he has agreed that he will get to it.
    Second, another problem that exists or at least another 
issue that exists is that as has been discussed in the 
hearings, many of them, is that the September 15, 2006, 
contract completion date has passed, obviously and the 
situation exists that the resolve of some of the team members 
to act as expeditiously or as aggressively as possible to meet 
the schedule, may not be at the level it needs to be. So to 
address that issue and AOC has been discussing this internally 
and working on it with the sequence 2 contractor, we think that 
AOC needs to carefully consider the remedies available to it 
under the contract, to help achieve a timely completion of the 
project from this point forward. It's a very complex issue but 
it does need to be addressed.
    I'd like to add a recommendation due to all the 
difficulties that have been associated with tracking the 
milestones this time and that is, that the Architect of the 
Capitol work closely with the team to one, make sure that the 
milestones are met and second, that they are accurately 
reported. That ends my summary, Mr. Chairman. We'd be happy to 
answer any questions you might have.
    [The statement follows:]
                 Prepared Statement of Bernard L. Ungar
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to assist the Subcommittee in monitoring progress on the 
Capitol Visitor Center (CVC) project. Our remarks will focus on (1) the 
Architect of the Capitol's (AOC) construction progress and problems 
since the Subcommittee's September 21, 2006, hearing and their impact 
on the project's schedule; and (2) the project's expected cost at 
completion and funding situation.\1\ As part of this discussion, we 
will address a number of key challenges and risks that continue to face 
the project as well as actions AOC has recently taken, and plans or 
needs to take, to meet its currently scheduled completion date.
---------------------------------------------------------------------------
    \1\ GAO, Capitol Visitor Center: Update on Status of Project's 
Schedule and Cost As of September 21, 2006, GAO-06-1058T (Washington, 
D.C.: Sept. 21, 2006).
---------------------------------------------------------------------------
    Our remarks today are based on our review of schedules and 
financial reports for the CVC project and related records maintained by 
AOC and its construction management contractor, Gilbane Building 
Company; our observations on the progress of work at the CVC 
construction site; and our discussions with the CVC team (AOC and its 
major CVC contractors), AOC's Chief Fire Marshal, and representatives 
from the U.S. Capitol Police. We also reviewed AOC's construction 
management contractor's periodic schedule assessments, potential change 
order log, and daily reports on the progress of interior wall and floor 
stonework. We retained a mechanical engineering consulting firm 
(Kincaid/Bryant) to help us assess the CVC team's progress in 
completing the project's heating, ventilation, and air-conditioning 
(HVAC) system. In addition, we reviewed the contract modifications made 
to date and the estimates of cost increases provided by AOC and its 
construction management contractor, including their estimates of the 
costs related to delays,\2\ and their preliminary cost estimates for 
recent changes to the CVC's fire protection and security systems.
---------------------------------------------------------------------------
    \2\ The estimates for most of the delay-related costs were provided 
by AOC and its construction management contractor for budgetary 
purposes only and do not reflect any judgments by GAO of the validity 
of any potential contractor claims.
---------------------------------------------------------------------------
    At the Subcommittee's September 21 CVC hearing, we reported that 
our assessment of the project's schedule and expected cost at 
completion was somewhat constrained because the CVC team was still 
analyzing the impact on the project's schedule and cost of the recently 
identified changes required for certain components of the fire 
protection and security systems. We also noted that the team expected 
to have firmer schedule and cost information around mid-October. 
However, the CVC team did not receive firmer information on the impact 
of the recent fire alarm system changes on the schedule until late last 
week, noted some remaining uncertainty about how long the pretesting of 
the fire alarm system would take, and recently learned of significant 
changes that would be needed in the security system and in the sequence 
for bringing the CVC's air handling units online. In addition, the 
impact of these changes on the project's cost is not yet fully known. 
Therefore, we could not thoroughly assess the project's schedule or 
estimated cost at completion and are basing our views on the 
information available as of November 9, 2006, recognizing that our 
views could change as more information on the impact of these changes 
becomes available.
    In summary:
    Since the Subcommittee's September 21 CVC hearing, the CVC team has 
continued to move the project's construction forward, but the project's 
scheduled completion date has slipped by 6 weeks, to October 26, 
2007,\3\ and further delays are possible. The 6-week delay was 
attributable to problems with the project's most critical activity--the 
fire protection system. Under the current schedule, the construction of 
the House and Senate expansions spaces will be completed before the 
CVC's construction, but both the CVC and the expansion spaces will be 
available for occupancy at the same time because final acceptance 
testing of both is slated to be done concurrently.
---------------------------------------------------------------------------
    \3\ This date does not allow time for installing artifacts in the 
exhibit gallery, preparing for operations, or addressing risks and 
uncertainties. AOC has allowed another 5 weeks, until November 30, 
2007, for installing the artifacts and has not estimated a time frame 
for operations preparations.
---------------------------------------------------------------------------
  --During the past month, the CVC team has made progress on the 
        project's heating, ventilation, and air-conditioning (HVAC) 
        system, interior floor stone and ceiling installation, and 
        other interior and exterior construction work. In addition, AOC 
        sent Congress an action plan for improving its execution of the 
        project and the project's schedule, as the Subcommittee 
        requested and we had recommended, and this plan is responsive 
        to our recommendations. AOC is also considering other action 
        not discussed in this plan.
  --Despite this progress, problems have occurred in many important 
        activities besides the CVC's fire protection system, according 
        to AOC's construction management contractor. Although these 
        delays did not add time to the project's schedule this month, 
        additional delays could do so in the future. For example, the 
        completion date for wall stone installation in the East Front 
        basement slipped by 38 workdays since the Subcommittee's last 
        CVC hearing, and an additional 17-workday slippage could delay 
        the CVC project's scheduled completion date. Similarly, work on 
        the HVAC system slipped 19 workdays, and an additional slippage 
        of 46 workdays could delay the project's scheduled completion 
        date. Recently identified issues associated with the CVC's HVAC 
        system, fire protection system, and security system--including 
        issues associated with their coordination and testing--also 
        pose risks to the project's scheduled completion date. In 
        addition, concerns have arisen about AOC's ability to achieve a 
        high-quality, complete, and usable facility within the current 
        estimated time frame and cost now that the contractual date for 
        completing sequence 2 construction work--September 15, 2006--
        has passed. In particular, there is a risk that, without 
        negative consequences, the resolve of some major stakeholders 
        to complete the project in a timely and efficient manner could 
        be adversely affected. Finally, all the indicators of progress 
        that we have been tracking for the Subcommittee, together with 
        other risks and uncertainties, suggest that the project is 
        likely to finish later than October 2007.
    As we said at the Subcommittee's September 21 CVC hearing, AOC will 
be able to meet or come close to meeting its scheduled project 
completion date only if the CVC team promptly makes significant 
improvements in its execution of the project and the project's 
schedule. It is too early to tell whether the actions identified in 
AOC's November 2006 action plan will be effective in curtailing 
additional schedule slippages. Furthermore, the concerns identified 
since the Subcommittee's last CVC hearing, particularly those related 
to the CVC's HVAC system, if not quickly addressed, could adversely 
affect the project's schedule. Thus, until it is clear that AOC's 
actions are effective in curtailing additional schedule slippages, we 
believe that the facility is more likely to be completed in early 2008 
than in the fall of 2007. To improve AOC's ability to meet its schedule 
and to reduce the risks to the project's schedule and cost facing AOC 
now that the contract completion date is past, we are recommending that 
AOC (1) promptly work with the CVC team to address the concerns 
associated with the CVC's HVAC system and (2) carefully consider the 
existing contractual remedies available to achieve completion of all 
necessary work within the current estimated time frame and cost without 
otherwise compromising any of the government's contractual rights or 
remedies.
    Since the Subcommittee's September 21 CVC hearing, we have 
increased our estimate of the total cost to complete the entire CVC 
project by about $8 million to account for the delays and changes 
identified during this period,\4\ but our estimate is rough because we 
have not had the information or the time needed to fully assess the 
impact of these delays and changes on the projects' cost. With this $8 
million increase, we now estimate that the total cost of the entire CVC 
project at completion is likely to be about $592 million without an 
allowance for risks and uncertainties, recognizing, however, that the 
extent of AOC's responsibility for the delay-related costs is 
uncertain. To date, about $531 million has been provided for CVC 
construction. For fiscal year 2007, AOC has requested $26 million in 
CVC construction appropriations, plus $950,000 in AOC general 
administration appropriations for contractual support to complete 
acceptance testing of the CVC's fire protection system on schedule. 
During fiscal year 2007, AOC is also likely to need, but has not yet 
requested, additional funds to pay for changes. At the Subcommittee's 
last CVC hearing, we roughly estimated that AOC would need an 
additional $5 million to $10 million in fiscal year 2007 over and above 
what it had already requested for changes unless it decided to use 
funds slated for other purposes, after obtaining the necessary 
congressional approvals. AOC agrees with this rough estimate at this 
time and notes that it will likely need additional money in fiscal year 
2008 to replenish these funds and to cover other costs if they 
materialize.
---------------------------------------------------------------------------
    \4\ Our estimate includes delay-related costs that AOC and its 
construction management contractor estimated for budgetary purposes 
only. Our inclusion of these costs in our estimate does not reflect any 
judgments by GAO of the validity of any potential contractor claims.
---------------------------------------------------------------------------
Construction Progress Has Not Been Sufficient to Offset Impact of 
        Changes and Delays on the Project's Schedule and Completion
    Work on the CVC project has progressed in many areas, but the 
project completion date has slipped to October 26, 2007, about 6 weeks 
beyond the September 17, 2007, completion date discussed at the 
Subcommittee's last CVC hearing. This 6-week slippage is due to 
continuing problems associated with the CVC's fire protection system, 
but many other important activities, including those associated with 
the HVAC system, East Front, and security system, have been delayed as 
well. Last week, at the request of the Subcommittee and as we had 
recommended, AOC completed and sent to Congress an action plan for 
improving management execution of the project and its schedule. The 
action plan was responsive to our recommendation. However, it is too 
early to tell whether implementing the plan will curtail the types of 
schedule slippages that have occurred since the Subcommittee's last CVC 
hearing and throughout the project. Moreover, although the CVC team and 
AOC's Fire Marshal Division have agreed on a number of important 
elements of the CVC's fire protection system, they have not yet agreed 
on all important elements. Additionally, as noted, concerns have 
emerged regarding the CVC's HVAC system, as well as the impact of the 
passage of the sequence 2 September 15, 2006, contract completion date. 
Accordingly, priority should be given to accomplishing all of the 
identified critical tasks so that pretesting of the facility's fire 
protection system can begin in the spring of 2007. Additionally, to 
ensure that AOC gets a high-quality, fully functional facility, it is 
essential that AOC effectively implement the actions it has identified 
and give careful consideration to existing contractual remedies 
available to it to achieve completion of all necessary work within the 
current estimated time frame at a reasonable cost without otherwise 
compromising any of the government's contractual rights or remedies.
            Progress: CVC Team Has Advanced Interior CVC and Other 
                    Construction Work and Has Begun to Implement an 
                    Action Plan for Strengthening Its Project 
                    Management
    According to information provided by AOC and its construction 
management contractor and our observations, work on the project has 
advanced, in terms of both the dollar value of the work in place and 
individual project elements. In dollar terms, AOC's construction 
management contractor reported that, as of October 31, the overall CVC 
project was about 88 percent complete and the sequence 2 work was about 
84 percent complete--up from about 86 percent and 77 percent, 
respectively, as of the Subcommittee's last CVC hearing. Progress on 
individual project elements includes the following:
  --Interior CVC work has moved forward, according to AOC's 
        construction management and sequence 2 contractors. For 
        example, the CVC team and AOC's Fire Marshal Division have 
        reached or nearly reached agreement on the design for several 
        critical elements of the facility's fire protection system. 
        Agreement on these elements is necessary for the system's 
        installation to proceed. In addition, the mechanical 
        subcontractor has completed certain preparations for operating 
        the CVC's air handling units,\5\ all but two of which passed a 
        required test for leaks as of Monday, and the CVC team expects 
        conditioned air to begin flowing to certain parts of the 
        facility later this month. The sequence 2 contractor has also 
        installed about 65 percent of the CVC's floor stone, up from 
        about 43 percent at the time of the Subcommittee's last CVC 
        hearing, and ceiling installation is complete or essentially 
        complete in the great hall, south side corridor (lower level), 
        both orientation theaters, and the food service area. (AOC 
        notes that blistered ceiling tile in the orientation theaters 
        will have to be repaired or replaced.)
---------------------------------------------------------------------------
    \5\ Chilled water balancing.
---------------------------------------------------------------------------
  --Surface work continued, including paving and brick gutter work on 
        the Senate plaza. Work on the House connector tunnel and on 
        linking the Library of Congress tunnel with the Jefferson 
        Building has also continued.
  --East Front work continued, including completion of stone 
        installation on the redesigned archway above the main central 
        staircase from the CVC to the East Front and installation of 
        ductwork and metal stud framework to support wall stone at the 
        rotunda and gallery levels.
  --In the House and Senate expansion spaces, ceiling close-in 
        inspections, ceiling panel installation, and stone work have 
        continued, and installation of the circular staircase that will 
        connect all three levels of the Senate expansion space has 
        begun.
    On November 7, 2006, AOC sent Congress an action plan setting forth 
a number of steps it has taken, plans to take, or is considering to 
ensure that the CVC is ready for occupancy in the fall of 2007. AOC 
developed this plan at the Subcommittee's request in response to 
recommendations we made to AOC at the Subcommittee's September 21 CVC 
hearing. These recommendations were aimed at enhancing AOC's execution 
of the schedule and project and at facilitating the Subcommittee's 
efforts to (1) hold AOC accountable for managing the project and (2) 
work with AOC to ensure that the schedule implications of proposed 
scope or design changes are quickly determined and considered by all 
appropriate stakeholders before final decisions on the proposed changes 
are made. AOC's actions included
  --meeting weekly with the CVC team to deal exclusively with schedule 
        issues;
  --having its construction management contractor identify areas needed 
        to meet the project's schedule that the contractor believes are 
        understaffed or face obstacles to progress;
  --identifying sequence 2 and construction management personnel who 
        are responsible for meeting key schedule dates and resolving 
        identified problems;
  --basing the sequence 2 contractor's future award fee on meeting 
        schedule milestones;
  --reassessing the scope, depth, and time frames associated with the 
        pretesting and final testing of the facility's fire and life-
        safety protection systems;
  --increasing communication among the CVC team, AOC's Fire Marshal 
        Division, and the U.S. Capitol Police; and
  --discussing proposed significant scope or design changes with 
        Capitol Preservation Commission representatives before such 
        proposed changes are adopted and getting the congressional 
        leadership's approval for discretionary changes requested by 
        the Senate or House.
    The actions AOC has identified are generally responsive to our 
recommendations and, if implemented effectively and quickly, should 
help AOC improve its project and schedule management as well as help 
ensure that the schedule and cost implications of proposed 
discretionary design or scope changes are appropriately considered 
before final decisions on them are made. However, we have concerns 
about the usefulness of one step AOC is considering--the possible 
establishment of a CVC peer review panel to assess the approaches 
planned for the fire protection system's pretesting and final testing. 
We have expressed our concerns to AOC, and it has agreed to consider 
them.
    Besides the actions it identified in its November 2006 action plan, 
AOC has been considering how to deal with the impact of passing the 
sequence 2 contract completion date, September 15, 2006. This is a 
complex issue, in part because its resolution potentially involves 
preliminary determinations about the causes of, and responsibility for, 
project delays during sequence 2 up to September 15. AOC has also been 
considering other factors, such as the need to instill a sense of 
urgency and responsibility to meet the contractor's currently 
established fall 2007 completion time frame; the possibility of setting 
a specific date as the new contract completion date and the 
implications associated with alternative dates; the constructive manner 
in which the sequence 2 contractor has worked with AOC and the rest of 
the CVC team to accomplish work and resolve problems; and the need to 
ensure that the work necessary to get the facility completed is done 
expeditiously at a reasonable cost. We have discussed these issues with 
AOC and pointed out that it needs to decide how it intends to proceed 
as quickly as possible and also consider the risks that various options 
pose. In view of additional schedule slippages that have occurred and 
issues that have arisen since the Subcommittee's last CVC hearing, we 
are making additional recommendations to AOC, which we will discuss 
later in this testimony.
    In addition to the actions identified by AOC, the sequence 2 
contractor has reported adding five superintendents to its CVC staff in 
the last several months to help achieve the schedule. Given the number 
and magnitude of the changes that have occurred to the sequence 2 
contract since it was initially awarded and the extent to which 
problems have constrained progress, we believe that this additional 
supervision should put the team in a better position to meet schedule 
dates and address problems quickly.
            Problems: Required Changes to Fire Protection System and 
                    Continued Slippages in Other Important Activities 
                    Have Extended the Project's Schedule and Completion 
                    Date
    The additional time needed to make design changes to the CVC's fire 
protection system has extended the project's completion date by about 6 
weeks since the Subcommittee's September 21 CVC hearing--from September 
17, 2007, according to the schedule in effect at that time, to October 
26, 2007, according to the October 2006 schedule issued last week. In 
addition, AOC's construction management contractor reported slippages 
in construction work for all of the 20 near-critical activity paths it 
identified in its schedule report for October 2006. For many of these 
activity paths, the schedule slipped at least 4 weeks. For example, the 
contractor reported a 65-workday delay for two East Front elevators due 
to late completion of necessary preceding work, a 66-workday delay for 
fabrication and installation of bronze doors because of fabrication 
problems experienced by the supplier, a 38-workday delay in ceiling 
close-ins in the upper level security lobby needed to resolve 
unexpected ceiling problems, and a 38-workday delay in completing wall 
stone work in the East Front basement area attributable to 
unanticipated design issues. The contractor also reported a 130-workday 
delay in the delivery of custom light fixtures, apparently the result 
of contractual issues between the sequence 2 contractor and its 
supplier. According to the construction management contractor, there 
are now five near-critical activity paths--including the HVAC system, 
East Front work, and work in the upper level security lobby and 
assembly rooms, for which additional slippages of 17 to 53 workdays 
could further delay the CVC's completion date.
    Neither the September 17, 2007, nor the October 26, 2007, project 
completion dates included any time for (1) installing artifacts in the 
exhibit gallery after a certificate of occupancy has been issued, (2) 
preparing for operations, or (3) dealing with risks and uncertainties. 
AOC's October 2006 schedule shows the artifacts installed in the 
exhibit gallery by November 30, 2007, but does not allow any time for 
dealing with risks or uncertainties associated with completing the work 
necessary for a certificate of occupancy, and it is not clear whether 
the additional time provided for installing the artifacts will be 
sufficient to prepare for operations.
            Problems with the HVAC System
    In work on the CVC's HVAC system, AOC's construction management 
contractor reported a 19-workday slippage, which the contractor 
attributed to a steam pipe support problem and a problem at the Capitol 
Power Plant. As we indicated at the Subcommittee's last CVC hearing, we 
asked our mechanical engineering consultant to reassess the status of 
the CVC's air-handling units in early November 2006 because the CVC's 
HVAC system affects many activities, has had a number of problems, and 
poses significant risks to the project's successful completion. We 
asked the consultant to compare the units' mechanical readiness to 
provide conditioned air to the CVC as of November 1 with their 
readiness as of his previous assessment, on September 6, 2006. On 
November 1, he found that the installation of controls for the air 
handling units was nearing completion, substantial work had been done 
to insulate 7 of the units, and all of the units could be ready on 
schedule with committed effort by the sequence 2 mechanical 
subcontractor. He noted, however, that except for pressure and leak 
testing and controls installation, little visible work had been done on 
12 of the units to address the issues he had identified during his 
September visit. He said he did not see a large number of workers in 
the air handling unit areas and the work that was being done appeared 
to be on pipe insulation. Moreover, he saw little coordination between 
work on completing the air handling units and on the spaces they are to 
serve, and he noted a number of concerns about the operational 
readiness of both, indicating that delays in providing conditioned air 
to the facility and in balancing of the air handling units could 
potentially delay the project's schedule.
    Even though the HVAC system's installation and associated work are 
progressing, a number of issues besides those observed by our 
mechanical engineering consultant have arisen since the Subcommittee's 
last CVC hearing, heightening our concerns about the CVC team's ability 
to meet its schedule for completing and commissioning the system. 
Because some of the spaces to be served by the air handling units were 
not yet ready, the sequence 2 contractor recently decided to change the 
sequence in which some of the air handling units would be placed in 
service. However, as of last week, the technical implications of this 
change had not been fully determined. The commissioning contractor has 
questioned whether enough people will be available to support the 
commissioning process within the scheduled time frames, and, as noted, 
our mechanical engineering consultant has raised operational readiness 
concerns. AOC's construction management contractor has also expressed 
concerns about these issues, and we have raised the issues in a number 
of CVC team meetings, but the responses have not given us confidence 
that (1) all the work associated with bringing the air handling units 
on line and commissioning them has been sufficiently coordinated among 
the team members; (2) all technical issues and risks associated with 
fully operating the units have been adequately addressed; and (3) that 
sufficient staff will be available to meet the scheduled dates.
    According to sequence 2 contractor personnel, these types of 
problems and ongoing schedule adjustments to address day-to-day events 
are not uncommon in large, complex construction projects. Not all the 
problems with the air handling units have to be resolved fully before 
commissioning work can proceed, they said, and air handling units are 
typically turned on before other work is completed to provide 
conditioned air for materials that need it. The sequence 2 contractor 
said it would work with the mechanical subcontractor and other parties 
to ensure that the HVAC system issues are resolved in a timely manner. 
Furthermore, according to the contractor personnel, contractual 
provisions are in place to address providing conditioned air to the CVC 
while construction work is underway. We understand these points and 
recognize the progress that has been made. However, in light of the 
recurring slippages in the HVAC system's schedule, the system's 
importance to the pretesting and final testing of the facility's fire 
protection system, and the concerns expressed by AOC's construction 
management contractor and the commissioning contractor, we believe 
prompt action is needed to resolve the concerns and ensure that the 
schedule for completing the HVAC system work is realistic and will be 
met.
            Delays in Completing the Expansion Spaces and the Library 
                    of Congress Tunnel
    The schedule for essentially completing the construction of the 
House and Senate expansion spaces (currently scheduled for April 23, 
2007) has slipped about 6 weeks since the Subcommittee's last CVC 
hearing, and several activities important to completing these spaces 
have also been delayed. For example, AOC's construction management 
contractor reported another 14-workday delay in completing the circular 
stairs in the atrium areas. Delays have also occurred in, for example, 
the installation of the stone arch in the House lower level, because 
the work is taking longer than expected, and in the installation of 
millwork in the House lower level, because of fabrication delays. In 
addition, a special fire suppression system was not installed because 
it had not been approved. Furthermore, the sequence 2 subcontractor 
doing the expansion space work identified a number of concerns that 
could affect the project's completion. For example, the subcontractor 
reported that its schedule could be adversely affected if significant 
scope or design changes continue. Assuming that scope and design 
changes are controlled, the sequence 2 subcontractor responsible for 
the expansion space work hopes to recover some of the lost time and 
essentially complete its construction work in March 2007. In addition, 
the project's schedule shows that the construction activity (excluding 
testing) remaining after the April 2007 essential completion date is 
primarily related to work necessary to complete the circular stair in 
the House atrium. AOC anticipates that a design change will enable the 
circular stairs in both the House and the Senate atriums to be 
completed sooner than currently scheduled.
    Finally, although not critical to the CVC's opening, work being 
done to connect the Library of Congress's Jefferson building to the 
tunnel linking it with the CVC has fallen more than 3 weeks behind 
since the Subcommittee's last CVC hearing, according to the 
construction management contractor, at least in part, because certain 
stone work has taken longer to install than anticipated. The 
subcontractor responsible for this work, which is currently scheduled 
for completion on April 24, 2007, expects to recover lost time and 
complete the work in March 2007. Furthermore, the construction 
management and sequence 2 contractors report that, for a number of 
reasons, the work on the tunnel itself has slipped about 9\1/2\ weeks 
beyond the completion date in effect at the Subcommittee's last CVC 
hearing.
            Indicators of Construction Progress Point to Further Delays 
                    Unless AOC's Project Execution Significantly 
                    Improves
    The four indicators of construction progress that we have been 
tracking for the Subcommittee, together with the risks and 
uncertainties that continue to face the project--which we will discuss 
shortly--demonstrate to us that AOC will be unlikely to meet its fall 
2007 project completion date unless it significantly improves its 
project execution. An update on these indicators follows:
    Sequence 2 contractor has continued to miss most milestones.--
Starting with the Subcommittee's June 2005 CVC hearing, at the 
Subcommittee's request, we and AOC have been selecting and tracking 
sequence 2 milestones to help the Subcommittee monitor construction 
progress. These milestones include activities that were either on the 
project's critical path or that we and AOC believe are critical to the 
project's timely completion. As figure 1 shows, the sequence 2 
contractor has generally missed these milestones. For today's hearing, 
the contractor met or was expected to meet 4 of the 18 milestones that 
were due to be completed, according to the project's September 2006 
schedule, and for 1 of these 4, the work was completed ahead of 
schedule.\6\ However, the contractor was late in completing work for 4 
other milestones and had not completed or was not expected to complete 
the work for the remaining 10 milestones by November 15, 2006. (See 
app. I.) The sequence 2 contractor attributed the slippages to a number 
of factors, including design issues and a need to relocate ductwork, 
add steel support for wall stone, and resequence work.
---------------------------------------------------------------------------
    \6\ As of November 14, AOC's sequence 2 and construction management 
contractors expected that work associated with three tracked milestones 
would be completed today. We therefore counted them as completed today. 
We did not have the opportunity to verify the completion of these 
activities before we submitted our prepared statement to the 
Subcommittee for today's hearing. We did not count as completed 
activities that the sequence 2 contractor believed were completed that 
were not confirmed as such by the construction management contractor.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 1.--Sequence 2 Contractor's Progress in Meeting Selected 
                   Milestones as of CVC Hearing Dates

    Value of completed work has increased since the last hearing, but 
trend reflects the sequence 2 contractor's difficulties in meeting 
scheduled completion dates.--Another indicator of construction progress 
that we and AOC's construction management contractor have been tracking 
is the value of the completed construction work billed to the 
government each month. Overall, the sequence 2 contractor's monthly 
billings, including the bills for March through October 2006, indicate 
that construction work is about 2 months behind the late finish curve, 
which indicates completion around November 2007. While this indicator 
has some limitations (for example, billings lag behind construction), 
it is generally regarded in the construction industry as a useful 
measure of how likely a project is to be completed on time. Figure 2 
compares the sequence 2 contractor's billings since May 2003 with the 
billings needed to complete construction work on schedule and suggests 
that AOC faces challenges in meeting its fall 2007 completion date and 
is more likely to complete the facility later than its current schedule 
shows.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Notes:
    The early and late lines on this figure reflect the cumulative 
billings that would be required to complete the project through 
contract modification number 144 ($237.5 million total contact value) 
by the early and late finish dates shown in the sequence 2 contractor's 
schedule, which is based on the September 2006 contractual completion 
date.
    The actual line reflects the sequence 2 contractor's actual monthly 
billings.
    Although bills are typically submitted for payment after work is 
completed, it is often likely that construction work will be completed 
on schedule when the actual billing line falls between the early and 
the late lines in the figure. For the CVC, the actual billing line has 
been trending below, and in March 2006 went below, the late finish 
line, where it remained through October 2006. Even with the lag in 
billings, this trend indicates that the amount of work being completed 
and billed each month is not sufficient to keep the project on 
schedule.

 Figure 2.--Total Billings by the Sequence 2 Contractor for the Entire 
 CVC Project Compared with the Billings Needed to Finish Construction 
                            Work on Schedule

    Installation of interior wall and floor stone is taking longer than 
expected.--Overall, about 86 percent of the CVC's interior wall stone 
has been installed (in the CVC, East Front, atrium areas, and tunnels), 
according to AOC's construction management contractor, and the sequence 
2 contractor installed nearly 85,000 of the 129,780 square feet of 
interior floor stone required as of November 9. Although the sequence 2 
contractor has installed almost all of the wall stone in the CVC itself 
and all of the wall stone in the atrium areas, wall stone installation 
in the East Front is significantly behind schedule. According to the 
sequence 2 contractor's January 2006 wall stone installation schedule, 
the East Front wall stone was to be completely installed by July 10, 
2006. As of November 10, about 4,700 pieces of wall stone remained to 
be installed in the East Front--the same quantity as we reported at the 
Subcommittee's last CVC hearing. During the 8 weeks since that hearing, 
the sequence 2 contractor installed about 34,900 square feet of 
interior floor stone, or about 65 percent of the 52,060 square feet 
specified in the floor stone installation plan that the contractor had 
previously provided to AOC. According to the construction management 
contractor, the sequence 2 contractor's installation of interior floor 
stone has been impeded by a lack of available space and by some work 
taking longer than expected.
    Figure 3 shows the sequence 2 contractor's progress in installing 
interior floor stone since February 13, 2006.\7\
---------------------------------------------------------------------------
    \7\ Our statement no longer includes a figure comparing actual to 
targeted wall stone installation because all targeted quantities were 
to have been installed by August 7, 2006, according to the sequence 2 
contractor's January 2006 installation plan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Figure 3.--Progress of CVC Interior Floor Stone Installation Compared 
       with Preliminary Targets Set by the Sequence 2 Contractor

            Project's Schedule Remains Vulnerable to Challenges, Risks, 
                    and Uncertainties
    As we have indicated during the Subcommittee's previous CVC 
hearings, we believe that the CVC team continues to face challenges, 
risks, and uncertainties in quickly completing the project. Given the 
project's history of delays, the difficulties the CVC team has 
encountered in quickly resolving problems that arise, and the large 
number of near-critical activities that can affect the project's 
overall completion, the CVC team's efforts to identify potential 
problems early and resolve issues quickly will be even more important 
from this point forward, because AOC has left no ``slack'' in the 
schedule for contingencies. In our view, the remaining work associated 
with the fire protection and HVAC systems poses the greatest risks to 
meeting AOC's fall 2007 project completion date. The steps AOC has 
taken to mitigate these risks have been helpful, but much work remains 
to be done on these systems and on their linkages with other building 
systems. In addition, the project continues to face risks and 
uncertainties associated with other work important to its completion, 
such as the East Front, and additional design or scope changes. The 
project's current schedule does not provide the 2 to 3 months that a 
previous schedule allowed for addressing ongoing challenges, risks, and 
uncertainties. Accordingly, we plan to continue to monitor the CVC 
team's efforts to meet its schedule for the fire protection, HVAC, 
security, and other building systems and other key near-critical 
activities as well as the timeliness of the actions taken by the CVC 
team to address problems, concerns, and questions that arise. A brief 
update follows on the challenges, risks, and uncertainties the CVC team 
continues to face and the team's plans for addressing them:
  --Complex building systems remain a significant risk.--The CVC will 
        house complex building systems, including HVAC, fire 
        protection, and security systems. These systems not only have 
        to perform well individually, but their operation also has to 
        be integrated. If the CVC team encounters any significant 
        problems with them, either separately or together, during the 
        resolution of design issues, installation, commissioning, or 
        testing, the project could be seriously delayed. The 
        unanticipated problems that emerged in reviewing the design of 
        the fire alarm system and in programming it illustrate the 
        impact such problems can have on the project's schedule. AOC's 
        Fire Marshal Division and the CVC team have recently made 
        considerable progress in reaching agreement on the design of a 
        number of important elements of the CVC's fire protection 
        system that are important to the purchasing and installation of 
        wiring and equipment. As of November 13, the Fire Marshal 
        Division had approved or essentially agreed to the designs of 
        the sprinkler, smoke control, and emergency public address 
        systems as well as most aspects of the CVC's and East Front's 
        fire alarm systems that are related to the ordering and 
        installation of wiring and equipment. According to the Fire 
        Marshal Division, any outstanding comments on these system 
        elements are minor. On the other hand, agreement has not yet 
        been reached on a number of other system elements, including 
        the sequence of operations for the CVC fire alarm system, the 
        design for the special fire protection system in the exhibit 
        gallery, and the plan for final acceptance testing of the 
        facility's fire protection system. A sequence 2 subcontractor 
        has identified dates by which certain elements must be approved 
        to avoid further delays. Thus, additional delays could occur if 
        the team takes longer than expected to get necessary remaining 
        approvals or if the fire protection system does not work 
        effectively individually or in concert with the security or 
        other building systems.\8\ It is because of constraints such as 
        these that we believe it is so important to address open issues 
        associated with the HVAC system and to continue coordination 
        with the U.S. Capitol Police on the security system. Since the 
        Subcommittee's last CVC hearing, the Capitol Police have 
        identified another security problem that will require 
        additional work. The impact of this work, if any, had not been 
        determined as of November 9.
---------------------------------------------------------------------------
    \8\ According to the sequence 2 subcontractor that is fitting out 
the House and Senate expansion spaces, the delays in getting approved 
shop drawings for the fire protection system have already postponed 
ceiling close-ins in the expansion spaces, and AOC believes that 
further such delays, along with possible requests for design changes, 
pose the greatest risks to the schedule for completing the expansion 
spaces.
---------------------------------------------------------------------------
  --Building design and work scope continue to evolve.--The CVC has 
        undergone a number of design and work scope changes. Since 
        September 15, 2006, AOC's architectural contractor has issued 
        five design changes or clarifications. As of November 8, 2006, 
        this contractor reported, another four were in process. In 
        addition, since the project began, AOC has executed over 100 
        sequence 2 contract modifications for work that was not 
        anticipated.\9\ Some of these changes, such as changes in the 
        exhibit gallery and in the East Front, have resulted in delays. 
        Furthermore, although shop drawings have been approved for 
        almost all project elements, according to AOC, further design 
        or scope changes in various project elements are likely, given 
        the project's experience to date. Project design and scope 
        changes are typically reflected in the development of potential 
        change orders (PCO), many of which result in contract 
        modifications. Figure 4 shows the PCOs submitted for 
        consideration for sequences 1 and 2 since September 2003. 
        Although PCOs are not always approved, they are often regarded 
        as a reasonably good indicator of likely future design or scope 
        changes that can affect a project's cost and schedule. Even 
        more important, the adverse impact of scope and design changes 
        on a project's schedule is likely to increase as the project 
        moves toward completion.
---------------------------------------------------------------------------
    \9\ These data exclude sequence 2 contract modifications for work 
that was planned but not included in the sequence 2 base contract. 
Examples include the fit-out of the House and Senate expansion spaces, 
the construction of the utility tunnel, and the purchase and 
installation of food service equipment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Figure 4.--Cumulative Number of Potential Change Orders Submitted for 
     CVC Sequences 1 and 2 between September 2003 and November 2006

      As the figure indicates, new PCOs for sequence 1 were submitted 
        until shortly before, and even for several months after, 
        November 2004, when AOC determined that the sequence 1 contract 
        work was substantially complete. Similarly, PCOs for sequence 2 
        are still being submitted, and we have seen no indication that 
        their submission is likely to stop soon. It therefore appears 
        likely to us that some of the design or scope changes indicated 
        in PCOs could lead to contract modifications that will affect 
        the project's schedule. AOC agrees that it is important to 
        minimize the impact of proposed design and scope changes.
  --Trade stacking could delay completion\10\.--As we discussed during 
        the Subcommittee's previous CVC hearings, trade stacking could 
        hold up finish work, such as drywall or ceiling installation, 
        electrical and plumbing work, plastering, or floor stone 
        installation. This work could be stacked because of delays in 
        wall stone installation. Trade stacking could also increase the 
        risk of accidents and injuries. Hence, it remains important, as 
        we said at previous CVC hearings, for the CVC team to closely 
        monitor construction to identify potential trade stacking and 
        promptly take steps to address it. The CVC team has also 
        identified trade stacking as a high risk. The sequence 2 
        contractor has developed plans that show when various 
        subcontractors will be working in various areas of the CVC. 
        According to the sequence 2 contractor, it has been continuing 
        to meet regularly with its subcontractors to identify and 
        resolve potential issues. The CVC team identified instances of 
        trade stacking that occurred in an effort to expedite certain 
        East Front work and in doing millwork and stone work in the 
        orientation theaters. AOC's construction management contractor 
        has noted trade stacking as a potential issue associated with 
        the compressed time frame for bringing all of the air-handling 
        units on line.
---------------------------------------------------------------------------
    \10\ Trade stacking can occur when workers from different trades, 
such as stone masons, electricians, plumbers, or plasterers, have to 
work in the same area at the same time to meet a schedule, sometimes 
making it difficult to ensure sufficient space and resources for 
concurrent work.
---------------------------------------------------------------------------
  --Additional delays associated with the CVC's new utility tunnel have 
        resulted, or could result, in additional work or slippages.--
        The delay in starting up the utility tunnel's operations has 
        necessitated the use of temporary humidity control equipment 
        for several areas to avoid damage to finish work and ceiling 
        tile. Such delays may subject certain work to the risk of 
        damage or may delay finish or ceiling work in areas not 
        suitable for the use of temporary humidity and temperature 
        control equipment. For example, the CVC team installed ceiling 
        tile in portions of the great hall to take advantage of the 
        scaffolding in place, even though neither the temperature nor 
        the humidity was controlled in that area. According to the CVC 
        team, the installed tile could be damaged if the temperature or 
        humidity is not within specified levels, and certain exhibit 
        gallery woodwork has been delayed because conditioned air has 
        not been available. Although the CVC team expected in early 
        August to be providing dehumidified air to the exhibit gallery 
        by mid-August, the sequence 2 contractor now expects to begin 
        providing conditioned air to the CVC later this month. However, 
        as noted, the contractor has resequenced the order for bringing 
        some air handling units on line because some spaces--including 
        the exhibit gallery, which was slated to receive conditioned 
        air first--were not clean enough for the units to operate. The 
        air handling unit serving the exhibit gallery is now expected 
        to come on line early in December. Remaining risks include 
        having sufficient manpower to meet the scheduled dates for 
        getting the HVAC system fully operational, having sufficiently 
        clean spaces, and being able to quickly overcome any problems 
        that may arise in getting the system properly balanced, 
        controlled, and commissioned, including providing enough 
        manpower without causing trade stacking.
  --Late identification or slow resolution of problems or issues could 
        delay completion.--Historically, the project has experienced or 
        been at risk of experiencing some delays resulting from slow 
        decision-making. In addition, some CVC team members believe 
        that some of the problems that have resulted in delays, such as 
        certain problems associated with the East Front or with 
        problematic sequence 1 concrete work could have been identified 
        and addressed earlier than they were. In responding to these 
        comments, the sequence 2 contractor said that although earlier 
        identification of these types of problems is conceptually 
        possible, it is difficult in practice. Looking forward, we do 
        not believe that the team will be able to meet its scheduled 
        completion date if it does not quickly decide on issues; 
        respond to concerns, questions, and submittals; or resolve 
        problems. In September 2006, AOC told the CVC team that 
        starting October 1, the architectural contractor would be 
        decreasing its staff support to the project. In our opinion, 
        this change increased the risk of slow responses to design 
        questions or requests for design instructions at a very 
        critical time, particularly because we have not seen evidence 
        of a decrease in potential change orders. AOC believes that it 
        will be able to provide its CVC construction contractors with 
        sufficient architectural support to respond to appropriate 
        questions or requests in time to avoid delays. We believe that 
        this situation needs close monitoring as well as corrective 
        action if problems arise. AOC has not reported any problems in 
        this area since the last CVC hearing, and has identified steps 
        in its November 2006 action plan aimed at identifying and 
        resolving design problems quickly.
    Finally, as we noted earlier in our testimony today, AOC's delay 
analysis is even more critical given the passage of the sequence 2 
September 15, 2006, contract completion date and the need to obtain a 
complete facility without further delays and unreasonable costs, 
including delay-related costs. On April 11, 2006, AOC executed a 
contract modification authorizing its construction management 
contractor to have one of its managers who has not been involved in the 
CVC project assess the adequacy of this type of information. The 
manager submitted his report to AOC in early June. He reported 
generally positive findings but also identified desired improvements. 
He made several recommendations to AOC, which AOC has generally agreed 
with and plans to implement consistent with the availability of 
resources.
            Project's New Schedule Appears Achievable Only under 
                    Certain Conditions
    The October project schedule shows that almost all physical 
construction work on the CVC, the East Front, and the expansion spaces 
will be completed by spring 2007 and that the pretesting and final 
testing of all fire protection, life safety, and related systems for 
these areas will be carried out between then and late October 2007. 
This schedule reflects the amount of time that AOC's Chief Fire Marshal 
said he would need to perform his acceptance testing, although the CVC 
team is working to see if certain aspects of the testing can be done 
differently to save some time. The October 2006 schedule also calls for 
completing the installation of artifacts in the exhibit gallery by 
November 30, 2007. However, this schedule does not allow any time for 
addressing problems, risks, or uncertainties associated with obtaining 
a certificate of occupancy or for preparing for operations.
    Given the uncertainty about how much time will be needed to pretest 
the fire protection system, the concerns associated with the HVAC 
system, the unknown effectiveness of AOC's recently identified actions 
to curtail future schedule slippages, and the limited amount of time we 
had to assess the October project schedule, we do not feel that we are 
in position to suggest a definitive project completion date. However, 
in light of the work we have done, we do not believe AOC will be able 
to complete the project by fall 2007 if the actions it has identified 
are not effective in curtailing future schedule slippages. Thus, until 
we see that AOC has satisfactorily addressed our schedule-related 
concerns, we believe that the project is more likely to be completed in 
early 2008 rather than in the fall of 2007.
            Recommendations
    To minimize the risks associated with the CVC's HVAC system and the 
government's ability to get the CVC completed within the current 
schedule and cost estimates and to give Congress and us greater 
confidence in the CVC team's project schedules from this point forward, 
we recommend that the Architect of the Capitol promptly take the 
following two actions:
  --Work with the rest of the CVC team to ensure that the schedule for 
        completing and commissioning the HVAC system is realistic, that 
        all the work necessary for the proper and safe functioning of 
        the HVAC system--including work in the spaces the air handling 
        units are to serve--is completed in a timely, well-coordinated 
        manner, and that sufficient resources will be available to meet 
        the schedule without creating a trade-stacking problem.
  --Carefully consider the contractual remedies available to AOC to 
        complete all tasks that must precede the start and completion 
        of final acceptance testing of the CVC's fire protection and 
        life safety systems within the time necessary to meet the 
        estimated fall 2007 project completion time frame.
    AOC generally agreed with our recommendations.
Project's Estimated Cost and Funding
    Since the Subcommittee's September 21 CVC hearing, we have added 
about $8 million to our estimate of the total cost of the CVC project 
at completion.\11\ This increase reflects a rough estimate of the 
impact on the project's cost of the 6-week delay associated with the 
fire protection system and other scope and design changes identified 
during the past 8 weeks; however, the actual costs for changes are not 
yet known, and we have not had sufficient time to fully assess the CVC 
team's cost estimates incorporated in our estimate.\12\ With this 
approximately $8 million increase, we now estimate, on the basis of our 
limited review, that the total cost of the entire CVC project at 
completion is likely to be about $592 million without an allowance for 
risks and uncertainties. We nevertheless recognize that the project 
continues to face a number of uncertainties, including uncertainty over 
the extent of AOC's responsibility for the delay-related costs. (We 
have not updated our estimate of the project's cost at completion with 
an allowance for risks and uncertainties.)
---------------------------------------------------------------------------
    \11\ At the Subcommittee's September 21 CVC hearing, we estimated 
that the total cost of the entire CVC project at completion was likely 
to be about $584 million without an allowance for risks and 
uncertainties and about $596 million with such an allowance--increases 
of $28 million and $12 million, respectively, over our previous 
estimates. We also pointed out that a number of uncertainties, such as 
the possibility of further delays associated with the CVC's fire alarm 
system, could affect our estimates.
    \12\ AOC estimated the additional delay-related costs for budgetary 
purposes only and did not provide for possible concurrent delays.
---------------------------------------------------------------------------
    To date, about $531 million has been provided for CVC construction. 
This amount includes about $3.9 million that was made available for 
either CVC construction or operations \13\ and has been approved for 
CVC construction by the House and Senate Committees on Appropriations. 
An earlier cost-to-complete estimate, prepared for the Subcommittee's 
March 2006 CVC hearing, showed that another $26 million in construction 
funds would be necessary to reach the previous cost estimate of $556 
million, which did not include an allowance for risks and 
uncertainties. AOC has requested this additional $26 million in its 
fiscal year 2007 budget for CVC construction. AOC has also requested 
$950,000 in fiscal year 2007 general administration appropriation funds 
to provide contractual support for the Chief Fire Marshal's final 
acceptance testing of the CVC. During fiscal year 2007, AOC is also 
likely to need, but has not yet requested, additional funds to pay for 
changes. At the Subcommittee's last CVC hearing, we roughly estimated 
that AOC would need an additional $5 million to $10 million in fiscal 
year 2007 for changes unless it decides to use funds slated for other 
purposes, after obtaining the necessary congressional approvals. AOC 
agrees with this rough estimate at this time and notes that it would 
likely need additional funding in fiscal year 2008 to replenish these 
funds and to cover certain additional costs if they materialize.
---------------------------------------------------------------------------
    \13\ Public Law 108-447, enacted on December 8, 2004, provided that 
up to $10.6 million (reduced to $10.5 million by a subsequent budget 
rescission of $84,000) could be transferred from AOC's Capitol Building 
appropriation account for the use of the CVC project. The use of the 
amount transferred is subject to the approval of the House and Senate 
Committees on Appropriations. AOC has now received approval to obligate 
the entire $10.5 million.
---------------------------------------------------------------------------
    Mr. Chairman, this completes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.

          APPENDIX I. CAPITOL VISITOR CENTER CRITICAL CONSTRUCTION MILESTONES, SEPTEMBER-NOVEMBER 2006
----------------------------------------------------------------------------------------------------------------
                                                                                     Scheduled        Actual
               Activity                                 Location                    completion      completion
----------------------------------------------------------------------------------------------------------------
Install wood ceiling panels..........  Orientation Theater......................      10/13/2006  \1\ 10/24/2006
CONOP matrix.........................  Fire alarm system........................      10/30/2006         ( \2\ )
Flush steam piping...................  HVAC Steam...............................      10/23/2006      10/31/2006
Relocate kitchen exhaust duct........  Food Service.............................      10/23/2006         ( \3\ )
Set cab shell/control panel..........  Elevator VC #17 East Front...............      10/25/2006         ( \4\ )
Dismantle scaffold...................  Orientation Theater......................      10/27/2006  \5\ 10/24/2006
Finish paint.........................  Food Service.............................      10/30/2006   \6\ 11/6/2006
Ceiling fabric.......................  Congressional Auditorium.................      10/30/2006  \7\ 11/15/2006
Plaster Ceilings.....................  West Lobby & Assembly....................      10/31/2006         ( \8\ )
Install marble wall stone 1st Third..  Exhibit Gallery..........................       11/7/2006         ( \9\ )
Resubmit Riser Diagram...............  Fire alarm system........................       11/9/2006       11/9/2006
Wall stone Area #1...................  East Front Principal.....................      11/10/2006        ( \10\ )
Interior cab finishes................  Elevator VC #12 Orientation Theater......      11/10/2006         ( \4\ )
Fabric Ceiling Panels................  West Lobby & Assembly....................      11/14/2006        ( \11\ )
Hang Drywall Bulkheads...............  Orientation Lobby........................      11/14/2006        ( \12\ )
Mechanically Ready...................  Great Hall AHU # 3 &16...................      11/15/2006     \13\ 11/15/
                                                                                                            2006
Floor stone..........................  Orientation Lobby........................      11/15/2006     \14\ 11/15/
                                                                                                            2006
Wood wall panels.....................  Congressional Auditorium.................      11/15/2006        ( \15\ )
----------------------------------------------------------------------------------------------------------------
\1\ While the ceiling has been completed, the blistered panels will need to be repaired or replaced.
\2\ Continuing efforts are being made to understand and develop the sequence of operations (CONOP) matrix
  requirements. The matrix must be approved by December 8, 2006, to avoid an impact on the critical path.
\3\ Enough of the ductwork has been relocated to allow hood installation to begin. Currently three of the six
  hoods have been installed. The balance of hood installation is scheduled to be complete by November 24, 2006.
\4\ Control panels are set and operational. This activity included setting cab shells without finishes. The cab
  vendor decided to prefinish the cabs rather than to finish the shells on site. Finished cabs are on site and
  preparations are being made for installation this week.
\5\ While the scaffold for ceiling installation has been removed, scaffolding has been erected along the walls
  in the south theater to install wood panels. This scaffolding will affect installation of the stone stair
  steps.
\6\ This work is essentially completed.
\7\ Ceiling panel installation began on November 9, 2006.
\8\ Plaster ceilings have been completed in the main lobby area and south assembly room. Hanging of the north
  assembly room ceiling began on November 7, 2006.
\9\ Installation of the unistrut framing was delayed because of structural design concerns. Additional cross
  bracing was added to stiffen the assembly. Wall stone installation is to begin this week.
\10\ The work has been delayed because structural steel was added to support the metal stud wall at the east
  side of stair #37. Upon the completion of metal stud wall, the stone work is scheduled to begin. The revised
  start date for wall stone on the principal level is November 30, 2006.
\11\ Fabric ceiling panel installation has been delayed because of delays in necessary preceding East Front
  work--completion of the East Front archway stone, ceilings, and escalator installation. Installation of the
  fabric panel currently cannot be completed until the escalator trusses are set to clear the floor area.
  Setting of the trusses is currently projected to be completed by the end of January 2007.
\12\ Because of above-ceiling conflicts, the work was resequenced to allow the floor stone installation to
  proceed ahead of the ceiling work. Hanging of bulkheads started in the south screening area on November 2,
  2006 and is expected to be completed in November 2006.
\13\ Mechanically ready priorities have been resequenced. AHU #1 has been switched with AHUs #3 and 16, which
  are now scheduled for November 15, 2006. AOC's construction management contractor believes that this activity
  is essentially complete. AHU #1 is now scheduled for December 6, 2006.
\14\ The sequence 2 and construction management contractors expect this work to be essentially completed by
  close of business today.
\15\ The start of wood panel installation is pending humidity control within the space.
 
Source: AOC's September 2006 CVC sequence 2 construction schedule for the scheduled completion dates and AOC and
  its construction management contractor for the actual completion dates.

    Senator Allard. Thank you both for your testimony.

                            COMPLETION DATE

    What is the current scheduled completion date, Mr. Ungar?
    Mr. Ungar. It's--October 2007 is the scheduled completion 
date for the project.
    Senator Allard. October 1?
    Mr. Ungar. No, sir, October 26, I believe. And that does 
not include, by the way, time to install the artifacts in the 
exhibit gallery because they have to wait for a certificate of 
occupancy.
    Senator Allard. So visitors may very well not be able to 
visit until the year 2008?
    Mr. Ungar. That's correct. If the team is not able to--
well, let's put it this way. If the team is not able to meet 
the schedule, if they can't control the slippages, it's 
unlikely that they will be in before 2008, early 2008.
    Senator Allard. What's the length of time from the original 
scheduled completion date?
    Mr. Ungar. Well, it was September 17, 2006. It would be 
almost 2 years behind.
    Senator Allard. I think 2005.
    Mr. Ungar. If you go back to the original, if you have to--
back then, actually it was supposed to be ready for the 
inauguration of 2005, I believe. That was the original date but 
I think everybody acknowledged that was a little unrealistic 
and then they've had successive, if that's correct, dates since 
then.

                              HVAC SYSTEM

    Senator Allard. You talked about this one persistent 
problem with the heating and air-conditioning system but you 
weren't specific as to the problem. Could you elaborate on what 
that is?
    Mr. Ungar. Yes, sir. I'll turn it over to Mr. James. I just 
want to mention, one of the issues has been an alignment issue 
with one of the units and they had to do some remedial work. 
Maybe Mr. James, if you'd like to just briefly explain what 
that is? We'll make him earn his keep today.
    Senator Allard. Mr. James.
    Mr. James. Unit number 3 did not have the louver from the 
plenum aligned with the unit and when we went down there this 
morning, they had knocked the louver out of the wall and had to 
move it over 2 feet. Apparently, that issue, they knew about it 
for quite a while.
    Senator Allard. We have 23 HVAC units?
    Mr. Ungar. In the building, yes, sir.
    Mr. James. And this is one there that we've known about for 
some time but they just haven't bothered to make the adjustment 
until just recently. Was there an explanation given as to why 
that wasn't addressed earlier on?
    Mr. Hantman. I'm not aware of why we didn't do it.
    Mr. Ungar. Mr. Hixon may be able to----
    Senator Allard. Mr. Hixon, do you have a response to that?
    Mr. Hixon. No, sir. I don't know why they didn't choose to 
make the correction required for that particular unit. It is 
something that we have known that needs to be done. It's just 
something they had not felt necessary to correct until this 
time.

                        CONTRACT COMPLETION DATE

    Senator Allard. There doesn't seem to be any accountability 
and all of a sudden, they're not paying attention to deadlines. 
Are you trying to address that, Mr. Hixon? Or Mr. Hantman? It's 
a serious problem.
    Mr. Hantman. The issue is to try and achieve a commitment 
from the contractor. Contractually, the problem for us is the 
contractor has a contract completion date of September 15, 
2006, currently and that is based on the 10-month extension 
because of the delay in starting the work, so the duration of 
the contract, of 22 months, remains the same. They started 
November 2004 instead of January 2004 and went to September 15.
    The next issue is, there have been changes, a lot of 
changes to the contract, and the contractor is entitled to some 
time on some of those changes. He is required, under the 
contract, to provide a request for time extension and provide 
the justification for it. There have been so many changes that 
he has not completed the development of the schedule data 
required in order to support those time extensions. He is 
working on it but he has not completed it yet. This is 
something we've been pressing on but we have not yet received 
the data in order to analyze it and determine for each change 
order, how much time he is entitled to.
    Once we receive that and complete the analysis, we will be 
able to document exactly how much time is added to the contract 
and what the new completion date would be. It's not unusual on 
a major project to have the resolution of the time lag the 
construction. So you end up focusing more on what date you 
should be finished on and that's been the effort we've been 
going through recently, which is looking at a January 
completion of the CVC, trying to get things done in January for 
CVC; February in the expansion space, and because of the delays 
in the east front, March with the east front work.
    Thereafter, we have the fire alarm acceptance testing, 
which starts in May, when the pretesting is finished, based on 
the current schedule of activities. That would allow the fire 
marshal to do their completion.
    All of these activities, while they are delayed and we 
don't want them delayed, are not yet pushing out the completion 
as much as the fire alarm system has pushed out the completion. 
We still don't want the delays on this work. We're still 
targeting to try and be done, as I said, with the CVC and the 
expansion space and the east front so that work is all 
completed.
    Senator Allard. Let me ask Mr. Ungar and you Mr. Hixon, 
this question. Could they be moving faster?
    Mr. Hixon. The real issue on that is the contractor is 
moving as quickly as he feels is necessary, based on his 
contract. We have also accelerated----
    Senator Allard. But based on the needs of the project--just 
based on his control?
    Mr. Hixon. Well, under the terms of the contract, he is to 
work an 8-hour day, a 40-hour week, and plan his work to take 
place during the duration of the contract. When we add work, 
you recall, that we've added about 80 percent of work to the 
contractors' scope of work. So we've not quite doubled the 
contract and we were trying to get it done within almost the 
same 22-month duration. If he finished three months after--if 
he finished in December instead of September, we will be having 
him complete in 25 months instead of 22 months, a 3-month 
extension, another 80 percent of the work, which would be 
pretty phenomenal. So what we've been all struggling to do is 
try and get him to complete a whole lot of additional work and 
do it as close to the original timeframe as possible. So there 
is clearly time entitled--the contractor is entitled to some 
time. There are clearly some delays on his part. There were 
some delays caused by the Government and we need to reconcile 
those.
    If we want him to work double shifts, for example, in order 
to complete quicker, we would have to pay him to do that. We 
are paying selective overtime in areas where we think it will 
be beneficial to the project but, as GAO has stated in previous 
testimony, you need to be prudent about paying for overtime so 
that you're not spending a lot of money and not gaining much 
from it.
    The key issue is there's an awful lot of added work to the 
project that this contractor is supposed to accomplish. We're 
all pressing to try and get him done as quickly as possible. If 
he finishes in March, which would be 6 months added to his 22-
month contract and we've added 80 percent in scope to his 
contract, that's a lot of added work to only have a 6-month 
time extension. I think that's where he is. He feels that he is 
entitled to that time and we really are sympathetic that he is 
entitled to some additional time to his contract.
    Senator Allard. Mr. Ungar, would you agree?
    Mr. Ungar. Parts of that, yes. Most of it--I think we have 
a slightly different perspective although I'm not saying Bob is 
not correct, we just have a slightly different angle to look at 
that. One thing to say is that we have been talking for some 
time about the issue of having a realistic schedule and we have 
raised this over and over again. In fact, we've asked the 
sequence 2 contractor more than once, is this a realistic 
schedule? Can you do this schedule? And he keeps saying, yes, 
he can. Despite the nearly $100 million in additional work, 
he's been consistently saying he can. We've been consistently 
saying it's not realistic, it's not doable--you're not doing 
it--you know, as a matter of fact. So one question, let's get a 
realistic schedule. Now, we were thinking we were close to that 
at this point and it wasn't too long ago that I think you 
called Mr. Baker up to the table and he said he would make it.
    And one of the problems there has been, in our view, even 
though a lot of meetings and discussions take place, up until 
recently, the team has not focused on the schedule. It just has 
not come up as a major focus during the meetings that take 
place, at least that we attend. And so without the team 
focusing on that, it's not going to be met.
    Now, the other issue I mentioned was effort and it's 
certainly the case. There are a lot of people working at the 
site. So there is effort being applied. One dilemma is, is it 
enough to meet the schedule? And there are some areas where 
that hasn't been the case. One is the air handling units, where 
there just clearly has not been, with respect to the units 
themselves, sufficient effort applied to get them finished. 
There has been some progress but that's just a people power 
issue that's under the control of the subcontractor.
    Now, there are other problems that come in here that would 
impede the operational readiness of these units and that's not 
necessarily all that subcontractor's issue. It's up to the 
sequence 2 contractor to coordinate all this work and that's 
the area that we're saying really needs to be focused on right 
now.
    But there are other areas where effort is an issue. For 
example, the bronze doors that go into the facility. They are 
way behind schedule. Now that's an offsite issue where it has 
taken much longer to fabricate those doors than required. So 
there is a combination of factors.
    The last thing is, I think, a factor that's really affected 
the schedule significantly in many different areas, and that is 
how much time it takes to resolve problems. I think there have 
been many, many problems that have come up and just lingered. 
Just like the one we talked about and we've talked about others 
here before, the kitchen hoods that they are having difficulty 
getting installed. There are many, many of these problems and a 
problem is identified and every week there is discussion about 
it but there is no fruition. They don't come to fruition. It 
seems to be due to a lack of focus on getting the problem 
corrected, a lack of assignment of responsibility and a lack of 
tracking. It's not that the problems aren't solvable but there 
are a lot of people that have to be involved and it's just not 
moving quickly.
    The east front is a good example. There has been little 
progress in the east front because of some problems and this 
issue has lingered and lingered and lingered. So a few weeks 
ago or maybe 1 month ago now, we were assured all the problems 
were resolved and the installation of wall stone will begin. It 
hasn't begun yet on the upper two levels, at least as of last 
week.
    So again, if the team cannot get these problems taken care 
of, they are going to be in a real world of hurt when it comes 
to meeting the schedule. A longer answer than you wanted but--
--
    Mr. Ungar. Yeah. I'll give our opinion. Maybe Mr. Hantman 
and Mr. Hixon have a different one but I think it's just a lack 
of focus.

                            SUPERVISORY TEAM

    Now, one issue related to that that we have been nervous 
about for some time is as Mr. Hixon said, the value of the 
sequence 2 contract has grown significantly since it was 
originally awarded, almost $100 million. But what we hadn't 
seen until recently was a significant increase in the 
supervisory team, with the sequence 2 contractor.
    Now recently, they've added five additional superintendents 
with responsibilities for specific areas. We felt that the 
superintendent that they have, their overall superintendent, is 
a very conscientious individual; he works very hard. But the 
scope of this work has just increased significantly and 
hopefully, with the addition of these folks--that will help. 
But again, it gets to focus. You know, let's get some resolve 
and get the people together and get the problems resolved. But 
Mr. Hixon may have another----
    Senator Allard. Mr. Hixon.
    Mr. Hixon. The addition of the superintendents by the 
sequence 2 contractor, I think, is a big help to us. I think it 
is really an issue of having enough people that you can deal 
with all the issues that are going on. If you're trying to put 
out fires down in the security lobby and you've also got fires 
in the east front, as far as issues that need to be resolved, 
then you can't be in both places at the same time.
    The addition of these superintendents--there is a separate 
superintendent for the east front now, focused exclusively on 
that work. A great deal of his effort has been up on the fourth 
floor, where we're doing that work in the east front, as well 
as what goes on at the principal levels. There were issues that 
were resolved primarily with ductwork routing and then it went 
on to stone work and the mounting of the stone on the principal 
level and the gallery level.
    There also have been some schedule sequence issues, where 
the gallery stone has to wait on the principal stone because 
you run it up the full height of the wall. These schedule 
meetings that we're having on Thursdays are bringing these 
issues out and even though it is late in the game, at least 
they are being brought out now so they can be resolved. But 
that's--there are those coordination issues and I think it's--I 
don't think it's a matter of lack of effort, I think it's a 
matter of resources being available to devote to doing this.
    This is a very complicated project. Some areas are being 
finished up. Some areas are lingering because the resources 
weren't being applied to that particular area while they were 
being used to solve more critical areas. The CVC--we keep 
pushing hard on that one so I think some of the resources that 
needed to be applied to the east front were focused in the 
areas we were pushing on.
    I think we've got more people involved now. There is a much 
more conscientious effort about the schedule. We're trying to 
complete the development of a schedule for each area, the 
critical elements in each area so we can review those on 
Thursday and just keep running through those and say, okay, 
this is what is supposed to have happened, if it hasn't 
happened, why not? What's in the way of making this happen? 
We've got the superintendents involved in the meetings, not 
just the management for the team, so we're getting some good 
input from those folks on what's not happening and why it isn't 
happening.

                            COMPLETION DATE

    Senator Allard. In light of the testimony from Mr. Ungar, 
do you believe that the Capitol Visitor Center is going to be 
ready by early 2008?
    Mr. Ungar. As we discussed, Mr. Chairman, with the riser 
diagram situation in hand now and the electrical contractor 
beginning his work in earnest in terms of the installation of 
all its major conduits and cablings. We just got a schedule 
from him, which is built into this new schedule that we're 
talking about right now. That schedule talks about him doing 
his installation work for all of his cables, and devices for 
fire, life safety, and security systems and pretesting that and 
having that finished, I believe it's in May 2007, which would 
then allow the fire marshal to continue his work. We just got 
that schedule from them. Was it a week and a half ago, Bob?
    Mr. Hixon. That's correct.
    Senator Allard. So he'll have his work done in May. When 
would be the opening date, do you think, for the Capitol 
Visitor Center, in light of that?
    Mr. Hixon. I think the perspective is that we've got a lot 
of work to be done, mechanical work that Mr. Ungar was talking 
about, that is committed to be wrapped up by the end of next 
month. That's 6 weeks from now. They've got to be ready for 
commissioning to start. They are committed to being done, from 
the top management of that firm. We've got the CVC areas, the 
food service, the orientation theaters and those that should be 
done by the end of January. We have had slippages but we're 
getting to the end of the work that needs to be done in these 
areas. The big driver is going to be the fire alarm system. It 
has been now since it was revised in May and so, as a 
consequence of that, we expect that the pretesting will start 
in January. They will be finished and ready for the 
contractor--the AOC to begin life safety acceptance testing in 
May. That's the key element for us, is getting the fire alarm 
system components here, getting them installed, and going 
through the pretesting and the acceptance testing.
    We've had discussions with the fire marshal about being 
involved in the pretesting so that they can see how the 
contractor is doing this, to try and avoid problems during the 
acceptance testing process. The duration of the expected life 
safety acceptance testing is reflected in that schedule that 
has the completion done in October. Of course, we have not--we 
won't know for sure if there are any issues until we actually 
start the testing of the system.
    Senator Allard. You're talking about October 2007?
    Mr. Hixon. That's correct--2007, yes, sir.

                              ACTION PLAN

    Senator Allard. Okay. On the action plan, as we directed 
from the last hearing, you submitted that action plan and I 
appreciate that. What actions in this plan really represent a 
change in project management?
    Mr. Hixon. There are three primary items that have changed. 
There are a number of other issues that we're doing as well but 
the three primary items are the Thursday schedule meeting 
reviews, which start around 1 p.m. and typically go to about 
3:30 p.m. We're running through each area with the contractor, 
looking at what are the critical items in food service, what 
are the critical items in the orientation theater, and running 
through that with the sequence 2 contractor, the construction 
manager, and the superintendents from both of these groups so 
that we're all sitting around the table, looking at the 
schedule to see if the schedule is realistic, if there is 
something that can be done to improve it, to try and make sure 
we achieve these dates we talked about for January, February, 
and March.
    There are site tours that are taking place on Wednesday and 
Friday with the Architect, where he is walking through in the 
field with the contractor's personnel and their subcontractors, 
resolving field issues on the spot. They are being documented 
and the contractors now have direction rather than waiting on 
the formal paperwork to flow through, to ask a question and 
then, ultimately, get an answer. So those are being managed 
every week they generate the questions. They walk through, 
resolve those and then document what the answers are.
    The third item is the tie-in of the sequence 2 award fee to 
meeting the milestones. We have submitted that out to the 
contractor for signature. He has not signed it yet but we're 
looking to lock in those dates for the completion of the CVC 
areas by the end of January in order to receive the award fee.
    Those are the three primary elements. There are a number of 
others but those are the three primary ones.
    Senator Allard. Mr. Ungar, you've had a chance to review 
that action plan, I assume?
    Mr. Ungar. Yes, sir.
    Senator Allard. Are there any actions you believe the AOC 
needs to take that are not identified in the action plan?
    Mr. Ungar. Mr. Chairman, the one action that comes to mind 
is to deal with this question of the contract completion date 
and I can understand why AOC didn't put that in the plan but it 
is very important for AOC to carefully consider this issue and 
take appropriate action that would facilitate getting the 
project done on schedule without incurring any unnecessary risk 
to the Government that could take place there. So that would be 
the action that isn't in the plan and other specific action--I 
know you sense some frustration here on my part--is to make 
these milestones meaningful and important. The air handling 
unit one this time was specifically selected because of the 
importance of these air handling units to the rest of the 
project. If they don't improve the situation and have this same 
situation reoccur with the rest of the air handling units, 
they're going to have big problems.

                           FIRE ALARM SYSTEM

    Senator Allard. The fire alarm system continues to be 
problematic. An agreement has not yet been reached on a number 
of system elements. Mr. Hantman, do you believe the significant 
delays in the fire alarm system are behind you? Why hasn't the 
design for the CVC fire alarm system been settled a long time 
ago?
    Mr. Hantman. As Mr. Hixon indicated before, the changes 
that resulted from the CON OP plan in May of this year really 
threw a big loop in everything that had been planned prior to 
May of this year. The incorporation of all of these changes, 
the security issues laid on top of the fire and life safety 
issues, those necessitated the total redesign of the riser 
diagram. In fact, there are more central controllers. There are 
six controllers now, as opposed to two or three as we 
originally had because of the changes and the integration of 
security in it. That was the major stumbling block that has 
caused this project to slip in this last year.
    With that now resolved, the fire alarm riser diagram has 
basically been approved--there still needs to be a couple of 
fine tweakings made on that. That allows the contractor to go 
ahead and start installing his thousands of items and devices 
in the ceilings, the walls, and the doors.
    With that under our belts, the matrix, which indicates what 
happens if this alarm goes off or that door closes and what 
happens at each--in terms of reaction from a fire perspective, 
from a safety perspective. That's the next thing that's under 
review right now. In fact, there was a meeting on that this 
morning. A lot of progress was made and we're expecting that to 
move ahead, which will allow the fire controls person to do the 
programming for all these thousands of devices.
    So a lot of progress has been made. Those were the two 
major issues. Bob, any more thoughts?
    Mr. Hixon. No, I think that summarizes it.

                             COST ESTIMATE

    Senator Allard. On the additional costs, 2 months ago, the 
minimum estimate was $584 million. Now we're up to a minimum of 
$592 million and most likely over $600 million. How could the 
cost grow so much in just 2 months?
    Mr. Ungar. Do you want me to?
    Senator Allard. Yes, why don't you, Mr. Ungar. Or Mr. 
Hixon.
    Mr. Ungar. It is somewhat unbelievable, Mr. Chairman. What 
drives this are really two things. One is, the 6-week delay due 
to the fire alarm system and that is an AOC estimate. Now that 
makes the assumption that the Government is responsible for 
that entire amount but for a budgetary purpose, that's the 
assumption that's been made.
    So when you have a 6-week delay of the project at a very 
high cost per day, given the number of people who are working, 
that's a lot of money.
    Senator Allard. How does the Government get blamed for that 
delay? Was there a committee that had oversight that wouldn't 
make a decision? Or was there a Government employee that didn't 
move when they should? Do you want to explain that?
    Mr. Ungar. I'll try. We're not saying the Government is 
definitely responsible. That's the assumption we're making for 
budgetary purposes. That determination has to be made down the 
road but when you have this kind of a delay and you're trying 
to figure out how much money we are going to need, for this 
purpose, we're assuming that the Government would be the 
responsible party.
    Now, one thing that could happen here is that there could 
be concurrent delays during this period, which would mean that 
maybe the Government wouldn't be responsible for the whole 
amount and that has to be sorted out. That's what Bob Hixon was 
referring to, about working with the contractor to align these 
things and that's what Mr. James has been saying almost since 
the day he came here. It's very important for AOC and the 
construction management contractor to have good information on 
the delays and their causes. That has to be determined. But 
that's the major reason for part of the increase.
    The second part has to do with changes and there have been 
some significant changes that were identified during this 
period and one of them alone that I mentioned was estimated 
into the hundreds of thousands. So when you put them all 
together, it adds up. But it's very expensive for the number of 
cases, to do some of this work.
    So when you put all those things together, it would be 
changes since the last hearing and these additional delays. 
It's very costly, potentially.
    Senator Allard. Could you summarize the reasons for the 
recent delays?
    Mr. Ungar. It took longer to get the fire alarm design 
approved than was initially anticipated. It was initially 
anticipated that it would be approved earlier and it just took 
longer than was expected. There were a number of reasons for 
that. The subcontractor dealing with that did make a 
submission. It was found not to be, in the view of the fire 
marshal, consistent with code. Then they had a little bit of a 
problem, apparently a miscommunication that took place. That 
consumed some time. So by the time all this was done, you lost 
6 weeks and we are where we are.

                           PEER REVIEW PANEL

    Senator Allard. Mr. Hantman, you're suggesting, if I 
understand it, a peer review panel assess the plans for testing 
the fire and life safety and air-conditioning and heating 
units. I understand that GAO has some concerns about it. Mr. 
Hantman, can you explain why you believe establishing such a 
panel might be helpful and then Bernie, maybe you could explain 
your concerns.
    Mr. Hantman. In discussing this with GAO, the concept is 
going to the main industry source that has control over fire 
codes, which is the NFPA, and asking them a series of questions 
that relates to code interpretation.
    One of the issues here, as I indicated in my statement, Mr. 
Chairman, is that there is no clear code that really addresses 
the issue of security, integrated with the fire and life safety 
issues here. We are kind of blazing new ground. So there are a 
variety of interpretations of what needs to be done and what 
the code requires from the fire marshal, from the electrical 
contractor, the controls contractor and other folks.
    So this series of questions, that we are preparing to send 
to the staff of the NFPA Committee, that is responsible for the 
fire code, hopefully will give us a sense of what they think is 
an interpretation of the code. This would give us further 
information to at least understand what we are owed, 
essentially, by the contract because it is a code-related 
situation. If there are differences of opinion with the 
contractors in terms of what is an extra or what is required to 
be redone as opposed to what they owe us according to code, 
this would help us refine that and better understand that.
    The issue of going to a peer review panel will be decided 
once we get the answers to these questions back and we see what 
the answers are basically telling us and what might need 
further refinement.
    Senator Allard. Mr. Ungar.
    Mr. Ungar. Yes, Mr. Chairman. We have two concerns about 
this that we have discussed with Mr. Hantman. In fact, he--I 
think in consideration of our concerns, I think he did agree to 
go to the association first. But the first one is, we are 
concerned about the necessity, if there is such a panel, to 
make sure that the individuals are very highly qualified and 
knowledgeable and experienced about this situation here that 
we're dealing with people at least as qualified as the current 
fire marshal.
    That's very important as well as that they are going to be 
objective. If they are all fire marshals, that's one thing. If 
they are consultants, that's another. Do they have any 
thoughts, perhaps, of working for AOC or have they worked for 
AOC in the past? So we're concerned about the qualifications 
and the objectivity of these folks.
    But second, the other issue is what happens if there is a 
disagreement between this panel and the fire marshal? It puts 
AOC and the Congress and our review in a very difficult 
situation down the road, in terms of the issuance of a 
certificate of occupancy and other issues that might come up. 
So while a panel may be an appropriate measure, conceptually, 
it probably would have been much better a year or two ago than 
now.
    Then also, another consideration is to work with the fire 
marshal and this has already started, to see what can be done 
to facilitate getting the testing done quicker. I know he is 
very careful and he is very concerned about making sure it's 
done right because of the complexities of the system and the 
nature of this facility and so forth, but he has agreed to have 
his team and his contract help work more than the typical 8-
hour day, 5 day a week workday. So there may be some 
opportunities to expedite the testing. I know he wants to be 
very thorough but that might be a safer course of action than 
trying to set up a controversy between parties.
    Senator Allard. Thank you for your response. Mr. James, 
this is your first testimony before this subcommittee but 
you've been involved in the oversight of the project for some 
time, I understand.
    Mr. James. Yes sir, about 3 years.
    Senator Allard. You've had a pretty long career in managing 
large construction projects. What do you see as the major 
causes of the ongoing construction delay and if you were in 
charge, what would you do first to get us back on track and to 
assure completion on schedule?
    Mr. James. Yes, sir. I believe we probably already 
addressed some of the issues but as far as delays, for recent 
delays, I believe there are three primary ones and that would 
be slippage in the fire alarm submittal activities, such as the 
riser diagram and the CON OP matrix. Activities are slipping 
because the CVC team is unable to resolve the problems quickly, 
as we have talked about. And as Bob talked about, the continued 
issuance of changes to the contract.
    As far as steps to curtail that, I believe that you would 
have to, again, create a sense of urgency and I personally 
believe they need to establish some sort of firm and realistic 
contract completion date and work that process out.
    Second, they need to focus on the critical activities, such 
as fire alarm, the HVAC system, and also the east front. All 
three of those are very critical.
    Then the third step is to just really pursue resolving the 
issues quickly and they really need to concentrate on that.

                         LESSONS LEARNED REPORT

    Senator Allard. Thank you. Mr. Hantman, several months 
back, we discussed a lessons learned report and I'm hoping that 
you can get that to us before your retirement. What has gone 
well as far as the project is concerned, what have been 
problems, because you're the one that has had overall 
responsibility for this?
    I hope you have time between now and your scheduled 
retirement date to get some kind of report to us. I'd like to 
have it available so that if we deal with future construction 
projects of a large magnitude like this, that these lessons 
don't get lost. Perhaps we could learn something from what 
we've experienced here. Do you think you can have that ready 
for us?
    Mr. Hantman. We're beginning to work on that. There was a 
meeting with GAO, trying to look at the table of contents, and 
the issues to be discussed. I think there is agreement that 
there will be a joint interview of people on the project so 
that GAO and the AOC can hear what their opinions are, what the 
issues are, much as you just asked for Mr. James his opinion. I 
think we'll look forward to doing that jointly and then we'll 
see whether or not we come up with matching opinions in some 
instances, and perhaps some supporting opinions and divergences 
as well.
    Senator Allard. That would be helpful if you could do that.
    Mr. Hantman. Yes, sir.

                         CONCLUSION OF HEARINGS

    Senator Allard. Thank you. This concludes today's hearing. 
The subcommittee stands in recess subject to the call of the 
Chair.
    [Whereupon, at 3:38 p.m., Wednesday, November 15, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]























       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Adams, Sue, Director of Safety, Fire, and Environmental Programs, 
  Architect of the Capitol.......................................    88
Allard, Senator Wayne, U.S. Senator From Colorado, Opening 
  Statements of.......................1, 31, 49, 87, 127, 169, 205, 245
Ayers, Stephen, Chief Operating Officer, Architect of the Ca50, 88, 128

Dorn, Terrell, Assistant Director, Physical Infrastructure, 
  Government Accountability Office.........8, 36, 57, 96, 134, 177, 212
    Prepared Statements of........................37, 97, 136, 179, 214
Durbin, Senator Richard J., U.S. Senator From Illinois, 
  Statements of..................................................22, 69

Eisold, Dr. John, Attending Physician, U.S. Senate...............   164
Eveleth, Peter, General Council, Office of Compliance..........111, 157

Hantman, Alan M., FAIA, Architect of the Capitol.................     2
                                         31, 50, 88, 128, 169, 206, 246
    Prepared Statements of............6, 34, 55, 93, 132, 174, 210, 251
Hixon, Bob, Project Director, Capitol Visitor Center, Architect 
  of the Capitol...........................2, 31, 50, 88, 128, 206, 246

Jacobs, Doug, Project Architect, Capitol Visitor Center, 
  Architect of the Capitol.......................................   169
James, Bradley, Assistant Director, Physical Infrastructure, 
  Government Accountability Office...............................   253

Lauziere, Kenneth, Chief Fire Marshal, Architect of the Capitol..   169
Lee, Gary, Project Administrator, Capitol Visitor Center, 
  Architect of the Capitol.......................................   169

Terra, Captain Joseph A., Senior Program Manager, Federal 
  Occupational Health, Public Health Service, Department of 
  Health and Human Serv- 
  ices...........................................................   128

Ungar, Bernard L., Director, Physical Infrastructure, Government 
  Accountability Office...............8, 36, 57, 96, 134, 177, 212, 253
    Prepared Statements of..................................10, 59, 257

Weiss, Mark, Director, Capitol Power Plant, Architect of the 
  Capitol........................................................50, 88






















                             SUBJECT INDEX

                              ----------                              
                                                                   Page

Action Plan......................................................   277
Architect of the Capitol-Wide Utility Tunnels...................91, 130
    Milestones...................................................   159
Asbestos Abatement...............................................   119
Award Fees.......................................................   238
Capitol Visitor Center:
    Air Handling Units...........................................   200
    Completion Date..............................................    44
    Construction Schedule........................................    45
    Design Changes...............................................    45
    Milestones..................................................43, 150
    Project:
        Safety Record............................................    91
        Status...................................................    31
    Schedule Reassessment........................................   157
    Tunnel:
        Egress...................................................   110
        Leak.....................................................    46
    Utility Tunnel...........................51, 89, 130, 155, 156, 200
Ceiling Work.....................................................   172
Change Orders....................................................    19
Changes to Project Execution.....................................   229
Completion Date...........................................232, 271, 276
Construction Highlights.....................................32, 89, 130
Contract Completion Date.........................................   272
Contractor Accountability........................................   237
Cost:
    Estimate.....................................................   279
    To Complete.................................4, 7, 17, 193, 233, 242
Decontamination Procedures.....................................120, 162
Documenting Reasons for Delays...................................   194
Employee:
    Relations....................................................   123
    Review of April 10 Report....................................   124
Exhibit Gallery..................................................   202
Exhibits.........................................................   242
    And Operations.............................................5, 8, 53
Fire Alarm System.........................................112, 239, 278
    Acceptance Testing.........................................128, 196
    Programming..................................................   150
Fire and Life Safety:
    Acceptance Testing.....................................3, 6, 51, 89
    Systems....................................................170, 207
Fire System Testing..............................................    20
Floor Stone:
    Installation.................................................   171
    Plan.........................................................    27
Funding Requirements.............................................   208
Government Accountability Office:
    Review.......................................................   124
    Schedule Reassessment........................................   114
Housekeeping.....................................................    26
HVAC System....................................................241, 272
Improving Project Management.....................................   233
Incentive-Driven Contracts.......................................   236
Installation of Exterior Elements................................   172
Integration of Construction and Operations Schedules.............    28
Lessons Learned Report.....................................17, 232, 281
Liquidated Damages...............................................   238
Management Controls..............................................   207
Managing Trade Stacking..........................................    44
Medical Surveillance Program.....................................   164
Meeting Capitol Visitor Center Milestones........................    36
Milestones.......................................................   113
Millwork Installation............................................   172
Office of Compliance.............................................   167
    Inspection...................................................    28
    Views on Utility Tunnels.....................................   117
Opening of Expansion Space.......................................    26
Overall Project:
    Schedule.....................................................   171
    Update.......................................................   208
Peer Review Panel................................................   280
Potential Impact of Continuing Resolution........................   193
Project Milestones.............................................173, 195
Project Progress and Highlights................................4, 7, 53
Schedule for Pretesting..........................................   232
Spending Plan....................................................   160
Stone:
    Deliveries and Installation..................................  2, 6
    Delivery.....................................................    28
    Installation............................................50, 88, 129
Succession Planning..............................................   230
Supervisory Team.................................................   275
Trade Stacking...................................................    27
Transfer of Medical Records......................................   165
Tunnel Condition Assessments.....................................   159
Unanticipated Problems...........................................   238
Utility Tunnels................................................114, 173
    Air Sampling................................................91, 161
    Project Milestones...........................................   131
    Safety Issues................................................    53
    Work.........................................................   109
Worker Safety....................................................    25

                                   - 

</pre></body></html>
